<html>
<title> - OPEN SPACE AND ENVIRONMENTAL QUALITY</title>
<body><pre>[Senate Hearing 106-148]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-148


 
                  OPEN SPACE AND ENVIRONMENTAL QUALITY

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                         MARCH 17 AND 18, 1999

                    JULY 7, 1999--LAS VEGAS, NEVADA

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-380cc                     WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 17, 1999
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     2
Graham, Hon. Bob, U.S. Senator from the State of Florida.........19, 37
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    36
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     4

                               WITNESSES

Garczynski, Gary, Vice President and Treasurer, National 
  Association of Homebuilders....................................    29
    Prepared statement...........................................    55
    Press release, National Association of Home Builders.........    58
Helmke, Hon. Paul, Mayor, Fort Wayne, IN, and past President, 
  U.S. Conference of Mayors......................................     5
    Prepared statement...........................................    37
Hohmann, Kathryn, Director, Environmental Quality Program, Sierra 
  Club...........................................................    25
    Prepared statement...........................................    49
Hayward, Steve, Senior Fellow, Pacific Research Institute........    27
    Prepared statement...........................................    53
Kaufmann, Hon. Terry, Chairman, Board of Commissioners, Lancaster 
  County, Pennsylvania...........................................     7
    Prepared statement...........................................    42
Moe, Richard, President, National Trust for Historic Preservation    23
    Prepared statement...........................................    45
    Responses to additional questions from Senator Lautenberg....    49
Rising, Nelson, Chairman, Environmental Policy Advisory 
  Committee, National Realty Committee...........................    31
    Prepared statement...........................................    60

                          ADDITIONAL MATERIAL

Press release, National Realty Committee.........................    59
Statement, Scenic America, Meg Maguire...........................    62
                                 ------                                

                             MARCH 18, 1999
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    73
Boxer, Hon. Barbara, U.S. Senator from the State of California...    69
    Statement from Assistant Administrator J. Charles Fox, 
      Environmental Protection Agency............................    72
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    65
Lieberman, Hon. Harry, U.S. Senator from the State of Connecticut    66
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    75

                               WITNESSES

Falender, Andrew, Executive President, The Appalachian Mountain 
  Club...........................................................   102
    Prepared statement...........................................   137
    Responses to additional questions from Senator Boxer.........   142
Feinstein, Hon. Dianne, U.S. Senator from the State of California    82
    Prepared statement...........................................   121
Glendening, Hon. Parris N., Governor, State of Maryland..........    90
    Brochure, Smart Growth and Neighborhood Conservation.........   125
    Prepared statement...........................................   122
Grossi, Ralph, President, American Farmland Trust................   112
    Prepared statement...........................................   154
    Responses to additional questions from:
        Senator Boxer............................................   157
        Senator Lautenberg.......................................   157
Hayes, David, Counselor to the Secretary, Department of the 
  Interior.......................................................    98
    Paper, President Clinton's Lands' Legacy Initiative..........   133
    Prepared statement...........................................   130
    Responses to additional questions from Senator Crapo.........   136
Kienitz, Roy, Executive Director, Surface Transportation Policy 
  Project........................................................   110
    Article, Washington Post.....................................   154
    Prepared statement...........................................   152
Landrieu, Hon. Mary, U.S. Senator from the State of Louisiana....    78
    Article, New York Times......................................   119
    Prepared statement...........................................   118
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...    80
    Prepared statement...........................................   120
Montague, Chris, Eastern Manager, Montana Land Reliance..........   105
    Prepared statement...........................................   143
Peterson, Max, Executive Vice President, International 
  Association of Fish and Wildlife Agencies......................   108
    Prepared statement...........................................   145
    Responses to additional questions from Senator Boxer.........   151

                          ADDITIONAL MATERIAL

Articles:
    Cox, Wendell, for the Heritage Foundation....................   179
    Myers, Phyllis, for the Brookings Institution................   161
    New York Times...............................................   118
    Washington Post..............................................   153
Brochure, Smart Growth and Neighborhood Conservation.............   123
Letter, Thomas B. Stoel, Jr......................................   173
Statements:
    Conti, Eugene, Department of Transportation..................   158
    Draper, Eric, National Audubon Society.......................   177
    Fox, J. Charles, Assistant Administrator for Water, 
      Environmental Protection Agency............................    72
    Griffiths, John, Metro Parks and Greenspaces Advisory 
      Committee..................................................   176
    Piacentini, Mary Anne, Katy Prairie Conservancy..............   175
    Stoel, Thomas B., Jr.........................................   173
                                 ------                                

                    JULY 7, 1999--LAS VEGAS, NEVADA
             GROWTH AND LIVABILITY IN THE LAS VEGAS VALLEY
                           OPENING STATEMENT

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........   185

                               WITNESSES

Bartos, Jay, President, Friends of Red Rock Canyon...............   225
    Prepared statement...........................................   251
Berkley, Hon. Shelley, U.S. Representative from the State of 
  Nevada.........................................................   189
    Prepared statement...........................................   233
Biaggi, Allen, Administrator, Nevada Division of Environmental 
  Protection.....................................................   221
    Prepared statement...........................................   248
Bryan, Hon. Richard H., U.S. Senator from the State of Nevada....   188
    Prepared statement...........................................   232
Bunker, Richard, President, Nevada Resort Association............   199
    Prepared statement...........................................   241
Fernandez, Nuria I., Deputy Administrator, Federal Transit 
  Administration, Department of Transportation...................   192
    Prepared statement...........................................   234
Gibson, Hon. Jim, Mayor, City of Henderson, NV, and Chairman, 
  Southern Nevada Strategic Planning Authority...................   223
    Prepared statement...........................................   250
Goodman, Hon. Oscar, Mayor, City of Las Vegas, NV................   194
    Prepared statement...........................................   238
Kincaid, Mary, Chairman, Southern Nevada Water Authority.........   208
    Prepared statement...........................................   242
Lewis, Robert E., President, Nevada Region, Kaufman and Broad 
  Home Corporation...............................................   212
    Prepared statement...........................................   244
Mulroy, Patricia, General Manager, Southern Nevada Water 
  Authority......................................................   210
    Prepared statement...........................................   243
Snow, Jacob, Executive Director, Clark County Regional 
  Transportation Commission......................................   214
Stephens, Tom, Director, Nevada Department of Transportation.....   219
    Prepared statement...........................................   246
Woodbury, Bruce, Chairman, Southern Nevada Planning Coalition....   197
    Prepared statement...........................................   239

                          ADDITIONAL MATERIAL

Letter, Nevada State Senator Dina Titus..........................   253
Statement, Sierra Club...........................................   253



                  OPEN SPACE AND ENVIRONMENTAL QUALITY

                              ----------                              


                       WEDNESDAY, MARCH 17, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:30 
a.m. in room 406, Dirksen Senate Office Building, Hon. John H. 
Chafee (chairman of the committee) presiding.
    Present: Senators Chafee, Crapo, Reid, Baucus, and Graham.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I want the welcome everyone here this 
morning.
    I'm excited about the hearings today and tomorrow on open 
space and environmental quality. These hearings mark the 
beginning of a close, extended look by this committee on the 
issues of open space, sprawl, and their relation to 
environmental quality.
    The opening round of hearings has two purposes: first, to 
provide an introduction to the issues and the vigorous debates 
surrounding them; second, to provide an opportunity to explore 
specific Federal proposals that are likely to be raised during 
the consideration of the budget resolution, which will come up 
on the floor of the Senate very soon.
    Much attention has been given to the subject of open space 
and development in recent months as a result of the resounding 
success of State and local ballot initiatives across the 
country and numerous Federal proposals following on the heels 
of these initiatives.
    I might say, in my State, it doesn't make any difference 
whether it's the State or the local community putting a bond 
issue for open space on the ballot, they receive tremendous 
support--as high as 60 percent or 70 percent of the voters.
    The ballot initiatives presume that there is a problem to 
solve, and the Federal proposals presume there is a role for 
the Federal Government. Before making these presumptions, we 
must first look at the nature, extent, and consequences of land 
development, particularly so-called ``sprawl.''
    Land development has been described as a three-legged stool 
composed of the community, the economy, and the environment. 
With respect to the last leg, environment, sprawl can have a 
profound effect on environmental quality, including water 
quality, air quality, traffic congestion, wildlife and natural 
habitat, and waste disposal.
    When one dissects the issue of sprawl and its individual 
components, one is looking at a panoply of environmental 
subjects under the jurisdiction of this committee.
    The conservation of opening space has been one of the most 
important priorities for me throughout my career. When I was 
Governor of our State in the 1960's, I started a green acres 
program, in which the State government would provide matching 
funds--and, indeed, at that time we could get some Federal 
funds, likewise--to help the local communities preserve open 
space, and then, of course, we preserved open space on the 
State level.
    When I think of where I will spend my time when I leave the 
Senate, it is not going to be in the shopping malls. It is 
going to be in the wildlife refuges that we are blessed with in 
our State.
    I believe that the loss of open space occurring in parts of 
the Nation is a real problem. I believe the Federal Government 
does have a role in it.
    States like mine--and I'm sure the State of Idaho, 
likewise--can benefit greatly in their endeavors from Federal 
assistance. The most significant project is the Land and Water 
Conservation Fund. Last week I drafted a letter to the Budget 
Committee requesting full funding for this fund, the Land and 
Water Conservation Fund. The letter was cosigned by 35 
colleagues in the Senate.
    Smaller Federal programs also exist, and both Senators and 
the President believe there is an opportunity for a greater 
Federal role.
    It seems to me we should have a better sense of the nature 
and consequences of sprawl and the efforts by local and State 
and private organizations to address it. The hearings over the 
next 2 days will explore these issues.
    We've got a splendid group of witnesses, and I'm eager to 
hear their testimony.
    Senator Crapo, we welcome you here. If you've got a few 
comments, now is a good time.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Mr. Chairman. I'll be very brief.
    I appreciate the attention you are giving to this issue. 
You are correct that there is a lot of potential for good to be 
done through these types of initiatives.
    Obviously, one of the concerns that we all have is to make 
sure that the Federal Government doesn't impose too much on 
State and local decisionmaking in those types of matters, but 
the assistance that can be provided is often invaluable.
    We have been able to use the Land and Water Conservation 
Fund very effectively in Idaho in some cases, and I think that 
looking at how to best utilize those funds in a way that does 
not increase Federal Government holdings of property to the 
reduction of private property holdings, but instead in a way 
which preserves and strengthens our open spaces and the 
tremendous environmental heritage we have in this country is 
the approach we ought to be taking, and I commend you for your 
efforts.
    [The prepared statement of Senator Crapo follows:]
  STatement of Hon. Michael D. Crapo, U.S. Senator from the State of 
                                 Idaho
    Mr. Chairman, I appreciate the opportunity to discuss the issues of 
open space, land use planning, and environmental quality and thank you 
for providing this forum. There are currently a number of proposals 
before the Senate that would take major steps, commit a significant 
amount of new funding, and, in some cases, create new Federal programs 
to address these issues. Most of these proposals would create a 
permanent funding stream through the Land and Water Conservation Fund 
(LWCF).
    I agree with the proponents of these bills that we have a 
responsibility to ourselves and future generations to preserve, 
protect, and enhance our natural environment and am pleased that these 
issues are being given the attention that they deserve. As we move 
forward in consideration of these measures, it is, however, important 
that we be mindful of all of the potential impacts that the proposed 
increase in funding and programs will have, especially on the autonomy 
of State and local governments. We must ensure that Federal assistance 
through such legislation is structured so as to complement and support, 
but not direct or inhibit, local decisions and priorities. We must 
further emphasize that, while the Federal Government has a proper role 
in LWCF-assisted projects that are used to provide incentives, such as 
scenic or conservation easements, for private property owners to 
achieve recreation or environmental goals on their own land that 
benefit the public, increased Federal land ownership and increased 
Federal involvement in local planning decisions is not necessary to 
achieve recreation and conservation goals. As the debate continues as 
to how best to manage the LWCF, I will work for proposals that meet 
recreation and conservation goals by involving State and local 
governments and private landowners without unnecessarily increasing 
Federal land holdings.
    Most importantly, however, as we consider new projects and funding 
under the auspices of the LWCF, we must first honor existing 
commitments made by the United States for the funding of conservation 
and scenic easements. In Public Law 92-4000, for example, Congress 
established the Sawtooth National Recreation Area ``to assure the 
preservation and protection of the natural, scenic, historic, pastoral, 
and fish and wildlife values and to provide for the enhancement of the 
recreational values associated herewith,'' and authorized the purchase 
of scenic easements to achieve these goals. Unfortunately, for numerous 
years, willing sellers and landowners interested in signing easement 
agreements were stalled by lack of funding. I have fought in recent 
years for this funding to become available and have made some progress. 
I have also, however, discovered that land has since changed hands, or 
landowners have become tired of waiting, and the land is therefore no 
longer available. This situation is lamentable and I would hope that as 
we move forward in considering legislation to increase funding for the 
LWCF, we include recognition of existing outstanding commitments that 
should be honored before new projects are sought out.
    Senator Chafee. Well, thank you. It is interesting, because 
you and I have discussed this and I know you are concerned 
about what is happening in your major city. You and I have 
discussed that. And frequently the view is that, ``Oh, the 
westerners don't want the government in this at all,'' but you 
indicated that the Federal Government could be of a help to you 
in solving the problem that you are facing, particularly in 
Boise.
    Senator Crapo. That's right, Mr. Chairman. And I think the 
key word there is ``help.'' The concern that we all have in the 
west is that we don't need to have overly burdensome Federal 
rules and regulations that tell us all how we should govern 
ourselves, but the assistance that can be provided in the right 
way through these resources can be very helpful. And that's the 
kind of legislation I think we need to work toward.
    Senator Chafee. Thank you.
    Our first panel consists of: The Honorable Paul Helmke, 
mayor of Fort Wayne, Indiana, past president of the U.S. 
Conference of Mayors; and The Honorable Terry Kauffman, 
chairman, Board of Commissioners, Lancaster County, 
Pennsylvania.
    If you gentlemen would please come to the table--and, 
Senator Reid, I don't know whether you had a comment at this 
time, but if you had anything you want to say----

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. Mr. Chairman, I have a statement I'd like to 
make part of the record, and I also--later today there is going 
to be some information that I'm tremendously interested in, and 
the question is I have another hearing, so I'm going to have to 
come and go. I'm very appreciative of your scheduling this. I 
can't think of anything that is more important that we could do 
than work on this urban sprawl, and Las Vegas is the picture 
child for urban sprawl. We have so much growth there that we 
need all the help we can get.
    Senator Chafee. Thank you.
    [The prepared statement of Senator Reid follows:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Thank you, Mr. Chairman.
    I was sorry to hear earlier this week that this committee and the 
U.S. Senate will be losing one of its finest members and greatest 
leaders at the end of next year.
    During the years that you have been chairman, the environment has 
known no better friend in Congress than you, Senator Chafee. Your 
leadership will be sorely missed.
    This committee has long had the reputation for being the most 
nonpartisan on Capital Hill, a tradition you have upheld with great 
honor, Mr. Chairman. I can only hope that the next chairman of this 
committee will be able to live up to the standard you have set.
    However, there is still much work to be done and I am glad that you 
have chosen to turn to this fascinating and important subject for 
today's hearing.
    In this committee we work on some of the most complex, scientific, 
technical, and, at times, obscure material imaginable. However, today 
we are going to begin a dialog on something pretty straightforward: 
Quality of Life.
    We are going to call it a lot of different things: The Livability 
Agenda, Open Space Protection, sprawl, smart growth, and Lands Legacy. 
But they all describing the quality of life issues that face so many of 
us today, particularly those of us who live in urban or suburban areas.
    Our challenge is to find the tools and resources that our 
communities need to ensure that our cities and towns can grow and 
develop in the ways that its residents want.
    These challenges are incredible and interrelated. Problems of 
congestion, poor air and water quality, issues of water quantity, waste 
disposal, and sewage treatment are all problems of modern life that 
communities struggle with.
    Nevada as a State is one of the fastest growing in the country. Las 
Vegas is one of the nation's fastest growing cities. 5000--7000 new 
people call Nevada home each month, many of them settling into the Las 
Vegas Valley.
    With this growth, which has been wonderful for Nevada, has come 
many of the problems that we have begun to associate with 
``livability'' issues. People move to Nevada and to Las Vegas for the 
wonderful quality of life, so it is incumbent upon Nevadans to make 
sure that standard of living is maintained.
    During her recent campaign for Governor, Las Vegas Mayor Jan Jones 
made livability issues and urban sprawl a centerpiece of her campaign.
    Like so many other areas nationwide, the communities of the Las 
Vegas Valley have begun to work together on regional solutions to many 
of these tricky problems.
    Just last month, the Southern Nevada Strategic Planning Authority 
released its plan for responsible growth in the Valley. This is a 
several hundred page document dedicated to responsibly and creatively 
answering the question: ``What will Southern Nevada look like 20 years 
from now?''
    Mr. Chairman, I am looking forward to our field hearing on this 
subject in Las Vegas later this Spring. We are going to pack the 
hearing room with citizens and local officials, all of whom are eager 
to share with you the many unique and innovative things local people 
are doing in Southern Nevada to make it a wonderful place to call home 
now and for many years to come.
    One thing I am sure they will tell us: If the Federal Government 
has good ideas or resources to devote to these livability issues, then 
they want our help. Otherwise, they just want us to get out of the way.
    Let me be clear about one important thing: I am not sitting here 
today as an advocate of some system of Federal zoning or any other such 
nonsense. I don't think that any of my colleagues are, either.
    I am saying, however, that the Federal Government has a role to 
play, particularly with so much development currently taking place in 
coastal areas, flood plains, or, in the case of Nevada, on land that 
borders on Federal property (and probably used to be Federal property)
    In many parts of the West, the Federal Government has been a not-
so-great absentee landlord. Communities have developed as much 
according to Federal land use policy as they have according to local 
land use policy. It has not always been a great way to go.
    Before concluding, I am delighted to see such great attention being 
focused upon the various proposals to boost the Land and Water 
Conservation Fund and other land management funds. We cannot continue 
to ignore the impacts of development on sensitive areas.
    The LWCF has been critical to the efforts of the California and 
Nevada congressional delegations to protect and preserve Lake Tahoe. 
These funds have been used in dozens of other States for similar 
conservation purposes. LWCF is a tremendously worthwhile program.
    One area that has not been addressed in any great detail in any of 
the LWCF proposals I have seen thus far is our National Parks. We are 
literally loving our National Parks to death and Senator Graham and I 
hope to be able to work with all of you that have drafted LWCF 
proposals to see about doing something more than we are doing to 
protect sensitive and important areas within the Park System.
    Thank you for your indulgence, Mr. Chairman. As you can see, it is 
possible to cover a lot of ground on this topic. Thank you, again for 
holding this important hearing.
    Senator Chafee. Mayor, we welcome you here. You go to it.

STATEMENT OF HON. PAUL HELMKE, MAYOR, FORT WAYNE, INDIANA, PAST 
              PRESIDENT, U.S. CONFERENCE OF MAYORS

    Mayor Helmke. Thank you, Mr. Chairman.
    My name is Paul Helmke. I'm the mayor of Fort Wayne, 
Indiana. That's the second-largest city in the State of 
Indiana. I'm the immediate past president of the U.S. 
Conference of Mayors.
    The whole issue of livability, of sprawl, of really what's 
going on in our communities today--smart growth, or whatever 
the catch words are--is a very important one to all of us.
    I might say, Mr. Chairman, too, that I was a candidate for 
U.S. Senate last year and had hoped to be sitting on the other 
side of the aisle here, but being mayor is a great job and 
Mayor Coles, I know, from Boise reflects that and the mayors in 
Rhode Island that I know well and Mayor Jones in Las Vegas are 
all very concerned about all these issues, and I'm happy to be 
here on behalf of the U.S. Conference of Mayors talking about 
these issues.
    I submitted a statement, and I don't want to read that 
statement, but I do want to touch on a few of the high points.
    First of all, when I talk to people in my community, when I 
talk to other mayors----
    Senator Chafee. What's the population of Fort Wayne?
    Mayor Helmke. About 200,000.
    When I talk to people in my community, they are concerned 
about what I call ``front-door issues.'' They're concerned 
about what they see when they open their front door. Are the 
schools good? Is the traffic situation OK? Are the streets 
safe? Are their jobs secure? They're concerned about quality of 
life.
    Although I know what we do at all levels, what you do at 
this level is very important in terms of front-page issues, I 
think those front-door issues are just as important in terms of 
what Federal policies do to impinge on what my folks and what 
the folks in your cities see out their front door.
    It is my sense that, in the past, oftentimes we've had 
policies at the Federal level that end up having an anti-urban 
bias, that end up causing problems for people out their front 
doors, and that's why I think it is important to have this 
discussion about livability, about environment, about open 
space.
    I think there are a few things that really show this pretty 
clearly. One is the whole issue of brownfields. Brownfields are 
the abandoned industrial sites that are in every city and town 
in America. It can be the abandoned gas station. It can be the 
old factory. And these are sites that really, I think, reflect 
a lot of this discussion.
    I think one of the best things we can do to preserve open 
space is to find a way to help redevelop the brownfield sites. 
And a lot of that deals with the legislation that has been 
talked about, that has been proposed by you, Mr. Chairman, and 
proposed by Congressman Boehlert on the House side, that deals 
with changing the liability rules so that we don't just worry 
about who we are going to be suing, but we worry about how we 
are affecting our neighborhoods, how we make it easier for 
developers and investors and private sector, public sector, 
not-for-profit sector to come in and redevelop these brownfield 
sites.
    I think, as a country, we've learned that it is important 
to recycle glass and aluminum and paper. We need to recycle our 
land, and there are Federal policies that have made it 
difficult to do this, so I think the whole issue of brownfields 
is an important one.
    One of the statistics that I mention in my text is taken 
from the American farmland trust. This was part of a report 
that the U.S. Conference of Mayors issued a year ago. During 
the 10-year period from 1982 to 1992, the United States 
converted more than four million acres of prime farmland to 
urban land. This is the prime farmland, the good soybean 
fields, corn fields that we've got in Indiana. That's an area 
that's larger in size than the entire greater Chicago 
metropolitan area, which runs from southern Wisconsin into 
Indiana. It's an area equal in size to the States of 
Connecticut and Rhode Island combined.
    Mayor Daley, a former head of our organization, uses the 
quote a lot that the U.S. destroys more farmland each year than 
any nation on earth.
    In that same 10-year period, 1982 to 1992, all of the land 
developed, not just the prime farmland, was equal in size to 
the States of Connecticut, Rhode Island, New Jersey, Delaware, 
and one-quarter of Maryland.
    I think, when you look at those sorts of statistics, even 
though there is a lot of open space, particularly in the west, 
we still need to be careful about what we're doing with our 
land. I think the brownfields issue is one that needs to be 
talked about as a way to preserve open space, to make sure that 
people are staying close to where they want to work, that we're 
not contributing to sprawl, that we're not contributing to 
pollution.
    I think transportation issues are also crucial. What we've 
done oftentimes is contribute to the problem of sprawl with the 
way that we've spent the transportation dollars. From the U.S. 
Conference of Mayors' perspective, if we could give more 
flexibility to local communities on how they are going to spend 
it, get the money directly to local communities so we don't 
have to fight with the Governors and the legislatures to make 
sure that we're doing the things that we think at the local 
level are best able to help it.
    A recent survey by one of the groups that is concerned 
about reinvesting in America found that most people are more 
concerned with putting more money into fixing the streets and 
the roads they already have than building new streets and 
roads. People are concerned about public transit and how we get 
to work from where folks live, so that's a crucial issue.
    The parks issue that you mentioned, Senator, is a crucial 
one to us, too. Oftentimes, we love our national parks, but the 
crucial park for most of my citizens isn't the national park, 
it's the park across the street, the park down the block. We 
need to put some of that money into our local parks, too.
    So I salute you for addressing these issues. This is 
something where I think it is appropriate to take a Federal 
role, to look for a Federal partnership. The Federal role in 
the past has caused some problems, and I think we can correct 
that we a good open discussion and find out what we can do with 
brownfields, transportation, environmental programs, so we 
really do address those front-door issues.
    Thank you for the opportunity to be here today.
    Senator Chafee. Well, thank you very much, Mayor. We'll all 
have some questions for you when we finish up.
    Now we're going to hear from Mr. Terry Kauffman, who is 
chairman of the Board of Commissioners, Lancaster County, PA, 
which I suspect is an area of considerable growth.

   STATEMENT OF THE HON. TERRY KAUFFMAN, CHAIRMAN, BOARD OF 
         COMMISSIONERS, LANCASTER COUNTY, PENNSYLVANIA

    Mr. Kauffman. It is. Thank you, Mr. Chairman.
    I actually today represent the National Association of 
Counties. Obviously, as the mayor would have said, our first 
priority is our home, however, and remember that.
    I first want to also echo our support of what the mayor has 
said, and the efforts between the National Association of 
Counties and the Conference of Mayors to try to address these 
issues.
    Quality of life concerns, as the mayor said, the high cost 
of providing those services and infrastructure--and in our case 
in Lancaster County, many other areas have loss of farmland, 
and our environmental resources are topping the list of many of 
my colleagues throughout the country.
    And increasingly, whether we want to or not--and some of us 
probably want to more than others--we are being called upon to 
make the difficult decisions in this arena. Our local citizens 
come first to the local elected officials to say, ``This is a 
quality of life. We're losing farmland. We don't have parks. We 
don't have traffic.'' We have been asked to take a lead role in 
that, and we are looking for partnerships to develop new 
approaches to better direct the way we grow.
    The country, in general, also, I think, has highlighted and 
expanded its understanding, and, if not its understanding, it's 
awareness as citizens are concerned about what we call 
``suburban sprawl.'' That could be described as an explosion of 
concern over our current use or growth patterns.
    What I really think it is, they're worried about change and 
how it affects the quality of life issues. Again, I applaud 
this committee for looking at those.
    In my county, suburban sprawl over the last three decades 
has depleted our farmland and natural resource base and 
threatened the lifestyle of our Amish and Mennonite 
communities, the things that we believe are the most unique and 
appealing for citizens to live there.
    Important on our list of growth-related problems is 
financial burden that residential sprawl is placing on county 
government, just as it is in our cities and our towns. Those 
are the areas which supply services and infrastructure to new 
housing, often without a corresponding tax base.
    We are aware that some are encouraging the Federal 
Government and State legislatures to take the decisions about 
land use out of the hands of local elected officials and place 
them in the hands of appointed regional bodies or State 
entities who would establish growth or planning policies 
applicable to our governments.
    State mandates and preemption are something that are 
scarce, but they are coming. For example, in Tennessee, 
counties and cities have been mandated to adopt State-designed 
growth plans by July of 2001. In Florida, State-appointed 
regional water districts have a great deal of authority to 
approve or deny certain land uses. In the opposite end of the 
spectrum, States like Virginia make it very difficult for 
counties to manage growth, requiring, for example, specific 
authorization from the legislature before a county is allowed 
to impose impact fees.
    The approach of the National Association of Counties, on 
whose behalf I am speaking today, is to better equip our 
counties and elected officials to make decisions about smart 
growth alternatives for themselves.
    What do we mean by ``smart growth''? NACO believes that 
includes efforts that accommodate growth in a way that 
integrates economic prosperity and environmental quality and 
affords to enhance the unique attributes of counties that are 
valued by the community.
    In particular, NACO supports comprehensive local land use 
planning as a mechanism for achieving smart growth. Because we 
believe that how we use our land directly affects our ability 
to maintain a high quality of life for existing and future 
residents, our board of directors recently listed smart growth 
as a priority issue for the next 3 years.
    We have been holding extraordinarily popular workshops 
within our NACO conferences and developing working team 
sessions, and we hear over and over and over again this is one 
of the primary concerns and issues facing county governments.
    At the same time, we look forward to partnerships with 
agencies and governments such as yourselves to help us guide 
our activities.
    At the same time, we recognize we derive our legal 
authority primarily from our State governments, and, without 
the necessary ability to control those land uses, we will 
remain limited in our ability to implement our comprehensive 
plans and smart growth initiatives.
    Every State has its own distinct land use structures. Some 
States simply fail to respect local autonomy and authority.
    On the Federal level, we see other policies that indirectly 
limit local land use decisionmaking. For example, in some 
areas, Federal facilities are placed without any correspondent 
view on how they affect local land use planning.
    There are a lot of models out there. In my county, we lack 
the authority of zoning, but, through intermunicipal 
agreements, we've developed a voluntary approach with our 
boroughs and towns and townships, through sheer persuasion and 
dollars, and convinced them to look at a unique planned effort 
by Lancaster County.
    There are other models as we go forward, other techniques, 
critical areas.
    Another growth management technique is the use of impact or 
development fees. I will say to you that that's controversial, 
but we have about 22 States which allow it, and it provides a 
timing issue. In other words, we don't have housing, we don't 
have hype, we don't have any growth until we have the 
infrastructure to support it.
    On the Federal level, we are hearing about some new, 
interesting proposals for additional funding and assistance. We 
look with favor on programs that assist us with acquiring land 
and purchasing rights, and we look forward, again, to a 
continuing expanded role.
    We would only caution, on behalf of NACO and counties, that 
Federal funding should be careful to respect local land use and 
decisionmaking.
    As we view these progress, will Federal growth management 
goals conflict with the goals we have established within our 
communities? We fully expect those answers will be 
complimentary and will not supersede.
    In conclusion, there are a wide variety of tools, both 
already available and in the proposed stage, that hold a 
promise for better management of our land resources and better 
control over growth.
    We have to be careful, however, in this effort that local 
governments decisionmaking need not be pushed aside, and that 
our authority to determine what our community looks like isn't 
relegated to merely advisory status.
    We look forward to working with this committee, the Federal 
Government, our State legislators, our city and town partners 
to achieve what we believe our citizens want--smart growth for 
the community.
    Senator Chafee. Well, thank you very much, Mr. Kauffman.
    Senator Baucus, do you have a statement or anything you'd 
like at this time?
    Senator Baucus. I do, Mr. Chairman. And first I thank you 
for holding this hearing. It is a new, developing area which 
I'm glad that you are paying very close attention to, and I 
thank our witnesses for taking the time and effort to come 
here.
    I can speak with some personal experience to the problems 
that you're facing, Mr. Kauffman. I have relative in your 
county who I go visit, and I've seen how much Lancaster County 
is changing, and I appreciate the problems that you have.
    I'd also like to say that--and somewhat similar to the 
problems facing Lancaster County--that this is not just a big-
city issue. We're not talking just about urban sprawl. I'm sure 
that's a lot of the problem that you're facing, Mayor, but it 
is not just urban sprawl. It's not just a big-city issue or an 
East Coast issue or a California issue; it is an American 
issue.
    I might say that in some part I say that because the State 
I represent, Montana, has the motto of, ``The Big Sky State.'' 
We pride ourselves in our open space. We're the least 
metropolitan State, with only three cities, I might say, Mr. 
Chairman, that have a population of 50,000 people or more. We 
just don't have a lot of people.
    Open space is a very big issue in the rural west for two 
reasons. First of all, open space defines us. It is why we call 
our State, ``The Last Best Place,'' the State of Montana. And 
you'll be interested in this, Mr. Chairman. We, I think, are 
the last State to successfully write a constitution. I think it 
was 20 years ago. And let me just read you part of the 
preamble. It begins by first thanking God for the quiet beauty 
of our State, the grandeur of our mountains, and the vastness 
of our rolling plains, thanking God for the quiet beauty of our 
State, the grandeur of our mountains, and the vastness of our 
rolling plains. Unfortunately, though, our State is changing. 
It is growing. It has been discovered. Montana was discovered 
about 10 years ago, people moving in to Montana to escape--to 
escape what they regard as congestion or poverty or long 
commutes or crime, to a much better quality of life.
    As a consequence, we're growing very quickly. Our 
population has grown by more than 10 percent, and in Flathead 
County, which is in the northwestern part of the State, and in 
Gallatin County, which is the southwestern part of the State, 
our population in the last decade has grown 20 percent because 
of people moving into the State.
    This has its benefits, this growth, but it also has its 
costs. We now face some forms of sprawl, and we have 
congestion, pollution, increased demand for services.
    Let me read you an editorial by the Billings ``Gazette'' 
just last Sunday. ``Something must be done, or in time we will 
not have to lock the gates because the best parts of Montana 
will be ruined, and then no one will want to come here, let 
alone live here.''
    That said, preserving open space raises very difficult 
issues. For one thing, we in the west love, as much as 
anything, and including open space, our independence. We don't 
like to be told what to do. And we don't trust big government. 
It runs in conflict with attempts to resolve the issues that 
we're facing here.
    We want to try to find a balance in Montana. We want to 
preserve open space, but we also want to preserve environmental 
quality, but we want to avoid red tape. This requires a lot of 
creativity.
    For example, the Montana Land Reliance has been a real 
leader in using conservation easements to preserve farmland. In 
the past 20 years, Montanans have required conservation 
easements of over 500,000 acres.
    Boseman and Gallatin County are trying their own different 
approaches, and the State is also doing a very good job in 
bringing leaders together Statewide. That helps all this.
    So I hope, Mr. Chairman, these hearings--and I know they 
will--will help us find that right balance.
    Two approaches I think are particularly constructive. First 
is, ``Let's make the Federal Government a better neighbor.'' 
Right now, many agencies often work against the interests of 
local communities. For instance, they often abandon downtown 
areas that the community is trying to redevelop. I've seen this 
in many communities in my State. And we should reexamine 
Federal policies that contribute to sprawl. We've made some 
progress. For example, as you well know, Mr. Chairman, we tied 
highway construction more closely to environmental protection.
    In addition, I've joined in asking the GAO to look at the 
effects of other Federal programs on sprawl, a report which 
should be done by mid-April, and that should help us even 
further.
    Second, let's help local communities get more control over 
their own destinies. For example, the Administration has 
proposed Better America Bonds and land's legacy initiative. 
Senator Lautenberg on this committee has proposed legislation 
to help redevelop brownfields in inner city areas. And Senator 
Boxer and others have introduced bills to conserve opening 
statement and habitat and protect farmland. These are 
reasonable ideas and deserve careful consideration.
    As I told EPA Administrator Browner a few weeks ago, I am 
particularly interested in the Administration's bond proposal. 
It would provide financial incentives for communities to 
preserve open space, reduce water pollution, and protect the 
environment in the ways that make most sense locally. But I 
also have questions. I want to make sure that the proposal is 
workable. I want to make sure that it supplements local control 
rather than displacing it. And I want to make sure that the 
initiatives are suited to the needs of various problems in 
various parts of the country, not just urban, not just eastern 
and western, and not just rural, but so it is tailored to suit 
specific local needs in specific parts of our country.
    I look forward, Mr. Chairman, to exploring these issues and 
others and hearing from our witnesses. And I apologize for 
taking the time here to----
    Senator Chafee. No, that's very interesting, Senator. Thank 
you for your remarks.
    Senator Baucus. Thank you.
    Senator Chafee. This is a very difficult field. For 
example, I think it was--was it you, Mr. Kauffman, that 
mentioned about Virginia, which, as I understand it, if a local 
community in Virginia--let's take McLean--wishes to impose a 
transfer tax of, let's say, 2 percent on real estate transfers 
to go into a fund for open space purchases, that's prohibited. 
You have to get the permission of the State of Virginia. And, 
you know, that's a Virginia problem. I presume that--and the 
arguments always are, ``This is elitist. You're going to keep 
out--you're forcing up the cost of real estate.''
    In our State we've tried several different--trying to do 
this on the city level I think is difficult because I don't 
think you have much open space left except for your 
brownfields, probably. In our State, we're doing it on a State 
basis in our State, and, for instance, one of the things that 
has proven quite popular as far as the purchase of farmland is 
not to buy the farmland but to buy what we call the 
``development rights,'' not an easement. It's similar to an 
easement, to a degree, but let's say the land is worth $10,000 
an acre as development and $2,000 an acre as farmland, we would 
say to the owner of the land, ``We'll pay you $8,000 an acre. 
You will continue to own your farm and you will receive this 
$8,000 an acre, but it ever hereafter can only be used as 
farmland. You lose the development rights.'' That is expensive, 
but it keeps what few dairy farms we have going, and it is a 
good program.
    Mayor, what I'd like to ask you is what would you do if you 
got--you know, there are a whole variety of bills that Senator 
Baucus mentioned, and others, but primarily it is the Land and 
Water Conservation Fund that people are looking to. Suppose you 
got some money with no strings attached but you've got to use 
it for the general theme we're on here, you can't use it to 
help your schools. What would you do with it?
    Mayor Helmke. In the city of Fort Wayne we'd probably use 
it first for brownfields redevelopment. We've identified a 
number of sites. They are in areas that are close to where 
people live, close to where some schools are, but they have, in 
effect, become dead zones. And we have already put together 
some coalitions with bankers, with not-for-profits, with 
developers to do something with these sites and try to get the 
assessments and make sure that the pollution is taken care of, 
but to start building housing on these sites and then do these 
things.
    So if we got flexible funds, I think we'd use them first to 
acquire this land, make sure that the land is properly assessed 
and cleaned up, and then start getting some productive uses out 
of it.
    What we have found in our city and in cities around the 
country is that there are so many tax dollars lost, so many 
jobs lost by the fact that we can't redevelop these brownfield 
sites.
    What I think is exciting about the bond program that was 
discussed is that, as I understand at least the initial drafts 
of this program is that it does give communities a lot of 
flexibility, which is the important thing. What's going to work 
in Fort Wayne might be different than what's needed in 
Providence, what's needed in other communities. And giving 
local communities the flexibility to design the program to 
their existing needs I think is the crucial one.
    But if we can take care of brownfields, we can get more 
investment, we can get more jobs, we can get more tax revenue, 
and, most important, we can have stronger neighborhoods and 
that's going to make a stronger city.
    Senator Chafee. But why would what you've described in any 
way fit under the rubric of preventing urban sprawl or 
preserving open spaces? Is your theory that if something went 
there it wouldn't go out in some lovely cornfield outside of--
--
    Mayor Helmke. My theory is that if we find ways to help 
encourage investment in our cities, then they are less likely 
to automatically run to the cornfield or the soybean field.
    What happens in my community--and we've got rich farmland 
around us--is that it is just cheaper and easier and quicker to 
buy that cornfield, buy that soybean field, and put the new 
development, whether it's commercial, industrial, or 
residential, in the cornfield. And we----
    Senator Chafee. Then you've got all the expenses of the 
infrastructure, the sewers, the----
    Mayor Helmke. Right. And what ends up happening is that 
eventually someone has to extend the roads, someone has to 
extend the water, someone has to extend the sewer, and then 
someone has to figure out how to get the workers who don't live 
there to those jobs.
    That's why, if we can take away some of the barriers that 
are already there with the brownfield sites, we have the 
existing infrastructure. Water and sewer are there, roads are 
there. We've got other challenges--crime and perceptions of 
crime, racism in some areas. But if we can take away some of 
the barriers that, in effect, have been created by some Federal 
policies in the past, I think we can get the investment back in 
the city. That will help preserve the open spaces that are so 
important to all of us.
    Senator Chafee. Mr. Kauffman, what would you do if you got 
some money? You are a county official, right?
    Mr. Kauffman. We get blamed for that, Sir.
    I think we would take----
    Senator Chafee. By the way, what does the county do? What 
is your jurisdiction? Do you run the schools?
    Mr. Kauffman. No. We do not have schools and we do not have 
law enforcement. Actually, our county is made up of 60 
municipalities, one city of approximately 55,000. We have 16 
boroughs, and the remaining are incorporated townships. Again, 
everyone has their own local zoning opportunities. We have 
comprehensive planning.
    But to the question, I think we would really use two 
processes. First of all, I support the investment in our urban 
center, because, just for the reasons the mayor has said, if we 
keep our urban centers healthy, then we will keep the pressure 
off sprawl or utilizing cornfields and agriculture.
    Senator Chafee. So that would mean what? Keep them healthy? 
How can you do it?
    Mr. Kauffman. We would to brownfields. I think, also, 
reinvesting in some efforts to reestablish businesses, to 
rehabilitate buildings, to do any of those things--parks in 
neighborhoods, quality of life issues. By the same token, we 
would also use dollars, I think, for the transfer development 
rights, as you outlined that your State is using.
    What we'd do with those moneys then would be to take those 
transfer of development rights or property rights, if you will, 
and transfer them from a rural township to a suburban township, 
where there is sewer and water and infrastructure, and then 
encourage higher densities in those areas where the 
infrastructure is. So the purchase of those development rights 
are then sold to a developer who then reuses those to get 
higher density.
    So ours would do, too. And our community is a bit different 
than some of my other colleagues in that we have a pretty 
large--we're kind of rural suburban. We have a population 
approaching half a million. But we also probably have the No. 1 
agricultural non-aerated land. We currently, in our county, 
have over 30,000 permanently preserved agricultural lands.
    So we not only, I think, would attack what I perceive the 
issue that is there today that is the root, but also try to 
attack it from the other end, which is prevention.
    Mayor Helmke. I'd like to mention, Senator, if I might, one 
of the things I had mentioned in my text. We're getting ready 
to release a second survey from mayors across the country on 
brownfields. One of the things we found preliminarily is that 
110 cities that responded estimate that they could absorb more 
than 3.5 million new residents into their cities if we could do 
something about redeveloping brownfield sites, taking down some 
of those other anti-urban barriers. That's equivalent to 1 
year's growth in the Nation's population.
    Again, there are other barriers than just brownfields, but 
if we can find ways to use our existing city resources, our 
existing urban resources, to make that land attractive, those 
neighborhoods attractive, it can do a major thing in terms of 
preserving the open space that, again, our farm community and 
all of us want to see preserved.
    Mr. Kauffman. If I may also follow on, our city, which is 
about 50,000 people, is about----
    Senator Chafee. Is that Lancaster?
    Mr. Kauffman. Lancaster. It is about 50,000 people. That's 
about the growth that we've had in our county in the 1990's. 
But that new 50,000 has taken 40 square miles rather than the 
seven square miles. So it's the way we've grown, the sprawl. 
And there's a clear, classic example of what sprawl has done. 
We've utilized six times the land than we would have in 
traditional patterns.
    Senator Chafee. I know your county a little bit. I'm an 
ancient buggy aficionado, so I come up to the Martin auctions, 
which I believe are in Intercourse, Pennsylvania.
    Mr. Kauffman. That's correct.
    Senator Chafee. And so I like your community very much.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    I'd like your reaction, both of you, to the Better America 
Bonds proposal. Do you think that's a good idea? Or how might 
you tailor it or change it and so forth?
    As you know, the Administration is suggesting allocating--
basically it's an allocation. It would be an EPA allocation of 
tax credits, I guess, in the amount of the interest, and the 
credit would go to the purchaser of the bond, with the purpose 
of the bond I guess in various categories. Open space would be 
one. I've forgotten the others.
    As you know, this is different from, say, industrial 
development bonds, which, under current law, there's an 
allocation according to a State's population, and I guess the 
States, themselves, decide which projects make sense within the 
State.
    Your general thoughts on how Better America Bonds would 
help, the degree to which it would help address some of the 
problems that we're addressing here today?
    Mayor Helmke. We've talked about this at the U.S. 
Conference of Mayors, had a number of our mayors, both 
Republican and Democrat, look at the idea, and we seem to like 
the idea. It is something--again, we're still waiting for more 
details, but, in effect, we're getting a loan, that we're 
paying back in 15 years with no interest. The fact that it is 
tax credits means that it is less of a burden on the Federal 
Treasury. And these seem to be available for projects that will 
make a difference.
    I've talked to Carol Browner about the concept, and the 
thing that I find most exciting is that it preserves local 
flexibility. It doesn't tell us, ``Clean up this site,'' or, 
``Use it for this specific purpose.'' It gives you the general 
rubric of what you need to deal with and then allows the local 
community to tailor those bonds to that community.
    That's what we need more of. I see it as sort of the 
equivalent of community development block grant dollars, where 
general purposes are outlined. It is made available directly to 
the local community, and the local community decides how best 
to use that to help the local community. Here we are paying 
them back, so it is different from CDBG, but it is something 
that I think could make a major difference in our community, 
and at this stage we support it, I support it.
    Senator Baucus. So you don't mind having EPA make the 
decision?
    Mayor Helmke. As long as it is a general rubric and it 
allows us to make the decision on how we are going to implement 
it. As I understand it from my conversations with Administrator 
Browner, they wouldn't be saying, ``Do this site. Don't do that 
site.'' They would say it's available for brownfields, they 
would say it's available for some urban park programs, they 
would say it is available for some open space type things.
    Those sort of criteria I think are important.
    As I understand it, we would be applying for these bonds 
and saying, ``Here's what we want to use it for,'' and they'd 
be either granting it or not granting it. But we'd be the one 
who is defining what we want to use it for. And if that part is 
not in there, then we are not as supportive, obviously.
    Senator Baucus. Commissioner?
    Mr. Kauffman. Well, Administrator Browner has also, as 
recently as a couple of weeks ago, addressed the National 
Association of Counties, and I would say there's certainly a 
fair amount of intrigue and interest in the program.
    I think our concerns are simply along what the mayor has 
said, as we believe it has to be workable with local 
governments and what our plans are. It has to supplement what 
we do. And it has to be suited to areas. It has to have 
flexibility to allow each community--just as you heard with us 
this morning, there is just a difference of opinion.
    The other thing I'd have to say is there is some fear. 
We're in part of a changing paradigm. We're talking about this 
partnership, and I think we really believe that, but, from 
local government's perspective, we're concerned when either the 
State or the Federal Government comes to us and says, ``Trust 
us, we're going to help you.'' And I would wager to guess our 
citizens probably say, as we as commissioners or mayors go to a 
citizens, ``Trust us,'' they have the same skepticism.
    However, we believe it is worth looking at. We think 
there's certainly merit to it, provided it supplements what is 
happening in local government and it really is a choice of 
local government to decide how to use it.
    What we've heard so far I think fits in the program of what 
the counties would look at. Again, flexibility and cooperation 
and complementing what we do are keys.
    Senator Baucus. I appreciate that.
    Mayor, would you support legislation removing State 
liability for perspective purchasers of contaminated brownfield 
sites?
    Mayor Helmke. Quite definitely. When I was president of the 
U.S. Conference of Mayors, I made that my top priority item for 
the U.S. Conference of Mayors. That follows the tradition we've 
had with the Conference. Mayor Daley made it an issue. But it 
is one that I'm excited with the possibility that something is 
going to happen this session.
    We did quite a bit of work on the House side last year with 
Congressman Boehlert's bill that would have removed liability 
for prospective third party innocent purchasers. That, to me, 
is the crucial thing to change how brownfields are treated.
    Right now, it is almost impossible for us to get someone in 
there because of the fear factor. There might not even be any 
pollution on the site, but, just because they don't know, they 
don't want to touch it. And if we had that, I think we could do 
a lot.
    And I think it is exciting that, you know, it has been tied 
up with Superfund, I know, and that's an important issue, too, 
but if we can move the--if we can't get it all, let's move the 
brownfields reform through. I think that would make a big 
difference in Montana, it would make a big difference in Rhode 
Island, it would make a big difference in Indiana. Every 
community has these brownfield sites and needs some help.
    Senator Baucus. So that's one way we can help you----
    Mayor Helmke. Definitely.
    Senator Baucus.--plan in your local areas?
    Mayor Helmke. Right.
    Senator Baucus. And I don't know what we're going to do in 
Superfund. You're right that it is a little problematic. But if 
we can't get it passed, I certainly hope that we can get 
something passed, and this would helpful.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Chafee. Senator Crapo?
    Senator Crapo. Thank you, Mr. Chairman.
    This question is for both gentlemen. I'm following up on 
the question asked by Senator Baucus with regard to local 
control and whether there is concern over having the EPA or any 
other Federal agency in effect determine how the funding can be 
used. And I appreciated your answers to Senator Baucus 
question. He echoed the very same introductory comments I did 
about how we in the west have concern about being told what to 
do and how to do it.
    The question I have is, I just want to get a little further 
into the issue of how such a bond proposal could be 
administered, because, even though there may not be a 
requirement that, say, the EPA in this case, tell exactly how 
the funding can be used, if the city or the county or the State 
or whatever government entity was requesting the bond or the 
grant knew that they would not be given the grant or receive 
the funding if they didn't fill in the boxes the right way and 
propose that they were going to use the funding the right way, 
don't you think that there still could be a very high risk 
that, just through the control of the purse strings, if the 
control was not very broadly used, that essentially we could 
get into a situation where the dollars were being designated by 
a Federal agency for the achievement of Federal purposes and 
that cities and counties were basically having to comply or not 
participate?
    Mayor Helmke. You make a very good point, Senator. This 
needs to be a true partnership, and Federal purposes, as long 
as they're general enough, I think can work within the local 
communities deciding how to implement those purposes. And this 
is where the devil is in the details.
    If there are so many strings on it, folks aren't going to 
apply for it because we're not going to want to jump through 
those hoops. We don't want to have to spend a lot of additional 
staff time filling out forms, filing out reports, meeting all 
those criteria, getting so many approvals that it doesn't make 
sense.
    The concept is a good one. How it works is going to be the 
crucial thing for us. And the major things would allow as much 
local flexibility as possible, make the application, approval, 
reporting process as simple as possible, and make sure that it 
doesn't really cause more problems than it attempts to solve 
when you set it up, or we won't take advantage of it.
    Senator Crapo. Mr. Kauffman?
    Mr. Kauffman. I would echo that. I think the concern we 
have is a partnership. And, again, this is sort of a new thing 
we're talking about that we trust each other.
    In our county, where we adopted urban growth boundaries 
without any implementing legislation, we basically sat down and 
discussed with each of our municipalities 23 boundaries and 
said, ``How is it? What is it?'' And I would tell you, each one 
of the 23 boundaries look a little different, financial 
resources look a little different. For some there were highway 
issues, for some there were park issues. And if that 
flexibility is not in this proposed bond program, I would see 
many county governments walking away from it, because there has 
to be that ultimate flexibility as long as we have as wide 
array as local government mixtures or there's just no value.
    Having a Federal program that tells us how to do that, that 
really doesn't get us where we need to go.
    Senator Crapo. Do both of you really think the cities or 
the counties would walk away from those dollars----
    Mayor Helmke. Yes.
    Senator Crapo.[continuing] If they didn't have the ability 
to exactly determine how they are going to be used?
    Mayor Helmke. It depends how many strings are there. Again, 
general purposes, we can handle that. But being told how to do 
it--and, again, when I talked to Administrator Browner in 
January, she was saying part of this is to make it as flexible 
as possible for the cities or for local communities. Whether 
that's what ends up in the legislation, though, is the crucial 
thing.
    This gets back to my front door concept, you know. My 
citizens don't see differences between EPA, HUD, what this 
agency does. They see the overall picture, and we need to make 
sure it fits with that.
    Part of our concern is that we've had so many frustrations 
with EPA in the past. I raised the issue a few years ago. It's 
great to see EPA encouraging brownfields redevelopment, but I 
was concerned that if they made their clean air standards so 
stringent that I could never get anybody to go to the 
brownfields site, and all we were doing was encouraging 
somebody to go to Montana and take good, clean air away again, 
and we don't want that. I'm sure folks don't like to see that.
    Since then, we've been able to work with the EPA on some 
pilot programs where, in effect, credits are given if it is 
saving greenfield space by doing a brownfields redevelopment. I 
mean, there are ways to work it. But sometimes it's getting 
folks to realize that in the real world a lot of our citizens 
don't separate all these things into different jurisdictions, 
different agencies.
    Senator Crapo. I think it is very positive that we are all 
talking flexibility now, and what I wanted to do in these 
questions is flesh that out a little bit, because flexibility 
to one may not be flexibility to another.
    Could I get you both to agree or at least comment on 
whether you agree with the notion that really what we are 
talking about here is a revenue-sharing approach in which there 
doesn't need to be much directive, if any, from the Federal 
Government as to the specific use of the funds other than the 
categories of use that may be authorized, and that it should be 
a true block grant type approach, as much as is conceivably 
possible.
    Mayor Helmke. I think maybe it is a little closer to a 
community development block grant approach than the old 
revenue-sharing program, but, yes, outline a general purpose, 
and then allow the local community to find how best to reach 
that goal.
    Senator Crapo. Would you agree, Mr. Kauffman?
    Mr. Kauffman. I absolutely do. I want to reiterate I think 
most local governments would walk away if strings were 
attached, both some because they don't have the resources to 
comply initially to get the money, and second, the other side, 
those that have the resources are going to do it their way.
    So, again, I'd look at this as an incentive program that is 
being talked about of how we get everybody talking about the 
same issues. I think the block grant concept certainly has a 
lot more merit--again, though, I would say if the entitlement 
or block grant or what you have passes through to the local 
governments. The problem is, if we go through State 
legislatures, unless there is some guidance, it may not be 
directed to all communities with that flexibility.
    Mayor Helmke. Let me reiterate that. That's an important 
point, not only on this but on transportation funding and a lot 
of the other issues. We want the control to come back to the 
local level. That doesn't just mean the State House. We've got 
some great Governors. The former mayor of Boise is now there in 
Idaho, and Dirk Kempthorne does a great job. But it is--rather 
than having to lobby all of our Governors all the time, if 
we've got good intentions and good programs, let's get it back 
to the local level without creating another level of 
bureaucracy, oftentimes at the State House.
    Senator Crapo. Thank you.
    Senator Chafee. Senator Graham?
    Senator Graham. I hope it is not necessary for me to come 
to the defense of Governors.
    Mayor Helmke. No, it isn't.
    [Laughter.]

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. I feel there are a couple of 
characteristics that a proposal for Federal involvement in an 
area that previously has been a State and local responsibility 
that have to be articulated. One is: what is the rationale for 
the Federal role in this area? Two, is the Federal role going 
to be of a sufficient scale that it can have a meaningful and 
positive impact on that rationale?
    So let me ask a question. Why do you think the Federal 
Government should become involved in land acquisition programs 
for the purpose of constraining urban sprawl and creating more 
urban open space?
    Mayor Helmke. I think it is appropriate for the Federal 
Government to get involved in the issue of preserving open 
spaces and the issue of sprawl for two main reasons. But if you 
go too far into land control and zoning control, you're going 
too far. But, in terms of the general issue, I think it is 
appropriate for two reasons.
    One is that Federal policies in the past have contributed 
to an anti-urban bias and have helped create the problem, 
whether it's the Superfund legislation that scared people away 
from brownfield sites or the transportation legislation that 
helped move people into the Naples/Fort Meyers area and then 
make that community burgeon in an area where a family used to 
have property.
    Federal policies have contributed to this. EPA policies, 
wastewater policies, stormwater policies, stormwater 
regulations now basically encouraged folks to put their 
development outside my city limits because the stormwater 
regulations don't yet apply outside city limits.
    There have been a lot of Federal policies that have an 
anti-urban bias, so I think it is appropriate for the Federal 
Government to try to correct some of the unintended 
consequences of some of that legislation.
    Second, these are issues that cut across city, county, 
State boundary lines in many areas, and we need more of a 
regional approach oftentimes in helping to address those 
issues. But, again, the devil is in the details. I don't want 
local planning authority, local zoning authority taken away 
from my community, and I'm sure other mayors and county 
officials agree.
    But to have a Federal partnership role, partnership 
position in helping with these issues, that's the way to go.
    Senator Graham. And what about the issue of is the scale of 
the Federal program sufficient in order to have an impact. And 
your rationale, at least on point one, was largely an almost 
remediation. The Federal Government screwed things up through 
past decisions, and now needs to play a role in trying to put 
them back together. How large is that Federal role going to 
have to be in order to have an effective remediation impact?
    Mayor Helmke. I think, just starting to play a role--again, 
as long as it is a partner role, as long as it is a role that 
allows flexibility--that sends the message to local communities 
and to others that there is a partner that wants to do 
something here.
    The numbers we're talking about, whether it is in the bond 
program or in some of these other ``livability'' programs are 
fairly small dollars, but I think they send the message, as 
long as they don't attach too many strings, that the Federal 
Government wants to be a partner in dealing with these issues.
    That, at least at this stage, is enough of a signal to me. 
It's not something where it needs major Federal dollars 
involved, but it needs to be a positive Federal partnership 
role, and I think it can make a major difference.
    Mr. Kauffman. Senator, if I may, I would like to piggyback 
on the issue of investment. I think clearly the Federal 
Government today spends a tremendous amount of money on 
remediation, whether it be brownfields, whether it is water 
quality issues, air quality, or stormwater issues, and I think 
the investment, if we don't start dealing with the root cause 
over here, I think will just cause the Federal Government and 
other entities to spend many, many more dollars to deal with 
environmental concerns for our grandchildren and great-
grandchildren.
    So I think it is highly appropriate to invest today to deal 
with the problems, but also put a portion of the investment on 
the root cause so that it will be a window at the end of the 
day that we can see out of and we can see progress being made, 
and ultimately the investment of tax dollars, all of our tax 
dollars, gets reduced.
    Senator Graham. My concern with the numbers associated with 
the proposals that are before us, I have a tendency to apply a 
5 percent factor, because that happens to be the percentage 
that Florida is of the Nation's population, and I see a 
billion-dollar program, which would be $50 million in my State. 
Last year, our State probably spent $300 or $400 million of its 
own money on these open space programs. So with that scale it 
is hard to see that it is going to have the kind of impact 
against the problem that you described as the rationale.
    Mayor Helmke. I see it, though, as pilot programs, and it 
does help get the attention of mayors and local officials. A 
similar thing with the HUD budget last year, where for the 
first time I think they just had $50 million in terms of 
brownfields--first time it had shown up in the HUD budget. It 
had always just been in the EPA budget. That's hardly enough to 
clean up a decent-sized city of the brownfield sites in any of 
our cities around the country, but it started to say, ``This 
agency is going to play a partnership role, and hopefully get 
the attention in terms of changing regulations, bringing down 
barriers, working to do things.''
    I think there is importance and there's value in pilot 
programs that send that message. Oftentimes, that's what's 
needed to get State legislatures to move along, to get some of 
the local committees to realize, ``Look, we can do this. Maybe 
it's not going to solve everything, but we've got a start 
here.''
    Mr. Kauffman. Also, on that, we've done some programs 
within our county, both on open space preservation, farmland 
preservation, and transportation funds to local municipalities. 
I look at this as a leverage tool that the Federal Government 
uses to bring partners together.
    In our transportation grants, we generally leverage both 
public and private dollars on top of the county investment 
about 4.5 times the investment. I also look, generally, in 
public parks it is 2 to 1 leverage, that for every $1 we get $2 
back.
    So I see this as a wonderful tool, and I don't think we 
should look to the Federal Government only to do this. I see 
this as--and hearing Administrator Browning, it's one of the 
things that I think she would like to see as a leverage. This 
is how you would apply for grants. How much money you brought 
to the table would certainly, if you will, give you points in 
the application process. It makes us work harder. That's truly 
how partnerships are formed and truly how we invest all our 
taxpayers dollars most wisely.
    Mayor Helmke. We've had some brownfield grants--again, not 
very large dollars, but we've gotten the faith community 
involved, not-for-profit sector involved, private sector 
involved in helping to renew, rehabilitate some brownfield 
sites. Again, it is a small piece of the pie, but it encourages 
others to get involved with it.
    Senator Chafee. OK, gentlemen. Thank you both very much.
    Before you leave, just one quick question. Do you, in your 
city or in your county, now go out and buy open space? I 
suppose--my son is the mayor of a city of about 80,000, second-
largest city in our State. Oddly enough, we have some open 
spaces left there, obviously not in the hundreds of acres, but 
in the 60-acres or so, so he has put forth bond issues, which 
the people have approved, to go out and buy these places to 
preserve them for open space. Do you do similar things 
yourself?
    Mayor Helmke. We do two things. One is, inside the city 
we'll pick up some areas where it has been dilapidated housing, 
clear them, and create some open space inside the city in some 
situations, oftentimes in connection with trying to put a new 
project in there.
    With our parks program, we've acquired property outside the 
city limits for open space in areas where we see growth coming 
from the city, so we've put investment both in sort of 
residential lots that have deteriorated as well as open space 
outside.
    Mr. Kauffman. We do. We invest several million dollars a 
year for purchase of development rights or outright 
agricultural preservation easements on agricultural land. Then 
we invest slightly over a million dollars a year on park land 
acquisition.
    Senator Chafee. Boy, that's pretty good.
    Mr. Kauffman. Pretty much partnershipping with 
municipalities. Again, we have increased our agriculturally 
preserved land in the last 8 years from 10,000 acres to 30,000, 
our park land has increased from about 800 acres to slightly 
over 2,000 acres in the last 8 years. And every referenda 
question--and I think that's important--that has been in our 
community, which is perceived, I think, as being pretty 
conservative, has had 75 to 78 percent approval rating.
    Senator Chafee. Can't beat that.
    Mayor Helmke. I'd like to mention real quick----
    Senator Chafee. That's the kind of figures that Senator 
Graham gets when he's running for reelection.
    Mayor Helmke. One of the exciting things here on this issue 
is that cities and counties are working together on this issue. 
On a lot of issues in the past, we didn't talk together. We've 
worked together on the Joint Center for Sustainable Communities 
that was set up a few years ago, both National Association of 
Counties, U.S. Conference of Mayors. We realize this is an 
issue where we have to be working together, not at odds with 
each other.
    I think, with that sort of partnership at the local level 
and a partnership at the Federal level, we can make a real 
difference.
    Senator Chafee. I think the point you've made here, that 
there has to be an effort on your part, too, I think in any of 
these proposals we've got it's not just 100 percent funds 
coming in your direction. I think there has to be----
    Mayor Helmke. Definitely.
    Senator Chafee. [continuing] Some contribution; otherwise, 
it makes life too easy.
    Mayor Helmke. Generally, the larger share is really going 
to come at the local level, but I think a Federal role can help 
encourage a lot of that happening.
    Senator Chafee. OK. Thank you all.
    Senator Baucus. Mr. Chairman, I just want to say this last 
point about the leverage I think is a very good one. I don't 
think it is very well recognized, and I appreciate it.
    Mr. Chairman, I think it has been a great panel, very 
helpful. And I would like, Mr. Chairman, if they could both 
think about the Better America Bonds proposal and give us your 
thoughts as to what would help make it work and, along with 
that, some of the points that you think we should try to avoid 
with it, because we need your direct experience. I mean, you're 
there on the front lines. You know what works and doesn't work, 
so if you could tell us how you'd like to see it put together, 
what some of the packages, guidelines, and provisions would be, 
that would be very helpful.
    Mayor Helmke. We'd be happy to do that.
    Senator Baucus. Thank you, sir.
    Senator Chafee. Thank you very much.
    Mayor Helmke. I'd like to say, Senator Chafee, too, we just 
want to thank you for your service, and we're sorry to see you 
retire.
    Senator Chafee. Aren't you nice. Thank you very much. I 
appreciate it.
    Mr. Moe, president of National Trust for Historic 
Preservation; Kathryn Hohmann, director, Sierra Club; Mr. Steve 
Hayward, senior fellow, Pacific Research Institute; Mr. Gary 
Garczynski, National Association of Homebuilders; and Mr. 
Nelson Rising, National Realty Committee--if you each would 
take your seat, and each will have 5 minutes.
    Mr. Moe, why don't you go to it. We want to welcome you 
here.
    Senator Baucus. Mr. Chairman?
    Senator Chafee. Yes?
    Senator Baucus. If I might just say something about Mr. 
Moe, I've known Dick Moe for many years. He's a very close 
personal friend, totally dedicated to service. He's served the 
Senate, he's served the Administration. He's now president of 
the National Historic Trust. I might add he's an historian of 
note. He's written a couple of history books.
    I read your statement, Dick, and I was very much struck by 
your Churchill quote, but not surprised that you would come up 
with something like that.
    Anyway, Mr. Chairman, we're very honored and we're lucky to 
have someone of his stature.
    Senator Chafee. Well, I echo that, Senator Baucus. Mr. Moe 
has been a very active and efficient head of the National 
Trust. If you look at some of the--it is just a wonderful 
organization. I always think back that one of the great crimes 
of this century, I think, was maybe what stirred the formation 
of your organization, when Penn Station was torn down in New 
York City. As a child I can--well, not such a child. I 
believe----
    Senator Baucus. I remember Penn Station.
    Senator Chafee. [continuing] It was designed after the 
baths of Caracole, I believe, so they used to tell us. Is that 
true?
    Mr. Moe. I believe it was.
    Senator Chafee. And to have that torn down was one of the 
great architectural crimes of this century. Because of what 
Dick Moe is doing and his organization, hopefully things like 
that won't occur again.
    Go to it, Mr. Moe.

    STATEMENT OF RICHARD MOE, PRESIDENT, NATIONAL TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Moe. Thank you, Mr. Chairman, Senator Baucus, Senator 
Graham. I appreciate those kind remarks. I only regret that I 
now have to live up to them.
    I really appreciate your convening this hearing today, 
because this is an enormously important set of issues that you 
are addressing, and we really applaud your leadership in this 
area.
    Sprawl is a major concern for the National Trust because 
preservation these days is in the business of trying to save 
special places and the quality of life that they support, and 
sprawl destroys both.
    Sprawl really has become a very important preservation 
issue because it tends to suck the economic and social life out 
of existing communities where most of our historic resources 
exist.
    Now, there are, obviously, other factors--crime, bad 
schools, poor public services--that push people out of cities 
and contribute to sprawl, and those are the push factors. But 
sprawl, itself, becomes a pull factor, because once more and 
more economic activities leave the city, they pull even more 
behind them.
    Our goal is to revitalize existing communities to reduce 
the demand for sprawl.
    Sprawl is clearly a national problem and it needs a 
national debate, which you are helping to give it today, but 
the debate should not, in my judgment, focus on finding a 
national solution, because there isn't one. There are two 
essential elements in any effective program to combat sprawl: 
the sensible use of land and the revitalization of existing 
communities. These are issues traditionally and I think best 
handled at the State and local levels. In the end, that's where 
the fight against sprawl will be won or lost.
    But the Federal Government also has a very important role 
to play in the process, because the decline of our cities and 
the rampant development of our countryside have both been 
facilitated by Federal policies.
    Because the Federal Government has contributed so heavily 
to the problem, we believe it has the duty to help find 
solutions. Regrettably, there has been very little systematic 
review of how Federal policies have encouraged or perhaps even 
subsidized sprawl.
    Even though there is a GAO study expected, as Senator 
Baucus mentioned--and we have hopes for that--if it is not as 
comprehensive and as thorough as we hope it will be, I hope 
this committee will continue its efforts to try to really 
determine the effects of Federal policies on sprawl. I think it 
is the single most important thing that can be done.
    In summary--and I spell these out in greater detail in my 
submitted testimony--there are four ways that the Federal 
Government can help.
    First, it should correct Federal policies that encourage or 
reward sprawl. Tax and transportation policies have 
historically played the largest roles in this arena, but other 
policies, particularly the siting of Federal facilities and the 
availability of Federal funds for rehab versus new 
construction, are important; also, the ready availability of 
things such as water and sewer grants.
    Second, the Federal Government should reward States and 
communities that promote smart growth and help to revitalize 
existing communities, perhaps by designing a Federal smart 
growth score card that evaluates the effectiveness of States 
and communities in creating systems that favor sensible and 
sustainable growth and giving those entities an edge in the 
competition for Federal funds.
    Third, the Federal Government should promote regional 
cooperation as a key to effective control of sprawl. When it 
comes to sprawl, city limits and county lines are often 
meaningless marks on a map. Efforts to control sprawl in a 
limited area often just shift the problem from one community to 
another.
    Fourth, the Federal Government should provide incentives 
for reinvestment in existing communities and promote moderate- 
and middle-income home ownership in cities and older suburbs.
    We and a number of partners, some of whom you will hear 
from tomorrow, representing a range of interests, are now 
coming together to form a coalition that will advocate for 
Federal policies and promote smart growth. We've identified a 
few issues, and I would just like to summarize them briefly.
    First, the sound implementation of TEA-21 by the Federal 
and State departments of transportation, which, thanks to the 
leadership of you Senators and this committee, builds on the 
vision of ISTEA.
    The passage of the historic homeowner tax credit, which 
you, Mr. Chairman, and Senator Graham are championing here in 
the Senate, and which I believe can do more to revitalize 
cities such as Providence, Helena, Miami, and many others, than 
any other thing I can think of.
    The comprehensive implementation of the Presidential 
executive orders dealing with the citing of Federal facilities, 
which directs that Federal facilities should go into downtown 
areas, and, where possible, historic districts.
    Passage of the Post Office Community Partnership Act, which 
Senator Baucus and Senator Jeffords have led the way on here in 
the Senate--a very important piece.
    And several more, including the broadening and enactment of 
the Clinton Administration's proposed ``Livability agenda.'' 
Specifically, we would urge the Congress to expand the eligible 
activities for the proposed Better America Bonds to include 
infill development on brownfields and historic preservation.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Mr. Moe.
    Ms. Hohmann?

 STATEMENT OF KATHRYN HOHMANN, DIRECTOR, ENVIRONMENTAL QUALITY 
                      PROGRAM, SIERRA CLUB

    Ms. Hohmann. Thank you, Mr. Chairman and members of the 
committee. I'm proud to be here representing the Sierra Club. 
My name is Kathryn Hohmann, and I'm the director of the Sierra 
Club's environmental quality program.
    I'm gratified to be here, but disappointed to hear of your 
impending retirement. There is not an environmental statute out 
there that doesn't have your fingerprints on it. You've been an 
inspiration to us all.
    Senator Chafee. Thank you very much. That's generous of 
you.
    Ms. Hohmann. I would like to start by saying that our board 
of directors every 2 years goes through a process where we poll 
our grassroots activists to find out what is of concern to 
them. As we did this polling process from California to Rhode 
Island, from Washington to Florida, we found out that sprawl 
was there on all of their concern lists. Even though we went 
from community to community and found out that each place was 
unique, in each place sprawl was ubiquitous.
    So the Sierra Club has begun and we've kicked off a 
national top-level priority campaign that is called, 
``Challenge to Sprawl.'' I'd like to talk for a few moments 
about what that campaign is really going to consist of.
    This work is not new. Our activists have been fighting the 
effects of sprawl for many years. From Connecticut's trap rock 
ridges and California's San Mateo Creek to Rhode Island's 
Narragansett Bay, folks have been challenging sprawl.
    We are proud to say that we've had some real successes. For 
instance, in Utah our activists have been battling the Legacy 
Highway, a 1950's-style thoroughfare that would cut through the 
heart of the Great Salt Lake wetlands. We're happy to say that 
we've just had an interim success when the EPA came out in 
opposition to that highway, the Legacy Highway.
    But our efforts expand from there. In Georgia we are 
working for more transportation choices in a city where people 
put on the most vehicle miles and a city that has lost its 
Federal share for highway dollars because of its air pollution.
    Our efforts don't stop there. In our very own back yard 
here in the District of Columbia we have a program called, 
``Restore the Core,'' which hopes to funnel more resources into 
the urban areas so that we don't fuel sprawl. It's what Mr. Moe 
described as one of the pushes.
    If we don't bring infrastructure dollars to our city 
centers, we can expect more sprawl.
    Again, this program is nationwide. We have some efforts--
even though we are trying to focus on a local level, we have 
some efforts that are national. We put out a report called, 
``The Dark Side of the American Dream,'' which listed the top 
sprawl-threatened cities across America. That garnered lots of 
media attention because people care so much about this issue. 
They see it affects their very lifestyle. They see themselves 
caught in traffic.
    They know that, for example, in Washington, DC, the time 
commuters spend stuck in traffic climbed 69 percent between 
1982 and 1994. And you can bet they didn't make up for those 
hours by trimming back on their work days. No, they trimmed 
back on the amount of time they spent with their families.
    The effects of sprawl go beyond this, though. We're talking 
about air pollution and water pollution, city streets running 
off poisoned runoff into our water systems. Urban areas and our 
city centers are also threatened.
    But there is good news, as well. There is bipartisan 
support behind this issue. There is a mandate coming from the 
public to work on sprawl.
    From coast to coast in this last election there were 150 
ballot measures, as the chairman mentioned, about growth 
management, open space, and those sorts of measures.
    In New Jersey, voters, even in the State's famously tax-
averse republican counties, asked overwhelmingly to approve the 
use of $1 billion in tax revenue to conserve open space and 
farmland.
    How can we solve this problem? Will there be a Federal 
role?
    Well, the Sierra Club believes that there will be, but 
sometimes what is needed is not more government but more 
government leadership. Sometimes the Federal Government just 
needs to get out of the way or reform policies that create 
perverse incentives that fuel sprawl--policies like the ones 
that our colleagues mentioned about stormwater, which pushes--
again, one of the push factors--pushes development out of our 
city centers and creates more third-, fourth-, and fifth-ring 
suburbs.
    There are some positive things that the Federal Government 
can do, as well. The Sierra Club is especially inspired by the 
Better America Bonds program, the idea that is being floated by 
the White House. We think that this program will get us off the 
ground forging partnerships with communities. We ask why, in a 
country that has for many years used bonds to create roads and 
bridges, why we can't use bonds to create open spaces, 
greenways?
    We think that this program is a great first step. It will 
provide $700 million in new tax credits. But that money would 
really be bigger, would expand as we go. There's a magnifying 
force here that would, over 5 years, leverage nearly $10 
billion in bonding authority for communities to shape their 
futures in ways that are healthier, greener, more stable.
    We are looking forward to working with this committee as 
you grapple with this important issue of sprawl and thank you 
again for asking us to testify.
    Senator Chafee. Well, thank you very much, Ms. Hohmann.
    Mr. Hayward, Senior Fellow, Pacific Research Institute for 
Public Policy?

  STATEMENT OF STEVE HAYWARD, SENIOR FELLOW, PACIFIC RESEARCH 
                           INSTITUTE

    Mr. Hayward. Thank you, Mr. Chairman.
    I think maybe the best way to begin putting the current 
debate on sprawl into some context is to make recourse to that 
proverbial barometer of the American soul, the taxi driver. Not 
long ago I was in a taxi on my way from Lindbergh Field in St. 
Louis out to St. Charles County, which is where the growth is 
taking place in the St. Louis region. Trying to get some local 
insight, I asked him what he thought was going on, what he 
thought about what was going on. And he said, as so many people 
say, ``Man, they're building so fast out here that if they keep 
building like this there won't be any land left.''
    So I asked him where he lived, and he said, ``Well, I live 
down in the city of St. Louis,'' but he added, without any 
prompting from me, ``I'm going to move out here. The quality of 
life is so much better. You get so much more value for your 
housing dollar out here.'' And that, I suggest, is what social 
psychologists have longed called ``cognitive dissonance''--the 
ability to keep two contradictory ideas in your mind at the 
same time and be untroubled by it.
    Jim Johnson, who just retired as the chairman of Fannie Mae 
likes to say, more elegantly, I think, ``The American people 
are against two things. They're against sprawl, and they're 
against density.'' So now we go and try to sort that problem 
out.
    What I want to suggest is that there's a lot of cognitive 
dissonance at work on this issue, quite a bit of misperception, 
and a lack of proportion about our current discourse about 
this.
    I'd like to start this way, in what I'll describe in a 
minute as an irrelevant fashion, by making reference to 
aggregate land use statistics. We hear a lot about, you know, 
million acres here, 10 million acres here. The total amount of 
urbanized land in the continental U.S. is less than 5 percent 
of the total area. And, based on some figures that are now a 
little outdated--and we'll have some better ones in about 2 
months from the U.S. Geological Survey--we develop every year 
about .07 of 1 percent of the land area of the continental U.S.
    There's even some evidence that the rate of sprawl may be 
slightly lower than it was in the 1960's and 1970's. There is a 
sprawl index that is used a lot in these discussions that is 
sort of a rough comparison between rates of population growth 
and the rates of urbanization, and it is a fairly crude and not 
very good measure, in some ways, but the point is that that 
measure has been declining since 1980.
    One last fact. In 1969, there were about 2.6 acres of land 
specifically designated for parks and wildlife and wilderness 
conservation for every acre of urbanized land in the country. 
Today there's about four acres of land designated for parks, 
wilderness, and wildlife for every acre of urbanized land, and 
those figures don't include our national parks, by the way.
    Now, these are the kind of aggregate figures that I say are 
irrelevant to the politics of the issue, because the acres 
dwarf the human scale.
    I'm reminded of President Roosevelt's famous quip about 
critics of the long-run effects of the New Deal. He used to 
say, as you might remember, ``People don't eat in the long run, 
they eat every day.'' Similarly, every piece of open space that 
yields to the bulldozer in this country is in the line of site 
of a populated area where people live, and the change and 
disruption it brings trumps the fact that the land area may be 
statistically very small.
    I think it is the aversion to rapid change that's the 
dominant social fact behind the controversy over sprawl, and it 
is enhanced and magnified by a second social fact of modern 
life today, and that is that in all other areas of life we have 
increasing latitude for choice and control over our lives. 
Thirty years ago we didn't own our own phones. They were the 
property of the phone company. Today we choose our own long 
distance service. And next year we may choose our own electric 
power generator. Right?
    And so what we're seeing in city life, it seems to me, is 
that people feel that their range of choice and control is 
diminishing. Most acutely, we aren't able to choose where and 
when we are able to drive in the same way we used to because of 
traffic congestion. And people have a sense of what they can't 
control events, themselves, they wish someone else would do it, 
typically the government.
    Now, my opinion is that most of the ideas that make up the 
conventional wisdom at the moment, such as urban growth 
boundaries and, to a lesser extent, the bundled ideas that go 
forward under the banner of smart growth, are misguided because 
I think they misperceive a lot of what is going on, especially 
the major traffic congestion. But also I think as remedies they 
would not be that effective in solving the main problems 
associated with growth.
    Why this is so takes a long time to go through, so let me 
just mention what I think is the single most important reason 
for being cautious about embracing ambitious land use schemes 
or other measures that might distort our land market.
    It seems to me that a century of regulation has taught us 
that regulation typically favors the affluent and organized 
over the less-affluent and less-organized, and there are few 
groups less-organized and represented than the people who would 
benefit from new houses and new jobs.
    Now, most smart growth advocates will tell you that this is 
not a debate about growth, per se, but it is a debate about the 
form growth should take. And, while I take them at their word 
at this and believe they are quite sincere about it and right 
in many aspects of their critique, I think we are naive if we 
fail to recognize that growth management schemes often become 
the machinery of negation for existing residents.
    To pick a local example, the angry voters attending Fairfax 
County Commission hearings out in the suburbs here are not 
angry because of the form of development. What a lot of them 
told the ``Washington Post'' a few months ago is, ``Our housing 
values are stagnant because the county is allowing too many 
houses to be built, and we'd like to see fewer of them built.''
    Everyone's favorite model right now of enlightened growth 
management is Portland, Oregon. It strikes me that it is 
starting to show some of the same kind of exclusionary effects 
you've seen in some boutique regions like Boulder, Colorado, 
Santa Barbara, Marin County, and so forth.
    In my testimony I've attached a little table that shows 
comparisons of housing prices between Portland and other 
sprawling cities like Phoenix and Las Vegas.
    Since the red light is on, I'll stop right now.
    Senator Chafee. Thank you very much.
    Mr. Garczynski on behalf of the Homebuilders?

  STATEMENT OF GARY GARCZYNSKI, VICE PRESIDENT AND TREASURER, 
              NATIONAL ASSOCIATION OF HOMEBUILDERS

    Mr. Garczynski. Thank you, Mr. Chairman. My name is Gary 
Garczynski, and I am currently the vice president and secretary 
of the National Association of Homebuilders. I am a builder and 
land developer in Northern Virginia and have worked in this 
industry for nearly 30 years. I am currently developing some 
infill projects in Alexandria and Fairfax County, and have 
served as the president of the Northern Virginia Transportation 
Alliance and serve at the pleasure of Governor Gilmore and 
Virginia's Housing Study Commission.
    If I could take 1 second, though, on behalf of the 197,000 
firms and its members across the country, we would be remiss if 
we did not acknowledge your contributions, Senator, over many 
years of service. We haven't always been on the same side of 
issues, but you've always conducted yourself as a gentleman and 
a dedicated and committed public servant and our hat is off to 
you.
    Senator Chafee. That's very kind of you. Thank you.
    Mr. Garczynski. Now, the notion of smart growth, AKA 
sensible growth, sustainable growth, has certainly exploded on 
our national consciousness as one of the most critical issues 
confronting America today. As has been mentioned, it has been 
on over 200 ballot initiatives and is likely to be a national 
platform issue for both the republican and democratic 
candidates.
    Its impetus developed from population pressure, rising 
housing demand, fragmented regional governance, personal 
housing preference, suburban employment centers, which have 
made outward expansion seemingly inevitable. It touches what 
all of us Americans hold close to our lives--where we live, how 
our children are educated, our commute time to work, and the 
economic and job opportunities created by growth in our 
communities--in other words, our quality of life, or, to be 
more politically correct, ``livability,'' and its resulting 
frustration has strained our fiscal, social, and environmental 
well-being.
    Smart Growth should address the questions of how best to 
deal with the components of growth, and motion, economics, and 
the politics of growth.
    From the NAHB perspective, we need to build an acceptable 
consensus of the definition of smart growth amongst government 
officials, community activists, builders, developers, 
environmentalists, bankers, and the voting public, because the 
benefits of growth are being degraded by the cost of growing 
badly.
    Education on the smart growth principles and cooperation 
among its stakeholders on the benefits of smart growth is the 
only way toward overcoming barriers and reaching sustainable 
development goals.
    With that preamble, we at NAHB believe a definition of 
smart growth should give serious consideration to the following 
factors.
    No. 1, no growth is not an option. Population and 
immigration figures can tell us that over 1.3 million 
households are created in this household yearly. Economic 
development must also be considered. There isn't a State or 
Governor in this union who doesn't have that as a goal for his 
constituency. It means jobs and it means benefit to the 
stakeholders.
    For instance, in Virginia our $1 billion surplus generated 
by new employment centers has led to no car tax, lower State 
college tuitions, and better school funding.
    The consensus is that we must bring people together and not 
polarize them. There shouldn't be a brawl over sprawl. The 
smart growth movement should not be about telling Americans how 
they should live and work or about sacrificing their individual 
values to the values of their politically powerful betters. It 
should not be coercive or moralistic, but open and inclusive. 
It should consider market sensitivity, where people and how 
people want to live, the fact that people prefer a detached 
single family home in a suburban location.
    In survey after survey, consumers continue to state that. 
As a matter of fact, we've just finished one where 80 percent 
state that that is still their preference.
    We do have a high home ownership rate in this country, the 
highest it has ever been--67 percent--but there is still a 
great majority of Americans, first-time buyers who still have 
not tapped into that home ownership. And now, through programs 
such as Fannie Mae and Freddie Mac and HUD that have made 
available to first-time buyers, a large number of African 
Americans, Hispanics, and other minorities shouldn't be shut 
out from the opportunity of owning a home.
    Now, infrastructure development should also be taken into 
that account. Let's face it, much of the public outcry over 
growth revolves around three issues: traffic congestion, 
overcrowded schools, and disappearing open space.
    If we can solve the infrastructure problem by a balanced 
and equitable funding source, we can solve a lot of the 
rhetoric that occurs over no growth.
    I'd offer an example. How many counties or cities have what 
we call ``capital improvement plans,'' but no capital 
improvement budget for a funding source to back them up?
    We, as builders, have been caught in the middle of this 
issue. For years we have been pushing on good planning policies 
such as clustering, small lot development, higher density, and 
broad-based and equitable ways to pay for major infrastructure 
improvements.
    I know my time is up, but I want to emphasize we want to be 
at the table. We have been at the EPA, ULI, Smart Growth 
Conferences--the first one was in New England, as Senator 
Chafee probably knows, and there are going to be a series of 11 
more around the country. We were there at the plenary sessions. 
Our members are there to get involved in the dialog.
    We aim to be centerist and be involved to the answers and 
solutions to smart growth because it is to our benefit as 
builders. We don't want to wear the black hats in this, 
Senator, and we intend to make sure that we offer a balanced 
approach to what is rapidly becoming an increasing challenge to 
the American public.
    Senator Chafee. Well, I think it is fair for you to request 
being present at the table. You've got a big stake in this, and 
certainly any activities I'm involved in with this will make 
sure that you stay involved.
    Mr. Garczynski. Thank you.
    Senator Chafee. Mr. Rising?

  STATEMENT OF NELSON RISING, CHAIRMAN, ENVIRONMENTAL POLICY 
         ADVISORY COMMITTEE, NATIONAL REALTY COMMITTEE

    Mr. Rising. Thank you, Chairman Chafee.
    I'd just like to echo the comments that were made earlier 
today about what a great role you have played in heightening 
the awareness on environmental issues in this country, and 
we'll miss you in your retirement in the dialog.
    Senator Chafee. Thank you. Thank you very much.
    Mr. Rising. My name is Nelson Rising. I'm the CEO of 
Catellus Development Corporation, a San-Francisco-based, 
publicly traded, diversified real estate operating company with 
holdings extensively throughout California, Dallas, suburban 
Chicago, Denver, Portland, and Phoenix. We are developers.
    I am speaking today on behalf of the National Realty 
Committee, the NRC. Our members are a round table of the top 
leaders of public and privately held real estate companies, 
including owners, builders, lenders, managers, advisors, and 
investors.
    Our industry, not just our members, has a stake in well-
planned smart growth. I can tell this committee from personal 
experience a well-planned community with strategies for 
preserving quality open space and adhering to the principles of 
smart growth offers better real estate investment opportunities 
than communities with less planning discipline.
    Today, State and local governments throughout the country 
are attempting to establish policies that will encourage rather 
than discourage smart growth. Higher densities near employment 
centers and transit, convenient retail and entertainment uses 
near residential districts, increased open space, and 
pedestrian-friendly urban design solutions are all part of that 
dialog.
    As a Californian, I am particularly concerned about smart 
growth. The Census Bureau tells us by the year 2025 California 
will add the equivalent of the current population of the State 
of New York. This expected growth----
    Senator Chafee. Wait a minute. Let's have that one again. 
That's an astonishing figure.
    Mr. Rising. It is an astonishing figure. Nineteen million 
new people are projected from the year 1995 to the year 2025. 
That's the current population of the State of New York added to 
the country's most populous State.
    Senator Chafee. What's the population now? Let me guess.
    Mr. Rising. About 32 million.
    Senator Chafee. I was going to say 40. What is it, 32?
    Mr. Rising. Yes. It will put us over 50 million people by 
the year 2025.
    And that growth and growth in other areas, which is 
inevitable in this country, the NRC believes can only be 
accommodated if we successfully adhere to the principles of 
smart growth.
    Today the issue before this committee is: what can 
Washington do to respond to the public's growing demand for 
smarter growth and more open space?
    Clearly, local governments need to chart their own courses 
in land use matters, but the NRC believes that there is an 
important role for the Federal Government. The Federal 
Government can advance policies and legislations that will 
provide State and local governments additional resources to 
grow smarter. It can assist in increasing the amount of 
critical open space, and it can encourage, rather than 
discourage, brownfields and urban core redevelopment, thereby 
reducing pressures on greenfields. And it can reform existing 
Federal laws and policies that inadvertently impede the ability 
of States and local communities to grow in smarter ways.
    While Washington can help, it is important to stress again 
that the parameters of the Federal role need to be carefully 
defined to ensure the paramount role of local governments in 
this area.
    With respect to increasing our open space, the NRC supports 
the bipartisan effort now underway to fully fund the Federal 
Land and Water Conservation Fund.
    In addition, we also suggest the committee give the 
Administration's Better America Bonds proposal serious 
consideration that it deserves. Its basic premise seems to be 
to us to be a good one: to offer local governments the 
resources to help gain the leverage that additional bonding 
authority can provide.
    With funds from the bond issues, local governments can make 
their own decisions about open space preservations, redevelop 
their own brownfields properties, and address other 
environmental issues.
    Bond financing, whether locally or federally subsidized, 
is, in our view, not only more cost-effective, but also a more 
equitable way than using current appropriations of tax dollars. 
It allocates the cost of acquiring greenspace over the life of 
the bonds, and in that way ensures contributions from the 
current and the next generation.
    There are several ways the Federal Government can encourage 
development of brownfields and redevelopment of our urban core. 
The provisions of Senator Smith's Superfund bill from last 
Congress and the provisions in Senator Lautenberg's current 
standalone brownfield bill, S. 20, would go a long way toward 
removing the specter of Superfund liability from the potential 
brownfields transactions.
    Business, municipal, and environmental groups have all 
pointed that uncertainty regarding possible Superfund liability 
remains a factor in favoring development outside urbanized area 
into so-called ``greenfields.''
    The law of unintended consequences should be considered by 
this committee as you evaluate existing legislation that 
inadvertently impedes the ability of local communities to grow 
in smarter ways. The provisions of Senator Baucus bipartisan 
Endangered Species Act bill approved by this committee in the 
last Congress dealing with habitat conservation and no 
surprises assurances would, in our view, facilitate smart 
growth.
    In a similar fashion, wetlands programs need to include a 
safe harbor for projects that advance smart growth.
    To summarize, the NRC believes the objective of achieving 
smart growth needs to be factored into the implementation of 
Superfund, the Clean Water Act, and the Endangered Species Act, 
as well as expanded Federal assistance in acquiring critical 
open space.
    While not under the jurisdiction of this committee, I would 
be remiss if I did not point out that certain Federal tax 
policies can also undermine the smart growth agenda. There are 
three examples of this which I have put in my written 
submittal, so I will not repeat them here.
    Senator Chafee. Why don't you just touch on them briefly? 
These are the tax suggestions.
    Mr. Rising. Well, Mr. Chairman, the tax suggestions that I 
would call to your attention first would be the ability to 
expense the cleanup cost rather than capitalizing them. As it 
relates to nonhistoric buildings, many infill sites have 
nonhistoric buildings on them that are not slated for 
restoration, but that the demolition costs are treated as being 
added to the basis in the land, and therefore make it less 
attractive to develop an infill site with a nonhistoric 
structure than going out to the greenfields.
    And the third issue, which is a very important issue, is 
that the way the tax treatment of building improvements, 
especially building improvements that would be energy 
efficient, are amortized over the life of the building, as 
opposed to over the life of the improvement, artificially 
increasing the cost that would be associated.
    Senator Chafee. You mean you think it should be deductible 
in a couple of years or something?
    Mr. Rising. Well, in the life of the--during the life of 
the particular improvement. For example, the average lease in 
the building is 7.3 years, and the tenant improvements are 
depreciated over 39 years.
    Senator Chafee. I see.
    Mr. Rising. So the NRC is suggesting a 10-year depreciation 
for building improvements, which would have a tremendous 
advantage in rehabbing buildings in the urban core and make it 
less attractive to----
    Senator Chafee. Go outside.
    Mr. Rising. [continuing] Rehab buildings on the suburban 
fringe.
    Senator Chafee. Well, I suppose, Mr. Moe, you favor that. 
You mentioned taxes in your discussion, too.
    Mr. Moe. Yes, Sir. I would strongly support what Mr. Rising 
is saying. I think the tax code, in many cases, inadvertently 
discourages the rehabilitation of existing buildings, both 
historic and nonhistoric, and with slight modifications----
    Senator Chafee. Because of what, this amortization period?
    Mr. Moe. Yes, I think in part. But I think more subtly it 
encourages new construction over rehabilitation in a lot of 
ways, and that's why the tax credit that you and Senator Graham 
are supporting I think would go a long way toward redressing 
that in the tax code.
    Senator Chafee. I'm going to poll you all here. Just raise 
your hands.
    It seems to me, as we've had this discussion here today--
you've heard the previous testimony of the county official and 
the mayor--everybody seems to agree that we ought to do 
something about helping the local communities clean up these 
brownfields. That's a given, isn't it? Everybody wants that.
    But the theme of much of this legislation that is coming 
forward, as proposed by the Administration, is open spaces. But 
these brownfields would, once cleaned up, I think the 
objective, as certainly the mayor pointed out, would be to get 
another industrial facility or manufacturing facility in there. 
It wouldn't be an open space. It's not going to be a park, 
apparently. Is that what you gather?
    Mr. Garczynski. Senator, on behalf of the homebuilders, I 
would hope that, if brownfields remediation and then the 
liability issue could be taken away, that, not only for 
industrial/commercial, but a revisit of housing into the city, 
a good mix of housing, because I think the revitalization of 
any city depends on having a balance of housing types, and what 
better example do we have than right here with what Mayor 
Williams is doing with Washington? A full range of housing 
types are coming back into this city within the next year or 
two. So I hope brownfields could be developed into residences, 
as well as industrial/commercial sites with that liability 
factor addressed.
    Senator Chafee. Mr. Rising, what cities have--you ticked 
off some cities there that you think have come back, are doing 
a good job. As I recall, you listed San Francisco, Portland, 
Boston. I guess I've got the page here. You mentioned San 
Francisco, Portland, Boston, New York, and Chicago.
    Mr. Rising. Yes.
    Senator Chafee. You think they've done a good job in--but 
certainly there's nothing to do with open spaces in any of 
those cities.
    Mr. Rising. What's interesting about that, in my written 
submittal I talked about the reurbanization of America and how 
important that is to deal with the environmentally sensitive 
ways to deal with our growth, and the renaissance that have 
taken places in the cities I listed in my written submittal is 
really quite remarkable.
    There are common characteristics. First, you have 
attractive residential uses located near jobs. You have retail 
and entertainment uses located near residential districts. You 
have attention to the public realm. And you have open spaces 
that are open to the public and accessible to the public in all 
the cities I've mentioned.
    What has happened is, because of the realities of the 
commute time, because of the realities of the two-income 
families, because of the realities of life in this decade and 
moving on to the new millennium, people are recognizing that 
cities that are livable are an attractive place to live, and in 
many cases far superior to the commute that they were facing as 
an alternative.
    I think that----
    Senator Chafee. Now, for instance, just take San Francisco, 
which obviously you know a lot about.
    Mr. Rising. Yes.
    Senator Chafee. Are you suggesting that jobs for these 
bright college graduates who have been to Berkeley or whatever 
it is and then decide to live in San Francisco, where would 
they work? I mean, you always think of the Silicon Valley, and 
that's a long way from San Francisco. What is it, three-
quarters of an hour or something?
    Mr. Rising. About that, Sir. The interesting point about a 
smart growth principle, one of the most important ones, is 
locating residential near transportation corridors.
    We happen to be developing the largest property in the 
history of San Francisco, with some 6,000 residential units, 
and we are immediately adjacent to the CALTRANS station which 
connects with the Silicon Valley. So we expect that our 
residents----
    Senator Chafee. This is in San Francisco, this development?
    Mr. Rising. Yes.
    Senator Chafee. Wow.
    Mr. Rising. And so what we are looking at is the notion of 
the transit, which links to the South Bay the Silicon Valley, 
so we look that our residents will be, in some cases, living in 
the Silicon Valley taking trains, in other cases working in the 
CBD taking the mini-metro. But transit orientation to us is one 
of the critical ingredients to a smart growth agenda.
    Senator Chafee. Now, would those people take a subway or 
whatever it is, a train, to Palo Alto or Silicon Valley?
    Mr. Rising. We believe they will, Sir, because I think the 
alternative of the commute, the unproductive commute by 
automobile, especially a single-passenger automobile, is just 
an unacceptable alternative.
    Senator Chafee. How long would it take them, roughly, if 
they got on the train?
    Mr. Rising. Less than 45 minutes and more--depending on 
time of day, more than double that by car.
    Senator Chafee. Mr. Moe, I think that it seemed to me that 
historic preservation tax credit is an important thing. The 
objective would be to rehabilitate the buildings in the inner 
city so people would come there and live.
    Mr. Moe. Exactly. Mr. Chairman, the existing historic 
rehabilitation tax credit that has been in effect since the 
late 1970's has accounted for more than $17 billion in private 
investment and the restoration of more than 26,000 buildings, 
most of them for affordable housing.
    We think that the legislation that you and Senator Graham 
are sponsoring could do the same for privately owned 
residences. It would do more to keep people living in inner 
city neighborhoods by revitalizing the historic resources that 
are there and attracting more middle class people back to the 
cities, which they all desperately need.
    So there is no question but that we think historic 
preservation can play a major role in revitalizing cities and 
reducing the demand for sprawl.
    Senator Chafee. Well, thank you all very much. There's a 
lot of meat in your testimony here, and we'll look that over 
carefully. Some of the things are tougher than others. 
Obviously, the tax policy is out of our jurisdiction. When you 
get into that rapid depreciation, it is very expensive. Now, 
maybe it is a one-shot deal, but it is expensive. And 
immediately you get confronted with, ``Where is your office at? 
How are you going to pay for it?'' Those are the problems we 
run into.
    This has been very helpful. We thank you all very much for 
coming. Thank you.
    [Whereupon, at 12:09 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    Good Morning. Before I get to the substance of today's hearing, I 
would like to say a few words about our distinguished Chairman, Senator 
Chafee.Since we were last together, Senator Chafee announced he will 
retire at the end of this session. I have some experience with that!
    John, I know this was probably a hard decision. I know you will 
spend the next 2 years working hard at this job, as will I, and I hope 
we can work together on brownfields and other issues as a legacy.
    Certainly your service on this Committee has been a focal point of 
your work in the Senate.
    Your contributions are many and will long be remembered. You have 
often been a voice of reason in our deliberations and I hope we can 
work productively together in the next 2 years.
    Many of the environmental challenges we now face are complex. Your 
decision to hold these hearings on open space and so-called ``sprawl'' 
issues recognize the changing face of America. I also regret the Budget 
resolution markup has prevented my attendance.
    As you know, I have long been interested in the issues of growth, 
transportation and environmental protection. The bills discussed in 
this hearing are important, and I have cosponsored one of them. 
However, I would also like to call attention to S. 20, my brownfields 
legislation, which has been mentioned by many of our witnesses.
    Mr. Chairman, on January 19, 1999, I introduced S. 20, the 
``Brownfields and Environmental Cleanup Act of 1999,'' along with 22 
other Senators, including many of our colleagues from this Committee.
    This legislation is designed to help turn abandoned industrial 
sites into engines of economic development. Significantly, it would 
also create open space and avoid sprawl because it encourages smart 
growth and the re-use of industrial sites.
    Mr. Chairman, I have been interested for a long time now in the 
issue of these abandoned, underutilized and contaminated industrial 
sites, commonly known as ``brownfields.''A brownfields cleanup program 
can also spur significant economic development and create jobs.
    In fact, the nation's Mayors have estimated that they lose between 
$200 and $500 million a year in tax revenues from brownfields sitting 
idle, and that returning these sites to productive use could create 
some 236,000 new jobs.
    Despite the traditional connection of Brownfields with cleaning up 
urban areas, this issue is truly linked with the issues of sprawl, 
smart growth and environmental quality for all of our citizens. 
``Brownfields'' as we have come to know them, can be found anywhere--in 
the inner cities, the suburbs and in rural areas.
    And every time a business leaves a brownfield behind, and moves to 
a new location, it creates a contaminated urban ``dead zone.'' It also 
contributes to sprawl, occupies a ``greenfield,'' with widespread 
impacts on transportation, air quality, open space, park lands and 
farmlands.
    Re-using brownfields--often lightly contaminated areas--for 
industrial purposes is positive from a whole host of perspectives, and 
I am committed to encouraging it.
    This type of cleanup makes good environmental sense and good 
business sense.
    My bill, S. 20, would provide financial assistance in the form of 
grants to local and State governments to inventory and evaluate 
brownfields sites, and to establish revolving loan funds for cleanup of 
these properties. It would therefore enable interested parties to know 
what would be required to clean the site and what reuse would best suit 
the property.
    The loan funds would be loaned to prospective purchasers, 
municipalities and others to facilitate voluntary cleanup actions where 
traditional lending mechanisms may not be available.
    The bill also would limit the potential liability of innocent 
buyers of these properties, and it would set a standard to gauge when 
parties couldn't have reasonably known that the property was 
contaminated.
    It would also provide Superfund liability relief to persons who own 
property next door to a brownfields property, so long as the person did 
not cause the release and exercises appropriate care.
    Mr. Chairman, for several Congresses there has been bipartisan 
interest in addressing brownfields, both in the Senate and in the other 
body on the other side of the Capitol.
    I am hopeful we can move this legislation forward in a cooperative 
way with support of Members on both sides of the aisle and begin to 
protect both the health and jobs of our citizens and our open spaces 
for future generations.
    I thank you for the opportunity to discuss this important issue, 
and I urge my colleagues to support this legislation.
                               __________
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak on the issues of open space and environmental 
quality, an issue that is very important to the state of Florida.
    Over the last 50 years, more than 8 million acres of forest and 
wetlands in Florida, 24 percent of the land area of the state, were 
cleared for development. Florida's population increased by more than 15 
percent in just the last 8 years. The Sierra Club has identified five 
cities in Florida as being among the ten cities of their size in the 
Nation most affected by urban sprawl. In 1997, over 47 million tourists 
visited Florida, spending $41 billion to enjoy our natural environment 
and quality of life. As these statistics indicate, growth, sprawl, and 
environmental quality are issues of great concern to Floridians.
    In response to this tremendous growth in the human population, and 
in order to preserve the natural environment of the state for future 
residents and visitors, Florida created the Preservation 2000 program 
in 1990. This program has resulted in the protection of one million 
acres of land to date, and has expanded recreation opportunities, 
enhanced eco-tourism, and brought new economic growth to the state. 
Under Preservation 2000, the state works with local governments and 
non-governmental organizations to protect recreational lands, preserve 
water quality, and support state forests, parks, wildlife management 
areas, and greenways and trails.
    I understand that some of our speakers will be addressing various 
proposals for the Federal Government to support open space and 
environmental quality initiatives similar to Florida's Preservation 
2000, and I look forward to discussing the merits of these proposals 
and working with the members of the committee to identify an 
appropriate Federal role.
                               __________
     Statement of Honorable Paul Helmke, Mayor, Fort Wayne, Indiana
    Mr. Chairman and members of the committee: I am Paul Helmke, Mayor 
of Fort Wayne and Past President of The U. S. Conference of Mayors.
    The Conference of Mayors represents more than 1,050 cities with a 
population of more than 30,000.
    Mr. Chairman, let me first thank you and other members of this 
committee for holding these hearings today. ``Livability'' provides a 
timely context for discussions on a number of issues of concern to the 
nation's mayors and the citizens we serve.
    When mayors speak of ``livability,'' they talk about reducing 
crime, improving public education, helping kids and adults secure 
better job and housing opportunities, improving the delivery of public 
services, recycling brownfields, enhancing the local environment, 
improving parks and libraries and making transportation systems work 
for people. These are the issues squarely before local elected leaders 
and largely drive our agenda.
    To support the committee's consideration of these issues today, my 
statement will:
    provide some general observations and perspectives on livability 
from the mayors' vantage point; offer some suggestions on the 
challenges specifically before this committee, given your influence 
over Federal surface transportation, infrastructure and environmental 
programs, areas which are increasingly singled out in this debate; and 
review some of the key issues on the mayors' agenda which I believe 
relate to this broader debate.
Mayors' Perspectives
    Mr. Chairman, we don't have a complete definition of 
``livability'', but as a mayor, I know it when I see it. And, 
certainly, I know it when I hear it, and it is something that is very 
much on the minds of the voters in local communities.
    For mayors and other local elected officials, you might say we are 
in this business. One of the reasons we are here today is that citizens 
in a very grassroots way are demanding something more from all of us, 
their elected leaders. They want us to work harder to help improve 
their quality of life, not just their standard of living.
    All of this is pushing what have been historically locally oriented 
issues on to the political agenda of State and Federal leaders, forcing 
elected officials at every level to respond, and to be aware of how 
past and current policies have sometimes created problems at the local 
level.
    In effect, voters are forcing their national legislators and 
leaders to examine these Federal policies and respond to some of the 
same concerns which have been before me, other mayors and local 
officials. As a mayor, I would welcome your attention to these issues 
and a more thorough examination of how these Federal policies influence 
the lives of local citizens in their communities.
    For some time, we have been urging partnerships with Federal and 
State governments that genuinely respond to local needs and interests. 
It seems that the ``livability'' concept provides a place-based and 
people-based context for your review of issues that come before this 
committee, be it transportation, air quality or water resources.
    Mr. Chairman, contrary to some statements in the press, this 
definitely is not a top-down movement. It is a local citizen or 
grassroots movement, driven by all types of conditions throughout the 
country. As a local official, I can assure you that this is not a 
Democrat, Republican or Libertarian issue.
    It appears this message is being amplified by the confluence of two 
population segments. People in newly developed areas are clamoring for 
improved services, managed growth and some relief from the increasing 
burdens of auto dependency. People in built communities--largely 
central cities, inner ring cities and urban counties--want more help 
for their particular needs, like updated infrastructure and facilities, 
including rehabilitation of parks and libraries, and pedestrian- and 
neighborhood-oriented improvements. People in existing communities also 
expect more attention to their needs now that we have spent more than 
two generations investing in and building up the suburbs.
    After much anxiety in dealing with the nation's economic 
restructuring over the past several decades, there appears to be more 
confidence about our economic future and, collectively, our voters are 
demanding more attention to issues affecting their quality of life.
    What is new about this issue is that it is finally finding a place 
here in Washington, where debates have focused on sometimes more 
distant matters. The front door issues--those issues before you when 
you open your front door, and not just what you see on the front 
pages--are knocking at your door.
                              brownfields
    Let me provide an example of this, from my perspective as the mayor 
of a community, which made the transition from a fort to a strong city 
of 200,000. As President of The U.S. Conference of Mayors, I made 
brownfields the top issue of my tenure as a leader of the nation's 
mayors. I didn't call it ``livability'', but it is at the core of so 
many issues in this debate.
    ``Brownfields redevelopment'' is really a metaphor for renewing our 
partnership commitments to existing communities.
    By recycling the thousands of brownfield sites in communities 
throughout the nation, we can offer alternatives to simply plowing 
under and paving over more pristine greenfields, be they farm land, 
forests or open space.
    And, in this way, we can better serve millions of people in 
communities struggling with this challenge, places where many of us 
live and work today.
    Brownfields, so often in evidence as abandoned properties with all 
of the outward signs of neglect, are a particularly powerful way to 
call attention to the need to look at existing communities and policies 
to help local leaders sustain their economies.
    We recycle glass, paper and aluminum cans, but as a nation, we 
don't fully recycle our land. We believe that existing communities have 
the capacity to recycle land for reuse in future development, breaking 
the cycle of developing pristine land or greenfields as a first choice.
    Yet, there are obstacles in getting these sites cleaned up and 
redeveloped. And, the difficulty in redeveloping these sites and 
capturing all of the many community and economic benefits has also 
hindered our ability to meet the many concerns of our citizens. 
Pressing local issues--transportation, environmental quality, safety, 
education, and neighborhood-oriented investments in schools, libraries, 
ballfields and parks--can be addressed more readily through 
redevelopment of these sites, as local economies are strengthened, 
generating the resources to reinvest in our communities.
    As a local leader, I can tell you we have been working hard to 
recycle and restore these lands, attempting to offer developers, 
business leaders, bankers and others new opportunities to invest and 
grow in existing communities. But much more needs to done to turn the 
perception of these ``dead zones'' in to prosperous and thriving uses.
    A year and a half ago, I addressed the ``Brownfields 97'' 
Conference in Kansas City, where I said:
    ``Brownfields is the leading edge of what I believe will soon be 
the nation's most pressing environmental concern: the loss of open 
space--farmlands and forests--brought about by our continuing patterns 
of urbanization.''
    In discussing this issue, I frequently cite data from the American 
Farmland Trust. For the 10-year period, 1982--1992, the United States 
converted more than 4 million acres of prime farmland to urban land. 
This is the real stuff--``prime farmland''--the kind of land that is 
very productive.
    In that period, we lost prime farmland that is larger in size than 
the entire greater Chicago metropolitan area, which runs from Northern 
Indiana to Southern Wisconsin. Or, farmland that is equal in size to 
the States of Connecticut and Rhode Island. As Chicago Mayor Daley, a 
former Conference President, so often says, ``The U.S. destroys more 
farmland each year than any nation on earth.''
    In the same 10-year period, all of the land which was developed, 
including this prime farmland, is equal in size to the States of 
Connecticut, Rhode Island, New Jersey, Delaware and one quarter of 
Maryland.
    I believe there is some urgency to the brownfields issue, 
particularly when you step back and consider what is happening to 
farmland and forests in proximity to our urban areas.
    Brownfields redevelopment, for so many communities, is about making 
sure that the land is productive again, unburdened by liability issues 
and free to capture private sector investment in housing and job-
producing businesses. We see this as a cycle of potential renewal, with 
rising property values and increasing tax receipts to build better 
communities that our citizens want and expect.
Issues Before the Committee
    Mr. Chairman, you have a full agenda on many of the issues in the 
``livability'' debate, as you examine transportation, smart growth, 
open space preservation, brownfields redevelopment and various 
initiatives pertaining to these matters.
    Mr. Chairman, I want to express the appreciation of the nation's 
mayors for the personal attention and efforts you have made on our 
behalf to move various legislative vehicles to address the concerns of 
mayors and others on brownfields within the context of Superfund 
reform. And, we also appreciate the members of this committee for their 
leadership. Senator Bond, in his capacity as Chair of the 
Appropriations Subcommittee on VA, HUD and Independent Agencies, has 
been very supportive of local efforts to move brownfields redevelopment 
forward. Senator Lautenberg has been involved with this issue before 
most people even knew what brownfields were and we appreciate his 
strong leadership on our behalf.
    I am hopeful that legislation will finally move through the 
Congress this year to provide communities with the tools and resources 
to more readily reclaim and recycle the thousands of brownfields sites 
all across the country. I know from the committee record and statements 
that members of this committee fully appreciate the importance of 
getting these properties back in to productive use. I also know that 
this issue will be revisited by the committee in the coming months.
                             transportation
    Let me turn to the transportation arena, and again use this 
opportunity to thank Chairman Chafee, Senator Moynihan, who played such 
an instrumental role in enacting ISTEA, and the committee members for 
your leadership in enacting TEA-21.
    The Conference of Mayors in its testimony before this committee and 
our work in support of ISTEA renewal, urged a balanced investment 
between highways and transit, and flexible funding, as well as 
continuation of programs like Enhancements and the Congestion 
Mitigation and Air Quality program and continued emphasis on system 
preservation. But the key message that Atlanta Mayor Bill Campbell 
delivered on behalf of the mayors was the continuing need for 
partnership in addressing the nation's transportation infrastructure 
needs, urging that the ISTEA framework be used as the basis for this 
partnership.
    Mr. Chairman, I also want to recognize this committee and its 
leadership in making this partnership stronger under TEA-21. Also, by 
continuing policies and programs such as the Interstate Maintenance 
program and the Bridge Program, you kept the focus of the new law on 
system preservation.
    Keeping what we have in good repair is very much in tune with what 
voters are asking for. Recently, the Rebuild America Coalition 
conducted a national survey and found that an overwhelmingly majority 
of the respondents believe that keeping existing road surfaces in good 
condition and free of potholes was more important than building new 
highway capacity in dealing with congestion. These findings affirm some 
of the issues we have discussing today in that voters want more 
attention to keeping what we have in better condition, as one of the 
ways to better serve citizens in existing communities.
    Most of these transportation elements have been strongly supported 
by local elected officials, through investments in the CMAQ program to 
better air quality, in the Enhancements program to better integrate 
transportation facilities into our communities, in the Bridge Program 
to rehabilitate these facilities, and in increased investment in public 
transportation.
    The Conference of Mayors would offer several recommendations on how 
the committee might followup on these and other matters.
    First, we encourage the committee to hold field hearings and 
conduct more oversight on State efforts in implementing TEA-21. Under 
ISTEA, local officials were concerned that many of the key programs of 
most direct interest to local communities, like CMAQ, Enhancements, 
Safety, had the lowest obligation rates compared to other programs of 
higher priority to the States. Moreover, with the unexpected gap in 
fiscal year 1999 between apportionments and obligation authority (more 
than 13 percent), defunding of these programs could get worse under 
TEA-21. If you take CMAQ funding, for example, it is troubling that 
with more than one-half of the 1,050 U.S. cities with a population of 
30,000 or more in nonattainment with ozone, we continue to see States 
using the Act's flexibility to move funding obligations away from CMAQ-
eligible activities. Poor air quality where millions of Americans live 
is high on our ``livability'' agenda. Second, we are working with the 
States all across the country to ensure that funds under TEA-21 are 
fairly distributed within the States, an effort we call our ``Fair 
Share Campaign.'' In effect, local officials are often asking why 
funding fairness stops at the State lines. We have preliminary data 
that shows that under ISTEA two out of every three metro areas--where 
about 80 percent of the nation's population resides--were donors. As we 
look at livability issues, we as local officials know that we can't 
address these issues if we never get access to the resources to make 
the improvements our citizens want. We are hopeful that U.S. DOT's 
expected planning regulations will operationalize the Act's ``revenue 
forecast'' provisions, directing States to jointly develop forecasts of 
TEA-21 funding with MPOs. This is really a ``right to know'' for local 
officials about what funds may or may not be available for 
transportation projects and needs in their local areas. Third, we don't 
see States taking full advantage of the flexible funding aspects of 
TEA-21. For example, we have more than 200 communities/regions 
throughout the country planning, engineering or building new rail 
projects, the highest level of interest in rail projects at any point 
in the nation's history. We also know that many of these projects won't 
get built unless State DOTs take more advantage of the Act's flexible 
funding features, using core program funds in support of these 
investments. In large and small markets, rail investment is being 
sought by local elected leaders as one of the preferred ways to manage 
development patterns, combat highway congestion and improve mobility in 
their respective regions. Finally, we also hopeful that the States will 
use some of the Act's flexibility to make resources available to local 
areas for transportation infrastructure improvements in support of 
brownfields redevelopment. In our 1998 Brownfields Survey, we found 
many respondents citing the need for transportation improvements, such 
as upgrading and modernizing existing facilities, as necessary to 
facilitate investment at brownfield sites.
    One of our biggest challenges in the transportation arena has been 
State transportation department officials, who historically denied the 
linkage between transportation investment and development patterns. 
TEA-21 certainly provides the tools and the laboratory, but it doesn't 
guarantee success. That is up to local elected officials working with 
the Governors and State transportation officials to use the tools you 
have provided.
    But, as a key partner in this equation, it is helpful to those of 
us at the local government level to have this committee fully engaged 
in monitoring our progress under TEA-21 and how these substantially 
increased resources are deployed. This committee has many other 
policies--clean air, water quality, flood control--that are advanced or 
harmed by State and local actions in the transportation arena.
                         environmental programs
    Given the committee's involvement with the financing of 
environmental infrastructure through State Revolving Funds to the 
States, particularly the Wastewater Revolving Fund, the Conference 
would suggest some actions related to the issues before the committee 
today:
    first, it would be helpful to have U.S. EPA prepare information for 
the committee on the distribution of these funds within areas of the 
State, offering some perspective on how existing communities, 
particularly in urban areas are faring under the program; second, it 
would be useful to know from the agency if these resources are 
promoting outward development or aiding in redeveloping existing areas; 
and finally, the Conference is supportive of proposals to redirect some 
portion of these funds toward wet weather problems, such as municipal 
stormwater and combined sewer overflow improvements, changes which will 
help serve continuing clean water needs among existing communities.
    Mr. Chairman, we know that some of our development patterns are 
exacerbating our ability to tackle stormwater and flood control needs 
in areas all across the country. We are also learning more about how 
these development patterns might be infringing upon our surface and 
groundwater supplies. This is an area where we would like to work with 
the committee to examine these issues in further detail.
    On clean air, the Conference has been very engaged in a number of 
issues involving implementation of this Act. For example, we have been 
concerned about the potential effects of the new air standards on 
brownfields redevelopment. As a result, the Conference has been working 
on a project with U.S. EPA, the Economic Development Administration, 
and several cities, including Chicago, Dallas and Baltimore, to analyze 
the relationship between brownfields redevelopment and achievement of 
clean air standards.
    I would also call the committee's attention to the Administration's 
proposal, the Clean Air Partnership Fund, which calls for first ever 
funding of $200 million in fiscal year 2000 to help communities fund 
clean air projects and deploy new technologies. This investment is 
particularly important to local areas which in the past have only had 
access to CMAQ funds for mobile source efforts. From a local 
perspective, we welcome any additional Federal commitments to help us 
meet the increasingly complex air issues before our communities.
                                 parks
    Finally, let me note that open space preservation and parks 
development are areas where the mayors have been very supportive. We, 
however, will continue to press for more attention on urban parks as 
the ``Lands Legacy'' Program and other proposals move forward.
    We all know that preservation of open space has important 
implications for the work of this committee as you continue to grapple 
with transportation, air quality, water quality and nonpoint source 
pollution, flood control and water resources. Mr. Chairman, I would 
encourage members of this committee to engage in this debate, given 
your considerable jurisdictional interests in seeing successful 
initiatives in this area.
Mayors' Agenda
    Mr. Chairman, let me close with some comments on the mayors' 
agenda.
    During my tenure as Conference President, I talked extensively 
about farmland and open space preservation and the need to recycle 
America's land through brownfields redevelopment. Conference presidents 
for five successive years have been pressing for a stronger Federal 
partnership on brownfields. We see the Administration's proposal for 
``Better America Bonds'' as a response to local leaders, like myself 
and others, who have championed a more aggressive Federal commitment to 
local efforts in this area.
    Knoxville Mayor Victor Ashe, who served as President of the 
Conference before me, personally championed the cause of the stateside 
program of the Land and Water Conservation Fund (LWCF) and urban parks, 
with these issues finally receiving some attention in recent months, 
nearly 4 years later. Mr. Chairman, you may recall that he met with you 
on this subject. Quite frankly, we were disappointed that there was so 
little emphasis on urban parks in the Administration's plan, but in the 
whole we believe there is a need for a broader Federal commitment in 
this area. We are pleased to see that Chairman Murkowski is proposing 
to fully fund the stateside LWCF program and fund urban parks at a much 
higher level.
    I have already noted elements in the transportation area. I would 
just reiterate our desire to see State officials use these resources to 
partner more fully with local officials in funding locally determined 
transportation projects, such as new rail starts and other alternative 
transportation projects as well as broader commitments to system 
preservation, safety, enhancements and air quality.
    Mayors have advanced brownfields redevelopment as one of the 
cornerstones in our ``livability'' agenda, an area which I have 
discussed in some detail. Mr. Chairman, next month the Conference will 
release its Second Annual Report on Brownfields. Among the more 
interesting findings of this report will be a projection on how many 
people these responding cities can absorb without adding substantially 
to existing infrastructure. In this survey, 110 cities estimate that 
they can absorb more than 3.5 million new residents, a capacity which 
substantially exceeds 1 year of the nation's population growth. Tapping 
just a portion of this potential capacity in existing communities could 
save taxpayers billions of dollars in future capital and operating 
costs.
    We see brownfields as part of a broader agenda, which includes 
reducing crime and community-based public safety, improving public 
education along with community-wide responses to the needs of school 
age kids, emphasizing arts, cultural and other unique community assets, 
and renewing our infrastructures, like schools, parks, housing and 
transportation facilities. In the whole, these issues respond directly 
to what we as mayors believe our citizens are seeking in their daily 
lives, concerns which are increasingly characterized as ``livability''.
    I also helped launch our Joint Center for Sustainable Communities, 
an historic partnership of The U.S. Conference of Mayors and the 
National Association of Counties, to look at how cities and counties 
can work together more effectively on many of the issues we are 
discussing today. We are making real progress on these challenging 
issues.
Closing Comments
    As a mayor who is completing my twelfth and final year of service, 
I can attest that cities have certainly seen some tough times, with 
both the perceptions and realities of crime-ridden neighborhoods, 
failing schools and infrastructure. At the same time, we have been hard 
at work dealing with these issues, changing both perceptions and the 
realities of these urban ills. And, mayors and local citizens will tell 
you that we are experiencing positive change in communities all across 
the country. We are confronting rising expectations, and rightly so, on 
how we can improve the everyday quality of life.
    Some of this success can be attributed to the new style of local 
elected leadership and a new energy among our citizenry. And, 
undeniably, mayors and other local leaders will tell you that new and 
continuing partnerships with the Federal and State governments are 
making a real difference in our communities.
    It seems all of us are figuring out that our standard of living is 
not the same thing as our quality of life.
    The Washington Post reported last week that demand for close-in 
addresses is outpacing available housing, as people look for 
alternatives to ever-growing commutes here in one of the most congested 
markets in the nation. Senator Larry Craig is described as leaving his 
larger home in Mount Vernon for a smaller house on Capitol Hill, 
cutting his 1-hour commute by car to a 13-minute walk. He is quoted as 
saying, ``I can get up in the morning and my wife and I can be together 
for breakfast. It truly added an hour of quality time to our day.''
    Senator Craig's quote may best express what this issue is all 
about.
    Mr. Chairman, thank you for this opportunity to share our views 
with the committee on this important subject.
                               __________
   Statement of Hon. Terry Kauffman, Commissioner, Lancaster County, 
Pennsylvania and Chair, Smart Growth Committee and Land Use and Growth 
       Management Subcommittee, National Association of Counties
    Quality of life concerns, the high cost of providing services and 
infrastructure, and the depletion of farmland and environmental 
resources are topping the priority list of many of my fellow county 
commissioners around the country, and counties are increasingly being 
called upon to make difficult decisions in this arena. Traditional 
assumptions about the benefits of unrestrained growth are being 
challenged--assumptions, for example, that all development is good 
development--and county officials are looking for new approaches to 
better direct the way their counties are growing.
    The country in general is also beginning to experience an explosion 
of concern about current development patterns. The rapid rise of 
residential and commercial development on the outskirts of our town 
centers raises uneasiness about the health of our farmland, our water 
and air resources, the open and wild places, and the functionality of 
our neighborhoods--basically the essence of what makes a community a 
vital and pleasant place to live.
    In my county, suburban sprawl, over the last three decades, has 
depleted our farmland and natural resource base, and threatened the 
lifestyle of our Amish and Mennonite communities--the very things that 
make Lancaster County so unique and so appealing.
    Important on the list of growth-related problems is the financial 
burden that residential sprawl is placing on county governments, which 
supply services and infrastructure to new housing, often without a 
comparable tax base to cover the costs. We are struggling with these 
issues, and it is very important that we step forward to assert our 
role as leaders. We are on the front lines when it comes to making the 
decisions that shape our communities. And, as the government closest to 
the people, it makes sense for us to do so.
    We are aware that some are encouraging the Federal Government and 
State legislatures to take the decisions about land use out of the 
hands of elected officials and place them in the hands of appointed 
regional bodies or State entities who would establish growth or 
planning policies applicable to all local governments. State mandates 
or preemption of local land use decisionmaking has already happened in 
some States.
    For example, in Tennessee, counties and cities have been mandated 
to adopt state-designed growth plans by July 2001. In Florida, state-
appointed regional water districts have a great deal of authority to 
approve or deny certain land uses. On the other hand, States like 
Virginia make it very difficult for counties to manage growth, 
requiring, for example, specific authorization from the legislature 
before a county is allowed to impose ``impact'' fees on developers.
    The approach of the National Association of Counties (NACo)--on 
whose behalf I am speaking today--is to better equip counties make 
decisions about ``smart'' growth alternatives for themselves. What do 
we mean by ``smart'' growth? NACo believes that it includes efforts 
that accommodate growth in a way that integrates fiscal prosperity and 
environmental quality, and efforts that enhance the unique attributes 
of counties that are valued by the community. In particular, NACo 
supports comprehensive local land use planning as a mechanism for 
achieving ``smart'' growth'' because we believe that how we use our 
land directly affects our ability to maintain a high quality of life 
for existing and future residents NACo's Board of Directors recently 
listed Smart Growth as a priority issue for the next 3 years. Our 
Western Interstate Region has established a goal of providing tools to 
western counties to manage growth and develop sustainable policies. In 
conjunction with the Sonoran Institute, we will be working with county 
officials in 11 western States to promote effective growth management 
that balances environmental, economic and community concerns.
    We have been holding extraordinarily popular workshops and working 
team sessions at our conferences for the last 2 years, and are hearing 
over and over from our members that growth management is one of the 
most significant challenges facing county officials. NACo recently 
established a Smart Growth Committee, which I am honored to chair, to 
guide our activities over the next year, and we expect to be developing 
tools and techniques that counties can use to implement their plans.
    At the same time, we recognize that we derive our legal authority 
primarily from State government, and without the necessary ability to 
control land uses, we will remain limited in our ability to implement 
our comprehensive plans and manage growth in a manner appropriate to 
the character of our communities.
    Information from the nation's counties indicates that there are 
States that do not grant their local governments authority to make land 
use decisions. The 1998 NACo Operations Survey Analysis showed that 
only 66 per cent of the counties surveyed had authority to do 
comprehensive planning. Only 40 per cent had the ability to do 
transportation planing and only 22 per cent had the power to collect 
impact fees. These figures show that some State legislatures have 
failed to give us the tools we need to manage our growth.
    In my own State of Pennsylvania, counties are not allowed to 
control land uses; zoning authority is vested in the boroughs and 
municipalities. Similar laws are found in Ohio and Michigan. Other 
States like Virginia require each county to petition the State 
legislature for specific authority to control growth--authority that if 
not granted, prohibits the county from enacting local ordinances. Every 
State has its own distinct land use statutes; some States simply fail 
to respect local autonomy and authority. We urge all States to provide 
enabling legislation to allow county governments to adopt whatever 
tools are needed to manage their own growth. In addition, States should 
provide incentives for local governments to work together, so that the 
traditional tensions between municipalities and counties can be 
overcome.
    On the Federal level, we see other policies that indirectly limit 
local land use decisionmaking. For example, Federal facilities like 
post offices are generally exempt from local zoning ordinances. Federal 
regulations on endangered species, air pollution, landfill siting, and 
stormwater management sometimes put portions of land in our counties 
``off limits'' for development, even when those areas may be more 
appropriate locations for some land uses than others.
    NACo recently revised our national policies on preemption to firmly 
oppose any efforts of Congress or regulatory agencies to impose 
prescriptive requirements that intrude on local decisionmaking. This is 
especially applicable to land use decisions, and we will continue our 
campaign to object to any Federal activities that preempt our 
authority.
    Managing growth, I want to emphasize, shouldn't mean stopping 
development or closing the door to new residents. A comprehensive 
growth management system can provide a framework that enables counties 
to balance and accommodate diverse and competing interests. Unlike 
traditional subdivision platting and zoning which are two dimensional, 
growth management adds a third dimension--timing, or the pace of 
growth.
    We have some good models to look at around the country, and I 
wanted to spend a minute reviewing a few of those with you. Let me 
start with my own county.
    Despite Lancaster County's lack of authority over zoning, we have 
been able to accomplish a great deal. Our strategy was to create an 
``urban growth boundaries'' beyond which only farm activities were 
allowed. The County, through sheer persuasion--and some significant 
financial assistance--has convinced most of the municipalities to 
include the urban growth boundary in their comprehensive plans, and so 
far it seems to be working. Within the urban growth boundaries, the 
County monitors development, actively promotes affordable housing and 
reasonable densities, and encourages the planning and development of 
infrastructure to support development. We also assist the 
municipalities by assigning a professional planner to help them draft 
and implement their urban growth boundaries and zoning ordinances.
    Counties in other States, like Erie County in New York and Pierce 
County in Washington State have developed a series of interlocal 
agreements with their municipalities to develop ``urban growth area 
policies'', providing guidelines for the county and municipal 
comprehensive plans.
    Another growth management technique is not new, but is being 
increasingly used across the country--an impact or development fee on 
land developers. As you know, this is a very controversial topic, but 
about 22 States allow it and local governments keep seeking such 
authority from State legislatures. Impact fees can help reduce the 
pressure on counties to approve subdivisions before the roads, schools, 
and water and sewer lines are installed.
    Other techniques--critical areas designation or performance 
standards for environmentally sensitive lands, designation of 
regionally important resources--like historical or natural areas--all 
can be useful in managing and directing growth.
    Another key technique is the transfer or purchase of development 
rights. With this tool, the county is allowed to sever the rights of 
the property owner to develop a piece of property from that parcel and 
transfer those rights to other property. Therefore, a farmer can sell 
his development rights in a rural area, and the rights can be exercised 
by the developer in another part of the county that has water and sewer 
connections, as well improved roads. The farmer agrees to establish a 
conservation easement on the property, forever preventing any future 
development.
    Another increasingly popular technique is outright purchase of open 
spaces by local and State governments. There were over 200 new 
referenda passed around the country in the last election where voters 
agreed to new bond issues or programs for purchasing green spaces. 
These acquisition programs are very popular with the voters because 
they promise to preserve natural resources, and many States are 
devoting State general funds to help protect such areas.
    On the Federal level, we are hearing about some interesting 
proposals for additional funding and assistance, and we welcome the 
Federal concern about growth management. We would look with favor on 
programs that assist us with acquiring land, purchasing development 
rights, and obtaining staff expertise. We also would like to see a 
national clearinghouse of information about alternative land use 
planning practices and programs.
    We would only caution that any Federal funding be careful to 
respect local land use decisionmaking. The questions that we will be 
asking in evaluating any new Federal programs or Federal funds are the 
following: ``Will they be consistent with local comprehensive land use 
plans? Can we take advantage of Federal programs because they 
complement what we do, or will Federal growth management goals conflict 
with the goals we have established within our communities?'' We hope 
the answers will always be ``yes''.
    In conclusion, there are a wide variety of tools, both already 
available and in the proposal stage, that hold a promise for better 
management of our land resources and better control over growth. But we 
have to be careful that in the effort, local governments decisionmaking 
isn't pushed aside, and that our authority to determine what our 
community looks like isn't relegated to merely advisory. We look 
forward to working with this committee toward that end.
                               __________
   Statement of Richard Moe, President, National Trust for Historic 
                              Preservation
    Mr. Chairman, members of the committee. Thank you for the 
opportunity to testify before you today about the issue of community 
growth and environmental quality. My name is Richard Moe and I am 
President of the National Trust for Historic Preservation, a nonprofit 
membership organization, chartered by Congress in 1949. The National 
Trust for Historic Preservation works to revitalize America's 
communities by preserving our heritage--the buildings, neighborhoods, 
downtowns and landscapes that link us with our past and define us as 
Americans. Our mission is summed up in a short phrase: ``Protecting the 
Irreplaceable.'' Sprawl destroys the irreplaceable, which is why the 
National Trust is concerned about sprawl--and why I am pleased to 
appear before this committee today. On behalf of our 275,000 members, 
the National Trust advocates for the protection of the built 
environment as well as natural landscapes of historic and cultural 
significance. The integrity, indeed, the very existence of these 
resources, are threatened by poor planning and inappropriate 
development.
    America today is engaged in a great national debate. It's a debate 
about sprawl. The central question in the debate is this: Will we 
continue to allow haphazard growth to consume more countryside in ways 
that drain the vitality out of our cities while eroding the quality of 
life virtually everywhere? Or will we choose instead to use our land 
more sensibly and to revitalize our older neighborhoods and downtowns, 
thereby enhancing the quality of life for everyone?
    The debate touches every aspect of our lives--the quality of the 
natural and built environments, how we feel about the places where we 
live and work and play, how much time we have for our family and civic 
life, how rooted we are in our communities. I believe that this debate 
will frame one of the most important political issues of the first 
decade of the 21st century. Ultimately, its outcome will determine 
whether the American dream will become a reality for future 
generations.
    Preservation is in the business of saving special places and the 
quality of life they support, and sprawl destroys both. It devours 
historic landscapes. It makes the strip malls and subdivisions on the 
edge of Washington look like those on the edge of Albuquerque or 
Birmingham or any other American city. It drains the life out of older 
communities, stops their economic pulse and often puts them in 
intensive care--or sometimes even the morgue.
    Sprawl reminds me of Justice Stewart's remark about pornography: 
It's hard to define, but you know it when you see it. In simple terms, 
sprawl is the poorly planned, low-density, auto-oriented development 
that spreads out from the edges of communities. But it is best defined 
by the way it affects us in our daily lives.
    Winston Churchill said, ``We shape our buildings, and then our 
buildings shape us.'' The same holds true for communities: The way we 
shape them has a huge impact on the way we feel, the way we interact 
with one another, the way we live. By harming our communities, sprawl 
touches us all--and one way or another, we all pay for it.
    We pay in open space and farmland lost. Since 1950 the State of 
Pennsylvania has lost more than 4 million acres of farmland; that's an 
area larger than Connecticut and Rhode Island combined. Metropolitan 
Phoenix now covers an area the size of Delaware. It's estimated that 
over the next 45 years, sprawl in the Central Valley of California will 
affect more than 3.6 million acres of America's most productive 
farmland.
    We pay in time lost. A study last year reported that each of us 
here in Washington spends about 59 hours a year--the equivalent of a 
week and a half of work--stuck in traffic. The price tag for time and 
fuel wasted is roughly $860 annually for every man, woman and child in 
the Washington area. In Los Angeles, the average speed on the freeways 
is expected to drop to 11 miles per hour by 2010. A new term--''road 
rage''--has been coined to describe drivers frustration over traffic.
    We pay in higher taxes. Over the decades, we've handed over our tax 
dollars to pay for infrastructure and services--things like police and 
fire protection, water and sewer lines, schools and streetlights--in 
our communities. Now we're being asked to pay higher taxes to duplicate 
those services in sprawling new developments, while the infrastructure 
we've already paid for lies abandoned or under used in our older city 
centers and suburbs. Even worse, local governments use our tax dollars 
to offer incentives and writeoffs to sprawl developers--in effect, 
rewarding them for consuming our landscape and weakening our older 
communities.
    Finally, we pay in the steady erosion of our quality of life. Inner 
cities have become enclaves of poverty. Long, frustrating commutes 
leave us less time with our families. Tranquil neighborhoods are 
destroyed by road-widening. Historic landmarks get demolished and 
carted off to the landfill. Every place winds up looking more and more 
like Noplace. These signs point to an inescapable fact: Sprawl and its 
byproducts represent the number one threat to community livability in 
America today. And in a competitive global marketplace, livability is 
the factor that will determine which communities thrive and which ones 
wither. Nobel Prize-winning economist Robert Solow puts it this way: 
``Livability is not some middle-class luxury. It is an economic 
imperative.''
    Sprawl is finally getting the attention it deserves. It was the 
subject of major initiatives announced by the President and the Vice 
President in back-to-back speeches in January.
    Bipartisan caucuses focusing on smart growth and community 
livability have been formed in both the House and Senate. Governors 
across the political spectrum have announced programs to control sprawl 
and encourage smart growth. The Urban Land Institute, the American 
Institute of Architects, the National Governors Association, and 
foundations and nonprofit organizations of every stripe hold seminars 
and workshops on sprawl. Last November, voters from Cape Cod to 
California overwhelmingly approved some 200 ballot initiatives related 
to growth management and urban revitalization.
    All this attention is welcome. Sprawl is a national problem, and it 
needs a national debate. But the debate shouldn't focus on finding a 
national solution, because there isn't one. There are two essential 
elements in any effective program to combat sprawl: sensible land-use 
planning and the revitalization of existing communities. These are 
issues traditionally and best handled at the State and local levels--
and that, in the end, is where the fight against sprawl will be won or 
lost. But the Federal Government also has a crucial role to play in the 
process.
    There are obviously many factors such as crime, drugs and bad 
schools and public services that have helped propel the exodus of 
people and jobs from our central cities, but that exodus has been 
greatly facilitated--even accelerated--by the effects of Federal 
policies. Sometimes these effects have been intended and sometimes they 
have been inadvertent, but in most cases they have been profound. 
Because the Federal Government has contributed so heavily to the 
problem, it has a clear duty to help find solutions.
    It can--and should--do so in four ways:
    First, it should correct policies that encourage or reward sprawl. 
The direct role of Federal policies and investments in promoting 
suburban development at the expense of cities is difficult to pin down. 
It's never been systematically studied. But we do have a very good idea 
where to look, because sprawl-friendly policies and practices exist in 
almost every Federal agency. I'll mention only a few examples.
    The Federal tax code, in all its complexity, is heavily tilted 
toward new development and the consumption of open space. The tax code 
has historically subsidized upper middle class homeownership in the 
suburbs. It needs to put at least as much emphasis on promoting 
opportunities for revitalization and stabilization of older 
communities. Federal tax policy needs to provide incentives--which are 
currently lacking--for middle-class and moderate-income households to 
become urban homeowners.
    Nearly 17 million people work directly or indirectly for the 
Federal Government. With a work force that size, decisions about where 
the government locates its offices can have a huge impact on a 
community's economic health. Executive Order 12072, signed by President 
Carter, and Executive Order 13006, signed by President Clinton, require 
the General Services Administration and other Federal agencies to look 
first at downtowns and historic buildings and areas when considering 
where to locate Federal facilities. Since the 1980's, there has been a 
growing trend toward Federal agencies leaving downtowns and locating in 
new suburban developments.
    Unfortunately, implementation of these executive orders has been 
spotty and inconsistent, with agency heads continuing to pressure the 
GSA for locations in new developments. Right now, for example, in the 
small, economically depressed town of Glasgow, Montana, the U.S. 
Department of Agriculture is putting its county of lice in a new 
building that will be constructed in pasture land on the edge of town. 
A suitable downtown building was available, but USDA rejected it 
because the parking lot is a block away instead of right next door.
    Relocating post offices to suburban sites can also deal a body blow 
to a small-town Main Street--and put historic buildings at risk as 
well. Because post offices serve an important role in the social and 
business life of many towns, the U. S. Postal Service needs to give 
communities more say in where these essential facilities are to be 
located. I want to take this opportunity to commend Senator Baucus, who 
along with Senator Jeffords and Congressman Blumenauer, has championed 
the Post Office Community Partnership Act, which would establish 
minimum citizen involvement requirements that would apply to the 
renovation, relocation, closing, or consolidation of post of rices, and 
requires the Postal Service to comply with any local zoning or building 
codes imposed at the State or local level.
    The list goes on and on, but the biggest offender of all is Federal 
transportation policy, which can be summed up in a short phrase: ``feed 
the car, starve the alternative.'' As Jessica Mathews wrote a while ago 
in the Washington Post, ``Americans are not irrationally car-crazed. We 
seem wedded to the automobile because policy after. . . policy. . . 
encourages us to be.'' Transportation officials generally try to 
``solve'' problems by building more roads--an approach which is often 
like trying to cure obesity by loosening your belt.
    People need transportation choices and communities need balanced 
transportation systems. Historically, Federal policy hasn't done a good 
job of offering them--but that is changing, thanks to your leadership, 
Mr. Chairman, and this committee's, in building on the vision of ISTEA 
through the Transportation Equity Act for the 21st Century (TEA-21). 
TEA-21 encourages planning that looks beyond irrelevant political 
boundaries and allows for greater citizen and local government 
participation in making transportation investment decisions. Now that 
TEA-2 1 is law, we need to move forward with the hard work of 
implementation at the State and local levels to fulfill its promise. 
First and foremost, however, fulfillment of the goals of TEA-21 
provides a great opportunity for the Federal Department of 
Transportation to take a leadership role in urging the States to take 
full advantage of this landmark legislation.
    Second, the Federal Government should reward States and communities 
that promote smart growth and help revitalize existing communities.
    Being anti-sprawl is not being anti-growth. The question is not 
whether our communities should grow, but rather how they will grow. 
More and more people--private citizens and public officials alike--are 
realizing that the answer to that question lies in sensible land-use 
planning.
    Three States have recently launched different efforts to manage 
sprawl. Last May, Tennessee passed a law that requires counties and 
municipalities to adopt ``growth plans'' which, among other things, set 
firm boundaries for new development and public services. Closer to 
home, Governor Glendening's Smart Growth initiative in Maryland is one 
of the most innovative--and potentially one of the most significant--in 
the country. Under Governor Whitman's leadership, residents of New 
Jersey have approved up to $98 million in tax revenue annually for 
conservation and historic preservation; over 10 years this measure will 
protect a million acres of land--a marvelous gift to future 
generations.
    We should encourage efforts like these in other States. I suggest 
that we design a Federal ``smart growth scorecard''--a system that 
favors sensible, sustainable growth and evaluates the effectiveness 
with which States and communities meet that test. States that amend 
their building codes to make them more ``rehab-friendly'' or that 
remove their constitutional ban against the use of State gas tax 
revenues for mass transit projects, for example, are taking positive 
steps to fight sprawl and restore communities. They ought to be 
rewarded. The Federal scorecard would give States credit for 
initiatives such as these and would give smart-growth projects an edge 
in the competition for Federal funds.
    Third, the Federal Government should promote regional cooperation 
as a key to effective control of sprawl.
    Metropolitan areas now contain close to 80 percent of the total 
U.S. population. Half the people in this country now live in just 39 
metropolitan areas. But governmental structures in no way reflect this 
reality.
    Urban decline and sprawl are practically guaranteed wherever there 
is a balkanized system of local jurisdictions. There's a perfect 
example right here in Washington, where our metropolitan area is a 
patchwork quilt comprising two States, the District of Columbia, a 
dozen counties and a score of municipalities--each with its own budget, 
each following its own agenda.
    When it comes to sprawl, city limits and county lines are often 
meaningless marks on a map. Limited jurisdiction makes it hard for 
local government to deal with an issue of this magnitude, and efforts 
to control sprawl in a limited area often just shift the problem from 
one community to another. It's like trying to stop a flood with a 
picket fence.
    States need to encourage local governments in the same region to 
better coordinate their land-use and transportation plans, and the 
Federal Government can help a great deal by simply providing basic 
information that regions need. Much of this information--dealing with 
things such as the geographic mismatch between workers and jobs and the 
extent of out migration from cities to suburbs--already exists, but it 
is difficult and expensive for localities to obtain. That's a fairly 
easy problem to fix, and the Federal Government ought to do it.
    While regionalism by itself does not curb sprawl, it can moderate 
one of the engines of sprawl: the costly bidding wars between 
neighboring jurisdictions for sprawl-type development that holds out 
the hope for new tax revenues. Admittedly, the performance of some 
regional governments has been lackluster, but in other areas--Portland, 
Oregon, for example--regionalism is making a difference in addressing 
the problems of sprawl and poorly managed growth. Encouraging and 
assisting similar efforts all over the country should be a cornerstone 
of Federal policy.
    Happily, both Congress and the Clinton Administration are taking 
steps to utilize Federal policy to promote responsible growth. 
Enterprise zones and empowerment communities, the HUD Homeownership 
Zones program, brownfields, and other programs are intended to spur 
reinvestment in older areas. The ``Livability Agenda'' recently 
announced by Vice President Gore proposes a major initiative to reduce 
barriers to regional governance and to hind local partnerships that 
pursue smart growth strategies across jurisdictional lines. This will 
be the first flexible source of funding provided by the Federal 
Government to promote smarter metropolitan growth.
    Controlling sprawl is only half the battle, which brings me to the 
fourth thing the Federal Government should do: provide incentives for 
reinvestment in existing communities.
    Discussions about the plight of the cities often overlook a simple 
fact: When people leave the city it's not necessarily because they love 
sprawl or hate urban life, but because leaving is the rational thing to 
do. More than anything else, urban flight is an indictment of bad 
schools, crime and poor public services. As if this ``push'' weren't 
enough, people are ``pulled'' out of the city by policies and practices 
that make homes and infrastructure in the suburbs less expensive and 
easier to build.
    In place of this ``push-pull'' combination, we need public policy 
that favors existing communities. Fifty years ago the government began 
to offer economic inducements to families that wanted to flee to the 
suburbs; it's time to offer those same kinds of inducements to entice 
middle-class residents to return to, or stay in, the city.
    It all comes down to choosing where to make investments. If the 
Federal Government chooses to pour Finding into more outer beltways and 
more suburban infrastructure, sprawl will continue to spread like an 
epidemic. But if the government makes a commitment to existing 
communities, it can have an enormous, positive impact on the critical 
need to keep people in urban neighborhoods and give others a reason to 
move back to the city.
    One way to do this is by enacting the Historic Homeownership 
Assistance Act, which you, Mr. Chairman, have championed here in the 
Senate, along with Senator Graham. This legislation would extend a 
Federal tax credit to homeowners who renovate homes in historic 
districts, giving residents of older neighborhoods incentives to stay 
and invest in their community's future, and providing an incentive for 
others to move back into the city. By offering a way to put 
deteriorated property back on the tax rolls while making homeownership 
more affordable for lower-income residents, this legislation could 
greatly benefit communities all over the country. Obviously, this one 
act won't solve America's urban problems--but it can help, and a step 
in the right direction is better than standing still.
    This is the missing piece of the Administration's Livability 
Agenda, which includes a heavy focus on the preservation of open space. 
There's no question that we need to speed up our efforts to protect 
open space and farmland through land trusts, easements, the purchase of 
development rights and other means. I should also mention at this point 
that the National Trust endorses the Permanent Protection for America's 
Resources 2000 Act, legislation introduced by Senator Barbara Boxer and 
Congressman George Miller that would fully fund the Historic 
Preservation Fund, the Land and Water Conservation Fund, and other 
programs and make them true trust funds by taking them ``off budget.''
    Yet while saving greenspace is a very good thing, but it's not 
enough by itself. We could buy all the open land in the country and 
still not solve the problem of sprawl. The National Trust supports 
expanding eligible activities for the Administration's proposed Better 
America Bonds program to include infill construction on brown fields, 
and historic preservation. The proposed Lands Legacy Program should be 
broadened to include full funding of the Historic Preservation Fund at 
$150 million for Fiscal Year 2000.
    We also need to focus energies and resources on reclaiming the 
streets and neighborhoods where people live--the towns, inner cities 
and older suburbs that we've neglected so badly for the past half 
century. We must develop housing policies and programs that advance the 
goal of economic integration of our communities and lessen the 
concentration of poor households in inner-city areas. We must attract 
middle-income families back to the towns and cities, and we must 
generate reinvestment in lower income neighborhoods. At a minimum, we 
need to protect the Community Reinvestment Act, which requires that 
financial institutions help meet the credit needs of their communities, 
including low and moderate income areas, consistent with safe and sound 
lending practices. CRA is currently threatened by banking modernization 
legislation that has been reported out of the Senate Banking, Housing, 
and Urban Affairs Committee.
    In fighting sprawl, we're dealing with an issue that undermines 
many of the national goals and values that we've embraced over the 
years. The provision of affordable housing, improved mobility, a clean 
environment, the transition from welfare to work, the livability and 
economic health of our communities--all of these are undermined by 
sprawl. In fact, there is scarcely a single national problem that is 
not exacerbated by sprawl or that would not be alleviated if sprawl 
were better contained.
    We can continue turning much of our nation into a tragic patchwork 
of ruined cities and spoiled countryside, or we can insist on sensible 
Federal policies that strengthen communities instead of scattering them 
randomly across the landscape. I want to commend you,
    Mr. Chairman, and your colleagues, for demonstrating leadership on 
this issue by holding this hearing.
    Thank you very much for the opportunity to appear before this 
committee.
                                 ______
                                 
     Responses by Richard Moe to Additional Questions from Senator 
                               Lautenberg
    Question: Many people have pointed out the connection between 
abandonment of inner cities, particularly in areas where possible 
contamination of a former industrial or small business site may make 
redevelopment difficult, and urban sprawl.
    Do you think that having legislation which would help providing 
funding for site investigations and loans for cleanup would help 
encourage re-use of these sites? Would this then help alleviate 
pressure to develop in new, outer areas? Would legislation which 
relieved purchasers of such sites also help encourage re-use of these 
sites? Specifically, would the legislation I introduced earlier this 
year, S. 20, help achieve these goals?
    Response. The National Trust believes that appropriate additional 
incentives for the cleanup and redevelopment of abandoned industrial 
sites would be beneficial for the revitalization of cities and the 
redirection of investment from new outer areas to older urban 
neighborhoods. Environmental remediation is a significant input cost to 
redevelopment and, we understand, a principal reason why new 
development in untouched greenfields is more economically attractive to 
developers.
    The National Trust urges Congress to pursue appropriate legislative 
remedies, but as this subject is outside of our realm of expertise, we 
are not in a position to endorse any legislative proposals at this 
time.
                               __________
Statement of Kathryn Hohmann, Director, Environmental Quality Program, 
                            The Sierra Club
    Mr Chairman and members of the committee, my name is Kathryn 
Hohmann. I'm Director of the Sierra Club's Environmental Quality 
Program. I'm very grateful that the committee has asked the Sierra Club 
to offer testimony on the critical issue of sprawl.
    The Sierra Club is a national, grassroots environmental 
organization. We are the country's oldest environmental organization, 
with more than a half-million members who belong to more than 65 
chapters and 450 groups.
    Our Board of Directors biannually polls our membership to determine 
what issues are of greatest concern to our grassroots activists across 
the country. What we discovered was that while every place in America 
is unique, the problem of sprawl is ubiquitous. Sprawl and 
overdevelopment are threatening Connecticut's Traprock Ridges and 
California's San Mateo Creek in Orange County; New Jersey's Highlands, 
Rhode Island's Narragansett Bay and Puget Sound salmon in Washington 
State. Our activists chose sprawl as one of the worst threats facing 
their communities, and the Sierra Club adopted the Challenge to Sprawl 
campaign as one of our top priorities at the local, State and national 
level. But this work is not new; our members have been collaborating 
with local communities for more sensible development in a locally 
driven, publicly supported, grassroots campaign to stop sprawl. The 
goal of our program is to help communities pursue development that 
doesn't come at the expense of our clean air, clean water, open space, 
wildlife habitat, and public health and safety.
    The public is clearly concerned about urban sprawl and its 
consequences to the quality of their environment and their daily lives. 
A key component of the Sierra Club's campaign to fight sprawl has been 
oriented toward supporting local efforts. These efforts have focused on 
educating the public about steps that they can take to combat this 
menace and organizing the various stakeholders to create a clear public 
demand for actions to curb sprawl, protect open space and promote smart 
growth. Some examples of these local campaigns follow.
    In Utah, we're fighting urban sprawl, air pollution, and wetlands 
destruction by organizing and energizing local opposition to the 
proposed Legacy Highway, focusing and amplifying demand by the citizens 
of Salt Lake City, hunters and anglers, and family farmers for stronger 
measures to halt urban sprawl. Through the media, organizing community 
events, and hiring experts to expose the local metropolitan planning 
office's faulty modeling, elected officials were convinced to develop 
anti-sprawl open space preservation plans. More recently, the U.S. 
Environmental Protection Agency has come out in opposition to the 
Legacy Highway, a move we applaud.
    In Georgia, we are working with homeowners, conservationists, and 
others to rein in uncontrolled growth and highway construction by 
pushing for environment-friendly transit alternatives. We helped to 
generate support for shifting priorities for new transportation 
projects in the Atlanta Region from road construction to alternatives 
such as commuter rail transit and pedestrian facilities. Sprawl has 
emerged as a local priority issue--the Governor is discussing smart 
growth, and homeowners associations are working to improve local 
environmental law enforcement, including tree protection and 
sedimentation control.
    In Arizona, we are working to preserve the Sonoran desert and other 
remaining natural areas by helping our neighbors fight suburban sprawl 
and reckless development. We successfully combined our organizing 
outreach with our outings program by taking members of the media to the 
top 10 endangered natural areas in and around Phoenix. In addition, we 
developed a comprehensive Arizona sprawl report, which documents the 
problems associated with urban sprawl and advances policy 
recommendations.
    In Washington, DC and Virginia, we are fighting sprawl by promoting 
public transit and smart growth that saves taxes, prevents pollution, 
and protects open space--with the particular goals of securing long-
term protection for Chapman Forest and stimulating opposition to the 
12-lane Inter-County Connector. In Washington, DC, promoting urban 
reinvestment and fighting suburban sprawl has become a prominent part 
of the agenda. In central Virginia, our ``Tale of Two Counties'' slide 
show has stimulated serious study by several counties on how to 
preserve open space and farmland. We continue to work closely with the 
Mattaponi American Indian Tribe in Virginia to defeat the King William 
Reservoir that would promote sprawl development.
    The Sierra Club employs a variety of techniques designed to educate 
communities on the impacts of sprawl. ``Sprawl Costs Us All'' reports 
have been published in Maryland, Virginia and Wisconsin to highlight 
the local economic consequences of sprawl. Elected officials, the media 
and volunteers have taken ``Tours de Sprawl,'' which illustrate the 
best and worst types of development. ``Tours de Sprawl'' have been 
conducted in Arizona; Washington DC; Madison, WI; Richmond, VA; and 
Chicago.
    Although these have been very successful efforts, local efforts 
alone are not enough. The problems of sprawl can only be solved by a 
concerted and continuing effort at the local, State and Federal levels.
    The causes, costs and consequences of sprawl go far beyond the 
issues that the environmental community has traditionally faced. But in 
order to deal with sprawl, we need to understand how inter-related 
problems like traffic gridlock, urban livability and global climate 
change ultimately are. It was, after all, our founder John Muir who 
said that ``when we try to pick out anything in the universe, we find 
it hooked to everything else.'' So just as sprawl has presented us with 
broad, far-reaching problems, we will need to bring to bear long-term, 
innovative and cost-cutting solutions.
    Traffic congestion is one consequence of sprawl. Sprawl gives 
people no choice but to drive further to get from home to work. In 
Washington, DC, the time commuters spent stuck in traffic climbed 69 
percent between 1982 and 1994--and you can bet they didn't make up for 
that increased time by working fewer hours. Longer commutes lead to 
parents who are more tired and have less time available to spend with 
their children. In Atlanta, where motorists now lead the Nation in 
miles driven per person per day, air pollution is so bad the area has 
lost Federal highway funds for failing to meet clean air standards.
    Worsening water pollution is another consequence of sprawl. One of 
the most damaging aspects of sprawl is run-off from pavement. As 
America's green space gets bulldozed by developers, polluted run-off 
adds sediment and chemicals into our waterways, degrading our drinking 
water and spoiling recreational opportunities like fishing and 
swimming. In Seattle, development around Puget Sound is being blamed 
for the polluted water and habitat destruction that has resulted in the 
proposed Endangered Species listing of chinook salmon.
    Our wetlands--nature's water filters and flood-stopping sponges--
are vulnerable, too. Each year in the U.S., we allow more than 100,000 
acres of wetlands to be destroyed. Some of those wetlands are the last 
wild places in our communities, and some serve as nurseries for 
abundant, multi-billion dollar fisheries, but they are going fast. 
Wetland destruction has been shown to increase flooding in Illinois and 
other States.
    Sprawl threatens our rural legacy, too. And the rate of development 
is accelerating. The American Farmland Trust reports that we are losing 
1 million acres of farmland per year to sprawl.
    There are economic, as well as environmental consequences to 
sprawl. Planners in Minneapolis-St. Paul estimate it will cost $3.1 
billion for just the new water and sewage services that will be needed 
to accommodate projected growth between now and 2020. And crowded 
schools are a legacy for many families in suburbs today.
    Sprawling suburbs burden local communities by demanding higher 
taxes for new water and sewer lines, extra schools and buses, expanded 
police and fire protection.
    Who pays for the big sewer line out to the middle of nowhere? 
Residents in the existing parts of town and us taxpayers, that's who. 
Sprawl costs our cities and counties millions of dollars, and those 
costs are not offset by the taxes paid by the new users. Instead, 
sprawl forces higher taxes on existing residents, some of them cash-
strapped seniors or other low-income taxpayers.
    Urban areas and older, declining suburbs don't escape the harmful 
effects of sprawl. As families flee to the countryside, a city's tax 
base disappears, forcing mayors to raise taxes on remaining taxpayers 
to pay for city services. And the so-called ``brownfields'' don't get 
cleaned up, because businesses are given incentives to relocate to 
outer ``greenbelts.'' Sprawl destroys downtown commerce by pulling 
shoppers from once-thriving locally owned stores and restaurants to 
large regional malls. Unemployment, lowered property values, and fewer 
investment opportunities all result when cities lose their vitality and 
livability.
    Sprawl is serious, it's hurting us all, and it's getting worse--
fast. That's why last November, voters from California to Cape Cod--
Democrats and Republicans alike--approved more than 150 ballot 
initiatives dealing with growth management, land use and urban 
revitalization. In New Jersey, voters--even in the State's tax-adverse 
Republican counties--overwhelmingly approved the use of a billion 
dollars in tax revenue to conserve open space and farmland.
    Solving the sprawl problem will require innovation, and government 
will need to play a role. But what is needed is not more government, 
but more government leadership. In fact, the State, local and Federal 
Government will need to do less of some things. Government must stop 
building highways that encourage sprawl and stop subsidizing wetlands 
destruction and home construction in floodplains where perennial losses 
are costing taxpayers billions of dollars. Government must stop giving 
grants and tax incentives that encourage developers to fragment 
wildlife habitat and countryside, and avoid locating Federal facilities 
outside of existing developed areas.
    Governments must also play a positive role. For example, States can 
encourage or require comprehensive planning and can channel State funds 
to existing urban areas. The Federal Government can be constructive, 
too, by putting real funding into transportation choices, and then 
supporting taxpayer incentives for transit use.
    The Federal Government can also support conservation easements that 
allow landowners to donate development rights to their land to 
conservation organizations. In turn, those landowners may receive 
income--property--and estate-tax relief. The Federal Government can 
reform the policies that allow construction, and reconstruction, in 
flood plains, listening to its own experts in the Federal Emergency 
Management Agency who warn against future disasters if this wrong-
headed policy continues. And the Federal Government can halt the 
practice of rubber-stamping wetlands destruction when developers want 
to build in these precious areas. Comprehensive, speedy cleanup of the 
``brownfields'' in urban areas could also help in our battle against 
sprawl.
    Congress can act to usher the Clinton Administration's Livable 
Communities and Land Legacy programs initiatives into law. Full funding 
for innovative programs such as the Better America Bonds would be a 
great first step.
    The Better America Bonds would allow the Federal Government to 
partner with local communities to finance environmental protection and 
reduce sprawl. These bonds would allow local governments and nonprofit 
organizations to buy land at today's prices and forgo interest payments 
for 15 years. This means that communities can act now to preserve the 
places they hold dear, whether it's a fishing spot along a stream or a 
wildlife haven in a forest.
    The Better America Bonds program will provide $700 million in new 
tax credits, but it would be much more than that. It would be, over 5 
years, nearly $10 million in bonding authority for communities to shape 
own their futures in a way that's environmentally positive.
    We believe that the Better America Bonds could help local 
governments purchase land or work to repair environmental damage, 
creating healthier, safer, greener communities. Bondholders will 
receive an annual Federal tax credit in lieu of interest payments. 
Local governments, or their nonprofit partners, will pay off the 
principal at the end of the 15-year term of the bonds.
    Our local communities are now using bonds for their infrastructure 
needs, so why not use them to pay for long-term benefits like 
preserving open space? Better America Bonds could complement our 
Federal land acquisition programs by allowing us to finance local land 
and water conservation. The control stays in communities; the Federal 
role is limited to assisting with financing for qualified projects. 
Local governments or nonprofit groups will manage land and 
improvements. The Sierra Club urges this committee to support this 
innovative program.
    Providing special protections for our most precious wildlands, from 
national treasures like the Mojave National Park and Preserve to the 
``small and sacred places'' in our very backyards, is an essential tool 
for easing the effects of sprawl. For over a hundred years, we have 
been setting aside special places so that they may be preserved for 
future generations. The Land and Water Conservation Fund (``LWCF''), 
which provides funds for State and Federal land acquisition, has been a 
valuable tool in these efforts for almost 40 years.
    However, only a fraction of the annual $900 million promised to the 
LWCF from Outer Continental Shelf oil and gas revenues has ever made it 
into the Fund's yearly budget. Obtaining full and permanent funding for 
the LWCF is a top priority for the Sierra Club and we are pleased to 
see all the bills being considered by Congress share this goal. We 
welcome efforts to pass legislation that will ensure protection of our 
nation's special places and wildlife.
    Senator Boxer's ``Resources 2000 Act'' (S. 446) most clearly 
embodies the principles we believe are essential for OCS-related 
conservation legislation. We strongly support the bill's full funding 
levels for both Federal and stateside LWCF. This level of funding will 
allow us to purchase valuable wildlands from willing sellers, providing 
much needed added protection for our most precious National Wildlife 
Refuges, Parks, Forests and BLM-managed protected areas. Landmark 
efforts would include further protection of such spectacular places as 
the Mojave and Joshua Tree National Parks, the Maine Woods, and the 
Everglades National Park. Resources 2000 would provide $450 million in 
stateside funding as well, giving States and local governments the 
resources they need to fight the effects of sprawl, and set aside 
valuable wildlife habitat and open space.
    The Sierra Club supports efforts to provide funding for wildlife 
conservation and protection, as well as programs for urban parks and 
recreation, historic preservation, coastal and marine resources 
restoration, and farm and rangeland conservation. Senator Boxer's bill 
would provide $1.3 billion in funding for these valuable programs.
    Finally, we strongly support the Endangered and Threatened Species 
Recovery title of S. 446. Resources 2000 would provide $100 million 
annually in dedicated funds to assist private landowners in the 
development and implementation of endangered and threatened species 
recovery agreements. Unlike other proposed landowner incentives 
programs, S. 446 applies only to programs that contribute to the goal 
of recovery and would be restricted to purely voluntary activities not 
otherwise required under law.
    We also applaud Sen. Feinstein's efforts to guarantee full and 
permanent funding for both the LWCF and the Urban Parks and Recreation 
Recovery Program (``UPARR'') and recognize that her continued support 
on this issue is essential. Sen. Feinstein's ``Public Land and 
Recreation Reinvestment Act'' (S. 532) represents a positive step 
toward full and permanent funding for the LWCF and UPARR.
    We are pleased that many sponsors of the various OCS-related 
conservation bills appear committed to working together to devise 
effective conservation legislation. It is encouraging that all parties 
share the goal of crafting legislation that provides full and permanent 
funding for the LWCF and other valuable conservation programs. However, 
we maintain serious concerns about several provisions in one of these 
bills, S. 25 by Senators Landrieu and Murkowski.
    Although S. 25 shares the goal of funding important natural 
resource protection and wildlife programs, it does so at the expense of 
our coastal environment. In its current form, S. 25 ties funding from a 
new State and local government matching grants program, created from 
offshore drilling revenue, directly to the proximity of offshore oil 
and gas development. This may provide a substantial incentive for 
coastal States and local governments to promote stepped-up production. 
In addition, through this new fund, the Murkowski/Landrieu bill 
lavishes a disproportionate share of the public's money on a half dozen 
States and shortchanges the rest of America. To the contrary, Resources 
2000 distributes funds from the LWCF, as well as other new programs 
funded from offshore drilling revenues, equitably across the country.
    We are also deeply concerned about the restrictions this bill 
places on LWCF funds. The bill would place a ban on land purchases in 
excess of $5 million without further Congressional approval. 
Acquisitions in the Mojave National Preserve have already been 
authorized and the seller there is ready and willing. A nonprofit 
conservancy organization is willing to contribute substantial amounts 
to acquire these inholdings. All that is needed to permanently protect 
these valuable lands is the LWCF money. The proposed restriction would 
hamper our ability to protect this special place and tie the hands of 
Federal land managers, restricting their ability to carry out 
activities already authorized by law.
    In addition, S. 25 requires that two-thirds of yearly funding be 
spent east of the 100th meridian. We oppose this arbitrary geographic 
limitation, as it also interferes with land managers ability to 
effectively protect our most valuable wildlands, and will impede years 
of progress on several ongoing projects in the West. A third 
restriction on the use of Federal LWCF funds would prevent acquisition 
outside the exterior boundaries of our current land management system, 
seriously impeding the creation of any new units in our Federal lands 
protection system. For instance, a program for Everglades restoration 
that has been years in the making would be effectively discontinued, as 
a key element to the program is land acquisition outside Park 
boundaries for water storage capacity.
    Some local communities are light years ahead of the Federal 
Government when it comes to building healthy, livable communities, and 
that's the way it should be. Communities that used smart growth 
policies to guide their growth have seen great rewards. A study by the 
Southeastern Michigan Council of Governments showed that Michigan 
communities with smart growth policies saved $53 million in road costs, 
$33 million in sewer costs, cut housing costs by 6.4 percent and 
reduced the destruction of open land by 12 percent.
    But communities can't stop sprawl on their own. The Federal 
Government must stop subsidizing sprawl and start developing solutions 
to the environmental, health, and economic consequences of continued 
sprawl. The Sierra Club looks forward to working with this committee 
and the rest of Congress to develop and pass policies that will stop 
sprawl from hurting us all.
    Healthy, livable suburban communities are not an impossibility. 
They are what Americans are demanding for their families, for their 
future.
    Thank you.
                               __________
Statement of Steven Hayward, Senior Fellow, Pacific Research Institute 
                           for Public Policy
    I am Steven Hayward, senior fellow with the Pacific Research 
Institute in San Francisco, and until a few weeks ago a visiting fellow 
in urban issues at the Heritage Foundation. The Pacific Research 
Institute studies a wide range of issues in political economy, and 
favors policies that employ market remedies and individual incentives. 
I have been conducting research and writing about growth management and 
environmental issues for more than 10 years.
    The best way to begin putting the current debate on urban sprawl 
into some context is to make recourse to that proverbial barometer of 
public sentiment, the taxi driver. Not long ago I was in a taxi on 
route from Lindbergh Field in St. Louis to an appointment in St. 
Charles County, which is where the suburban sprawl of the greater St. 
Louis area is taking place. Looking for some local insight, I asked the 
driver what he thought about what was going on there. ``Man,'' he told 
me, ``they're building so fast out here there isn't going to be any 
land left.'' I asked where he lived. ``I live in the City of St. 
Louis,'' he told me; but he quickly added without any prompt from me: 
``But I'm going to move out here. The quality of life is so much 
better; you get much more value for your housing dollar.''
    This is what social psychologists have long termed ``cognitive 
dissonance'' the ability to keep two contradictory thoughts in mind and 
be relatively untroubled by it. As Jim Johnson, recently retired as 
chairman of Fannie Mae, neatly summarizes it: The American people are 
against two things they're against sprawl, and they're against density. 
What I want to suggest is that there is a lot of cognitive dissonance, 
misperception, and lack of proportion in the current discourse about 
sprawl, open space and agricultural land preservation, and urban form.
    One should begin with a quick reference to aggregate land use 
statistics. The total amount of urbanized or built-up land is less than 
5 percent of the total land area in the continental U.S., and the rate 
of land being developed, based on U.S. Geological Survey estimates, is 
about 0.07 percent. Some evidence suggests that the rate of ``sprawl'' 
is actually lower today than it was in the 1950's and 1960's. The 
``sprawl index,'' a simple comparison of population growth and the rate 
of urbanization, has actually declined since 1980. Moreover, since the 
end of World War II, the amount of land set aside for parks, 
wilderness, and wildlife has grown twice as fast as urban areas. In 
1969, there were 2.6 acres of conservation land for every acre or 
urbanized land; today there are about 4 acres of conservation land for 
every acre of urbanized land. (These figures exclude national parks and 
agricultural conservation land programs.) And private land conservation 
efforts are booming.
    These kind of aggregate national statistics are almost irrelevant 
to the politics of the issue. I am reminded of President Roosevelt's 
famous quip to critics of the long-run effects of the New Deal: 
``People don't eat in the long run; they eat every day.'' Similarly, 
nearly every piece of open space that yields to the bulldozer occurs in 
the line of sight of a populated area where people live now, and the 
change and disruption it brings locally trumps the fact that the land 
area in question represents a statistically miniscule portion of the 
whole.
    The aversion to rapid change is the dominant social fact behind the 
controversy over sprawl, and it is enhanced by a second powerful social 
fact: the increasing latitude for choice that people have today. Thirty 
years ago, for example, our phones were the property of the monopoly 
phone company; today we choose our long distance provider. While the 
main story line of modern life I expanding choice and opportunity, 
rapid urban growth is seen as narrowing our range of choice and 
diminishing our control over our own destiny. In its most acute form, 
we are less able to choose when and where to drive because of traffic 
congestion. And when people do not have a sense that they can control 
events themselves, they earnestly wish that someone else the government 
would.
    Most of the ideas that make up the conventional wisdom on the 
subject at the moment, such as urban growth boundaries and, to a lesser 
extent, the bundle of ideas that go under the banner of ``smart 
growth,'' are misguided, because they misperceive much of what is 
happening in urban areas (especially the increase in traffic 
congestion), and as remedies they would be ineffective in solving the 
main problems associated with growth.
    Explaining why this is so would take a lot longer than 5 minutes, 
so let me mention the single most important reason for being cautious 
about embracing ambitious land-use regulation schemes or other measures 
that will distort the land market. A century of experience with 
regulation of various kinds has taught us that regulation typically 
favors the affluent and the organized over the less affluent and less 
organized. There are few groups less organized or represented than the 
people who would benefit from the houses and jobs that do not yet 
exist. Many of the advocates of ``smart growth'' will tell you that 
this is not a debate about growth per se, but is a debate about the 
form growth should take. While I take them at their word at this, I 
think we are being naive if we fail to recognize that growth management 
schemes can easily become the machinery of negation by existing 
residents. To pick a nearby example, the angry voters attending Fairfax 
County Commission meetings are not arguing over the form of 
development: they simply want less of it because, as several told the 
Washington Post a few months ago, our housing values are stagnant 
because the county is allowing too many homes to be built.
    Everyone's favorite model for enlightened growth management these 
days Portland, Oregon is starting to show the same kind of exclusionary 
effects that have long been observable in the boutique regions of 
Boulder, Colorado, and Santa Barbara and Marin Counties in California: 
disproportionately rising housing prices (see table below), and signs 
that in-migration is being deterred, which is no doubt what many 
Oregonians had in mind all along. The Wall Street Journal recently 
carried a short news item regarding the rising number of people moving 
out of Oregon the only western State where this can be observed.
    Federal policy, whether funding for open space purchases, or 
infrastructure policy such as ISTEA, should guard against the potential 
for exclusionary effects. This is very difficult to do. A more 
effective alternative to land use regulation would be variable rate 
road pricing, which would not only affect individual incentives for the 
time of day and amount of driving people do, but would also become a 
factor in site-selection decisions for business location. Both would 
help encourage more compact and efficient use of land and roads.

                                               Median Home Prices
----------------------------------------------------------------------------------------------------------------
                                                                                                       Housing
                                                                  1990         1998        90-98%        Cost
                                                                                          Increase     Index\1\
----------------------------------------------------------------------------------------------------------------
Portland....................................................       79,500      160,000        102.0        121.7
Salt Lake City..............................................       69,400      133,300         92.1         96.5
Phoenix.....................................................       84,000      121,900         45.1        103.3
Las Vegas...................................................       93,000      130,800         40.6        104.7
Denver......................................................       86,400      149,100         72.6        103.4
----------------------------------------------------------------------------------------------------------------
* 1996 HCI, U.S Census Bureau (median income related to median housing prices; U.S. average = 100)
Note the contrast with the ``sprawling'' cities of Phoenix and Las Vegas.

                               __________
  Statement of Gary Garczynski, National Association of Home Builders
Where We Live, Work and Play
    The concept of ``Smart Growth'' has exploded onto the national 
consciousness as one of the most critical issues confronting America 
today. It touches on choices we Americans hold close to our hearts--
where we live, work and play, the education of our children, commute 
times to work, and the economic and job opportunities created by new 
growth in our communities. It is an idea that addresses the questions 
of how best to plan for and manage growth, when and where new 
residential and commercial development as well as schools and major 
highways should be built and located and how to pay for the 
infrastructure required to serve a growing population.
    In its broadest sense, Smart Growth means meeting the underlying 
demand for housing created by an ever-increasing population and 
prosperous economy by building a political consensus and employing 
market-sensitive and innovative land-use planning concepts. It means 
understanding that suburban job growth and the strong desire to live in 
single-family homes will continue to encourage growth in suburbia. At 
the same time, Smart Growth means meeting that housing demand in 
``smarter ways'' by planning for and building to higher densities, 
preserving meaningful open space and protecting environmentally 
sensitive areas.
    The key elements of NAHB's Smart Growth strategy include the 
following:
    Anticipating and planning for economic development and growth in a 
timely, orderly and predictable manner;
    Establishing a long-term comprehensive plan in each local 
jurisdiction that makes available an ample supply of land for 
residential, commercial, recreational and industrial uses as well as 
taking extra care to set aside meaningful open space and to protect 
environmentally sensitive areas;
    Removing barriers to allow innovative land-use planning techniques 
to be used in building higher density and mixed use developments as 
well as in-fill developments in suburban and inner-city neighborhoods;
    Planning and constructing new schools, roads, water and sewer 
treatment facilities and other public infrastructure in a timely manner 
to keep pace with the current and future demand for housing, and 
finding a fair and broad-based way to underwrite the costs of 
infrastructure investment that benefits the entire community;
    Achieving a reasonable balance in the land-use planning process by 
using innovative planning concepts to protect the environment and 
preserve meaningful open space, improve traffic flow, relieve 
overcrowded schools and enhance the quality of life for all residents; 
and
    Ensuring that the process for reviewing site-specific land 
development applications is reasonable, predictable and fair for 
applicants and contiguous neighbors.
    Most important, Smart Growth is understanding the aspirations of 
Americans--the very people comprehensive growth plans are intended to 
serve--while protecting the environment and quality of life for all 
Americans. Where do people want to live? What type of homes do they 
want for themselves and their children? What can they afford? What 
types of jobs and economic opportunities do they seek and expect?
    Ironically, the concept of Smart Growth has emerged on the 50th 
anniversary of the nation's 1949 National Housing Act, the landmark 
bill in which Congress first set forth the national goal of ``providing 
a decent home in a suitable living environment for every American 
family.''
Housing's Record Accomplishments
    Since then, the achievements of the housing industry have been 
nothing short of remarkable. In the past 50 years, home builders have 
built nearly 75 million new homes and apartment units, or three of 
every four housing units in the country today. Millions more have been 
remodeled and rehabilitated. The homeownership rate has increased from 
44 percent to a record 66.3 percent today. And, in recent years, a 
strong economy, low interest rates and improvements in the housing 
finance system have opened the door to homeownership for millions of 
minorities and immigrants previously unable to buy a home. The quality 
of new housing has also improved steadily over the past 50 years, 
making today's new homes more comfortable, more durable, easier to 
maintain and much more energy-efficient than ever before.
    The benefits of this housing growth reach far beyond the housing 
market. New housing construction has helped lift the nation's economy 
to new heights, creating millions of jobs in home building-related 
industries each year. It has expanded the tax base and generated 
billions of dollars of tax revenues for local governments, and 
triggered spending for goods and services that accounts for about 4 
cents of every dollar spent in the U.S. annually. It has also 
contributed greatly to individual financial security, allowing 
America's 69 million home-owning households to accumulate $5 trillion 
in home equity, which accounts for close to half the net worth of those 
households.
    But the job of housing America is far from complete. The nation's 
population is projected to grow by about 30 million people over the 
next 10 years. More than a million new households are being formed 
annually. America's home builders will have to construct between 1.3 
and 1.5 million new housing units each year just to meet the underlying 
demand for shelter during the next decade. This does not include the 
additional housing units and support required to meet the housing needs 
of more than 5 million Americans who still live in substandard housing 
or pay more than 50 percent of their incomes for rent.
Building a Political Consensus
    How well we plan for projected increases in households, changing 
demographics and lifestyles and an expanding economy will have a major 
impact on the quality of life in years ahead. When used properly as a 
planning tool, Smart Growth can help expand homeownership opportunities 
and allow Americans to obtain the home and lifestyle of their dreams. 
There are some, however, who want to turn Smart Growth into a tool to 
stop or slow growth. Such a move would penalize and put at greatest 
risk those living at the edge of housing affordability--the young, 
minorities, immigrants and moderate-income families who are just now 
taking advantage of today's economic prosperity and low interest rates 
and are entering the homeownership market in record numbers.
    It is also worthwhile to note that residential and commercial 
growth is fluid--meaning that when it is stopped in one place, it will 
inevitably occur somewhere else. The forces of no growth are, in part, 
responsible for the leapfrog development patterns of the past. 
Attacking past development patterns and blaming builders does not 
recognize the fact that public policy dictates where development 
occurs. Such political rhetoric is not only wrong and counterproductive 
but it polarizes the very people who should sit down together and work 
out solutions on Smart Growth.
    Understanding where people want to live and the homes they want to 
live in is the first step in mapping the patterns of growth for America 
in the decade ahead. Seeking common ground and building a political 
consensus must follow. This discussion should start in each local 
jurisdiction--city, county or township--because the politics of growth 
are uniquely local and because the authority to determine land use is 
vested in local government. While general planning principles are 
useful, the actual planning tools and strategies selected will vary 
according to local market conditions.
    The Federal Government's role should be to encourage--not mandate--
local communities to adopt long-term comprehensive plans that will meet 
the demand for new housing, public infrastructure and other services in 
the decade ahead. The concept of purchasing open space should not be 
used to block the path of development, a move that would exacerbate the 
leapfrog development patterns of the past.
``Smart Growth'' Principles
    The National Association of Home Builders endorses the concept of 
Smart Growth as outlined in this statement. When used appropriately and 
in concert with market forces, Smart Growth can serve as a blueprint 
for planning and building an even better America in the years ahead. To 
assist local communities in developing Smart Growth plans, NAHB 
supports and encourages implementation of the following concepts:
    Meeting the Nation's Housing Needs: As a fundamental part of any 
``Smart Growth'' plan, a community must plan for and accommodate its 
anticipated growth in economic activity, population and housing demand 
as well as ongoing changes in demographics and lifestyles. For example, 
when setting aside meaningful open space, a local community should 
rezone other land to assure there is an ample supply of land available 
for residential development. For the nation, annual increases in 
population mean that America's home builders will have to construct 
between 1.3 and 1.5 million new housing units per year to meet the 
underlying demand for shelter. Meeting this demand for shelter and 
increasing homeownership opportunities are compelling national goals 
that must be addressed in every community's comprehensive growth plan. 
It is the responsibility of every community to plan for and embrace the 
growth that is naturally triggered by economic prosperity. I11Providing 
a Wide Range of Housing Choices: NAHB recognizes the basic right of 
every American to have a free choice in deciding where and in what kind 
of home to live. In poll after poll, Americans continue to show a 
strong preference for single-family homes in a suburban setting. In 
fact, when asked in a recent survey whether they would prefer a single-
family home on an individual lot in an outlying suburban market versus 
a smaller townhouse located near the urban core and closer to work and 
mass transit, the vast majority of prospective home buyers chose the 
detached single-family home. Communities should recognize these basic 
preferences as part of any comprehensive planning process. NAHB 
supports planning for growth that allows for a wide range of housing 
types to suit the needs and income levels of a community's diverse 
population, while recognizing ``smart ways'' to manage growth by 
permitting higher densities, preserving open space and protecting 
environmentally sensitive areas. And while recent gains in 
homeownership rates are commendable, the dream of owning a home or 
simply finding decent, affordable housing is still an ongoing struggle 
for millions of American families. Any Smart Growth planning process, 
therefore, should provide for affordable housing at all income levels.
    A Comprehensive Process for Planning Growth: NAHB supports 
comprehensive land-use planning that clearly identifies land to be made 
available for residential, commercial, recreational and industrial uses 
as well as land to be set aside as meaningful open space. Such plans 
should protect environmentally sensitive areas as well as take into 
account a community's projected economic growth rate, demand for new 
housing and expanded infrastructure--road, schools and other 
facilities--required to serve a growing population. Builders, land 
developers and other industry members should be encouraged to lend 
their expertise and participate in the design and periodic review of a 
community's comprehensive planning process.
    Planning and Funding Infrastructure Improvements: NAHB encourages 
local communities to adopt balanced and reliable means to finance and 
pay for the construction and expansion of roads, schools, water and 
sewer facilities and other infrastructure required to serve a 
prosperous community. Planning major infrastructure improvements--
particularly transportation--requires cooperation across governmental 
boundaries to resolve issues. Reducing traffic congestion, relieving 
overcrowded classrooms and providing other public facilities and 
services are absolutely essential components of any ``Smart Growth'' 
plan. Ensuring that the construction of schools, roads and other 
infrastructure keeps pace with the anticipated growth in population and 
economic activity is one of the biggest challenges facing local 
communities today. Appropriate bodies of government should adopt 
capital improvement plans (with timing, location and funding elements) 
designed to fund necessary infrastructure required to support new 
development. Ensuring that infrastructure is funded equitably and that 
the cost is shared equitably throughout all segments of the community--
existing residents as well as newcomers--is an even greater challenge.
    Using Land More Efficiently: NAHB supports higher density 
development and innovative land-use policies to encourage mixed-use and 
pedestrian-friendly developments with access to open space and mass 
transit. To generate greater public support for this type of 
development, however, will require a change in thinking by people 
opposed to higher density development in their own backyards, by local 
governments that have erected barriers to higher density development 
and are easily influenced by citizen groups opposed to any new growth 
and by typical housing consumers who continue to favor a single-family 
home on an individual lot.
    Revitalizing Older Suburban and Inner City Markets: NAHB recognizes 
that revitalizing older suburban and inner city markets and encouraging 
in-fill development is universally accepted as good public policy. But 
even under the best of conditions, in-fill development will satisfy 
only a small percentage of a community's demand for new housing. The 
joint effort announced on Feb. 4 by Vice President Al Gore, the U.S. 
Conference of Mayors and NAHB to construct 1 million additional market-
rate housing units in the nation's cities and inner-ring of the suburbs 
over the next 10 years is an achievable goal. But to reach that goal, 
the Administration and nation's cities will have to work closely with 
the housing industry to overcome major impediments, such as aging 
infrastructure that makes redevelopment costly and difficult, and 
Federal liability laws that increase risks for builders involved in the 
redevelopment of ``brownfield'' sites. Making cities safe from crime, 
improving the quality of schools and creating employment opportunities 
are prerequisites for rebuilding the nation's inner cities and for 
encouraging people to return to them.
    As we prepare to enter a new millennium, our nation faces many 
challenges. One of the most significant is ensuring that, as our 
population grows and our economy prospers, growth and development occur 
in a smart, orderly and predictable fashion. The nation's home builders 
and the 197,000 members of the National Association of Home Builders 
are committed to pursuing reasonable and market-driven ``Smart Growth'' 
strategies that will meet the nation's housing needs, expand 
homeownership opportunities, help revitalize the nation's cities and 
inner suburbs, and build attractive and livable neighborhoods and 
communities and an even more prosperous America in the 21st century.
                                 ______
                                 
     [Press Release From the National Association of Home Builders]
Smart Growth Strategies Must Account for Home Buyer Preferences, Local 
                                 Needs
    Washington, March 17.--Communities seeking to embrace Smart Growth 
land-use strategies need to adopt locally specific, comprehensive plans 
that take into account home buyer preferences, housing demand, and 
public infrastructure requirements, the National Association of Home 
Builders (NAHB) told Members of Congress today. The Federal Government 
should encourage, though not mandate, such plans.
    Testifying before the Senate Environment and Public Works Committee 
on the topic of Smart Growth, NAHB Vice President/Secretary Gary 
Garczynski said that since the politics of growth are uniquely local 
and the authority to determine land use is vested in local government, 
Smart Growth planning should start in local jurisdictions. ``The 
Federal Government's role should be to encourage--not mandate--local 
communities to adopt long-term comprehensive plans that will meet the 
demand for new housing, public infrastructure and other services in the 
decade ahead,'' he said.
    Garczynski, who has 30 years of experience in the building and land 
development business, said the 197,000-member NAHB supports 
``reasonable and market-driven land use strategies that will meet the 
housing needs of this country while expanding homeownership 
opportunities, revitalizing cities and building attractive 
communities.'' As an example, he cited a newly formed partnership among 
NAHB, the nation's mayors, the Department of Housing and Urban 
Development and the Office of Vice President Al Gore. The partnership's 
goal is to build new homes in the nation's cities and inner-ring 
suburbs.
    Garczynski identified six key elements of NAHB's own Smart Growth 
Strategy, including:

    1. Anticipating and planning for economic development and growth in 
a timely, orderly and predictable manner;
    2. Establishing a long-term comprehensive plan in each local 
jurisdiction that provides ample land for residential, commercial, 
recreational and industrial use while also protecting open space and 
environmentally sensitive areas;
    3. Removing the regulatory and planning barriers that stop 
innovative planning and hinder mixed-use, infill and inner-city 
development;
    4. Planning and constructing new schools; roads and other public 
infrastructure to keep pace with the current and future demand for 
housing, and finding an equitable way to pay for that infrastructure 
without pitting existing residents against future residents;
    5. Achieving balance in the planning process by using innovative 
planning concepts to achieve Smart Growth's goals and enhance the 
quality of life for all residents; and??
    6. Ensuring that the process for reviewing site-specific land 
development applications is reasonable, predictable and fair for 
applicants and neighbors.

    ``Smart Growth starts by recognizing where people want to live and 
the homes they want to live in,'' said Garczynski. ``We must remember 
that in survey after survey, Americans continue to show a strong 
preference for single-family homes in a suburban setting.''
    Garczynski also urged Congress not to mistake no-growth agendas for 
Smart Growth, saying the greatest risk of such policies is that they 
will compromise housing affordability, especially for first-time 
buyers, minorities, immigrants and median-income families.
    ``No-growth or slow-growth policy is ultimately self-defeating,'' 
he said, because eliminating opportunity doesn't eliminate demand. 
``More than a million new households are formed in this country every 
year, and home builders will have to construct between 1.3 and 1.5 
million new housing units annually to meet demand through the next 
decade.''
                                 ______
                                 
           [Press Release from the National Realty Committee]
Targeted Federal Reforms, Investments Could Advance ``Smart Growth'' in 
                            Cities, Suburbs
    By supporting investments in open space and reforming policies that 
undermine local efforts at more effective land-use planning, Federal 
policy makers can help America's communities address sprawl-related 
concerns and improve their quality of life and competitiveness, 
National Realty Committee testified today before the Senate Environment 
and Public Works Committee.
    As a result of smart growth planning policies, many cities are 
experiencing a ``kind of renaissance,'' NRC Environmental Policy 
Advisory Committee Chairman Nelson C. Rising advised members of the 
Committee. ``San Francisco, Portland, Boston, New York and Chicago 
demonstrate a rich mixture of residential and job-intensive commercial 
and retail uses, attention to the public realm and plenty of open 
space. Similarly, suburban areas with a strong jobs housing mix, easily 
accessible retail and office districts, transit- and pedestrian-
friendly neighborhoods, and substantial amounts of open space are also 
flourishing.''
    Rising is chief executive officer of Catellus Development 
Corporation, a publicly traded, diversified real estate company based 
in San Francisco. The company has a portfolio of 21 million square feet 
of income-producing properties and land that would support 18,000 
residential units and approximately 48 million square feet of 
commercial space located throughout California, as well as in Dallas, 
suburban Chicago, Denver, Phoenix and Portland.
    Rising also said the Clinton Administration's proposed ``Better 
America Bonds'' would allow local governments to ``make their own 
decisions about open space preservation, redevelop their own 
brownfields properties and address other environmental issues.'' He 
added that bond financing is a cost-effective and equitable mechanism 
for encouraging smart growth because it allocates the cost of acquiring 
green space over several generations.
    For communities across the country, smart growth is an issue of 
competitiveness. ``In today's tight labor markets, communities that 
seek to attract top employers must demonstrate that they can offer a 
quality of life that will help companies recruit and retain the best 
work force they can,'' Rising said. For commercial real estate, he 
said, ``well-planned communities with strategies for preserving quality 
open space offer better investment opportunities than communities with 
less planning discipline.''
    As Real Estate's Roundtable, National Realty Committee is the 
country's leading public policy advocate for income-producing real 
estate. NRC's members are top business leaders from more than 200 
publicly and privately owned companies across all segments of the 
industry, including owners, builders, lenders, managers, advisors and 
investors.
                               __________
      Statement of Nelson Rising, Catellus Development Corporation
    Thank you Chairman Chafee, Senator Baucus, members of the 
committee. My name is Nelson Rising. I am the CEO of Catellus 
Development Corporation, a San Francisco-based publicly traded, 
diversified real estate company. The company has a portfolio of 21 
million square feet of income-producing properties, and land that would 
support 18,000 residential units and approximately 48 million square 
feet of commercial space located throughout California, as well as in 
Dallas, suburban Chicago, Denver, Phoenix and Portland. I am speaking 
today on behalf of the National Realty Committee (NRC). NRC's members 
are top business leaders from more than 200 public and privately owned 
companies across all segments of the real estate industry, including 
owners, builders, lenders, managers, advisors and investors.
    Our entire industry not just our members has a stake in smart well-
planned growth. I can tell you from personal experience that well-
planned communities with strategies for preserving quality open space 
offer better real estate investment opportunities than communities with 
less planning discipline. As you may know, many cities today are 
experiencing a kind of renaissance. The success stories include places 
like San Francisco, Portland, Boston, New York and Chicago that 
demonstrate a rich mixture of residential and job-intensive commercial 
and retail uses, attention to the public realm and plenty of open 
space. Similarly suburban areas with a strong jobs-housing mix, easily 
accessible retail and office districts, transit- and pedestrian-
friendly neighborhoods, and substantial amounts of open space are also 
flourishing. In other words, smart growth is already beginning to 
demonstrate its value in the market place.
    For many communities across the country the ability to facilitate 
smart growth, and the quality-of-life issues encompassed by that term, 
is not so much a luxury, as it is a necessity. Indeed, it's a matter of 
competitiveness. In today's tight labor markets, communities that seek 
to attract top employers must demonstrate that they can offer a quality 
of life that will help companies recruit and retain the best work force 
they can. For example, in Atlanta, Georgia, it was a real wake-up call 
for the city when Hewlett Packard decided not to pursue a substantial 
campus expansion citing worker complaints over traffic congestion and 
related problems. NRC Executive Committee member, Michael R. Buchanan, 
who is a senior executive of Bank of America, noted at a recent Atlanta 
forum on smart growth that business leaders are sometimes among the 
first to recognize the serious consequences to their communities of a 
deterioration in key quality of life indicators.
    The first question that needs to be answered is how can communities 
best accommodate the absolute certainty of additional growth while 
maximizing its most beneficial elements. No one is against the jobs, 
local tax revenues, more affordable housing and other amenities that 
well-planned development can provide. But, at the same time, citizens 
are increasingly demanding that growth be facilitated without 
increasing local income taxes to pay for infrastructure costs, without 
increasing traffic congestion to unacceptable levels and without 
degrading environmental resources, including open space. As a 
Californian I am particularly concerned about how to address this 
issue. The Census Bureau tells us that by the year 2025, California 
will add the equivalent of the current population of the State of New 
York. This expected growth as well as growth in other areas around the 
country can only be accommodated successfully if we are attentive to 
the principles of smart growth.
    The next question is what can Congress and the rest of the Federal 
Government do to respond to the public's growing demand for smarter 
growth and more open space. The answer is that it can advance policies 
and legislation that will provide State and local governments 
additional resources to grow smarter; and it can reform existing 
Federal laws and policies that inadvertently impede the ability of 
States and local communities to grow in smarter ways. While Washington 
can help, the parameters of the Federal role need to be carefully 
defined to ensure local governments continue to chart their own paths. 
In addition, it's essential to respect the law of unintended 
consequences. I don't need to tell you that Federal involvement in 
local land use issues while already significant has sometimes been 
unpopular, unproductive, or both.
    I am not an expert on existing Federal programs, but I understand 
there is a bipartisan effort underway to fully fund some of the most 
critical existing conservation programs including the Federal ``Land 
and Water Conservation Fund.'' NRC supports that effort. In addition, I 
suggest the committee give the Administration's ``Better America 
Bonds'' proposal the serious consideration it deserves. Its basic 
premise seems to me to be a good one: to offer local governments the 
resources to help gain the leverage that additional bonding authority 
can provide. With the funds from the bond issues, local governments can 
make their own decisions about open space preservation, redevelop their 
own brownfields properties and address other environmental issues. Bond 
financing whether locally or federally subsidized is, in my view, not 
only more cost effective but also more equitable than using current 
appropriations of tax dollars. This is because it allocates the cost of 
acquiring green space over the life of the bonds. In that way it 
ensures contributions from the current and the next generation. After 
all, our children or our children's children will also be benefiting 
from the preservation efforts we pursue today.
    Another constructive step this committee could take is to ensure 
Federal policies advance rather than inadvertently undermine the 
efforts of communities to pursue their vision of smart growth. To a 
degree I know I may be preaching to many of the converted here because 
the ESA and Superfund bills passed out of this committee in the last 
Congress would have gone far to resolve some of the impediments I will 
touch on here. I'm speaking here especially of the brownfields 
provisions in Senator Smith's Superfund bill or, for that matter, the 
very similar provisions in Senator Lautenberg's current stand-alone 
``brownfields'' bill, S. 20. I also believe the provisions of the 
bipartisan ESA bill approved by this committee in the last Congress 
dealing with habitat conservation planning and the ``no surprises'' 
assurances would facilitate smart growth.
    To encourage landowner participation in smart growth planning, 
Federal land-use laws such as the Endangered Species Act (ESA) or the 
wetlands provisions of the Clean Water Act should offer safe harbors to 
landowners that participate constructively in achieving the goals of 
the statute. By that I mean regulatory certainty should be offered to 
landowners whose projects advance environmental and economic objectives 
in tandem. With the prospect of greater certainty regarding what the 
rules are and how long they will remain in effect, landowners become 
far more motivated and constructive partners with local, State and 
Federal regulators whether the issue is recycling brownfields 
properties or pursuing habitat conservation planning. Certainly 
California's experience with development agreements and the experience 
of other States with so called ``vested rights'' agreements bear this 
point out.
    More specifically, business, municipal and environmental groups 
have all pointed out that uncertainty regarding possible Superfund 
liability no matter how remote remains a factor favoring developments 
outside of urbanized areas and in so-called ``greenfields.'' By the 
same token legal concerns regarding the ability of Federal regulators 
to make good on their no-surprises assurances under ESA inhibits some 
landowners from participating in habitat conservation planning. As for 
the wetlands program administered by the Environmental Protection 
Agency (EPA) and the Army Corps of Engineers, no one seems to have 
proposed a safe harbor for smart growth in that arena. As a result, 
national policies still favor preserving tiny wetlands in the middle of 
retail or office projects even when the development occurs in highly 
urbanized areas. NRC is of the view that smart growth, including in-
fill projects, could be advanced if the Federal Government offered 
those types of projects greater opportunity to mitigate wetlands 
impacts offsite including use of mitigation banking. In addition, there 
appears to be new thinking at EPA regarding the Clean Water Act's 
stormwater runoff provisions which causes us great concern. A potential 
Federal land use program under consideration at EPA may be focused on 
controlling the way individual projects are planned at the site level. 
Such a program bears the risk of micro-managing local land use in a 
very unproductive fashion and on a more comprehensive scale than the 
wetlands or endangered species program.
    Environmental and land use laws are not the only ones that may 
inadvertently undermine smart growth. Federal tax policies also require 
reconsideration in light of smart growth objectives. I recognize these 
laws are not within the immediate jurisdiction of this committee. 
However, if you will indulge me I would like to offer some examples of 
how the IRS code can undermine the kind of development usually 
characterized as ``smart growth.'' It is the peculiar way the tax code 
treats the renovation of existing buildings. And it actually adds to 
the pressure to build new buildings usually in so-called 
``greenfields'' outside existing urban areas. Very briefly, today's 
depreciation rules for real estate don't differentiate between the 
economic useful life of improvements to leased space and the tax life 
of the overall building structure. As a result, current tax law 
dictates a depreciable life for leasehold improvements of 39 years the 
depreciable life of the entire building even though most lease terms 
average only 7 years. The implication of this policy is that the cost 
of upgrading existing space in existing buildings is artificially high. 
This increased tax cost adversely affects the modernization of 
buildings for example, by incorporating more energy efficient 
components. This enhances demand for brand new development at the 
suburban fringe and contributes to the deterioration of urban centers 
with older building stock. To fix this anomaly we recommend a cost 
recovery period for leasehold improvements of 10 years, a period 
somewhat longer than the average lease term.
    Similar problems exist with the tax treatment of demolition costs 
for nonhistoric structures and environmental cleanup expenses problems 
that affect many environmentally desirable in-fill development 
projects. Under current law, demolition costs and the unrecovered basis 
of any demolished structure must be capitalized and added to the basis 
of the land, rather than deducted. This tends to discourage acquisition 
of land that includes a structure which must be demolished (in part or 
in full) to construct a more suitable improvement. This is because the 
cost of demolition is not recoverable until the underlying land is 
sold. More appropriate tax treatment would permit demolition costs to 
be added to the basis of the new building and amortized over a 
reasonable period (60 months) or at least depreciated over the life of 
the building.
    Like demolition expenses, costs to clean up land purchased in a 
contaminated State must be capitalized and added to the basis of the 
nondepreciable land. The 1997 Taxpayer Relief Act provided immediate 
expensing of brownfield cleanup costs in empowerment zones and other 
high poverty targeted areas. This tax treatment should be made a 
permanent part of the tax code and should be extended in some fashion 
to nontargeted areas as well. If not immediate deductibility, then more 
rapid amortization periods, such as 60 months, would be appropriate. As 
with demolition expenses, requiring that environmental cleanup costs be 
capitalized is a disincentive to the acquisition and redevelopment of 
sites in some already urbanized areas.
    To sum up, I would simply say that smarter growth and more open 
space conservation would not only bring environmental benefits but also 
economic ones. I note that the Democratic and Republican leadership of 
this committee are both senior members of the Finance Committee. We 
would encourage you to share some of these economic issues with your 
colleagues on that committee as well. Our members stand ready to assist 
you in advancing these objectives with rational Federal policies. I 
would be happy now to take any questions you may have.
    Thank you.
                               __________
                Statement of Meg Maguire, Scenic America
    On behalf of the Scenic America Board, our 3000 members, and 15 
state scenic conservation organizations \1\ I am writing in strong 
support of S. 446, Permanent Protection for America's Resources 2000. 
Scenic America's mission is to preserve and enhance the scenic 
character of America's communities and countryside. This exceptional 
bill will help communities throughout the Nation take steps to preserve 
natural beauty and their distinctive character by restoring urban parks 
and historic buildings, acquiring land for recreation and conservation, 
and conserving fish, wildlife and endangered species.
---------------------------------------------------------------------------
    \1\ State affiliate organizations in CA, FL, KY, MI, MO, NC, OH, 
TX; associated organizations in AL, IL, MN, MT, NJ, TN, VA.
---------------------------------------------------------------------------
    I speak from direct experience about the legislation under 
consideration. From 1977-1981 I served as Assistant Director and Deputy 
Director of the Heritage Conservation and Recreation Service (HCRS) at 
the U.S. Department of the Interior. HCRS administered the Land and 
Water Conservation Fund (LWCF), the Historic Preservation Fund (HPF), 
and we authored and then administered the Urban Park and Recreation 
Recovery Program (UPARR).
    Scenic America request three changes in the bill which we believe 
will strengthen it and respond to pressing unaddressed needs and 
opportunities.
    <bullet>  First, we request that Sec. 3 (7) Findings and Purpose 
include also the growing threat to our scenic heritage which is rapidly 
obliterating America's rich diversity of places.
    As billboards, inappropriately sited cellular towers, strip 
development and sprawl malls erase treasured vistas, our parks and 
wilderness areas have too often become enclaves of beauty within a sea 
of visual blight. Polls show that Americans are distressed, not only 
about the loss of open space, but also the loss of community character.
    <bullet>  Second, to address this issue, we request that the Land 
and Water Conservation Fund be amended to include acquisition of less-
than-fee interests, such as easements, to protect threatened scenic 
areas associated with national, state and local recreation and 
wilderness areas.
    Acquisition of scenic easements can contribute immeasurably both to 
our recreation experience and to other conservation and preservation 
goals, while retaining the working landscapes that are such an 
important part of our heritage. This country now has a great deal of 
experience with easements which we did not have when the LWCF was 
enacted in 1965 or when it was amended in 1978. In addition to the 
large national organizations such as the Nature Conservancy, the Trust 
for Public Land and the Conservation Fund, there are over 1200 local 
land trusts in America today which have established guidelines and 
procedures for monitoring and enforcement of easements, and for dealing 
constructively and creatively with local land owners on a range of 
issues. In addition, extensive use of easements in the Adirondack State 
Park and the New Jersey Pinelands has shown that less-than-fee 
interests in land can accomplish both public and private objectives. 
Moreover, the opportunity to leverage Federal funds for recreation and 
scenic conservation have never been better as the private sector--
corporations and foundations alike--show unprecedented interest in 
saving the American landscape.
    <bullet>  Third, we support a strengthened planning requirement for 
L WCF which requires state plans to be coordinated fully with other 
statewide and local land use, transportation, conservation and 
preservation plans.
    It is imperative that we avoid the kind of insulated, overly 
statistical outdoor recreation plans which too often the states have 
produced. Rather, outdoor recreation plans should ensure that outdoor 
recreation goals are fully integrated into all aspects of state 
planning. In so doing, the state agencies administering the LWCF 
program should seek to involve political leaders and leaders in all 
affected areas in the planning process.
    One of my responsibilities at HCRS was to approve state plans for 
recreation and historic preservation. While there were many excellent 
Statewide Comprehensive Outdoor Recreation Plans (SCORP), too often 
they were full of statistics to justify different types of sports 
facilities, with little reference to the larger land use context. 
Furthermore, while the public always had the right to comment on 
recreation plans, in relatively few states was the public meaningfully 
involved in planning.
    Planning must be a key element in a reinvigorated LWCF. It should 
be based on the best integrated planning models, not on outmoded 
recreation models of the past. Both nationwide and state plans should 
reflect the most visionary thinking about the present and the future, 
look beyond local concerns to include a regional perspective across 
state lines, and be so good and so valuable to decisionmakers that they 
serve to guide government actions at all levels. Contemporary state 
outdoor recreation plans should complement smart growth strategies, 
metropolitan transportation plans, fish and wildlife conservation 
plans, and community revitalization plans throughout the state. 
Furthermore, state outdoor recreation plans of the future should 
propose innovative ways of leveraging the Federal investment through 
other sources of funds, both public and private.
    Scenic America strongly supports S. 446 because we believe that the 
comprehensive provisions in these companion bills will be a powerful 
catalyst to preserve and enhance the distinctive character of our 
communities and countryside in the 21st century.
    Thank you for the opportunity to submit this testimony.



                  OPEN SPACE AND ENVIRONMENTAL QUALITY

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to recess, at 9:32 a.m. in room 
406, Dirksen Senate Office Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Lieberman, Boxer, Thomas, Baucus, 
and Bennett.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I want to welcome everyone here today.
    We have several panels and a total of 10 witnesses, so we 
will be moving right along.
    This is the second day of hearings on open space and 
environmental quality. Yesterday's hearing provides an 
introduction to the issues of open space, sprawl, and 
environmental quality. Today's hearing provides an opportunity 
to explore specific Federal proposals that are addressed to 
these issues and are likely to be raised during consideration 
of the budget resolution.
    There are numerous proposals that address various aspects 
of sprawl and development. I'd like to just mention several of 
the broadest ones.
    Senators Landrieu and Boxer have each done a tremendous job 
in developing S. 25, the Conservation and Reinvestment Act, and 
S. 446, the Resources 2000 Act. These bills each seek to 
redirect approximately 50 percent of the receipts from the oil 
and gas drilling in the outer continental shelf from the 
Federal Treasury to specific State and Federal programs.
    While these bills do not directly address the problems of 
land development and sprawl, they each have significant funding 
for programs that can be used to promote smart growth, open 
space, conservation, and habitat protection.
    Several narrower bills have also been introduced to address 
specific aspects of open space and farmland conservation. 
Senator Feinstein has S. 532, to provide mandatory spending 
from the Land and Water Conservation Fund at its fully 
authorized level of $900 million.
    Senator Leahy has introduced S. 333, a bill to allow 
matching Federal grants for acquisition of conservation 
easements for preserving farmland.
    Last, Senator Lautenberg has introduced S. 20 relating to 
brownfields redevelopment.
    The Administration has developed two initiatives to address 
open space and environmental quality--the Lands Legacy 
Initiative and the Livability agenda.
    I will now note that Administrator Browner of EPA was here 
only 2 weeks ago, so this committee has had an opportunity to 
hear about the Better America Bonds program, and I hope to 
focus today on other aspects of the Administration's proposal.
    I'd like to say a word on jurisdiction. While most of these 
proposals fall in the jurisdiction the Committees on Energy and 
Natural Resources, Agriculture, or Finance, the Committee on 
Environment and Public Works has a keen interest in how these 
bills progress. Several provisions of these bills address 
subjects under this committee's jurisdiction, and my staff is 
engaged in ongoing discussions with staff of other committees 
at this point.
    As with yesterday, we have a wonderful gathering of 
witnesses. Senators Landrieu, Feinstein, and Leahy will discuss 
their bills, and we're honored to have Parris Glendening, 
Governor of Maryland, also join us. I look forward to hearing 
their testimony, as well as that of our other witnesses.
    I'm delighted that Senator Lieberman is here, as well as 
Senator Boxer. If you'd like to have a brief statement, Senator 
Lieberman, why don't you go ahead.

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman. Very briefly, I'd 
ask unanimous consent to a longer statement that I would have 
included in the record.
    Senator Chafee. Fine.
    Senator Lieberman. I'd just thank you for holding this 
series of hearings, and thereby putting this committee into a 
leadership position in the dialog here in Congress on how we, 
as a Nation, can quite literally shape the landscape of our own 
lives.
    The dialog has been percolating up from our towns and 
States for some time now as people begin to confront basic 
questions of livability and breatheability, about the 
encroachments of development and the erosion of open space, 
about the cost to our families and to our own sense of place.
    These are very interesting, different kinds of public 
concerns. I must say that I find them--very often in 
Connecticut, sometimes campaigns give you, in addition to other 
things, a reading actually on what people are thinking. As I 
went around with State legislative candidates in Connecticut 
last fall, Mr. Chairman, I asked, ``What are people talking to 
you about?'' And over and over again the question was, ``Open 
space''--a concern that, in some ways, the glories of a good 
economy and a good life--which is to say, development--are now 
going on in a way that seems unplanned and unmindful of the 
sensibilities of people's lives, and they are yearning for 
leadership from government to help them--not to stop 
development, but to help them to order it and to preserve the 
openness, the space which certainly, in a State like 
Connecticut, defines and elevates life there.
    So I think there are a lot of interesting questions, a lot 
of interesting opportunities. Clearly, we are going to be 
focusing today and throughout this Congress on the Land and 
Water Conservation Fund, which has represented a strong 
commitment of the Congress to conserve natural treasures and 
preserve open space. Because the program is authorized to fund 
Federal, State, and local conservation and recreation 
activities, the Fund is definitely an avenue through which the 
Federal Government can help States and localities choose how 
and where to conserve open space and how and where to develop 
and redevelop their communities.
    Sadly, over the last years the State portion of the Fund 
has gone unfunded, and I do think that fully funding the Land 
and Water Conservation Fund would be a tremendous step forward 
in meeting our obligation to help the States respond to this 
rising and broadly felt concern, not about the health of the 
environment, but also about the preservation of livability 
communities.
    I look forward to the witnesses today, Mr. Chairman, and I 
thank you again for your leadership.
    Senator Chafee. Well, thank you, Senator.
    [The prepared statement of Senator Lieberman follows:]
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Thank you, Mr. Chairman, for holding this important hearing and 
leading a dialog here in Congress on how we as nation will choose to 
quite literally shape the landscape of our lives.
    This dialog has been percolating in our towns and our States for 
some time now, as the new millennium approaches and as concerns grow 
about the livability and breathability of our communities, about the 
encroachments of development and the erosion of open space, about the 
costs to our families and to our larger sense of place.
    We have not yet quite reached an open revolt over the loss of open 
space. But I know that in my State of Connecticut and in many areas 
across the country, a lot of people are worried about what the future 
holds in terms of land conservation and basic health of our 
environment, and not just in suburbia but in urban and rural settings 
as well. Their angst was reflected in the high number of ballot 
initiatives that popped up across the Nation last year dealing with 
urban sprawl, smart growth proposals, and land conservation, and 
registered resoundingly in the passage of most of these initiatives.
    In Connecticut, we recently passed an Open Space and Watershed Land 
Grant Program with the goal of preserving roughly half a million acres 
in open space--amounting to one fifth of the entire State's land mass--
by the year 2023. Right now, there are 115 active and growing land 
trusts in Connecticut already working hard to protect and preserve 
lands in their own backyards. And in our urban areas, coalitions are 
forming to redevelop brownfields and reengineer transportation systems 
to help us revitalize these struggling communities, making them more 
attractive, accessible and neighborly.
    Behind much of this debate about open space and ``smart growth'' is 
an evolution of the traditional land use and preservation agenda. In 
the case of the New Fairfield Land Trust, it's as clear as their 
mission statement, which they describe not just as preserving the land 
but ``Preserving Our Future.'' Throughout the country there is a 
pervasive sense that if we don't take action to develop our natural 
spaces wisely, the very heart and soul of our communities could be in 
jeopardy. The relationship between humankind and the land has evolved 
over the years from taming the wilderness, to conservation, to 
preservation, and to the environmentalism of recent decades that 
incorporates strong social and public health influences. Now, as the 
pressures of modern living bear down on us, our society is increasingly 
turning to wild and open spaces not just for physical health and 
sustenance, but in search of a balanced relationship with our 
surroundings that nurtures the soul of our neighborhoods.
    To respond to these concerns, we will have to engage in our own 
policy balancing act. On one hand, our goals will require the 
protection of valuable natural resources and landscapes that we enjoy 
and hope to preserve for our children and grandchildren. On the other 
hand, it is imperative that we improve the every day quality of life in 
all communities so that those who live in urban and suburban areas can 
enjoy the benefits of a healthy environment.
    Inherent in the call to preserve our natural environment and 
cultural heritage is a need for community renewal and an improved 
quality of life. For example, there is a building frustration with 
congested roads that cause us to risks our lives, pollute our air, and 
waste our time. By driving further on crowded highways to multiple 
jobs, schools, daycare, and stores, we're losing touch with our 
neighbors and our sense of community.
    Urban sprawl and the loss of open space has not happened over 
night. As our economy has evolved from its industrial base, we've 
naturally spread outward again. We've built more houses, and needed 
more cars and roads. We've left our cities as jobs fled and crime and 
deteriorating schools proliferated. Thriving urban centers gave way to 
expanding suburbs, and with all these changes, we haven't as a nation 
taken stock of what we have lost. But we do know that if we fail to 
confront unplanned community growth, the loss of open space and loss of 
community will continue. We also know that if we fail to properly 
steward our coasts, forests, fields, and streams, we may lose the 
productivity that generations have depended upon--risking not just our 
farms and fisheries, but our way of life. And ultimately, if we 
continue developing everywhere, we risk creating what some have called 
a geography of nowhere.
    The good news here is that American people are becoming more 
conscious of these threats, and have begun to conceive responses. State 
bond initiatives to finance open space conservation efforts are a 
start. Continued cleanup and redevelopment of abandoned industrial 
sites and inner cities represent steps forward. Regional transportation 
planning decisions that reduce traffic congestion are essential to 
assuring both a healthy environment and livable communities.
    One thing that has been made clear in this growing dialog is that 
local and state input to the decisionmaking process is critical. The 
people who live near threatened land are in the best position to value 
it and commonly devise the most creative conservation and development 
alternatives to it. But it is also clear that these folks can't do it 
alone. We need a bigger vision to solve today's problems. And we need 
to think broadly, recognizing that healthy communities rely on a mosaic 
of relationships, infrastructure and institutions in order to thrive. 
The challenge of planning for a sustainable future is clearly a 
national responsibility, deserving of a collective, collaborative, and 
thoughtful response.
    One of the issues that we will be hearing about today and 
throughout this Congress is funding of the Land and Water Conservation 
Fund. The Fund represents the commitment of all Americans to conserving 
natural treasures and preserving open space. Because the program is 
authorized to fund Federal, State, and local conservation and 
recreation enhancement activities, the Fund is an avenue through which 
the Federal Government can help States and localities choose how and 
where they conserve open space, develop, and redevelop their 
communities. Sadly, over the past 5 years, the State portion of the 
Fund has gone unfunded. Fully funding the Land and Water Conservation 
Fund represents a golden opportunity to make good on our obligation to 
leave future generations a healthier environment and more livable 
communities.
    I look forward to hearing from the witnesses today and 
participating in a constructive dialog with my colleagues in the year 
ahead as we address challenges and capitalize on opportunities to 
wisely shape the landscape of our lives.
    Senator Chafee. I'm familiar with what you're talking 
about, because you go north from Hartford up toward Greenfield, 
Deerfield, and that area, you see those lovely tobacco fields 
gradually being gobbled up. They're just a natural--they're 
flat as the palm of your hand.
    Senator Lieberman. Yes.
    Senator Chafee. And absolutely marvelous soil there, but it 
is very tempting for developers to come there, and I guess 
there's not much money in primarily tobacco leaves for the 
wrappings for cigars, and I guess that has decreased.
    Senator Lieberman. Oddly, Mr. Chairman, although I know 
this is not the focus, this is how short-range decisions can 
have not only unintended economic consequences, but also land 
use consequences, because when cigars were less popular, the 
wrapper leaf, which is grown in Connecticut, was not as 
valuable and land was not as valuable, and a lot of the tobacco 
farms were sold for development. Of course, now the cigar has 
made a thundering return to popularity--an aromatic, I should 
say, return to popularity, and those fields would have been 
probably more valuable today to grow tobacco, and also would 
have been more attractive to the eye than the development that 
has occurred on them.
    Senator Chafee. Senator Boxer?

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman. Thank you 
for holding this hearing.
    It is a good time, because yesterday I want to let you know 
that in the Budget Committee, in a bipartisan way, we made room 
for these initiatives, and it wasn't that easy. We had a lot of 
debate about it.
    Senator Chafee. How much money? Do you remember?
    Senator Boxer. Well, we didn't put a specific amount. We 
just said that room will be made if there is agreement for 
this. It would be mandatory spending.
    Senator Chafee. From the land and water conservation?
    Senator Boxer. We just said it wouldn't count against the 
caps.
    Senator Chafee. OK.
    Senator Boxer. It would be mandatory. So I'm very happy 
about that. As I say, it was a very big debate, but it's good. 
And so what we're doing here today is not theoretical. I think 
we have a good chance of enacting some of these pieces of 
legislation.
    I want to welcome Senators Landrieu and Leahy. I hope 
Senator Feinstein will be here. I know she had had the flu, and 
I hope she makes it here.
    I want to say that I ask unanimous consent that my full 
statement be placed in the record.
    Senator Chafee. Fine.
    Senator Boxer. And, Mr. Chairman, also, if you would place 
the testimony that EPA had prepared for its delivery today, if 
we could put that in the record.
    Senator Chafee. Fine.
    Senator Boxer. Thank you very much.
    I know that we've had some Californians who have testified 
here yesterday and we will have more today, and I want to 
welcome them. In California, as I always remind everyone, 
including myself, where we have 33 million people, we're 
expecting a population of 50 million people by the year 2020, 
so when we talk about livability and smart growth, this isn't 
something that we have the luxury of thinking about, we've got 
to do something about it. That's why I'm optimistic that we see 
so many bills before us in a bipartisan way dealing with making 
more resources available, not only for open space and smart 
growth initiatives, but to permanently protect our natural 
heritage and to help preserve farmlands and many issues that 
have, frankly, been ignored, in my opinion.
    Congressman George Miller and I introduced the Permanent 
Protection for America's Resources 2000 Act, and I thank you 
for mentioning it in your opening remarks. We call it, 
``Resources 2000.'' In the Senate it has been endorsed by 
Senators Biden, Feinstein, Kerry--John Kerry--Lautenberg, 
Sarbanes, Schumer, Torricelli, and I'm trusting many more will 
join.
    I think the fact that there are many bills out there--
Senator Leahy's bill, Senator Landrieu's bill, Senator 
Feinstein's bill, and others--is very promising. I know Senator 
Murkowski has teamed up with Senator Landrieu on their bill. 
And, as I say, the Budget Committee recognized this bipartisan 
effort.
    Sometimes I like to think about where we would have been 
without Teddy Roosevelt in the beginning of the 20th century. 
Without him, we wouldn't have had Grand Canyon, Mirror Woods, 
Crater Lake, and it seems to me we need to not only look back 
and say how wonderful that was, but look ahead and say, ``We've 
got a job to do.'' And if we don't do it, then people will be 
looking back at us and saying, ``Why didn't they act before 
everything disappeared?''
    Every year, three million acres of farmland and more than 
170,000 acres of wetlands disappear, and every day 7,000 acres 
of open space are lost forever. Senators Lieberman and Chafee 
were pondering that fact. Well, I think it is time to do 
something about it, and I know that you agree with me on that 
point.
    We have a dedicated source of funding. In 1964 Congress 
looked at the offshore oil revenues. They are supposed to be 
used for a noble purpose of open space purchase, and it hasn't 
really happened. So the fact is, we get about $4.6 billion a 
year from oil and gas drilling on the outer continental shelf. 
The Miller-Boxer bill, which is the largest of the bills, 
allocates only half of that to protect our resources.
    And, very quickly, I want to tell you in my closing minute 
what our bill does, because it is the broadest-sweeping bill: 
$100 million for urban parks and recreation, $350 million to 
restore native fish and wildlife, $250 million to restore 
Federal lands that are polluted or damaged, $300 million to 
protect and restore the health of our oceans--we've never done 
that before--$150 million to protect our vanishing farmlands 
and open space, $100 million to purchase habitat to help 
endangered species recovery, and $150 million every year to 
restore and protect our historical and cultural heritage 
through fully funding the historic preservation fund. And, of 
course, in addition to that, we have the $900 million a year 
for land and water conservation, as was envisioned by Congress 
in 1965 when the Fund was established. Half of that would go to 
the States every year.
    So the good news is that fund has collected over $21 
billion since 1965, Mr. Chairman, and the bad news is only $9 
billion has been used for its intended uses. So this is an 
opportunity for us. Mr. Chairman, I can't imagine a better 
legacy for you. You've done so much for the environment. I'd 
love to work with you to see if we could do even more.
    Thank you very much.
    Senator Chafee. Thank you very much.
    [The prepared statement of Senator Boxer and EPA testimony 
follows:]
    Statement of Hon. Barbara Boxer, U.S. Senator from the State of 
                               California
    Mr. Chairman, I want to thank you for holding this series of 
hearings. It is appropriate that Congress has finally decided to take a 
serious look at an issue that local communities have been dealing with 
for years--sprawl and smart growth.
    I want to start by welcoming our Senate colleagues, Senator 
Landrieu and Senator Feinstein. It is pleasure to have both of you here 
with us today and I look forward to hearing your comments.
    I would like to thank two Californians who testified yesterday--
Nelson Rising from the National Realty Committee and Steve Hayward from 
the Pacific Research Institute. I would also like to welcome another 
California who will be testifying on the final panel today--Ralph 
Grossi from American Farmland Trust.
    I am pleased to see that Californians seem to be at the forefront 
of this issue.
    This is an issue for all Americans who know that we can grow the 
economy to grow and also protect and defend the beauty and history of 
our nation.
    The record number of successful ballot initiatives directed at 
protecting open space and slowing suburban sprawl in the last election 
is an expression of the importance of these issues in people's everyday 
lives. In Ventura County, California, for example, citizens 
overwhelmingly supported a ballot initiative providing that 
agricultural and rural lands outside the city boundaries could not be 
developed until the year 2020. Development after that point may take 
place only with the approval of voters.
    It is because of this overwhelming support for preservation of our 
open space and smart growth initiatives, that Congressman George Miller 
and I introduced the Permanent Protection for America's Resources 2000 
Act. Cosponsors in the Senate include Senator Joe Biden, Senator Dianne 
Feinstein, Senator John Kerry, Senator Frank Lautenberg, Senator Paul 
Sarbanes, Senator Chuck Schumer and Senator Bob Torricelli.
    I know there are many bills out there and this is good. On both 
sides of the aisle--we are finally talking about making a permanent 
commitment to America's natural resources. That can only happen if our 
States and local communities are able to make long term planning 
decisions.
    As the 20th Century began, one of the greatest conservationists of 
all time, Theodore Roosevelt, was our President. From 1901 to 1909, 
Teddy Roosevelt set aside places that millions of Americans still enjoy 
today.
    If not for Teddy Roosevelt's leadership, we might have lost such 
national treasures as the Grand Canyon, Muir Woods, and Crater Lake. 
These natural monuments stand as a lasting testament to TR's foresight 
and pioneering work in environmental preservation.
    As the 21st Century approaches, we must renew our commitment to our 
natural heritage. That commitment must go beyond a piecemeal approach. 
It must be a comprehensive, long-term strategy to ensure that when our 
children's children enter the 22nd Century, they can herald our actions 
today, as we revere those of President Roosevelt.
    Preservation in the 21st Century goes beyond protection of such 
wonders as Yosemite and Yellowstone. It must be include an urban park 
in East Los Angeles where children can play basketball, a farm in 
Tulare County that can continue to grow oranges or a historic building 
in Orange County that can be restored.
    Today, our natural heritage is disappearing at an alarming rate. 
Each year, nearly 3 million acres of farmland and more than 170,000 
acres of wetlands disappear. Each day, over 7000 acres of open space 
are lost forever.
    Across America, parks are closing, recreational facilities 
deteriorating, open spaces vanishing, historic structures crumbling.
    Why is this happening? Because there is no dedicated funding source 
for all these noble purposes--a source which can be used only for these 
noble purposes.
    The Miller-Boxer bill offers the most sweeping commitment to 
protecting America's natural heritage in more than 30 years. It will 
establish a dedicated funding source for resource protection.
    A major funding source for resource protection already exists. Each 
year, oil companies pay the Federal Government billions of dollars in 
rents, royalties, and other fees in connection with offshore drilling 
in Federal waters. In 1998 alone, the government collected over $4.6 
billion from oil and gas drilling on the Outer Continental Shelf .
    The Miller-Boxer bill would allocate a total of $2.3 billion every 
year from oil drilling revenues for permanent protection of America's 
resources. It provides:
    <bullet>  $100 million every year for urban parks and recreational 
facilities;
    <bullet>  $350 million to restore native fish and wildlife;
    <bullet>  $250 million to restore Federal lands that are polluted 
or damaged;
    <bullet>  $300 million to protect and restore the health of our 
oceans;
    <bullet>  $150 million to protect our vanishing farmlands and open 
space;
    <bullet>  $100 million to purchase habitat to help endangered 
species recovery;
    <bullet>  And $150 million every year to restore and protect our 
historical and cultural heritage through fully funding the Historic 
Preservation Fund.
    The Historic Preservation Fund was established by Congress in 1977, 
to provide a dedicated source of funding to preserve our significant 
historic properties. And although Congress is authorized to spend $150 
million from OCS revenues annually for this purpose, less than 29 
percent of funding has been appropriated since 1977. That is more than 
$2 billion that could have been used to help restore the treasures of 
our nation scattered across the many States. In California, there's the 
Old Mint Building in San Francisco, Manzanar National Historic Site, 
and Mission San Juan Capistrano. Our bill would ensure that funds would 
be spent on their designated purpose.
    Finally, the bill designates $900 million each year to purchase 
land by fully funding the Land and Water Conservation Fund as 
envisioned by Congress in 1965 when the Fund was established. Half 
would go to the States.
    The good news is that Fund has collected over $21 billion since 
1965. The bad news is that only $9 billion of this amount has been 
spent on its intended uses. More than $12 billion has been shifted into 
other Federal accounts.
    The funding Congress has made available has allowed us to purchase 
some key tracts of land, but we have missed golden opportunities to buy 
critical open space because the Land and Water Conservation Fund was 
critically underfunded.
    Thank you, Mr. Chairman, for holding this series of hearings. I 
look forward to working with you and other members of this Committee 
and the Senate Energy and Natural Resources Committee on this critical 
issue. This is necessary and important legislation that will benefit 
our Nation's natural heritage, and leave a lasting legacy for future 
generations.
    Mr. Chairman, it's a chance to work across the aisle for all the 
people.
                                 ______
                                 
    Statement of J. Charles Fox, Assistant Administrator for Water, 
                    Environmental Protection Agency
    Good morning Mr. Chairman and members of the committee. I am Chuck 
Fox, Assistant Administrator for Water at the United States 
Environmental Protection Agency (EPA). I am very pleased to provide 
comment about the idea of open space and how it relates to 
environmental protection, water quality, and the Administration's 
Livability Agenda.
    The Administration has been working to assemble the building blocks 
of a new approach to livable communities over the past several years. 
Let me mention two of these initiatives.
    EPA and other Federal agencies are providing resources and tools to 
state and local governments to cleanup and redevelop brownfields--
abandoned, potentially contaminated properties. EPA's effort has 
provided $65 million in grants to 250 communities, leveraged more than 
$1 billion in redevelopment investment, and created more than 2,000 
jobs nationwide. Through the Brownfields National Partnership, more 
than 20 Federal agencies have collaborated to provide financial and 
technical support for local brownfields efforts.
    Highlights of other Federal partners providing brownfields support 
include: the Department of Housing and Urban Development (HUD) through 
the Community Development Block Grant (CDBG) program and Brownfields 
Economic Development Initiative (BEDI) grants; the Department of 
Commerce's Economic Development Administration with planning and 
economic development grants; and the United States Army Corps of 
Engineers (USAGE) providing expertise in environmental assessment and 
cleanup projects.
    To help communities restore and revitalize rivers and riverfronts, 
the Administration established the American Heritage Rivers initiative. 
Through this initiative, 14 rivers have been designated to receive a 
``river navigator'' whose job will be to help the community realize its 
vision by coordinating existing Federal programs. The Administration 
will be assisting local residents, communities, and other stakeholders 
to restore the health of their river and riverfront, promote economic 
revitalization, and preserve the cultural and historic heritage of the 
river.
The Livability Agenda
    The Administration's Livability Agenda will provide communities 
with new tools and resources to: preserve green spaces for clean water 
and air and enhanced quality of life; ease traffic congestion; restore 
a sense of community by fostering citizen and private sector 
involvement in planning; promote collaboration to develop regional 
growth strategies; and enhance economic competitiveness.
    To ensure that communities can grow according to their own values, 
the Administration's Agenda observes these key principles:
    <bullet>  Communities know best. Land use decisions are--and will 
continue to be--made by local entities.
    <bullet>  The Federal Government should inform, not dictate, 
patterns of future growth. Government can supply information, tools and 
resources to empower citizens and communities by helping them envision 
different strategies. Government can also provide incentives for 
communities to work together to address challenges of growth and 
development.
    Our Livability Agenda also includes: transportation enhancements; 
regional smart growth partnerships; schools as community centers; 
community-Federal information partnerships; and regional crime-data 
sharing. It focuses broadly on a range of issues to improve the quality 
of life in a community and touches on important parts of our daily 
lives--the safety of our homes and streets, our commute to work, the 
schools where our children learn to read, and the parks where we relax.
Better America Bonds
    A critical element of the Livability Agenda is the Better America 
Bonds program. The Better America Bonds Program will provide 
communities with an additional tool to preserve their open spaces, 
protect their water, revitalize their blighted urban areas, and improve 
their quality of life, in a manner that works best for them.
    Better America Bonds can be used in three ways: First, Better 
America Bonds will further brownfields cleanup and reuse by providing a 
new source of flexible funding for communities' brownfields projects. 
The U.S. Conference of Mayors pointed to a lack of capital for local 
governments as the leading barrier to the clean-up and re-use of 
brownfields. Better America Bonds will supplement existing brownfields 
funding with bond proceeds, thus increasing the funds available for 
brownfields assessment and redevelopment. This spares green space by 
reusing already developed properties and restores green space by 
cleaning up contaminated properties at a time when we are losing over 
700 acres per day of open space and farmland to development.
    Second, State, Tribal and local governments, working alone or in 
partnership with land trusts and other nonprofit organizations, can 
create or restore urban parks, preserve suburban green spaces, and 
protect threatened farmland and wetlands by acquiring title or 
purchasing conservation easements using these new bonds.
    Finally, Rivers, lakes, coastal waters, and wetlands can be 
restored or protected, streamside zones can be repaired and land can be 
acquired to reduce polluted runoff or protect drinking water sources.
    Land conservation for environmental protection is not a new 
concept. There are several examples of existing State and local 
initiatives that could be assisted by Better America Bonds.
    In 1990, Florida approved the Preservation 2000 program after a 
commission concluded that the most effective way to accomplish 
environmental protection is to enhance state land acquisition programs. 
Since then, $2.4 billion in bonds have been approved and more than 1 
million acres of land have been acquired. These actions have helped 
improve water quality and foster smarter growth.
    In North Carolina, the General Assembly recognized that restoring 
and protecting water resources depended upon their ability to restore 
riparian buffers, purchase conservation easements, restore degraded 
lands, and create a system of greenways. The Charlotte Observer stated 
that the Charlotte region is at the forefront of a national trend, 
``linking conservation with pragmatism . . . paying to protect water 
sources now rather than try to filter out pollutants later.''
    The City of Auburn, Maine, is maintaining drinking water quality 
standards, and avoiding the need for structural filtration, by 
purchasing land, conservation easements,
    Senator Chafee. Senator Baucus?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thanks, Mr. Chairman.
    Mr. Chairman, I'd just like to say how impressed I was with 
yesterday's hearing. The mayor from--was it Indianapolis?
    Senator Chafee. Fort Wayne.
    Senator Baucus. Fort Wayne, Indiana, as well as the county 
commissioner from Lancaster County, Pennsylvania, I thought 
were most helpful in giving detailed and nonpolitical examples 
of how sometimes the Federal Government gets in the way in land 
use planning, and I just wanted to tell you, Mr. Chairman, how 
wise it was for you to schedule those witnesses.
    Today we're going to learn more how the Federal Government 
can be a partner more than how the Federal Government, as we 
learned yesterday how the Government got in the way. Today 
we'll learn more how it can be a partner with States and local 
governments to preserve open space.
    I was struck with a major piece--it was ABC or NBC News the 
night before last on open space and what architects are doing 
in city planning to help make better use of space, and one 
thing that really struck me is getting rid of those garage 
doors when you drive up to the front door of a house and 
putting them in back of the house, not in the front so much.
    But urban sprawl and space is a huge problem. We spend an 
awful lot of time in our cars driving. It's not that we're 
against cars; we just want an option besides cars. It's back to 
city planning. And with open space planning in States like 
mine, we want to make sure that we continue to have the open 
space and it is not destroyed, as it often is.
    I'm especially pleased that Chris Montague of the Montana 
Land Reliance will be one of the witnesses later on. I look 
forward to his testimony.
    Montana Land Reliance, Mr. Chairman, has done a terrific 
job in my home State of Montana. They're somewhat similar to 
other groups which have done a lot of work with easements--very 
creative. Nature Conservancy is another national organization 
that comes to mind which I think does excellent work. I know 
that Senator Landrieu is particularly interested in Land and 
Water Conservation Fund, which is another tool. There are many, 
many tools. The Administration's Better America Bonds is still 
another.
    And we are finally in this country, I think, beginning to 
turn the corner and starting to address these questions in a 
very solid, positive way, and this hearing is going outstanding 
help make that happen, and I thank you.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman. I commend you for holding these hearings, 
to consider how we can maintain the quality of life in growing 
communities.
    It's not just a big city issue. Or an East Coast issue. Or a 
California issue.
    I represent Montana. Big Sky country. The least metropolitan State, 
with only three cities that have 50,000 people or more.
    You might think that Montana is one place where open space would 
not be an issue.
    You'd be wrong. It's a big issue. For two reasons.
    First of all, open space defines us. It's why we call Montana the 
``Last Best Place.'' It's why the preamble of our State constitution 
begins by thanking God for ``the quiet beauty of our State, the 
grandeur of our mountains, [and] the vastness of our rolling plains.''
    But Montana is changing. It's growing. In some places, growing very 
fast.
    This decade, Montana's population has grown by more than 10 
percent. In Flathead County--in northwest Montana--and Gallatin 
County--in south-central Montana--it's grown by more than 20 percent.
    This growth has benefits. But it also has costs, in the form of 
sprawl, congestion, pollution, and an increased demand for services. An 
editorial in last Sunday's Billings Gazette put it this way: 
``Something must be done, or in time we will not have to lock the gate 
because the best parts of Montana will be ruined. Then no one will want 
to come here, let alone live here.''
    That said, preserving open space raises difficult issues. After 
all, one thing westerners love as much as open space is independence. 
We don't trust big government.
    So Montanans have been trying to find a balance. We want to 
preserve open space and environmental quality, while avoiding red tape.
    This requires creative approaches. For example, the Montana Land 
Reliance has been a leader in using conservation easements to preserve 
farmland. In the past 20 years, Montanans have acquired conservation 
easements over almost 500,000 acres of land.
    Bozeman and Gallatin County are trying their own creative 
approaches. And the State is bringing community leaders together to 
help find the right balance.
    I hope, Mr. Chairman, that these hearings also will help us find 
the right balance.
    Two approaches may be particularly constructive.
    First, let's make the Federal Government a better neighbor.
    Right now, Federal agencies often work against the interests of the 
local community. For instance, they often abandon downtown areas that 
the community is trying to redevelop. I've seen this all across 
Montana, from Helena to Butte to Glasgow.
    So we should reexamine Federal policies that contribute to sprawl.
    We've made some progress. In recent highway bills, we tied highway 
construction more closely to environmental protection.
    In addition, I have joined in asking the General Accounting Office 
to look at the effects of other Federal programs on sprawl. The report 
should be done by mid-April, and should help guide further action by 
this and other committees.
    Second, let's help local communities get more control over their 
own destinies.
    For example, the Administration has proposed Better America Bonds 
and the Lands Legacy Initiative.
    Senator Lautenberg has proposed legislation to help redevelop 
brownfields, in inner city areas.
    Senator Boxer and others have introduced bills to conserve open 
space and habitat, and protect farmland.
    These are reasonable ideas that deserve careful consideration.
    As I told EPA Administrator Browner a few weeks ago, I am 
particularly interested in the Administration's bond proposal. It would 
provide a financial incentive for communities to preserve open space, 
reduce water pollution, and protect the environment in other ways.
    I also have questions. I want to make sure that the proposal is 
workable. I want to make sure that it supplements local control, rather 
than displacing it. And I want to make sure that the incentives are 
suited to the needs of western States, such as the need to preserve 
access to public land.
    I look forward to the opportunity to explore these and other 
questions with our witnesses.
    Senator Chafee. Thank you very much.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman. I just wanted to 
make a few comments. I wasn't able to be here all the time 
yesterday, and I have a hearing today, but I think there's lots 
of things we're talking about here that are particularly 
useful, and I support many of these ideas, particularly such as 
non-game protection in the west, where the game and fish 
commissions have generally been funded by hunting licenses, so 
these species that are non-hunting haven't had any resources to 
deal with them, and so I think that's a great idea.
    I'm chairman of the Parks Subcommittee. By the way, we 
claim a little jurisdiction over this, as you know, over in 
Energy and intend to exercise that. But I think we need to do 
something with the States side, certainly. The national parks 
do not have the total responsibility for recreation, and if we 
can put parks into a total package to where the State and local 
parks do more of the recreation and the national parks do more 
of the maintenance of resources and cultures, why that's where 
we ought to be, and I think that would be there.
    Open space is great. Open space is a little different in 
Connecticut than it is in Wyoming. I think we have to be a 
little careful how we do this. You were talking about driving 
from here to here. Well, drive from Matistse to Byron, Wyoming, 
and it would be quite different than it is in Rhode Island. So 
I hope we're careful, as we talk about land acquisition and as 
we talk about doing open space things, that we recognize the 
Federal Government should not have the heavy hand.
    You're talking about partnerships. I hope they're equal 
partnerships and not one horse and one dog partnerships, like 
it often is.
    So I guess my point is that I think there's some real good 
things here, but we need to handle them differently in 
different parts of the country.
    For example, I think increasingly people in the west are 
beginning to understand that agricultural prosperity has a heck 
of a lot to do with open space. If ranchers go broke, then 
those ranches are subdivided into housing. If they can be 
effectively operated, they are open space. There are a lot of 
things of that kind.
    Mr. Chairman, I'm pleased that you are undertaking this. I 
simply want to again just say repetitiously that one size does 
not fit all.
    Senator Chafee. Well, I think you're absolutely right, and 
I think that was the theme that was expressed yesterday by the 
county commissioner and by the mayor of Fort Wayne, and I think 
you're absolutely right when you call to our attention that the 
prosperity of the beef industry, or whatever it might be, 
results in open space being preserved, and if those ranches go 
broke, pretty soon they are subdivided into--it's hard to call 
them ``lots,'' but housing anyway.
    Senator Baucus. Big lots.
    Senator Chafee. Big lots.
    Senator Baucus. Ranchettes.
    Senator Chafee. Ranchettes.
    Yes, Sir, Senator Bennett?
    Senator Bennett. Thank you, Mr. Chairman. I apologize. I'm 
going to have to leave because I made an agreement to preside 
over the Senate at 10, but I appreciate the opportunity to make 
a comment before I do go.
    People think of Utah as a rural State--Wyoming, Utah, 
Montana, and so on. We are the second most-urbanized State in 
the Nation. Of our population, 80 percent resides within a 
corridor no more than 20 miles wide and no more than 50 miles 
long.
    Senator Chafee. What's the most urbanized?
    Senator Bennett. Nevada, I guess.
    Senator Baucus. Nevada is.
    Senator Chafee. Is that right?
    Senator Bennett. Yes.
    Senator Baucus. Yes.
    Senator Bennett. And, ironically, we have only about 15 
percent of the State available for private ownership and use. 
The rest of it is all--the Federal Government owns two-thirds 
of the State. The State owns a good chunk, the school trust 
lands, and so on. So we know about open spaces, even though we 
are heavily urbanized. Within 15 minutes of downtown Salt Lake, 
you can be in open space virtually any direction you go. Now, 
if you head for the salt flats, you are in open space you don't 
want to be in, because it will not sustain any kind of life out 
there, but, nonetheless, it is open.
    So this is not an issue. Growth very much is an issue. We 
are one of the most rapidly growing States, and we are eating 
up our available land, so we are very much concerned about 
this.
    I want to share with you the result of a survey of Utah 
households, over 500,000 questionnaires sent out by a group 
called ``Envision Utah'' that has been working on this issue 
for a couple of years, recognizing that we are going to have to 
handle an additional two million people, which for us would be 
doubling our population, within a relatively short period of 
time, and where are we going to put them.
    So this group has been working on this issue and doing some 
really fascinating things. I won't take the time to describe to 
you some of their activities. But the results of their 
questionnaire, as they talked to Utahans about who should be 
responsible for dealing with this issue, 46 percent said people 
like you and me--in other words, they want it local. Another 30 
percent said State and local government. Only 3 percent liked 
the idea of the Federal Government being involved in these 
decisions.
    I think that is a very interesting commentary here. We have 
had previous Federal experience. Superfund was launched with 
all excitement about how the Federal Government was going to 
help solve this problem. Some of our most difficult problems in 
Utah are Superfund sites that have been preserved as Superfund 
sites, almost as if they were national treasures, for years and 
years and years. Perhaps the concern about the Federal 
Government being the primary engine here is based on experience 
with the Federal Government's inability to solve local 
problems.
    So I compliment you on the hearings and I apologize to our 
witnesses that I won't be able to hear all of what they have to 
say. I'll read their testimony carefully. But I would be 
derelict in my duty to represent my constituents if I didn't 
point out that they would prefer that the Federal Government 
become a facilitator for local efforts, rather than the 
dictator of the way this thing ought to be done.
    Senator Chafee. Well, thank you very much, Senator. As you 
know, of course, we're delighted that you've joined this 
committee, because you can contribute a lot to it, and 
Superfund has been an issue we have been wrestling with, and 
I'm sure we're going to deal with it again this year and see if 
we can't get some success with it. Obviously, the cleanup in 
the brownfields is a tremendous part of that whole effort.
    Now, we are delighted that we're going to have eventually, 
I believe, three Senators, but certainly we have two here now, 
and we welcome both Senator Landrieu and Senator Leahy, so, 
Senator Landrieu, why don't you proceed?

STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. Let me begin by 
saying that I have a lengthy statement for the record that I'd 
like to put in the record, but I'm going to just summarize in 
my comments and be available to answer any questions that the 
members will have.
    Let me begin, though, by thanking you, Senator, sincerely, 
for your interest and your work in this area. As several of us 
began to develop this bill over 2 years ago, I want to say that 
your counsel, your advice was critical in the development of 
this initiative, and particularly your good words that were put 
in the record over a year ago on the floor of the Senate helped 
us to design and bring this issue to this point today, and so I 
want to thank you.
    I also want to thank publicly Senators Murkowski, Lott, 
Breaux, Cleland, Johnson, Mikulski, Cochran, Sessions, Bond, 
Gregg, Bunning, Lincoln, and Bayh for their efforts in working 
on Senate Bill 25, which has been introduced on this subject. 
Senator Thomas had to leave, but, as the subcommittee chair of 
Parks, he and his staff have been very interested and helpful. 
And I want to thank Senator Murkowski, particularly, as the 
chairman of Energy, because this, as you have seen from this 
testimony here from the East Coast to the west coast, it is 
going to have to be done with the idea in mind that one size 
doesn't fit all, and that's the way that many of us are trying 
to design a bill that will work, that will be good for our 
Nation.
    I want to just read, as I begin, one paragraph from the 
``New York Times'' editorial of June 16, 1997, that actually, 
Mr. Chairman, as I've shared with you, helped me to focus on 
the significance of this endeavor. It is very brief, but I want 
to read it for the record.
    It says, ``More than 30 years ago, Congress passed a quiet 
little environmental program that offered great promise to 
future generations of Americans. Conceived under Dwight 
Eisenhower, proposed by John Kennedy, and signed into law by 
Lyndon Johnson, the Federal Land and Water Conservation Fund 
was designed to provide a steady revenue stream to preserve 
irreplaceable lands of natural beauty and unique recreational 
value.''
    Royalties from offshore oil and gas revenues would provide 
the money, giving the program an interesting symmetry. Dollars 
raised from one depleting resource would be used to protect 
another.
    ``Since its inception, the Fund has helped acquire seven 
million acres of national and State park land, developed 37,000 
recreation projects. Its notable triumphs include the Cape Cod 
National Seashore, the New Jersey Pinelands National Reserve, 
and the national park in Minnesota. But the program fell 
apart.''
    Mr. Chairman, the bill that I've offered with many of my 
colleagues and other bills that have been offered is an attempt 
to put this program back together, to do it now before it is 
too late, to provide funding for this country that will be a 
permanent source of funding, to do something we actually should 
have done 30 or 40 years ago, but it is never too late to do it 
right.
    That's what this bill attempts to do. It attempts to define 
and to set aside a permanent source of funding, and we have a 
good source, and that source is the offshore oil and gas 
revenues.
    Since 1955, the year that I was born, the Federal 
Government has taken $120 billion in mineral resources, and 
that money has been put in the Federal Treasury and spent on 
ongoing operating, nonrelated areas.
    Not only has Louisiana been shortchanged, because we have 
provided 90 percent of these resources, but Texas and 
Mississippi and Alaska and other producing States have been 
shortchanged, but, in my opinion, so have all the States been 
shortchanged, because this money has not been used for 
environmental investments.
    That's what we are here for--to talk about a permanent 
source of funding that will provide, I hope, $2 billion, at 
least, maybe more, to fund the Land and Water Conservation Fund 
fully, to fund coastal impact assistance. Two-thirds of our 
population live along our coasts. Those States and cities need 
additional help for beaches, for coastal impact assistance--
whether or not there is oil and gas drilling, there are great 
needs--and to fully fund our wildlife and conservation efforts 
for game and for non-game sources, as well as our urban parks 
and historic preservation.
    I just want to show you, Mr. Chairman, because I think you 
and also Senator Boxer and Senator Lieberman would appreciate 
seeing, in Louisiana this is the largest cypress tree left in 
North America. Most of the cypress trees were cut down over 100 
years ago, as you have similar for the redwoods. This is the 
largest cypress tree left. Right now, there is a part of land 
called ``Cat Island'' that Georgia Pacific owns that could be 
purchased if there was a steady stream of revenue in the Land 
and Water Conservation Fund. It is unlevied. It is part of the 
only part of the Mississippi River left that is unlevied that 
is a natural sort of cypress swamp.
    I could show you 1,000 pictures from every State in the 
Union about land like this that we need to purchase, and that's 
why there is some urgency. But we have to do it in a way that 
recognizes that in Wyoming or Nevada, 90 percent of the land is 
already owned by the Government. In Louisiana, only 4 percent 
of the land is owned. And so politically we've got to craft a 
bill that works for the whole country and recognizes the great 
differences.
    I'll only end my testimony with this. I also want to say as 
emphatically as I can how fiscally irresponsible I think it is 
for this Nation to take taxes from a nonrenewable resource, 
because 1 day our oil and gas wells will be dried up. We hope 
in Louisiana that's not in the near future, and I know 
California has a different view. But we want to see this 
production done in an environmentally safe way.
    But I have to say it is fiscally irresponsible for this 
Nation to take these moneys generated and spend them on 
nonrelated recurring expenses and not reinvest them back for 
our children and our grandchildren. And so that is the beauty 
of this proposal. Just as was outlined by this ``New York 
Times'' editorial written by a wonderful environmental writer--
and I've talked to him personally and thanked him for spurring 
my thinking more clearly on this issue--but we need to do it 
together.
    I thank you, Mr. Chairman. That's what we are all here 
today to try to do. It is a fiscally responsible thing to take 
these dollars and make the investment for our future, and I 
thank you for the chance to testify this morning.
    Senator Chafee. Well, thank you very much, Senator. I know 
you have long been interested in this subject, and you and I 
have had many discussions in connection with it.
    Senator Leahy, we welcome you here.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I hope you won't 
mind if I share with the committee what I told you privately on 
the floor yesterday, and that is I understand but am sorry to 
see your decision to retire.
    Senator Chafee. Aren't you nice. Thank you.
    Senator Leahy. You are among the absolute best that New 
England has sent to the U.S. Senate.
    Senator Chafee. Why restrict it to New England?
    [Laughter.]
    Senator Leahy. I may need votes from people from the other 
parts of the country on some other issues coming up.
    Senator Chafee. Well, thank you very much.
    Senator Leahy. I always assume that New England sends the 
best to the country, anyway.
    Senator Chafee. That's a good come-back.
    Senator Baucus. But not entirely accurate.
    [Laughter.]
    Senator Leahy. Mr. Chairman, I think you will find your 
colleagues agree that you are among the best of the best, and 
we appreciate having you here.
    Last year you and I were fighting a bill on the Senate 
floor that would have taken away local land use and zoning 
decisions from local officials and communities, and I think 
this Congress is starting out on a much better foot, and I 
think these hearings help that a great deal.
    We should redouble our efforts to equip communities with 
the tools they need to plan growth and promote better central 
business districts. People around the country demonstrated 
their support for open space conservation and urban 
revitalization last fall at polls by approving 124 measures 
dedicating local and State revenues for these goals around the 
country.
    In Vermont, we have been assembling a workbox of tools to 
help communities with land use planning, but if you don't have 
Federal support it is like trying to build a house with 
toothpicks.
    We've all seen the impact of urban sprawl in our States. It 
sometimes steals unbidden into our midst. It's sort of like 
kudzu--you don't see it coming at first, but you sure see the 
result once it hits you.
    Sprawl is not incremental development, it is transforming 
development. It clots our roads, compounds the cost of the 
infrastructure we need, takes its toll on the environment, 
sucks the lifeblood from the very character of our communities, 
and it costs us all.
    Let me talk about two programs that are working right now 
to help local communities.
    Mr. Chairman, last week you and I were joined by 40 other 
Senators in sending a letter to the Budget Committee to support 
full funding of allocations to States and communities for the 
Land and Water Conservation Fund. I hope we can pass 
legislation to meet the original intent of the fund.
    Last year, Governors identified more than 500 projects 
which could have benefited from a higher level of funding from 
the Land and Water Conservation Fund.
    Another approach that began in Vermont but is now a 
national program is the farmland protection program. As you 
know, we are losing farm and forest land across the country at 
an alarming rate. We had an original pilot program in Vermont 
known as the ``Farms of the Future'' program. That effort has 
supported the decisions of thousands of farmers who have chosen 
to protect their farms from development and preserve their way 
of life for generations to come. It has been overwhelmingly 
successful.
    If we funded this this year, it could ensure the protection 
of prime agricultural and forest land across the country.
    I have introduced S. 333 to reauthorize the farmland 
protection program at $55 million a year. This map of Franklin 
County, Vermont, shows how well the farmland protection program 
can work. Those green patches are where we have used the 
farmland protection. This is some of the best agriculture soil 
in our State.
    Senator Chafee. When you say the farmland protection, is 
that where you buy up the development rights?
    Senator Leahy. That's right.
    Senator Chafee. Who buys them? The State or the county?
    Senator Leahy. No. It would be the State will buy them up. 
We don't have a county form of government, as such, in Vermont, 
but the State and the local communities would do that. We use 
either farms for the future or farmland protection program for 
this.
    A lot of this would have been just developed and lost. 
We've got plenty of room to develop for what we need for 
manufacturing and anything else, but we only have so much very 
good agricultural soil, and we have to implement policy 
changes.
    I'm going to introduce the Downtown Equity Act of 1999 to 
help bring Federal buildings or Federal facilities into 
downtown when that is at all possible. We recently had one 
again in Vermont which went out into an area that is where 
people are very concerned about growth, bypassing some areas 
where downtowns need revitalization. Sometimes downtown areas 
have difficulty competing in the Federal procurement process 
because of higher costs, and this may well help them--at least 
give them a level playing field that would allow Federal 
agencies to factor in the cost of siting a place, encouraging 
them to consider downtown.
    So these are all areas--Mr. Chairman, I will put my whole 
statement in the record, but what prompts me to have my concern 
about this, as a native Vermonter, I saw in 1993 the National 
Trust for Historic Preservation put our entire State on its 
list of endangered places because it was so concerned that we 
would lose our character by sprawl.
    Having grown up in a small city where you had a very active 
downtown that kept a sense of community, where I delivered 
newspapers to most of the businesses downtown as a child, I 
know how much it added to the character of our State--a very 
good character--and I would hate to see that lost. At least 
give us the tools so it doesn't have to be lost.
    I commend you for having these hearings, and Senator 
Baucus, who has also been a leader in this area.
    Senator Chafee. Thank you very much, Senator.
    Senator Leahy. I'm going to have to go to another hearing.
    Senator Chafee. Fine. We know that other people have 
apartments. Senator Landrieu, if you have an appointment--if 
you can stay, we can have some questions perhaps.
    Senator Feinstein, you are welcome. Glad you are here.

STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR FROM THE STATE 
                         OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I want to echo Senator Leahy's compliment to you. I don't 
want to take it back. As a matter of fact, I only wish you 
would try the other side of the aisle for the remaining time 
you have here.
    Senator Chafee. Put 24 years in there, too?
    Senator Feinstein. Yes.
    Senator Chafee. I don't know.
    Senator Feinstein. You will be missed.
    Senator Chafee. Aren't you nice. Thank you.
    Senator Feinstein. And by those of us on the other side of 
the aisle, as well.
    Senator Chafee. Thank you very much.
    Senator Feinstein. Mr. Chairman, you have three bills 
before you, and the bill I'm going to speak about, my bill, is 
probably the most modest of the three.
    I want particularly to compliment my friend and colleague, 
Senator Boxer, for her initiative and for the Permanent 
Protection for American Resources Act, which she has authored, 
and I'm very proud to be a cosponsor of that bill.
    My bill, if you will, sets a kind of basic menu for 
handling the Land and Water Conservation Fund. It is termed, 
``The Public Land and Recreation Investment Act,'' and it 
really takes off after some of the basics. These basics are 
that Congress has historically spent less than it has on the 
Land and Water Conservation Act, in 1999 appropriating only 
$328 million. And since the water conservation fund was 
created, Congress has really spent only $9 billion of the more 
than $21 billion the Fund has raised.
    This underspending----
    Senator Chafee. How much does it bring in a year? Do you 
know, Senator?
    Senator Feinstein. Beg your pardon?
    Senator Chafee. How much goes into the Fund a year? Do you 
know?
    Senator Feinstein. Yes, $900 million.
    Senator Chafee. So $900 million comes into the Fund every 
year?
    Senator Feinstein. That's right.
    Senator Chafee. From the offshore receipts?
    Senator Feinstein. That's right.
    Senator Chafee. Thank you.
    Senator Feinstein. So this underspending has created a huge 
backlog in Federal acquisition of environmentally sensitive 
lands. The cost of acquiring in-holdings in national parks, 
wildlife refuges, national forests, and other public lands 
totals over $10 billion. In addition, the Federal Government 
receives $600 million in requests for land and water 
conservation funding each year.
    Now, this Fund also is authorized to fund grants to States 
for acquisition of park lands and recreation facilities. 
Historically, about a third of the Land and Water Conservation 
Fund has gone to States, but State grants have gone unfunded 
since 1995.
    And another important part of this, which I used at least a 
half a dozen times while I was mayor of San Francisco, that has 
gone unfunded in recent years is the UPARR program, the Urban 
Parks and Recreation Recovery program, which was originally 
authorized at about $150 million a year.
    What my bill would do is amend the Land and Water 
Conservation Fund Act to say that the $900 million collected by 
the Land and Water Conservation Fund each year would be 
automatically appropriated to the Land and Water Conservation 
Fund and the urban parks and recreation recovery program. So 
that appropriation becomes automatic every year, that $900 
million is available. These funds would be used to acquire and 
preserve natural areas, open space, park land, wildlife 
habitat, and recreation areas.
    This bill would also provide that 40 percent of the funds 
provided under this act be spent on State grants, so, of the 
$900 million, 40 percent, $360 million, would be spent on State 
grants. This would establish a floor. Additionally, it would 
require that the States pass through 50 percent of the grants 
they receive directly to local governments.
    It would provide that 10 percent of the funds provided 
under this act be allocated to the urban parks and recreation 
recovery program, the UPARR program, and it would require the 
President to submit an annual priority list to Congress for 
expenditure of funds provided under this act.
    The land and water conservation funding will be spent on 
the President's priorities unless Congress specifies a 
different order or list of priorities each year.
    It would change requirements for the Land and Water 
Conservation Fund State grants programs, including a new 
requirement for States to develop State action agendas that 
identify their top conservation and recreation acquisition 
needs--in other words, each State must prioritize its needs 
every 4 years.
    And it would provide something that has never happened 
before, and that is that Indian tribes would be recognized 
collectively as one State for the purpose of the State grants 
programs, and thereby these programs would be accessible to 
Indian tribes.
    It would amend the UPARR Act to allow funds to be spent for 
construction of recreation facilities and acquisition of park 
land, and it would make other technical changes to update this 
act for the 1990's.
    So, in essence, what my bill seeks to do is set a floor, a 
basic menu, if you will, to say that each year--particularly 
now that we have a surplus--at least $900 million will be 
appropriated for these purposes. Of that, 40 percent will go to 
the State. Indian tribes will be one State collectively, and be 
able to use this money. Of the moneys, 10 percent would go 
through to the local directly to local governments.
    Senator Chafee. And ``local'' meaning cities; is that 
right?
    Senator Feinstein. Excuse me, that's right, to cities.
    Senator Chafee. All right.
    Senator Feinstein. And that States would have to pass 
through 50 percent of the grants they receive directly.
    Senator Chafee. Is that 50 percent of the----
    Senator Feinstein. State money, of the 40.
    Senator Chafee.--40?
    Senator Feinstein. Of the 40 would go directly through to 
local governments.
    So, in essence, we have tried to sort of very carefully set 
a menu, if you will, as to how this $900 million would be used 
each year, but we would use the $900 million.
    Last year, Congress only appropriated $328 million. I 
believe there's $13 million in the so-called ``backlog'' that 
has not been appropriated.
    I look at this as the most modest of the bills before you, 
as I say, as a menu of how to proceed. I think it is prudent. I 
think it is wise. And if the committee doesn't see fit to pass 
another bill, I think this bill makes a lot of sense.
    Senator Chafee. Well, thank you very much, Senator.
    First of all, I want to congratulate you for all the work 
you did on that--I guess you call it the ``headwaters forest.''
    Senator Feinstein. Headwaters forest. That's right.
    Senator Chafee. Boy, that was a terrific job. And does it 
seem to be--is it over now? Have you won?
    Senator Feinstein. It is over. We----
    Senator Chafee. There seems to be a lot of backing and 
filling.
    Senator Feinstein. It is a done deal, as they would say, 
Mr. Chairman, and now we've got to make it work.
    Senator Chafee. Great.
    Senator Feinstein. But we have essentially protected for 
all time the largest stand of historic ancient redwood forest 
in this country in private ownership.
    Senator Chafee. Well, isn't that marvelous. All of us 
congratulate you.
    Senator Feinstein. Thank you.
    Senator Chafee. I know you worked very hard on it, along 
with Secretary Babbitt and, I guess, the Governor.
    Senator Feinstein. The Governor of California.
    Senator Chafee. Both Governors.
    Senator Feinstein. Right. Actually, we had a very good team 
of State and Federal people trying to pull this thing together. 
It was very difficult because all of this land is private land 
and you can't just take it without paying for it.
    Senator Chafee. Yes.
    Senator Feinstein. And so to work out something which made 
sense for those people that needed the jobs and all of us that 
wanted to preserve the ancient redwood, was very important.
    Senator Chafee. Good for you. Well, you should feel very 
satisfied.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Senator Chafee. Senator Landrieu, as I understand your 
bill, it gives the money to States with very broad criteria. I 
guess there is some concern--I thought you made a very 
appealing presentation here when you said, ``Why shouldn't we 
use money that comes from a depleting resource to restore other 
resources?'' But I'm not sure that--and perhaps you can help me 
on this--that your bill would necessarily do that. Some have 
expressed concern--and I think the environmental community 
might voice it as we go along here today--that your bill 
creates drilling incentives. Is that so?
    Senator Landrieu. Thank you for asking that question, 
because I'd like to clear up a couple of things and respond to 
your question.
    As you know, this bill has been introduced, different 
versions of it, many years before, and it met with some 
resistance for many reasons. Because of that, we have taken out 
the drilling incentives in this bill so that it becomes a 
revenue-sharing bill. It is not a pro-drilling bill; neither is 
it an anti-drilling bill. I have urged my colleagues to 
consider coming to terms with that, since there are some States 
that are pro-drilling and others that are not, to come together 
on a revenue-sharing bill.
    We had to come up with a way, Mr. Chairman--I'm glad 
Senator Feinstein is here to hear this--because I was happy to 
see that she was able to be crucial to the development of that 
purchase of the redwoods.
    But we need to remember, the money that enabled us to do 
that came from offshore oil revenues, basically, from Louisiana 
and Texas. We are producing 90 percent of the money in the 
Fund. Louisiana is producing 90 percent of the offshore oil and 
gas revenues, and currently. As you know, interior States, like 
Wyoming and Montana and Colorado, get to keep 50 percent of 
mineral revenues. But the coastal States that drill don't get 
to keep any of their revenues.
    So we are urging is this Congress to recognize the 
contribution that Louisiana and Texas and other States make, 
allowing in the formula, as we spread this money around the 
States, to reinvest back for impact assistance.
    I just left ports in my State, Mr. Chairman, and I have to 
tell you that 1,000 trucks a day--I mean, this money just 
doesn't get into the Treasury by magic. There are hundreds of 
helicopters, thousands of trucks that transport this industry 
from onshore to offshore. The helicopters don't come from 
Honduras or Guatemala, they come from Louisiana and Texas to 
make this drilling possible. This activity raises the money to 
purchase the redwoods and Cat Island and the Montana parks and 
Yellowstone.
    Any bill that we develop has to recognize the contribution 
that the coastal States make, whether they drill or not, and we 
can add some additional language that will make it clear that 
that's for impact assistance and environmental investments.
    I know that you are sensitive to the fact that this money 
is produced from oil revenues derived off the coast of 
Louisiana. It looks like that's the way it is going to be for 
the next 30 or 40 years, and any bill that is developed should 
recognize the tremendous contribution of this income to the 
Fund.
    Finally I will say, since it is your State that we used as 
an example, Louisiana already has lost an area greater than the 
State of Rhode Island off of our shore, not only from offshore 
oil and gas development, but the leveeing of the Mississippi 
River for ports and waterways.
    I can plead with the members to understand the impacts of 
these developments. Any bill that we design should recognize 
that--not encourage drilling, nor discourage it--but be 
revenue-neutral.
    Senator Chafee. Thank you very much.
    I notice my time is up.
    Senator Baucus, do you have a question of the panel?
    Senator Baucus. Yes, very briefly.
    First, I very much commend both of you for trying to 
increase the amount of funds that go to these general 
purposes--land and water conservation purposes and open space 
and sprawl kinds of purposes. I think now the Congress has 
appropriated about $200 million, roughly, to Land and Water 
Conservation Fund. Do you know is that about the right amount?
    Senator Feinstein. It's $328 million last year.
    Senator Baucus. Yes. And both your bills would direct $900 
million a year.
    Senator Landrieu. Well, the authorization is $900 million, 
but we've never met that.
    Senator Baucus. Right.
    Senator Landrieu. I think 1 year in 30 years.
    Senator Baucus. Right. But both your bills would direct 
that that would be spent----
    Senator Feinstein. Appropriate. That's right.
    Senator Landrieu. Yes.
    Senator Baucus.--which I commend. I mean, it is--I firmly 
believe that that's something that we should to.
    The question really is--and I don't think it can be 
answered here--is the formula, you know, and how we divvy it up 
and what discretion is given to whom--to States, local 
communities, and even the Congress, for that matter. And, 
obviously, any formula has to be fair to all parts of the 
country.
    I don't want to get into all the details here, but I would 
expect that coastal States do get some offshore revenue.
    Senator Landrieu. We don't get any.
    Senator Baucus. With State taxation of some revenue.
    Senator Landrieu. Because when you're outside of--that's 
what is so important.
    Senator Baucus. But let's say not offshore, but inshore.
    Senator Landrieu. Well, you get inshore, but----
    Senator Baucus. Or whatever the opposite of offshore is.
    Senator Landrieu. Yes, but it is important to say you do 
get some inshore revenues, but, because the Federal Government 
has passed this deepwater royalty relief, it is moving the 
drilling far offshore, like 50 miles, way past any State's 
borders, and so the States like Texas and Louisiana that are 
supporting that deepwater, which can be done in more and more 
environmentally sensitive ways, are not getting any tax 
revenues, and so that's part of what we're trying to solve with 
our efforts here, to reinvest back in those coastal communities 
and also share with other States that don't have drilling, to 
be fair, that they should be able to make their choice.
    I think Senator Glendening is going to represent the views 
of many of the Governors, republicans and democrats, about that 
point, and the State's discretion to use some of these moneys, 
which is important.
    Senator Baucus. I appreciate that. Again, it's just a 
question how we divvy it up.
    Senator
    Senator Feinstein. Senator Baucus, what my bill tries to do 
is establish that formula, and what it essentially says is 50 
percent would be spent on Federal projects, 40 percent would be 
spent on State projects, 10 percent on local projects.
    Senator Baucus. Right.
    Senator Feinstein. Of the money going to the State, half of 
it would go down to the locals. So it doesn't make any judgment 
as to where it should go, but it does establish that formula, 
and then, finally, it provides that Indian tribes could be seen 
as a State.
    Senator Baucus. What guidelines do you provide in your 
bill?
    Senator Feinstein. I beg your pardon?
    Senator Baucus. What guidelines do you provide? Can a State 
receive the money and spend it for any purpose, or----
    Senator Feinstein. For the normal purposes, I don't think 
we--well, to acquire and preserve natural areas, open space, 
park land, wildlife habitat, and recreation areas.
    Senator Baucus. All right.
    Senator Feinstein. Those are the guidelines.
    Senator Baucus. Thank you. I suppose the Appropriations 
Committee loves it.
    Senator Feinstein. I beg your pardon?
    Senator Baucus. I suppose the Appropriations Committee 
loves it?
    Senator Feinstein. Well, we'll see.
    Senator Baucus. Yes. Thank you very much.
    Senator Feinstein. Thank you.
    Senator Baucus. They're both good bills. Thank you.
    Senator Chafee. There is no question but what your bill is 
somewhat different here----
    Senator Feinstein. Right. Very different.
    Senator Chafee.--in that, under your--what Senator 
Landrieu, as I understand it, is saying is that her State is 
doing a lot of offshore drilling and is producing a lot of 
revenue for the Federal Government.
    Senator Landrieu. That's correct.
    Senator Chafee. At the same time, this is at a cost. Trucks 
come rumbling down through these--when I was in college, I 
worked in south Louisiana--I guess I told you that--in a place 
called ``Baratara'' on a drilling rig.
    Senator Landrieu. Yes.
    Senator Chafee. And I know that down in a place called 
Lafitte----
    Senator Landrieu. Port Luchan, yes.
    Senator Chafee. Way, way down in there in a parish--I 
forget the name of the parish.
    Senator Landrieu. Plaquemines Parish and Jefferson.
    Senator Chafee. In any event, I worked there one summer to 
get strong. I read an article in----
    Senator Landrieu. That will do it.
    Senator Baucus. Did it work?
    Senator Chafee. I don't know. I survived all right. But it 
was a tremendous experience. Boy, when you change a bit down, 
coming out of the hole when you're down there around 5,000 feet 
and you run that pipe up in 90-foot sections, it is a ballet on 
the floor of the drilling rig. Everybody has a duty, and it is 
a--there's one big boss. He's the driller. You snap when he 
tells you to do something.
    In any event, so what you want is money to come in and 
repair these roads that have been damaged, or you're trying to 
do something to bring back the sections just out where the 
Mississippi empties.
    Senator Landrieu. Yes.
    Senator Chafee. Well, I don't think, under Senator 
Feinstein's proposal, money would be coming to the States for 
those purposes. I think we've got a difference here. Under 
Senator Feinstein's proposal, I'm not sure--we've got 50 
States. How would you divide up the--and I'm all for the $900 
million a year, but how would you divide it amongst the States? 
Maryland is represented here. Is it some need criteria? But 
once you do that you get a subjective definition and it gets 
very tricky.
    Senator Feinstein. You divide it based on 30 percent 
equally and the rest on need.
    Senator Baucus. What does ``equal'' mean?
    Senator Chafee. I suppose on population or square miles?
    Senator Feinstein. Yes. Of the total amount, 30 percent 
would be divided equally among the States, whatever that----
    Senator Chafee. You mean Rhode Island would get as much as 
California?
    Senator Feinstein. Yes, 30 percent of it. Of the $900 
million, 30 percent would be divided equally among----
    Senator Chafee. You divide that by 50?
    Senator Feinstein.--all of the States, and the rest would 
be on the basis of individual proposals by the States.
    Senator Chafee. I see. All right. Well, this is very 
interesting.
    Go ahead.
    Senator Baucus. I don't quite understand. If 30 percent is 
divided equally--30 of the 50 percent; is that correct?
    Senator Feinstein. That's correct.
    Senator Chafee. You divide 30 by 50 being the States?
    Senator Feinstein. That's correct.
    Senator Baucus. Thirty of the 50?
    Senator Feinstein. That's right.
    Senator Baucus. Then the remaining 70 of the 50 is divided 
according to----
    Senator Feinstein. Proposal.
    Senator Baucus. I don't--what does that mean?
    Senator Feinstein. Need.
    Senator Baucus. I'm sorry?
    Senator Feinstein. The way it is done now, essentially, 
Senator.
    Senator Baucus. Well, now it is done----
    Senator Feinstein. The requests come from the White House.
    Senator Baucus. Right.
    Senator Feinstein. The requests come from the Congress.
    Senator Baucus. Right. But so much is earmarked today by 
Congress, and I'm just curious who determines need. How is need 
determined?
    Senator Feinstein. The Administration and the Congress 
would determine the need. There isn't a need necessarily 
spelled out in the bill. There isn't a needs test spelled out 
in this bill.
    Senator Baucus. Well, your staff person may have a little 
more to add here. She's ready there to assist you.
    Senator Landrieu. Can I add one thing while----
    Senator Chafee. Sure.
    Senator Landrieu. One thing I was thinking, our bill, 
Senate Bill 25, simply attempts--and the environmentalists here 
can correct me, but we attempt just to fully fund--and we don't 
quite get there, but we could, with a little tweaking of this 
formula--to fully fund the land and water conservation the way 
it was developed 30 years ago, which is basically half of it 
goes to the Federal Government, approximately, to spend on land 
purchases anywhere under the discretion of the Federal 
Government and the Congress, through a system, and then the 
other part of it goes to the States, based, I think, on 
population, and there's a formula on population and land mass, 
I think, primarily. So our bill doesn't really change that. It 
might tweak it a little, but in our bill it just fully funds 
the land and water conservation, because I, frankly, believe 
the States should have some discretion in the way their park 
systems are developed, and the Governors and the mayors and the 
county commissioners, and, in addition, it adds some money to 
urban parks, is the best way I can explain it, so that some of 
that money, instead of just going to the States, goes to some 
urban parks for expansion.
    Senator Baucus. Thank you.
    Senator Chafee. Thank you both very much for coming. We 
appreciate it. These are thoughtful ideas. You've obviously put 
a lot into it, and I, personally, am very enthusiastic about 
it.
    Thank you.
    Governor, won't you please step forward? We're delighted 
you are here.
    We're delighted to have Governor Parris Glendening here of 
the State of Maryland, and he's right out in the front lines as 
a Governor. He just went through a big reelection.
    Do you have term limits? Can you run again, or is that it?
    Governor Glendening. We have term limits. I also have a 
wonderful lieutenant Governor, Kathleen Kennedy Townsend, so 
we're confident.
    Senator Chafee. So you can have, what, two 4-year terms 
back-to-back?
    Governor Glendening. That's correct.
    Senator Chafee. Suppose you are out for 4 years? Can you 
come back?
    Governor Glendening. No.
    Senator Chafee. You can't?
    Governor Glendening. No.
    Senator Chafee. Wow.
    Governor Glendening. Eight years is enough to leave an 
impact in there.
    Senator Chafee. All right. Why don't you go to it, please.

  STATEMENT OF HON. PARRIS N. GLENDENING, GOVERNOR, STATE OF 
                            MARYLAND

    Governor Glendening. Mr. Chairman and members of the 
committee, let me thank you for the opportunity to discuss the 
land use issues here today, and, more specifically, Maryland's 
smart growth anti-sprawl program. We will have a statement 
submitted, so I'll summarize portions of that.
    Senator Chafee. Fine.
    Governor Glendening. Senator, let me also add my regrets of 
your decision to retire, but my compliments in terms of what 
you have done for this country. Your leadership for individuals 
with disabilities and for health care for poor children, and 
especially in the environment, has been very significant.
    Senator Chafee. How nice. Thank you.
    Governor Glendening. We will all miss you.
    Senator Chafee. I appreciate those kind comments.
    Governor Glendening. It is a pleasure to be able to speak 
here for a few minutes about one of my favorite topics. It has 
all different kinds of names. Some people call it ``livability 
communities,'' some say ``sustainable growth.'' We in Maryland 
call it ``smart growth.'' But it is really a national movement 
toward more sensible land use patterns, which gives us an 
opportunity, I think, as we go into the new century, to really 
make a positive change in what our country will look like in 
the future.
    In the last 50 years, Americans have acted as if moving out 
there somewhere was the same as moving up, and in the process 
we have taken our natural resources for granted. We've paid too 
little attention to what has happened on agricultural land, 
where farms are fragmented by development, or what happens to 
forests and wildlife that lives in them when they are destroyed 
by roads or malls.
    Across the nation, we've let too many of our great and 
historic cities and communities collapse, and this has been 
done, in part, through indifference to urban needs that has 
fueled a great flight to the suburbs.
    As we debate where we are in the suburbs and the central 
cities, we must remember that we really cannot be a suburb to 
nothing.
    Those of us who have studied the causes of sprawl 
understand that government policies, even well-meaning 
policies, too often have caused or perpetuated the very 
patterns of development that we are now trying to reverse. Two 
good examples, the interstate highway system, which opened up 
our entire country, as combined almost exactly in time with the 
G.I. loan system that permitted veterans to buy homes 
throughout this country.
    What has happened, of course, is that those two policies 
inadvertently made sprawl development financially viable for 
both developers and for home buyers. Now these patterns of land 
use have increased land pollution and have almost negated the 
introduction of dramatically cleaner cars. They cost taxpayers 
literally hundreds of billions of dollars for every year to 
create redundant highway and other infrastructure.
    In Maryland--and I know this is true for so many States--we 
have often followed an unwritten rule that directed State funds 
to new suburban developments first at the expense of our older 
communities and neighborhoods. In fact, it has become a hidden 
form of entitlement. No matter where a developer wants to 
build, the State pitches in, even if it hurts our established 
communities.
    Let me tell you one quick story. My wife, Francis Ann, is 
from Cumberland, Maryland, up in the western part of our State. 
When we were courting a good number of years ago we used to go 
up there on the weekends and spend with her parents. We would 
go downtown on Friday night and we'd wander around. The theater 
would be open. The shops would be there, the coffee lounge and 
other lounges, and it was a wonderful time just to meet in a 
small town.
    Subsequently, a developer came in and proposed a huge new 
regional shopping center outside of town up on the side of the 
mountains. In order to make that financially viable, the State 
of Maryland put up $14 million to help build that road. Within 
2 years, the downtown Cumberland area started to decline 
dramatically, and when you go there you see, like so many of 
our smaller towns, a dramatically under-utilized community.
    We have started to reverse these trends in Maryland by 
addressing what we think to be one of the fundamental decisions 
behind development forces, and that is simply the bottom line, 
the cost line.
    We have decided that if government policies had 
inadvertently encouraged sprawl by making it cost-effective, 
then new government policies could encourage investment in 
existing communities and in smart growth centers by making it 
more expensive to further sprawl.
    People make bottom-line decisions. Homemakers do, builders 
do, investors do, and therefore I think our goal ought to be to 
change that bottom line.
    We have, in effect, made our $17 billion State budget an 
incentive fund for smart growth. We've outlined--and I think 
these have been distributed to you--the details in this report 
here of exactly how we are doing so.
    For development outside of the smart growth areas, we 
simply say the State will not help out. I'm sorry, but it will 
not. If you are building out there and if you are tearing up 
one more farm or forest, then you pay the cost for roads, 
water, or sewage park and other development costs. But, 
instead, if you invest in existing communities, then you not 
only avoid those costs, but you will have access to tax 
credits, grants, low-interest loans, and other bottom-line 
impacting incentives.
    Let me emphasize, it is not our intention to stop growth. 
We do not want no growth or slow growth. In fact, we want to 
continue economic growth in Maryland. Indeed, our economy is 
booming. We are now the third-highest family income in the 
Nation, and our unemployment rate is at a 10-year low. But we 
simply no longer will approve State funding for capital 
projects or operating projects that are not in accordance with 
smart growth program. We will not use tax dollars to subsidize 
sprawl.
    If you think about the statistics, the American farmland 
trust says that the United States is losing 45.5 acres of green 
space every hour. In Maryland, if we continue going the way we 
are now, in the next 25 years we would lose more open space 
than we did in the first 350 years of our existence.
    I'm proud that we have laid this foundation for protection 
of the green infrastructure with our smart growth. We may be a 
leader, but so many other States are doing the same things. 
Republican Governors like Mike Leavitt, for example, of Utah, 
or Christine Todd Whitman of New Jersey, are leaders in this 
area. Governor Tom Carper of Delaware, Roy Barnes of Georgia, 
making major efforts to stop sprawl.
    Let me suggest that I and my fellow Governors would 
appreciate the support of the national government. We believe 
there are four key areas in which we can work as partners: the 
continued expansion of effective programs that work; second, to 
emphasize the location of government facilities; third, to use 
a sprawl versus reinvestment test for decision; and, fourth, to 
rethink some of the broader policies that are in place.
    If I might, very briefly, when I talk about continuing 
expanding effective programs, programs like the conservation 
reserve enhancement program, which provides Maryland with about 
$200 million over the next 20 years to provide forest buffers 
along our waterways. I stress, by the way, we're not just 
asking for money. The legislature approved our program for $140 
million for purchase of development rights for 70,000 acres 
during the course of the next 4 years.
    There are a number of new programs being proposed that do 
the same type of thing. I wanted to praise members of the 
Clinton Administration, as well as this Congress, for the 
support of those programs. The Better America Bonds program, 
for example, which will help us purchase greenspace development 
rights and restore urban areas; community transportation cost, 
a $10 billion proposal to relieve congestion and improve air 
quality--these type of programs do work and we support them 
very strongly.
    The second approach for the Federal Government to adopt, I 
believe, is a policy that emphasizes location of public 
facilities, of national government facilities, and smart growth 
areas. The Federal Government should make it a practice to 
locate new offices in central business districts, and 
especially in communities where revitalization efforts are 
already underway.
    Sometimes, relatively simple acts, like keeping a post 
office or a courthouse downtown, rather than building out in 
the suburbs, can have a significant impact on the economic 
viability of a community.
    Let me just tell you, when we came in, for example, in the 
State of Maryland, we pay 50 percent of school construction, 
the State does. The first priority was set for new schools in 
new communities to accommodate growth. We've reversed that 
entirely, and first priority now says for schools in existing 
communities. When I came in, 43 percent of the funding for 
State support for education for school construction went into 
existing communities. Today, more than 80 percent does.
    Likewise, I remember a great debate in the small town of 
Hagerstown, where the judges had decided to build a new 
courthouse out on the interstate highway so it would be more 
convenient for them and they would have more parking. We 
reversed that decision. That courthouse is now under 
construction in downtown Hagerstown.
    The third step I think that would work is for a simple test 
on policy decisions. Does this program lead to reinvestment in 
an established community, or does it contribute to sprawl? That 
is the law of the land in Maryland now, and we think it would 
do well nationwide.
    Once you begin reviewing policy decisions from that 
perspective, you will realize how many government actions have 
a significant impact on sprawl by either protecting or 
threatening open space, by either reinvesting or disinvesting 
in established areas.
    Smart Growth tests applied to virtually every decision 
involving allocation of resources in Maryland has revealed a 
tremendous impact of the hidden cost of sprawl.
    And, finally, I believe we must look anew at several broad 
policies at the Federal level. Certainly, we support national 
water and air pollution standards, but I think we must go even 
further, adopting standards, for example, minimum national 
standards for animal waste runoff.
    On the lower eastern shore, which is Delaware, Maryland, 
and Virginia, the large poultry industry, which is expanding 
tremendously, plays havoc with our ability to regulate animal 
waste runoff because of the fact that they can move a few miles 
and go from one State to another. I believe minimum standards 
at the national level are required.
    I would also suggest----
    Senator Chafee. That's awful tough to get.
    Governor Glendening. I understand that.
    Senator Chafee. That's a tough one.
    Governor Glendening. Senator, I certainly do understand 
that. We've had our battles just in one State, and I know how 
difficult that is.
    Senator Chafee. I mean, the view is that this is a State 
matter and they don't want the Feds to come in and tell them 
what to do.
    Governor Glendening. Senator, I understand that. If I might 
just add real quickly--and I know this isn't the committee that 
is going to take the lead on that issue, but I would also say 
the nature of agriculture in some areas is changing. These 
super hog farms, these concentrated poultry farms have a 
devastating impact on water supply. West Virginia poultry 
expansion, for example, is now impacting the Potomac River. The 
hog farms that come up across in North Carolina, for example, 
have had a significant impact in the development of pfiesteria 
outbreaks and things of this type. So somewhere or other I do 
hope we can work together on this, but I appreciate the 
sensitivity of what you're saying.
    I would also add, as a last point, I think we have to look 
at some existing policies.
    On the air pollution policies, for example, under Federal 
direction we have indicated nonattainment areas. These 
nonattainment areas are often the very areas where we want 
investments in jobs--in our State, for example, places like 
Baltimore. And, because they are nonattainment, we tend to 
force the development, the growth, and the jobs out to those 
very areas where we do not want sprawl.
    I think we are going to have to, obviously, protect the air 
quality, but revisit some of these policies.
    Let me just note that all across the country people are 
starting to understand the devastating impact of sprawl. We 
must make change. It is not going to be easy. Just as an 
example, in the middle of our State, in a small, rural area, we 
have designated several years ago a combined public safety 
training center in a small community called Sykesville. That 
center, if built, would generate about 140,000 trips per year 
down small, rural roads. You put 140,000 cars on the small 
roads, and demand becomes for a 4-lane highway. You put the 4-
lane highway, and the demand becomes, ``Let's put the shopping 
centers and development, because, after all, this farm is on a 
4-lane highway.''
    We just canceled that training center, and, in doing so, 
you would have thought the world ended in terms of the outrage. 
I have not had one single person ever come up to me and say 
they want more sprawl, but when you try to make change it is 
very difficult.
    I often make the statement, ``Everyone wants to go to 
heaven, but no one wants to die to get there.'' And I think 
that that's the point where we are today. We've got to make 
some fundamental changes in policy if we are going to stop the 
sprawl, reinvest in our existing communities, and I believe 
now, more than ever, the public is attuned to the changes that 
must be made.
    Thank you for the opportunity to be here today.
    Senator Chafee. Well, Governor, those are very constructive 
thoughts. You had specifics in there for us, and that's what 
we're really looking for.
    Senator Landrieu, if you'd like to sit up here, we'd love 
to have you.
    Senator Landrieu. I have to slip out, but I wanted to say 
to the Governor that he has been a big help.
    Senator Chafee. Fine. Thank you.
    I know exactly what you're talking about. In my home town, 
we had a downtown post office, a red brick, splendid building 
with finials over the windows, and it just looked like a post 
office ought to look. Well, what did they do? They build a new 
post office just on the outside of town. You have to drive to 
it. People from Main Street can't walk there. And it just was 
exactly what you said--parking determined the thing.
    But I'm sure that if they had really put their mind to it, 
they could have worked out better parking for the existing post 
office.
    As you say, the bottom line seems to drive so many things. 
You've given tremendous leadership. When I see some of the 
things you've done, you must have had some royal battles in 
your legislature to get these through, didn't you?
    Governor Glendening. Senator, we did, but I'm pleased that 
so many legislators did stand up. The fact that we were 
withholding the budget probably helped a little bit, but I know 
they would have done the right thing under any circumstances.
    Senator Chafee. But the homebuilders must have been 
distressed, weren't they?
    Governor Glendening. Some were and some were not. Many of 
the homebuilders, through their organizations, were very 
supportive. Remember, we're not seeking in any way to curtail 
growth, or even economic growth; we're simply trying to 
redirect it with higher densities in appropriate areas, with 
redevelopment, with carefully planned development.
    Our economy is booming. In fact, right now, under this 
program, the homebuilders are having the best year that they've 
had in well over a decade.
    Senator Chafee. What is the county--what county is it of 
yours that I saw is one of the fastest-growing in the Nation?
    Governor Glendening. Percentage-wise, in southern Maryland 
we have several of the rural counties there that are very 
rapidly growing, and the fastest one was up in Carroll County, 
the very place we're trying to put some of the brakes on this. 
I think those are probably the ones that were written up 
recently.
    Senator Chafee. Yes.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    I might say, Governor, as you were speaking I was reminded 
of local efforts in a particular time in Montana, Helena. The 
local leaders have a breakfast every Thursday morning. They 
call it ``Helena Pride.'' It has been the catalyst for good 
growth development and smart growth, as you're talking about. 
The business leaders, Chamber of Commerce, and some of the 
government officials, and sometimes a county commissioner is 
there, but they've got tremendous energy and spirit. There are 
two or three who just keep focused on proper development of 
Helena.
    I must say, as a consequence, in the last several years 
they have done a terrific job getting a Federal building 
correctly located. It was going to go way off in the outskirts, 
and they're able to now keep it downtown. In addition, another 
big development coming up to--utilizing some old abandoned 
space, again downtown. A lot of it is just local. They've just 
really worked hard, this group. And I know of groups around the 
country to do that. That opportunity is always there.
    Don't you think, too, that, as we seek Federal funds in 
various ways--you mentioned several Federal programs--a lot of 
this is really dependent upon perhaps even more dollars raised 
elsewhere, to the degree that dollars are necessary. It's 
private sector, State, local, maybe bonds, and so forth.
    For example, it is a bit different, but in Montana, again, 
when we are acquiring space for, say, elk habitat, or a 
considerable amount of land adjacent to Yellowstone Park, to 
protect the wildlife in the park, it has been partly land and 
water conservation funds, but it has been a lot of--Rocky 
Mountain Elk Foundation fund has been a major conservancy, and 
Montana Land Reliance. There's just a lot of different sources 
of money, and the Federal dollars really is not the lion's 
share at all in a lot of projects I've seen that are 
successful.
    I wonder if you could just comment on that?
    Governor Glendening. Well, first of all, I want to 
congratulate you in terms of your earlier example. That's 
exactly what we've got to do is reinvest in existing 
communities. Of course, this is going out all across the 
country.
    Second, I believe your basic assumption is absolutely 
correct, and that is if we are going to be successful we need 
partnerships on this, not only partnerships on Federal, State, 
and local, but the private sector and the nonprofit sector 
involved in a big way.
    Some of our greatest successes in Maryland have come from 
exactly those type of partnerships.
    I would add two things, however. We can put a series of 
tools in place to help make those partnerships more successful. 
We do things in terms of tax credits, other incentives, low-
interest loans, and things of that type.
    The other part of it, however, is we want to make sure that 
governmental policy doesn't, on the one hand----
    Senator Baucus. Right.
    Governor Glendening.--say we should stop sprawl, and on the 
other hand encourage it. And that's about the very locations 
and all that we're talking about, whether it's a courthouse or 
whether it is a road, or whatever, that can be so helpful in 
that area.
    Senator Baucus. Is there a role here for bonding authority? 
I know the Administration is proposing this Better America 
Bonds proposal. Have you used bonding authority in various 
ways? And is it helpful here? And could you also briefly 
comment on the Better America Bonds?
    Governor Glendening. We have used this in Maryland in terms 
of using State bonds, significant State bonds. The proposal 
that we have, that the legislature adopted also 2 years ago, we 
said, ``Not only let's stop the sprawl, but let's buy the 
development rights,'' and we created the rural legacy program, 
in which we are buying about $145 million worth of open space. 
Most of that is bonded.
    It is similar, for example, of what Christine----
    Senator Chafee. State bonds?
    Governor Glendening. State bonds.
    Senator Chafee. And do they get overwhelming approval?
    Governor Glendening. We do not need referendum of State 
bonds in Maryland.
    Senator Chafee. I see.
    Governor Glendening. The legislature approved them 
overwhelmingly, similar to what Christine Todd Whitman did in 
New Jersey, and theirs actually went to referendum, as well, 
and got approval.
    The build Better America Bonds would work tremendously for 
two reasons. One is in terms of making the capital available, 
and two, of course, is the interest cost on that. We are very 
supportive. We want to work with you on that program. It would 
help us significantly.
    And I would emphasize--and this is not only true in 
Maryland, but for--27 of the Governors in their State of the 
State messages 2 months ago talked about sprawl and preserving 
open space as being a major issue facing those States.
    We are prepared to put significant money up to help be a 
partner, not just to stand there for a hand-out, and something 
like the bond program would help us do exactly that.
    Senator Baucus. You mentioned people want to go to heaven 
but don't want to die to get there.
    Governor Glendening. Yes.
    Senator Baucus. What are some of the major points of 
opposition you've encountered? And could you give us some 
suggestions as to how to deal with that? To a degree, everybody 
on this panel is the faithful. We're trying to figure out how 
to get something accomplished here.
    Governor Glendening. Well, the general opposition comes 
from a concern about are we somehow or other going to erode 
local planning, local land use, or whatever.
    Senator Baucus. Right.
    Governor Glendening. That's why we took the approach of 
saying we're not going to put another series of regulations in; 
we're going to try to give incentives and disincentives in 
terms of growth patterns. And that's why we were able to pull a 
majority together for that.
    Having said that, when you get to specific application of 
yes or no on a project, quite candidly, I think it takes some 
strong leadership willing to take a little bit of heed on it.
    Just as one quick example, way down on the lower eastern 
shore a county was getting ready to rebuild its courthouse, 
decided to put the courthouse out on the highway, away from the 
very small town of Snow Hill.
    A small group of citizens petitioned that to referendum. 
County commissioners changed their mind. And in the referendum 
it was approved that it stays back in the town.
    It goes back to the same thing, Senator, that you were 
talking about in parking. I flew down, in fact, a couple days 
before the election, before the referendum, and said the State 
will pick up the additional cost of the parking if the citizens 
vote to put that in town and pay the cost. I was pleased that 
it was approved overwhelmingly.
    It took a lot of people to stand up and say, ``We 
understand there may be some reasons to move it out there, but 
you're going to destroy what we're trying to do,'' and people 
understood and came together.
    Senator Baucus. I appreciate that. Thank you.
    Senator Chafee. Isn't that wonderful? Well, thank you very 
much. Obviously, Governor, you've taken a strong lead in this. 
It is interesting, the statistics you gave about in the State 
of the State messages or addresses of the legislature. What did 
you say, over half of the States----
    Governor Glendening. Twenty-seven. Yes.
    Senator Chafee. Twenty-seven of the Governors mentioned 
sprawl and doing something about it, and obviously you are 
doing a lot about it. These suggestions you gave us are very 
helpful. Thank you very much.
    Governor Glendening. Thank you very much.
    Senator Chafee. We appreciate your coming.
    Now could we have Mr. David Hayes?
    Let me just explain here, we're going to get started with 
Mr. Hayes. There is a vote at 11, but we'll get what time we 
can. Both of us will have to go over and vote. I hope you can 
come back, Senator?
    Senator Baucus. I can't.
    Senator Chafee. Oh, dear. But we're going to move right 
along with these remaining witnesses. We've got Mr. Hayes, and 
then five other witnesses, and everybody will get their chance. 
I would ask that everybody restrict their testimony to the 5 
minutes.
    Go to it, Mr. Hayes.

  STATEMENT OF DAVID HAYES, COUNSELOR TO THE SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Hayes. Thank you, Mr. Chairman.
    My name is David Hayes. I'm counselor to Secretary Babbitt 
of the United States Department of the Interior. I appreciate 
the chance to testify this morning.
    I've prepared a written statement that I would appreciate 
having put in the record, along with some written statements of 
other government agencies with an interest in this issue--EPA, 
HUD, Department of Transportation, and others.
    Senator Chafee. We will definitely do that.
    Mr. Hayes. Thank you, Mr. Chairman.
    Let me say at the outset that we very much appreciate the 
opportunity, as the Administration, to testify on this very 
important topic of open space, urban sprawl, and the quality of 
life issues that have been discussed this morning and that 
confront our Nation today.
    We very much applaud the careful and close look that this 
committee is taking on this issue.
    As you know, the Administration has launched two important 
and complimentary initiatives to address this set of issues. 
The first is the Lands Legacy Initiative, and the second is the 
Livability Initiative. I'd just like to offer some highlights 
about each if I could very briefly.
    First, the Lands Legacy Initiative. This is an initiative 
that would provide tools to protect critical lands across 
America to help keep our treasures safe, while also helping 
States and local communities, including tribal governments, to 
preserve local greenspaces and strengthen protection for 
coastal areas.
    Under this initiative, we hope to work with you to secure a 
permanent funding stream under the Land and Water Conservation 
Fund and to use the full authority of the Fund for these 
purposes.
    There are several unique features in the Administration 
proposal, Mr. Chairman.
    First, it continues the tradition that this committee and 
others have supported of using Federal funds to help protect 
America's treasures. This is the traditional use, if you will, 
of the Land and Water Conservation Fund, and the interchange 
that you had, Senator, with Senator Feinstein on the headwaters 
provides a prime example of how these funds have been used to 
set aside America's treasures.
    The Administration's proposal would increase the funding 
aspect of this part of the Land and Water Conservation Fund to 
over $400 million. And we have targeted a variety of additional 
acquisitions that, in consultation with the Congress, we 
believe would be appropriate, including, just by way of 
example, and certainly not by way of exclusion, 450,000 acres 
of valuable desert-unique property in the Mojave desert and 
adjacent to Joshua Tree National Monument; the protection of 
Civil War battlefields that are much in the news; the addition 
of inholdings into wildlife refuges in the northeast, in 
particular; additions to the Everglades, and the buffers that 
are needed to protect that important ecosystem.
    So, working together in the partnership that the 
Administration has had with the Congress in identifying special 
projects, we want to continue and enhance that.
    Second, though, and probably more pertinent to this 
morning's discussion is that the Administration's Land Legacy 
Initiative proposal recommends for the first time in several 
years substantial funding for State, local, and tribal programs 
that will help address the issues of open space, community 
planning, and sprawl from a local perspective.
    This is, in essence, a revitalization of the State side of 
the Land and Water Conservation Fund, which has not been funded 
in recent years. We are proposing that it should be funded, and 
that the Feds essentially provide the dollars but not the 
direction.
    It is our hope that, through a variety of grant mechanisms, 
State and local entities will come forward with good plans for 
acquiring property that will assist in open space protection, 
in outdoor recreation, in wildlife habitat, and in coastal 
wetlands preservation. We have a $150 million program in terms 
of State land acquisition initiatives, a $50 million program 
for open space planning grants to provide communities with the 
wherewithal to make their own decisions as they see fit, $80 
million to help local communities acquire property that will 
help with the preservation of wildlife under the Endangered 
Species Act, again providing the local communities with the 
wherewithal to work with the Federal Government and together to 
complement wildlife habitat resources.
    Third, the Lands Legacy proposal that the Administration 
has put forward has a special emphasis on protecting oceans and 
coasts, and I want to emphasize that in light of the 
discussions this morning.
    Our sister agency, NOAA, is the lead on this aspect of the 
Lands Legacy Initiative. We are proposing significant financial 
support for the protection of marine sanctuaries, and, probably 
even more pertinent here this morning, significant grants to 
coastal States to pursue smart growth strategies, again the 
philosophy being that the Feds are helping with the funding of 
local enabling initiatives to address the issues of sprawl and 
growth.
    Finally, on the Lands Legacy side, before I move to 
Livability quickly, the Lands Legacy proposal we have is 
essentially to enhance our traditional role of acquiring 
treasures for posterity, with a deep bow to States and 
communities, assisting them financially and otherwise to 
address the serious problems that are facing them.
    The second major program that the Administration has put 
forward in this regard is the Livability Initiative that the 
Vice President announced recently. Livability is a broader 
concept in which we are trying to address a range of issues, 
including greenspace, traffic congestion, restoring a sense of 
community, and enhancing economic competitiveness for our 
communities.
    The principles that are behind the Livability Initiative 
are that communities know best, and this is responsive to the 
concerns that have been expressed before, that the Feds don't 
know best in this regard. We agree. And what we want to do as 
the Federal Government is essentially help inform and enable 
local communities where we can.
    Examples would include supplying information to local 
communities to assist in the growth management issues that face 
them, providing incentives for communities to work together to 
obtain funding for open space, and to align actions that the 
Federal Government is taking to make them consonant with local 
government interests. The examples that have been mentioned 
this morning of the Federal facilities going into the downtowns 
as opposed to the suburbs is an excellent one.
    Under the Livability Initiative, we have offered a number 
of programs that honor these principles and would help 
implement them. Time is too short to go into the details. 
They're mentioned in my written testimony, as well as the 
testimony of other agencies.
    I will mention one, though, just by way of example, and it 
emphasizes the point of the Federal Government perhaps 
providing tools to State and local communities to help make 
their decisions better, and that is our Department of the 
Interior's United States Geological Survey's amazing expertise 
in terms of mapping. They have the ability to provide extensive 
data collection on water quality, watersheds, land use, etc., 
and they have put together an urban development program that 
provides significant information to local developers about 
growth patterns.
    Government Glendening has used this program to his benefit 
in the State of Maryland, and we would propose to enhance that 
program to provide internet-ready access to local governments 
to have the benefit of the mapping and analytical data that the 
Federal Government has at its disposal through the USGS.
    That's just one example of many programs that we are 
bundling under the Livability agenda.
    So I'll close there, Mr. Chairman. We, as the 
Administration, stand here with ideas, energy, and proposals to 
work with you to advance the ball on this important set of 
environmental issues, and we look forward to doing that in the 
weeks ahead.
    Thank you very much.
    Senator Chafee. Well, thank you very much for that 
testimony, Mr. Hayes.
    I'm a little confused here. As I understand it, what you 
are planning to do is to have the appropriations from the Land 
and Water Conservation Act total, as I understood, $900 million 
a year; is that correct?
    Mr. Hayes. That's correct, Senator.
    Senator Chafee. And then I look at--I'm not sure things add 
up right. I may have made a mistake here. As I understand, 
we've got the lands in legacy. That's $579 million. I'm looking 
on page--well, it's entitled, ``President Clinton's Land Legacy 
Initiative,'' of your testimony that was submitted here. Do you 
know----
    Mr. Hayes. Yes.
    Senator Chafee. Are we on the same page here? It is 
entitled, ``President Clinton's February 1, 1999.''
    Mr. Hayes. Yes. I've got it.
    Senator Chafee. OK. Now, if you go down to just the 
paragraph in front of, ``Saving America's National Treasures,'' 
you see that the Lands Legacy will be administered by the 
Department of Interior, $579 million, the Department of 
Agriculture, $268 million, Department of Commerce, NOAA, $183 
million.
    Well, that all adds up, if I am adding it correctly, to 
$1,030,000,000.
    Mr. Hayes. Right.
    Senator Chafee. Now, where would the money for that come 
from?
    Mr. Hayes. Well, I think I can clarify. I hope I can, 
Senator.
    The Lands Legacy Initiative is more than the $900 million 
Land and Water Conservation Fund, and essentially what we have 
done is work through the budget process with offsets of other 
programs to essentially bundle a variety of programs together 
called ``Lands Legacy.''
    Senator Chafee. I see.
    Mr. Hayes. The core is that $900 million, but, as you can 
see from this paragraph, I should say it doesn't really point 
that out probably as explicitly as would be helpful to the 
committee.
    Senator Chafee. Well, I guess my question is this: how much 
is the Administration asking from the Land and Water 
Conservation Act? It makes a lot of difference. Obviously, if 
the Administration is aboard on this thing----
    Mr. Hayes. Right.
    Senator Chafee.--it makes life much easier for us.
    Mr. Hayes. We are asking for full mandatory funding of the 
Land and Water Conservation Fund, which is $900 million.
    Senator Chafee. Per year?
    Mr. Hayes. Yes.
    Senator Chafee. Well, that's splendid. That's very 
important. Well, then, it behooves us to get more familiar with 
each of these. One is the Lands Legacy, and the other I find a 
little less tangible, the Livability agenda. And I suppose to 
the local communities the biggest thing they are doing there is 
this information partnership that you mentioned before, and how 
the communities can maximize open space and habitat protection.
    Senator Bennett, do you have any questions you'd like to 
ask?
    Senator Bennett. No.
    Senator Chafee. Well, thank you. You've given us something 
to chew on here, Mr. Hayes, and we appreciate it, and we're 
delighted the Administration is so enthusiastic about these 
things because, as I say, the push from the Administration--
now, they've got to stay in there.
    Mr. Hayes. They will, Senator. We view this as a very 
exciting coalescence of interests.
    And, if I could, you mentioned the better American bonds, 
obviously, Senator, as part of the Livability Initiative, as 
well.
    Senator Chafee. That's right. OK. Fine. Well, thank you 
very much for your testimony, Mr. Hayes. We appreciate it.
    Mr. Hayes. Thank you, Senator.
    Senator Chafee. Now, if the next panel could come forward, 
I'd appreciate it. Mr. Falender from the Appalachian Mountain 
Club; Mr. Chris Montague from Montana Land Reliance; Mr. 
Peterson, who has certainly testified here plenty of times 
before, from the International Association of Fish and Wildlife 
Agencies; Mr. Roy Kienitz from Surface Transportation; and 
Ralph Grossi from American Farmland Trust.
    As I mentioned before, we will probably be interrupted by a 
vote, which was scheduled for 11, but I don't know what's 
happening.
    [Bells.]
    Senator Chafee. There we go. I think it is best if I just 
zip right over and vote. Are you going to be around?
    Senator Bennett. Yes, I can be around.
    Senator Chafee. Well, do you want to come and take over, 
and I'll go over and vote and come right back.
    Senator Bennett. OK.
    Senator Chafee. Fine. Why don't you go to it and I'll be 
right back.
    Senator Bennett [assuming the Chair]. All right. Very good.
    You'll face a different orientation, the Senator from Utah 
than the Senator from Rhode Island, but I'll keep quiet.
    Go ahead, Mr. Falender.

     STATEMENT OF ANDREW FALENDER, EXECUTIVE DIRECTOR, THE 
                   APPALACHIAN MOUNTAIN CLUB

    Mr. Falender. Senator, thank you very much for the 
opportunity to testify today.
    My name is Andrew Falender. I am the executive director of 
the Appalachian Mountain Club.
    The Appalachian Mountain Club is the Nation's oldest 
conservation and recreation organization. Our 82,000 members 
live primarily in the area from Maine down to Washington, DC, 
but you might be interested in knowing the State that has the 
fastest growth of our membership is your State. This past year 
we increased from eight members in your State to 14 members in 
your State. Primarily, though, our members are from Maine to 
Washington.
    Senator Bennett. The magic of percentage calculations.
    Mr. Falender. That's right, sir.
    We focus on not only protecting, but also enjoying and 
wisely using the mountains, rivers, and trails of the region in 
our Nation.
    In our view, the work of conserving and caring for special 
outdoor places absolutely must, as people have said this 
morning, be a bipartisan partnership. It must engage 
businesses, nonprofit organizations, and the government at the 
Federal, the State, and, as you point out, the local levels.
    As many of you here know, the Federal commitment over the 
last number of years has been somewhat shaky. As our chart to 
my left indicates, if you look at the 10 years between 1987 and 
1997, spending for LWCF during this period of time averaged 
$230 million against the $900 million authorized.
    To put this in context, in 1 year, 1995, one corporation, 
WalMart, spent $580 million buying former farms and forests for 
their new stores. So WalMart spent $580 million, our Federal 
Government averaged $230 million.
    Well, let's look to the future, though. You don't need to 
look too far to see that American people do now understand this 
urgent need--and I'd like to reinforce that it is an urgent 
need.
    As Senator Lieberman pointed out this morning, this past 
November voters did vote in referendums. They did vote for open 
space. Of the 147 referendums, 84 percent did pass. But this 
won't do the job without Federal assistance.
    We must take on a Federal responsibility in three areas. 
First, there are lands of national significance, whether it is 
Glacier, Yellowstone, Acadia, Denali.
    Then, second, we must assist the States where local 
resources are not sufficient, and I point out, as examples, the 
northern forest of New England, the Appalachian highlands, the 
Mississippi River Basin, the Everglades, the Great Lakes--lands 
of national significance.
    Third, we must provide support for urban areas, where, as 
we've heard over and over again this morning, sprawl is such a 
problem.
    We are very enthusiastic about the current momentum for a 
strong Federal role in open space protection, and we urge this 
committee to adopt a set of principles.
    We'd like to see, in each of these proposals, at least $900 
million of permanent funding for the Land and Water 
Conservation Fund.
    Second--and to get at your point this morning, Senator--
we'd like to see an allocation of 40 percent Federal grants, 40 
percent on the traditional State grants, and 20 percent to a 
competitive State grant process for those projects of national 
significance. Therefore, 60 percent address the type of survey 
that you were talking about.
    Third, we'd like to see yearly permanent funding for the 
forest legacy program at $50 million, UPARR and historic 
preservation at $150 million, and wildlife conservation at $350 
million, with the priority in wildlife conservation on land 
protection.
    Fourth, we would like to see no new restrictions on the 
uses of land and water conservation funds.
    And, fifth, legislation should not allow funds to be used 
for environmentally damaging activities.
    Well, let's look at those individual initiatives. And I 
have this chart that you might try to follow as I talk about 
three of the proposals.
    S. 25, which Senator Landrieu was talking about this 
morning, makes a significant commitment to open space funding, 
and we feel she deserves--she and the cosponsors deserve the 
highest level of congratulations for bringing this forward.
    We do have concern that we think that there are incentives 
in this legislation that would increase oil and gas drilling 
and, obviously, these must be removed.
    I was very interested in Senator Landrieu's comments and 
very reassured when she said she was interested in working to 
try to remove any incentives that might be there.
    Second, we are concerned that there is a prohibition on 
LWCF funding except in existing inholdings, and there also is a 
cap on appropriations for any single project that would exceed 
$5 million. Both of these we strongly encourage to be removed. 
And in her legislation we would like to see the $680 million 
annually taken up to the full funding level of $900 million.
    Moving on to S. 446, in summary, I can say this legislation 
does meet the majority of the principles that I discussed 
earlier, and we are very supportive of this proposal.
    Third, if we look at President Clinton's Land Legacy 
Initiative, our greatest concern is the 1-year budget approach 
that has been taken in this proposal, and I was pleased again 
with Mr. Hayes statement this morning that he sees this 
evolving into permanent funding, which we see as critical.
    We also feel strongly that the President's initiative 
should fully fund LWCF at $900 million, and, as I've said 
before, 60 percent should be reserved for State grants through 
the combined formula and the competitive grant approach that I 
described.
    So, in closing, I would like to thank you very much for the 
opportunity to testify today and the leadership of this 
committee in revitalizing our Nation's commitment to open space 
funding.
    We look forward to working with you on this issue in the 
future.
    Senator Bennett. Thank you.
    Let me just ask a clarifying question. It doesn't 
necessarily go to the issue here, but I have to ask it anyway.
    Your comments about drilling incentives, is it fair for me 
to assume that you are opposed to all oil drilling?
    Mr. Falender. No, Sir. We feel that we should not have a 
piece of legislation whose purpose is to provide mitigation for 
the drilling to have the secondary possibly unintended 
consequence of motivating States to increase that drilling.
    We most certainly are not taking the stand that anything 
should occur here which would specifically discourage the 
drilling that is occurring.
    Senator Bennett. But you do take the position there should 
be no new oil wells drilled?
    Mr. Falender. On the offshore issue, we feel very strongly 
that we would not like to see any new legislation motivate 
increased drilling.
    Senator Bennett. Aside from the legislation, if somebody 
decides they can drill under the present regulatory 
circumstance and make a profit so it would be worth their while 
in doing that, you would be opposed to any--in other words, you 
would prefer--I don't want to put words in your mouth, but I 
want to understand where you are. I think what you are telling 
me is that you would support legislation that would say there 
would be no new offshore drilling of any kind.
    Mr. Falender. If we looked at the overall energy situation 
in this country, our recommendation would be that we would like 
to see the No. 1 priority be given to finding ways to decrease 
the use of fossil fuels. Second, for those fossil fuels that 
are mined or drilled, we would like to see those taken from the 
areas that are least sensitive from an ecological perspective, 
and that would lead us to the conclusion that the offshore 
wells would not be on the list of areas where we'd like to see 
that drilling occur.
    Senator Bennett. Of course, you realize what you're saying 
is increased imports.
    Mr. Falender. As I said, the priority in our mind----
    Senator Bennett. I'm not trying to argue with you. I just 
want to know where you are. Basically, you're saying that you 
would prefer that, unless we can get away from fossil fuels 
altogether, we satisfy our energy needs with increased imports?
    Mr. Falender. The possibility of increasing imports most 
certainly is one of the options that needs to be on the table. 
We feel very strongly that, whether we're talking about 
imported oil or domestic oil, it is important to be sensitive 
to what system is in place to motivate either ecologically 
sensitive drilling versus drilling in areas that have a higher 
probability of causing damage. So if there are imports, we most 
certainly would like to see any effort that would be possible 
by this Congress or this Administration to discourage those 
imports coming from offshore drilling.
    Senator Bennett. All right. I won't pursue it.
    I'm going to have to go vote. Senator Chafee is obviously 
not back, so the committee will stand in recess until the 
chairman returns.
    Thank you. I apologize to the others.
    [Recess.]
    Senator Chafee [resuming the Chair]. All right. If we could 
get started, Mr. Montague, you're on, Montana Land Reliance.
    I know if Senator Baucus didn't get the opportunity to 
greet you, I know he'd like to. He certainly has made favorable 
comments about your organization. Why don't you go to it.

  STATEMENT OF CHRIS MONTAGUE, EASTERN MANAGER, MONTANA LAND 
                            RELIANCE

    Mr. Montague. Thank you, Mr. Chairman. My name is Chris 
Montague. I'm with Montana Land Reliance. We thank the 
committee for the opportunity to speak on issues related to 
preserving and protecting our Nation's open space today. 
Special thanks to Senator Baucus for inviting us.
    I hope that the testimony will give the committee 
additional ideas as it debates how to protect open space in our 
Nation, and also gives it a western perspective on what is 
happening in the west.
    I'd first like to give the committee a brief introduction 
to the Montana Land Reliance. We were founded in 1978. We are a 
privately funded, nonprofit land trust that utilizes donated 
conservation easements and other tools to permanently protect 
Montana's private lands.
    With the help of 324 land owners, we have been able to 
protect just over 322,000 acres of private land in Montana. 
This represents roughly 20 percent of all protected land by 
local, State, and/or regional land trusts across the United 
States.
    Within that acreage, we have permanently protected 620 
miles of stream and water frontage, over 116,000 acres of elk 
habitat, over 5,200 acres of wetlands, and over 131,000 acres 
in the greater Yellowstone ecosystem.
    Again, all of this protection has been completed with 
private conservation easements, and our customer base is 
typically ranchers and farmers.
    The private landowners that make up our customer base are 
facing incredible economic and estate tax pressures to develop 
their land. A vast majority are what we call ``land rich but 
cash poor.'' They typically own a tremendous resource that they 
cannot afford to keep. Although the following statistics are 
Montana-specific, everyone is aware these issues and problems 
are not inherent to our State.
    In 1970, Montana had fewer than 700,000 residents. By 1995, 
the State's population had risen to just over 870,000 and is 
projected to top one million by the year 2000 or 2001. At first 
glance, I realize this does not seem to be an overwhelming 
amount of growth; however, this growth has not been evenly 
dispersed across the State. Certain areas, especially those 
around designated wilderness areas and along riparian zones, 
are undergoing population increases as high as 25 percent.
    In other words, people are moving into the prettiest places 
they can find, and these places are usually the ones that are 
the most fragile or are our most productive agricultural lands.
    The amount of land in agriculture in Montana declined by 
more than three million acres between 1974 and 1994, and the 
number of farms and ranches has declined by more than 11 
percent in that same time period. In Montana, over the 10-year 
period between 1983 and 1993, 11,000 subdivision proposals were 
reviewed by the State by State and county government. These 
numbers do not include 20-acre or larger parcels which, until 
1993, in Montana required no subdivision review, and that type 
of development, those 20-acre ranchettes, has skyrocketed since 
then.
    Most communities view rural subdivision development as a 
positive economic influence on their communities. 
Interestingly, however, a study done by Montana State 
University and the Greater Yellowstone Coalition found that for 
every dollar of revenue raised from new rural residential 
property, the county government and school district spent $1.47 
for roads, public education, police and fire protection, and 
other services. Conversely, agricultural land and open space 
required only $0.25 worth of service for every $1 it 
contributes.
    Simultaneously, land values in Montana and the west have 
risen dramatically. Recent news accounts in Montana show 10-
year property tax appraisal increases averaging 43 percent. The 
economic pressures to convert open and agricultural land to 
residential property has intensified significantly in certain 
areas of Montana, and, I think it is safe to say, throughout 
the west.
    The good news is that Montana leads the way in private land 
protection through conservation easements. As of 1997, Montana 
had permanently protected over 670,000 acres. The bad news is 
that this represents only about 1 percent of the 55 million 
acres in private ownership in the State. And the average age of 
these owners is 59 \1/2\. Over the estimated 20-year period 
this amount was protected, well over three million acres left 
agricultural production or open space and have either been 
developed or are headed that way. In the next 10 to 15 years, 
given the average age of ownership of private lands in Montana, 
we are going to see a huge turnover in land.
    Depending on the tools available to the conservation and 
land trust community, much of this land will be threatened. 
Currently, the battle to protect open space in Montana is being 
lost at a rate of roughly 5 to 1, and in some regions by a 
margin of 8 to 1.
    So what does all this mean? Why should anyone be concerned 
about a place or region that has so much land and open space? 
For several reasons, the most important being that Montana, and 
generally the west, has a unique opportunity to make a 
difference before it is really too late, before we lose all of 
our most precious agricultural land, river frontage, fisheries, 
habitat, and open space. We are not here today to say that 
development and growth are evil. They are not. We are here 
today to ask, as you debate these issues, that you give the 
private land trust community the additional tools to compete 
and fight against inappropriate development. Give us the added 
strength to give our farmers, ranchers, and private landowners 
more options to subdivision as an economic way out.
    The initiatives and ideas we present today will, we 
believe, substantially help in protecting the open lands of our 
heritage. Should these additional tools be made available, we 
are confident, based on our work last year, that we could 
immediately double, and, over the next few years, even triple 
our conservation output each year.
    All of these additional tools could be easily added to the 
current construct of conservation easement law or 170-H of the 
tax code. These ideas are simple and private, and, if made 
quickly, will, we believe, have an immediate positive impact on 
private land conservation in this country.
    First, the majority of our customers cannot use the income 
tax deduction benefit associated with the donation of a 
conservation easement. We're fast becoming a tool only the very 
wealthy can use. We propose a tax credit of between 50,000 and 
100,000 if a land owner does not have the means to use the 
deduction. We would propose that to qualify for this tax 
credit, 50 percent of the land owners total income be derived 
from agriculture.
    Second, allow the same deductibility for C corporations as 
for all other forms of business. Currently, a ranch and a C 
corp structure may only deduct 10 percent of net income, as 
opposed to 30 percent for all other types of ownership. We feel 
this tool, alone, would have allowed us to protect an 
additional 20,000 to 30,000 acres in Montana last year.
    Third, the Congress in 1997 wisely increased the unified 
tax credit, and particularly with conservation easements gave 
additional State tax relief if a land owner lived within a 25-
mile radius of a metropolitan or wilderness area.
    This boundary should be larger to not only give us added 
tools for land farther out from these areas, but to also reward 
the land owner who is willing to protect his or her land 
``ahead of the curve.''
    Any public moneys raised for conservation easements should 
be matched funds or donations to allow the government's money 
to go farther and do more conservation. Furthering land 
conservation is the right thing to do. We applaud the committee 
for its role and eventual action. Land owners generally are 
also interested in doing the right thing. They don't want to 
lose their land or have it cut into ranchettes. But we need to 
be able to offer them reasons not to when they are faced with 
huge economic and estate tax pressures. We need to be able to 
compete in that atmosphere. We need to be able to compete 
against rural development.
    We have a great opportunity, especially in the west, to 
make a major impact on land and open space conservation now. I 
hope we will be given the tools to do so.
    Thank you, Mr. Chairman.
    Senator Chafee. Well, thank you. Thank you very much.
    Mr. Max Peterson.

     STATEMENT OF MAX PETERSON, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Peterson. Thank you, Mr. Chairman.
    I'm testifying today, as you know, on behalf of the 
International Association of Fish and Wildlife Agencies, which 
basically represents the 50 State fish and wildlife agencies.
    Mr. Chairman, we submitted to you a more lengthy statement 
that, if you'd make available for the record, I'd be glad to 
brief my statement.
    Senator Chafee. Go to it.
    Mr. Peterson. OK. We appreciate your invitation to appear 
today to talk about open space, community health, and 
environmental quality, and also, Mr. Chairman, to express our 
strong support for the bill, S. 25, the Conservation and 
Reinvestment Act that was discussed earlier by Senator 
Landrieu.
    Mr. Chairman, we believe that S. 25 is the most sweeping 
and important wildlife funding bill in this half century and 
will go a long way toward conserving our Nation's fish and 
wildlife and provide much in demand conservation education and 
wildlife-associated recreation.
    We really appreciate the work of Senator Landrieu, Senator 
Murkowski, Senator Lott, Senator Breaux, and other cosponsors 
in bringing this to the table, and also express appreciation to 
Senator Boxer and others who have introduced S. 446. And we 
also appreciate President Clinton's Land Legacy, because all of 
these recognize one central fact--that it is a good idea to use 
offshore oil, a depleting resource, to invest in conservation. 
The question is how to do it and what mechanism to use, what 
formulas to use, and so on.
    Mr. Chairman, I would hope that you would use your skills 
that are well-known in this Congress to help bring these 
together and pass a bill that, when you and I retire and go to 
something else, we'll find this as a part of a very important 
legacy.
    As you know, Mr. Chairman, in reflection about your long 
career, I also have on my wall a Navy reserve promotion that 
was signed by you when you were Secretary of the Navy.
    Senator Chafee. I remember it clearly.
    [Laughter.]
    Mr. Peterson. I think that was before the time of auto 
pens, so you might really have signed it.
    I think, Mr. Chairman, that you recognize, certainly, and 
have made an eloquent statement last year about the compelling 
need to adequately fund fish and wildlife activities at the 
State level. If we don't do that, we can simply look forward, 
as years go by, to more and more species becoming threatened 
and endangered, with all the resulting social, economic, and 
other consequences.
    Mr. Chairman, I would suggest to you that one thing that 
defines S. 25--it is basically built around non-regulatory, 
incentive-based programs so we can work with private land 
owners. Two-thirds of this country is in private ownership. We 
can work with people on development rights, easements, and on 
agreements to keep that open space and make it available for 
wildlife, and to improve the quality of life, but we can't do 
that without dedicated, reliable funding that comes year after 
year. Such funding allows groups like Mr. Montague's to get the 
private sector funds to make this possible. It's simply not 
either possible or feasible or even desirable to try to acquire 
all the land. That's not really what is in the public interest, 
in many cases. We simply want to keep it an open space, 
productive agriculture, usable by fish and wildlife, usable for 
open space.
    I would submit that community health and environmental 
quality and habitat for fish and wildlife go hand in hand.
    In the area where I live, people come to visit the little 
town of Leesburg. What many remember is the open space and the 
wildlife that's associated with it. Just an open space without 
the benefit of any wildlife there would be a fairly drab kind 
of an environment.
    The States are the frontline managers of fish and wildlife, 
and you know what has happened since 1937 with the passage of 
the Plinton-Robertson Act, and later the Dingell-Johnson Act in 
bringing back all of these game species.
    We can do the same thing for the non-game species, but we 
simply have to have funding to do it. We don't know the habitat 
requirements of many species right now. You can't design a 
program for species without understanding their habitat 
requirements.
    So the S. 25 that provides this non-regulatory incentive-
based program, plus fully funding the Land and Water 
Conservation Fund, plus providing impact aid and title one to 
communities we think is the balanced kind of thing that must be 
done to be successful.
    I want to comment just real quickly on S. 446, because we 
really appreciate the fact that it does contain provisions for 
funding of State-based wildlife conservation.
    We are concerned about two or three things in the bill, and 
we've outlined them in our statement. One is costly planning 
requirements; second is about funding for native fish and 
wildlife. We really don't know, particularly in the East, what 
species of fish and wildlife that are native. For example, the 
peregrine falcon that we are working hard to bring back is not 
a native species at all. It's a hybrid, as far as we can tell. 
And when I talk to States up and down the eastern seaboard and 
I say, ``What can you say about which of these species are 
native,'' they say, ``Well, some 100 years ago people were 
bringing in additional species, particularly of fish. We don't 
know which are native and non-native.''
    And we also don't know, if you've got a non-native species 
present, does that mean you can't do a project that would be 
beneficial in that ecosystem?
    The other things that we think are of great importance, but 
not addressed in S. 446, is conservation education and 
wildlife-associated recreation. In my view, Mr. Chairman, in 
now almost 50 years in the resource business, unless we instill 
in our young people ideas of conservation of land and open 
space and so on, everything we do will be for naught.
    Senator Chafee. Well, I agree with you on that, Max. I 
appreciate it. Are you about wound up here? We've got to move 
along.
    Mr. Peterson. I'd just say one other thing. We are also 
encouraged by the Land Legacy, but we are puzzled, as you were, 
about how it adds up. For example, the way I added it up, 
there's only $563 million of that $1.030 billion that is 
authorized under current Land and Water Conservation Fund law. 
So the balance of that, if it is going to be done under Land 
and Water Conservation Fund, requires fundamental amendments of 
the Land and Water Conservation Fund. We don't know whether 
that has been brought forward or quite where that stands.
    Senator Chafee. We'll have to take a look at that one.
    Mr. Peterson. OK. Mr. Chairman, again, thanks for the 
opportunity to work with you. We hope that we can do so in the 
remaining Congress to make this come about.
    Senator Chafee. Thank you very much.
    Roy, we welcome you back. Roy Kienitz has been on the staff 
of this committee for many years. We are glad you are here.

     STATEMENT OF ROY KIENITZ, EXECUTIVE DIRECTOR, SURFACE 
                 TRANSPORTATION POLICY PROJECT

    Mr. Kienitz. Thank you, Sir.
    Senator Chafee. And watch the clock----
    Mr. Kienitz. We'll do.
    Senator Chafee.--because, regrettably, as you know from 
experience, it is the last people that testify that always get 
short shrift, so we're trying to make sure that Mr. Grossi has 
some----
    Mr. Kienitz. I'm very familiar with the clock.
    Once again, I'm Roy Kienitz, and I'm from the Surface 
Transportation Policy Project, and we're a coalition of 
nonprofit groups around the country, more than 200 of them, 
working on transportation policy relief for communities.
    In the past 2 days, you have heard people echo what a lot 
of elections and polls have really shown recently, that there's 
more and more people who look at smart growth, in any one of 
its many names, as a way to really improve the fiscal health, 
the environmental quality, and overall quality of life for 
people and communities all over.
    One way to support smarter growth is to do what a lot of 
States have done, which is focus public infrastructure funding 
in existing communities. This is certainly the cornerstone of 
the Maryland smart growth program that Governor Glendening 
outlined this morning, but it is also being used around the 
country in New Jersey and in Oregon.
    As you know, Mr. Chairman, we worked on TEA-21 a lot and 
really supported the infrastructure maintenance funding 
programs in the Federal transportation law for that particular 
reason. A lot of Federal money has gone into subsidizing sprawl 
over time, and many States are now looking at that with their 
State progress, and we still think there's a role for a Federal 
program to have a similar kind of emphasis.
    I'll talk about our four or five priority areas in a 
moment, but we just want to reiterate the fact that this is 
something that is coming up from the bottom. It is a citizen 
thing, first, and then it becomes a local government thing, and 
in a few States it is becoming a State government thing, and 
now finally we are here talking about it in Washington.
    There has been a lot of talk recently about how this is the 
elitist pointy-headed planners trying to tell everybody what to 
do, and I think that this is one of those cases where that 
couldn't be more wrong.
    We have, I think, five specific recommendations for what we 
think the Federal Government could do.
    First, we really believe that these Better America Bonds 
are a good idea. It's a low-cost way for the Federal 
Government, for a tax expenditure cost of only about $700 
million, to provide $10 billion in funding to go out to places 
to do what they want to do. And if we are going to have tax 
legislation in the Finance Committee this year or next, we 
think that this is something that is very doable and really 
responds to people's needs locally, and it addresses both sides 
of the sprawl equation, preservation of open space at the 
fringe and reinvestment at the core. So we think that's a 
highly important program, which falls under the name of the 
Livability agenda, but this I think is the biggest and most 
important part of that.
    Second, on the question of reinvestment in the core, we 
think that protection of the Community Reinvestment Act--
frankly, something that has not been mentioned this morning--is 
a tremendously important thing. That's the jurisdiction of the 
Banking Committee, but may end up on the floor of the Senate at 
some point, and we would just commend people's attention to 
that. That has brought a huge amount of capital from the 
private sector into inner city areas where people make deposits 
in banks but weren't getting a lot of lending back from them, 
and we think it is a reasonable approach. There's a ``New York 
Times'' editorial on that subject from 2 days ago which I'll 
put in the record, if you don't mind.
    Third, another proposal that was in the Administration's 
Livability agenda which hasn't gotten much attention is 
something called, ``The America Private Investment 
Corporation.'' That is a counterpart to what we've had for a 
long time, the Overseas Private Investment Corporation. A good 
friend of mine ran that for a while.
    That program tries to bring the model of OPIC into American 
communities of figuring out a way to support businesses and 
lend them working capital to try to get them off the ground, 
and we think that would have a big benefit in terms of making 
existing core areas in both small towns and large urban areas 
competitive with suburban development.
    Fourth, obviously, we support efforts to revitalize the 
Land and Water Conservation Fund, provide guaranteed spending 
of the dollars that are going into that fund, and distribute 
the resources from it in a balanced way, both to land 
acquisition for parks and to easements to preserve open space, 
whether it is farm or ranch land or other lands, historic 
preservation resources.
    Obviously, Senator Boxer's bill on that subject is one that 
we have supported. Senator Landrieu's bill I think has a lot of 
merit, also. We get a little nervous about impact aid, because 
we don't know what that is going to go for. The bill speaks 
about spending the money for infrastructure. The purpose of 
this program was always envisioned as environmental remediation 
for drilling, and so we want to make sure that it stays on 
that.
    Finally, there is a program in TEA-21, Mr. Chairman, that 
you helped support and that Senator Wyden was instrumental in 
creating, which is part of the Livability agenda, to increase 
the transportation and community pilot program from $25 million 
a year to $50 million, and we certainly support that.
    There are some other transportation-related proposals in 
there, like increasing funding for air quality projects in TEA-
21. We understand that has some formula implications, and, 
therefore, is a difficult thing to do, but we think that at 
least the proposal is a good one.
    And, finally, transportation is just a big piece of this 
equation, and transportation really, in terms of sprawl and the 
disinvestment of central cities and using open space has been 
part of the problem for a long time, but increasingly it is 
being part of the solution, whether that is transit-oriented 
development in Oakland, California, or bus pass and greenway 
systems in Chattanooga, Tennessee, or even the types of 
projects that people in Salt Lake City are putting forward 
now--transit investments and the work of Envision Utah.
    We view that as exactly the model. Go to people locally, 
ask them what they want, and then let the Federal Government 
help out as a partner.
    Thank you.
    Senator Chafee. Thank you very much, Roy. I think that's 
very helpful.
    Mr. Grossi?

 STATEMENT OF RALPH GROSSI, PRESIDENT, AMERICAN FARMLAND TRUST

    Mr. Grossi. Thank you, Mr. Chairman.
    My name is Ralph Grossi. I am president of the American 
Farmland Trust. I am the managing partner of a family farm that 
has been in the dairy, cattle, and grain business in northern 
California for over 100 years.
    Senator Chafee. How many milkers have you got? Do you know?
    Mr. Grossi. Three hundred.
    Senator Chafee. Boy.
    Mr. Grossi. That's a small dairy in California, as you 
probably know.
    Senator Chafee. Well, that's milkers. How many totally have 
you got?
    Mr. Grossi. About 700 head.
    Senator Chafee. Yes.
    Mr. Grossi. Anyhow, American Farmland Trust, as you know, 
is a national organization with about 34,000 members who are 
working to stop----
    Senator Chafee. I'm a member.
    Mr. Grossi. Pardon?
    Senator Chafee. I'm a member.
    Mr. Grossi. I know you are. That's why I said, ``As you 
know.'' I appreciate your support over the years.
    Senator Chafee. Thank you.
    Mr. Grossi. While we are strong advocates of local land use 
decisionmaking, we believe there is a vital role for the 
Federal Government to assist local communities that are 
struggling to protect their natural resources while 
accommodating growth, and I think that is an important 
component of this whole discussion.
    As Roy indicated, this really is a local issue, but there 
is a huge role for the Federal Government. It simply makes 
sense for America to protect its best land, because it is the 
land that provides the Nation's food and fiber, but also much 
of our scenic open space, wildlife habitat, and much more.
    But it isn't only the farmland being paved over that should 
be a concern, because for every acre developed, two or three 
more acres have new suburban neighbors who don't understand the 
problems and the noise and the dust of normal farming 
operations, creating more tension between agriculture and the 
rest of our society.
    Mr. Chairman, there are three essential steps that I want 
to talk about today in creating smart growth strategies.
    First, this has to be addressed at the local level. 
Communities must envision their futures and plan 
comprehensively to make that vision a reality. Good strategic 
frameworks that provide the assistance for communities to do 
that are in order. Too often, while local leaders work to bring 
new business to a community, they overlook the fact that 
agriculture is a true wealth generator, an industry that brings 
value to the community from renewable natural resources.
    A recent surge in local and State efforts to protect 
farmland suggests rapidly rising concern over its loss. In 
recent years, Governors Engler, Voinovich, Ridge, Pataki, 
Wilson, Whitman, Cooper, Glendening, and Carper, and many 
others have supported or initiated farmland protection 
initiatives to address this problem.
    Governor Glendening talked this morning of his smart growth 
initiative. You should know that a key component of that smart 
growth initiative is a program called ``rural legacy,'' which 
seeks to compensate land owners who will not be allowed to 
subdivide their property but will keep their land in 
agriculture forever. That's an important part of the political 
dynamic of smart growth, as well.
    But let's not get caught up in the numbers. Yes, we are 
losing about a million acres of farmland a year in the United 
States. Nearly a half of that is prime and unique farmland. We 
pave over about a billion tons of topsoil annually in this 
country.
    But let's not get caught up in those numbers. The fact is 
that every year we do continue to squander some of the Nation's 
most valuable farmland and natural resources. The reality is 
that we don't know whether the new technologies that promise to 
replace that land will ever fulfill those promises. But we do 
know that those technologies will be better applied on highly 
productive land than on marginal land farther out on the 
fringes that require higher levels of energy, fertilizer, farm 
chemicals, and labor per unit of input.
    Simply put, it is in the Nation's best interest to keep the 
best land for farming as an insurance policy against the 
challenge of feeding an expanded population in the 21st 
century. The responsibility falls on the communities, large and 
small, all across the Nation, which you can assist.
    The second essential step I want to point out in creating 
smart growth strategies is the elimination of subsidies that 
support sprawling development over our best farmland and 
natural resources. Public policy should not favor untrammeled 
consumption of land, nor should they drive development out of 
America's cities.
    We subsidize sprawl in this country, and the bottom line on 
that second recommendation is that someone--hopefully this 
committee and others--will take a hard look at the policies 
that are now promoting sprawl. Too often, the taxpayer pays 
twice. First, we subsidize a certain kind of land use behavior, 
creating a problem, such as plowing out of the plains, the 
sodbusting of the plains, or transportation corridors that 
intrude into agricultural areas. Then we come back with another 
program to try and solve the problem--the conservation reserve 
program or the transportation enhancements program.
    Once subsidizing the development and then----
    Senator Chafee. We've got to watch this clock here. 
Regrettably, I do have another appointment.
    Mr. Grossi. Let me just wrap up then.
    Senator Chafee. Good.
    Mr. Grossi. The third point is the most important point.
    We believe that it is long past time to take a look at the 
role of private landowners in this mechanism. We have to find 
ways to support the things that they do. Our private 
landowners, Mr. Chairman, are providing many amenities to our 
communities that are important to smart growth--the open 
spaces, the corridors, the buffer areas around our Civil War 
battlefields and parks, these are all real values, real 
products produced by farmers, and we have to find a way to 
reward that kind of behavior and compensate those that are 
willing to make permanent commitments to protecting those 
important corridors.
    For that reason, we are supporting the Resources 2000 Act, 
and Senate Bill 333, of which you are a cosponsor. We 
appreciate that.
    Let me just wrap it up. We think that any successful 
policies that emerge at the Federal level should have three 
things in common.
    One, they should be consistent in the implementation of 
programs that influence local planning efforts. In other words, 
don't send mixed signals.
    Second, be willing to eliminate counterproductive subsidies 
that are making the job more difficult for our communities.
    And, third, increase the incentives to private land 
stewardship.
    Thank you.
    Senator Chafee. Well, thank you very much.
    Each of you have given specific suggestions, which are very 
helpful to us here.
    Mr. Montague, you talked about the provision we did last 
year--I guess it was last year--dealing with those who put 
their land into--put easements on their land and then we give 
them some assistance in the estate tax.
    Mr. Montague. Correct.
    Senator Chafee. That, as you noted--I think they have to be 
within X miles of a----
    Mr. Montague. Twenty-five miles.
    Senator Chafee.--metropolitan area. I was the one who 
principally worked on that legislation, with the Piedmont 
Environmental Association, and we worked--in that situation it 
seemed wise to have the metropolitan area in there. I don't 
know whether that is an inhibition for other places. For 
example, from your State, I suppose there must be areas that 
don't qualify.
    Now, we have the wilderness provision in there, but would 
you like to see that thing changed, or eliminated, perhaps?
    Mr. Montague. I would like to see the boundary expanded, or 
we'd like to see the boundary expanded out. We feel that it is 
a tool that, if somebody is outside of that 25-mile boundary, 
it is tool that we can't use to do conservation easements and 
protect that ground.
    Senator Chafee. Yes.
    Mr. Montague. Right now Montana--pretty much all of western 
Montana is covered under the 25-mile radius of wilderness area/
metropolitan area. Eastern Montana is completely out.
    Senator Chafee. Because they're too far away?
    Mr. Montague. That's right. We only have three counties 
that qualify as metropolitan areas.
    Senator Chafee. Well, this is very helpful. Every one of 
you have done a good job here. We're going to look these things 
over. And none of these things are going to happen overnight, 
as you know. And I think you've all paid attention to one of 
the key elements, which is the request--Senator Bennett so 
aptly phrased it--in paying attention to the locals. We can't 
have, as you mentioned, the Feds come in and do everything, and 
we've got to give a lot of latitude.
    But there's no question but what this subject is becoming 
far more important and discussed, and I think Roy or somebody 
said it is a bottoms-up proposal. It certainly is. In my State 
now they've formed--they held a meeting on grow smart and they 
had 700 people that showed up, which is a big crowd for us. 
That's a good turnout--bigger than I've ever seen at a 
republican rally out there.
    [Laughter.]
    Senator Chafee. Anyway, Senator Bennett, could you wind up 
things?
    Senator Bennett. Yes, and I just have a quick----
    Senator Chafee. Because, regrettably, I have to leave. 
Thank you all very much.
    Senator Bennett [assuming the Chair]. I just want to 
comment. I'm fascinated and heartened by this conversation. In 
my State, the environmental groups will not attend a meeting if 
there is a farmer present. If the Farm Bureau is there, SUWA 
won't come. The war between the environmental groups and 
agriculture has been waging probably for a generation, and has 
reached that point of bitterness.
    Now, most of the members of the Southern Utah Wilderness 
Alliance do not live in Utah. Many of them have never been to 
Utah. But, nonetheless, they feel so strongly about these 
issues that we have this kind of experience. Some of the people 
in rural Utah, farmers, said they came back here to talk to a 
Senator, who shall remain nameless, who was a cosponsor of the 
Utah Wilderness Act, who is not from Utah, and when they tried 
to talk they were told by the staffer--the Senator, himself, 
did not meet with them--``You people shouldn't be on the land 
at all. You have no right. This land belongs to all of the 
people of the United States, and you come here and complain 
about the way we are treating you. You shouldn't even be there. 
You are despoiling the land by living there.''
    I quote to them an experience that I had when I was running 
for the Senate, where I was in a small, rural Utah town, came 
out of the restaurant where we were having dinner, and I was 
down there looking for political support. I'm a city slicker. I 
was not raised on a farm. I didn't know anything about this. 
And the woman that I had been talking to said, ``Bob, look 
around.'' I didn't have the slightest idea what she had in 
mind. So I dutifully looked around. What did you see? Well, I 
didn't see anything.
    She said, ``It's pristine, isn't it?'' I said, ``Yes, the 
land is gorgeous and it is pristine.'' And she said, ``My 
family and I have been making our living off this land for five 
generations. Tell us we don't love the land. Tell us we have to 
get off to allow somebody else to come in and, in the name of 
open space, get rid of us.''
    So, Mr. Grossi, I am delighted to have you here. I am 
delighted to have a real, live farmer here. And I'm delighted 
to see farmers and environmentalists sitting at the same table 
and actually talking to each other instead of each turning the 
other way lest they be contaminated by the contact.
    If this effort can get rural people and those that feel 
strongly about environmental issues to sit down at the same 
table and talk to each other, instead of take out ads in the 
``New York Times'' and scream at each other--which has been the 
pattern in my State--it will be a very useful thing.
    You wanted to comment?
    Mr. Grossi. Senator, let me, if I may, comment on it. I 
think that hopefully the examples you've given will be fewer as 
we move forward. I think we can draw some energy from the fact 
that in your neighboring State of Colorado there are very good 
things happening between, for example, the Colorado Cattleman's 
Association and the environmental groups. They've formed their 
own land trust and are working with groups to take easements. 
The same thing is happening in California, and now the Michigan 
Farm Bureau is now working with environmental groups and urban 
mayors to work partnerships. So there are some positive things 
evolving.
    Could I suggest that I think we have to start thinking 
differently about these issues, because those of us in 
agriculture are not against preserving the environment or 
preserving endangered species. It's not a question of what 
society wants to do, it is how is it going to get done. Who is 
going to pay the price?
    In our organization, it is a pretty simple principle. It is 
that those who benefit should share in the cost, so that we 
don't heap all of the cost of achieving an environmental goal 
on the individual landowner, which, of course, is what 
regulatory mechanisms do.
    We have to have a balance, and when you have a balance 
everyone comes to the table. It's the way Governor Glendening 
got everyone to the table, by having his purchase of 
development rights program with his smart growth program so 
that it appeared--and I think there is--some fairness in the 
process to both sides. I hope that's where we go with these 
discussions, is start talking about fairness. Who pays to 
achieve community goals on private land?
    Senator Bennett. I would hope the same thing. The attitude 
that we're getting in Utah is they say, ``Get those people off 
the land, build a fence around it, and let it go back to its 
natural state.'' I keep pointing out there's no such thing as a 
natural state. Nature changes the land continually, whether it 
is earthquakes or flood or droughts or whatever. There is no 
``natural state'' for the land.
    In my State, I can show you examples where, if the 
cattlemen go off, drought comes back, and it goes back to being 
a desert.
    Now, maybe you say it's better off being a desert, but when 
it was a desert it didn't support any wildlife, it didn't 
support any economic activity. It was dry and arid and dead. 
And now the areas where they're doing wise management with the 
cattle, the wildlife has come back, water has come out. There's 
greater watershed coming out of the area than there ever was 
before. But there are some who say, ``No, that isn't its 
natural state because there are human beings on it.''
    Yes?
    Mr. Falender. I just wanted to exemplify your point, 
Senator, and say that not only am I pleased to be at the same 
table with Mr. Grossi at the end, but we even are friends and 
find ourselves serving on similar organizations. So we hope 
that the model in the northeast, which I feel is very 
definitely one of collaboration, can most certainly move 
forward in what we're talking about here this morning. It's 
your very point that if we all work together and appreciate 
where each other is coming from, I think we can really 
accomplish so much together.
    Senator Bennett. One of the differences is the land in the 
northeast is privately owned, and in the State of Utah that's 
not the case.
    Mr. Falender. As you probably know, the challenges of 
working together on private land can be significant, too.
    Senator Bennett. Yes. Well, unless anyone else has a final 
statement you want to make----
    Mr. Peterson. Mr. Chairman, I would commend to you S. 25, 
the Title III, which deals with wildlife, which is based 
entirely on a nonregulatory, incentive-based program of working 
with land owners. I think you know that we are original 
sponsors of the ``Seeking Common Ground'' initiative between 
livestock interests and wildlife interests in the West. That 
initiative has done some great things to reduce polarization, 
and so on, where it has been given a try. But S. 25 is not 
based on primary Federal land acquisition; it is based on 
keeping people on the land, having them manage it well so there 
will be wildlife there.
    So we would commend to you looking at S. 25, which the 
counterpart in the House was endorsed by the Farm Bureau in 
testimony recently.
    Senator Bennett. I am glad to hear that, and I will look at 
it.
    Thank you all for your testimony. The committee is 
adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Mary L. Landrieu, U.S. Senator from the State of 
                               Louisiana
    Mr. Chairman, thank you for inviting me here today to discuss the 
Conservation and Reinvestment Act of 1999. It is with a sense of pride 
and great enthusiasm that I am before the distinguished members on the 
Environment and Public Works Committee to present what may well be the 
most significant conservation effort of the century. Working with my 
colleagues in the Energy Committee, as well as other members for over a 
year, we have put together a compelling and balanced bipartisan piece 
of legislation. I am pleased to be joined on this measure by my 
colleagues, Senators Murkowski, Lott, Breaux, Cleland Johnson, 
Mikulski, Cochran, Sessions, Bond, Gregg, gunning, Lincoln and Bayh.
    The Conservation and Reinvestment Act of 1999 will provide impact 
assistance to coastal States, aid to State parks and conservation 
initiatives as well as aid to wildlife. Currently, nearly 100 percent 
of the funds that the Federal Government receives annually from Outer 
Continental Shelf (OCS) oil and gas development goes to the Federal 
treasury. The treatment of these revenues is different from the 
treatment of the revenues from Federal oil and gas development onshore. 
Under the Mineral Funds Leasing Act, 50 percent of the revenues from 
Federal oil and gas development onshore is distributed annually to the 
``host'' State in an effort to mitigate the impacts associated with oil 
and gas development. A glaring discrepancy exists for coastal States 
that have adjacent Federal offshore oil and gas activity.
    The time has come to take the proceeds from this nonrenewable 
resource for the purpose of reinvesting a portion of these revenues in 
the conservation and enhancement of our renewable resources. To 
continue to do otherwise, as we have over the last 50 years, is 
fiscally irresponsible. In this bill, my cosponsors and I propose to 
take 50 percent of these revenues, as we do in onshore areas, for the 
purpose of making wise investments in our environment. The Conservation 
and Reinvestment Act of 1999 proposes three distinct reinvestment 
programs.
    Title I dedicates 27 percent of the annual Federal oil and gas 
revenues to coastal impact assistance. The coastal impact assistance 
program contained in Title I is different from any previous plan 
considered by Congress and is based on the October, 1997 
recommendations of the OCS Advisory Committee to the Department of the 
Interior.
    Title I provides coastal impact assistance to all coastal States 
and territories, not just those States that host Federal OCS oil and 
gas development. The funding goes directly to States and local 
governments for improvements in air and water quality, fish and 
wildlife habitat, wetlands, or other coast resources. These revenues to 
coastal States will help offset a range of costs unique to maintaining 
a coastal zone for specific enumerated uses. The formula for allocating 
this revenue is based on population, miles of coastline and proximity 
to production. A portion of the State's allocation is paid directly to 
coastal counties, parishes and boroughs. These coastal impact 
assistance funds can be used for environmental mitigation and 
infrastructure services associated with offshore activity, as well as 
for coastal environmental purposes by States that do not produce oil 
and gas. While there has been some discussion about the intent of using 
this formula, I would like to take this opportunity to assure all the 
members of this committee that this legislation is neither pro-drilling 
nor anti-drilling. This is a revenue sharing bill--uniquely. I 
recognize, however, the concerns raised by my colleagues and interested 
parties regarding the proximity formula, and I would like to work with 
them on that point.
    Title II provides a permanent stream of revenue for the State and 
Federal sides of the Land and Water Conservation Fund, as well as for 
the Urban Parks and Recreation Recovery Program. Under the bill, 
funding to the LWCF becomes automatic at 16 percent of annual revenues. 
Receiving just under half this amount, the State side of LWCF will 
provide funds to State and local governments for land acquisition, 
urban conservation and recreation projects--all under the discretion of 
State and local authorities. The Urban Parks and Recreation program 
would enable cities and towns to focus on the needs of its populations 
within our more densely inhabited areas with fewer greenspaces, 
playgrounds and soccer fields for our youth. Stable funding, not 
subject to appropriations, will provide greater revenue certainty to 
State and local planning authorities. A stable baseline will be 
established for Federal land acquisition through the LWCF at a higher 
level than the historical average over the past decade. Federal LWCF, 
which is the one Federal program explicitly designed to help States and 
communities preserve open space, will receive just under half of the 
amount in this title of the bill. And, nothing in this bill will 
preclude additional Federal LWCF funds to be sought through the annual 
appropriations process. LWCF dollars will be used for land acquisition 
in areas which have been and will be authorized by Congress. Property 
will be acquired on a willing seller basis. The bill will restore 
Congressional intent with respect to the LWCF, the goal of which is to 
share a significant portion of revenues from offshore development with 
the States to provide for protection and public use of the natural 
environment. While there have been some provisions added to the bill 
that elicit varying responses from members and groups,
    I firmly believe that a compromise exists on the Land and Water 
Conservation Fund that will garner broad support.
    Finally, the wildlife conservation and restoration provision in 
Title III of this bill guarantees funding of 7 percent of annual OCS 
revenues for wildlife conservation initiatives, through the Pittman-
Robertson Act. This program enjoys a great deal of support and would be 
enhanced without imposing new taxes.
    These funds will be allocated to all States for wildlife 
conservation for non-game and game species, with a principle benefit 
realized through the prevention of species from becoming endangered or 
threatened under the Endangered Species Act. I look forward to working 
with the Chairman and other members of this committee to make this 
program happen.
    I believe that this measure will be a major step forward in the 
nation's effort to conserve and enhance our coastal areas as well as 
other special areas that will be important to future generations, as 
well as for irreplaceable wildlife resources. I also wanted to take 
this opportunity to commend the efforts of Senators Boxer and Feinstein 
who have introduced similar measures which address some of the same 
issues as those highlighted in the Conservation and Reinvestment Act of 
1999.
    Thank you, Mr. Chairman.
                                 ______
                                 
                [From the New York Times, June 16, 1997]
                      Revive the Conservation Fund
    More than 30 years ago, Congress passed a quiet little 
environmental program that offered great promise to future generations 
of Americans. Conceived under Dwight Eisenhower, proposed by John F. 
Kennedy and signed into law by Lyndon Johnson, the Federal Land and 
Water Conservation Fund was designed to provide a steady revenue stream 
to preserve ``irreplaceable lands of natural beauty and unique 
recreational value.'' Royalties from offshore oil and gas leases would 
provide the money, giving the program an interesting symmetry. Dollars 
raised from depleting one natural resource would be used to protect 
another.
    Since its inception, the fund has helped acquire seven million 
acres of national and state parkland and develop 37,000 recreation 
projects. Its notable triumphs include the Cape Cod National Seashore, 
the New Jersey Pinelands National Reserve and Voyageurs National Park 
in Minnesota. But the program fell apart during the Reagan 
Administration and has yet to recover. Of the $900 million that has 
flowed to the fund from oil and gas royalties each year since 1980, 
Congress has seen fit to appropriate only a third, and in some years 
far less. The rest has simply disappeared into the Treasury, allocated 
for deficit reduction.
    The biggest losers have been the States. Over time, appropriations 
have been split about evenly between Federal and State conservation 
projects. But for 2 years running, not a dime has gone to the States--
again for budgetary reasons. This has been hard on New York, which 
needs Federal help to buy up valuable open space threatened by 
development in the Adirondacks and elsewhere.
    Now, quite suddenly, this legislative stepchild has acquired a 
bunch of new friends. As part of the recent budget deal, Republican 
leaders agreed to add $700 million to the $166 million that President 
Clinton had requested for the new fiscal year. The Republicans had been 
getting heat from Governors back home and saw a chance to polish their 
environmental image. For his part, Mr. Clinton needed about $315 
million, to complete two important Federal purchases, both strongly 
supported by this page--$65 million to deliver on his pledge to buy the 
New World Mine on the edge of Yellowstone National Park, the rest to 
acquire the Headwaters Redwood Grove in California from a private 
lumber company.
    That would still leave several hundred million dollars for other 
Federal projects and for the States--but only if the House and Senate 
appropriations committees honor the outlines of the budget deal and 
commit a sizable share of the money to State projects. State officials 
have been descending upon Washington in recent days to plead their 
case. Gov. George Pataki has written every Member of Congress and, last 
week, the New York State Parks Commissioner, Bernadette Castro, 
testified at hearings convened by Senator Frank Murkowski of Alaska.
    We trust that Mr. Murkowski and others, in Congress will pay 
attention. The States have been starved of their fair share for far too 
long. At the same time, however, the legitimate needs of the states 
should no be used as an excuse to deny Mr. Clinton the funds he needs 
to carry out important Federal projects. Mr. Murkowski, an Alaska 
Republican, who has long been at odds with the environmental community 
over issues like the Tongass National Forest and the Arctic National 
Wildlife Refuge, is typical of many Western politicians who believe 
that the Federal estate is already large enough. He is particularly 
disturbed by the notion that Federal funds will be used to consummate 
the Yellowstone and Headwaters agreements, which be described last 
month as Federal ``land grabs.''
    Here is a question for Mr. Murkowski. If The Yellowstone mine site 
and the Headwaters redwoods do not fit the description of 
``irreplaceable lands of natural beauty'' envisioned by Congress when 
it established the Land and Water Conservation Fund, what does? We 
applaud Mr. Murkowski's promise to do what he can to restore the fund 
to full funding and thus recapture its original promise. But he and his 
colleagues should be open-minded enough to let those funds flow to 
those projects, State or Federal, that are most urgently in need.
                               __________
Statement of Hon. Patrick Leahy, U.S. Senator from the State of Vermont
    Thank you, Mr. Chairman, for this opportunity to share ideas with 
the committee at this timely and valuable hearing. Last year, you and I 
were fighting a bill on the Senate floor that would have taken away 
local land use and zoning decisionmaking from local officials and 
communities.
    This Congress is starting out on a much better foot. I commend you 
for convening these hearings to talk about the loss of open space and 
the toll that takes in our cities and towns and on the environment. 
Congress should redouble its efforts to equip communities with the 
tools they need to plan growth and promote central business districts.
    People across the country demonstrated their support for open space 
conservation and urban revitalization last fall at polls by approving 
124 ballot measures dedicating local and State revenues for these 
goals.
    In Vermont, we have been assembling a workbox of tools to help 
communities with land use planning. But without Federal support, these 
efforts are like building a house with toothpicks.
    We have all seen the impact of urban sprawl in our States, whether 
it takes the form of large multi-tract housing development spread or 
unbounded retail strips jammed with national superstores and super-
sized parking lots.
    Sprawl often steals unbidden into our midst, and it quickly wears 
out its welcome, much the same way our friends in the South have come 
to regard kudzu. Sprawl is not incremental development; it is 
transforming development. It clots our roads, compounds the costs of 
the infrastructure we need, takes its toll on our environment, and 
sucks the lifeblood from the very character of our communities. In one 
way or another, sprawl costs us all.
    I would like to highlight two programs in particular that are 
working--right now--to help local communities through voluntary 
conservation efforts that deserve our continued support.
    In Vermont, we have lived through several situations where Federal 
agencies have chosen sites outside of downtown areas to locate new 
buildings. In one case, the Federal agency selected a lot within an 
area that already is coping with some of the most difficult problems 
associated with sprawl and high population growth in our State.
    Unfortunately, this scenario plays out far too often. Downtown 
areas have difficulty competing in the Federal procurement process 
because of the higher costs associated with downtown areas.
    Consequently, the sites outside of downtown areas win contracts, 
and slowly but surely we contribute to the sprawl cycle and squander 
one of our most precious resources--open space--and the environmental 
benefits that go with it.
    The ``Downtown Equity Act of 1999'' offers States another tool to 
combat sprawl by implementing a new system of evaluating bids that 
places downtown areas on an even footing with surrounding areas.
    The new system would direct Federal agencies to produce procurement 
guidelines that offer a level playing field for central business 
districts. My bill would also allow Federal agencies to factor into 
their cost accounting the benefits of locating new facilities in city 
centers, such as maintaining historic development patterns and 
invigorating our downtown areas.
    Conserving open space and revitalizing downtowns are two 
complementary approaches to curbing sprawl. Our communities themselves 
will decide which, if any, of the approaches they want to take, as they 
consider what they want to look like in 10 or 20 years.
    Again, I want to thank you Mr. Chairman for convening this hearing 
today. The problems of sprawl has been brewing for far too long, 
striking at the core of what makes Vermont unique in the hearts and 
minds of Vermonters and of our many visitors.
    In 1993, the National Trust for Historic Preservation put the 
entire State on its list of endangered places, hoping to preserve some 
of the character that makes Vermont a special place.
    The decisions to prevent or limit sprawl will always be made 
locally. But the Federal Government can do much to help our communities 
act on their decisions. And the Federal Government must stop being an 
unwitting accomplice to sprawl.
                               __________
  Statement of Hon. Dianne Feinstein, U.S. Senator from the State of 
                               California
    Mr. Chairman and members of the committee, thank you very much for 
this opportunity to testify today regarding the need to preserve 
America's shrinking open space and the Public Land and Recreation 
Investment Act, which I introduced earlier this month. It is 
tremendously heartening to see a growing bi-partisan consensus view 
that America's open spaces, wildlife habitat areas, and places of 
stunning natural beauty need to be preserved for future generations. I 
particularly thank my colleague from California, Senator Barbara Boxer, 
for her leadership on this issue and her sponsorship of the Permanent 
Protection for America's Resources Act, of which I am a cosponsor.
    By now, I am sure that all of you are well aware of the importance 
of preserving open space, and of its continuing disappearance from 
America's landscape. As numerous witnesses have already testified, 
development is eating into our nation's forests, farmlands, and 
wetlands.
    S. 532, the Public Land and Recreation Investment Act, addresses 
this problem by ensuring permanent funding for two of our nation's pre-
eminent conservation and recreation programs: the Land and Water 
Conservation Fund and the Urban Parks and Recreation Recovery Act. 
Specifically, the bill provides $900 million annually, without further 
appropriation, for these critical programs.
    Fifty percent of the funding-$450 million per year--will be 
allocated to the Federal Government, so that we may continue to acquire 
prime conservation and recreation land, habitat areas, and open space 
in and around national parks, refuges, forests, and other public lands.
    Forty percent of the funding-$360 million a year-will go to the 
stateside grants program of the LWCF. The stateside grants program has 
helped States acquire over 2 million acres of park land and open space 
over the years, but Congress has not funded it since 1995. Reviving the 
stateside grants program will give States a critical boost in their 
efforts to preserve key open space, recreation, and wildlife habitat 
areas.
    In an effort to make the stateside grants program more effective, 
the Public Land and Recreation Investment Act also institutes a new 
requirement that States develop a plan for conservation, open space, 
and conservation; requires States to pass through 50 percent of the 
grants they receive to local governments; and, for the first time, 
allows Indian tribes to receive LWCF funding.
    Finally, the bill directs 10 percent of LWCF funding, or $90 
million per year, to the Urban Parks and Recreation Recovery Act. UPARR 
targets parks and recreation funds where, arguably, they are needed the 
most-cities where recreational facilities are deteriorating or 
nonexistent. Under this bill, for the first time, cities will be able 
to use UPARR funds to acquire land for conservation and recreation 
purposes.
    I introduced the Public Land and Recreation Investment Act for 
three key reasons. First, I believe strongly that the LWCF and UPARR 
should continue to play a central role in preserving sensitive land 
from development. The LWCF works. Since 1965, it has helped to preserve 
nearly 7 million acres of America's most special places. Rather than 
inventing new programs to preserve open space, why not concentrate 
first on fully funding the programs we already have?
    Second, I introduced the Public Land and Recreation Act because I 
wanted to preserve the LWCF for the purposes for which it was intended-
land acquisition at the Federal, State, and local level. Some of the 
LWCF-related proposals that are currently pending in Congress would 
make dramatic changes in the program that would significantly impair 
the Federal Government's ability to acquire land.
    I certainly understand the fact that sprawl is a local issue, and 
this bill gives State and local governments the tools to address it. 
But the Federal Government has a role to play here; otherwise, we would 
not be in this hearing room today. To compromise the Federal 
Government's ability to acquire land, particularly at a time when open 
space issues are absolutely critical, seems at best short-sighted.
    Finally, I felt it was important to have a moderate, relatively 
low-cost alternative on the table should other proposals pending in 
Congress prove too expensive or too controversial. We have a golden 
opportunity this year to make an unprecedented commitment to open space 
and habitat preservation. Senator Landrieu's bill, Senator Boxer's 
bill, and the President's Lands Legacy Initiative and Better America 
Bonds proposal all would dramatically increase our investment in public 
lands. But these proposals, as you know, are expensive, and each has, 
in its own way, drawn some political heat.
    I would hope that if we cannot agree on a new, broad-based 
conservation initiative, or if we cannot find money in the budget to 
``do it -all,'' we can at least make a commitment to fully fund LWCF 
and UPARR. These are highly successful programs, and they enjoy a broad 
base of support. It is time that we fulfill the extraordinary promise 
of the LWCF. I believe that doing so is key in preserving our most 
special land, at the Federal, State, and local level, from development 
and sprawl.
    Again, thank you for this opportunity to testify before the 
committee.
                               __________
 Statement of Hon. Parris Glendening, Governor of the State of Maryland
    Thank you Chairman Chafee and distinguished members of the 
committee. It is a pleasure to be here today to discuss land use issues 
in this nation, and, more specifically, Maryland's Smart Growth/Anti-
Sprawl program and Neighborhood Conservation initiative.
    Before I begin, I will take a moment to express my appreciation to 
Senator John Chafee. When you retire at the end of your term in 2000, 
you will leave behind a powerful legacy of strong leadership on 
critical issues: Health care and housing for low income children and 
their families; Helping people with developmental disabilities realize 
their full potential; And of course providing for a cleaner 
environment. I thank you for your dedication to these issues.
    It is a pleasure to be here and to speak about one of my favorite 
topics. Whether we call it Livable Communities, Sustainable Growth, or 
as we call it in Maryland Smart Growth, this national movement toward 
more sensible land use patterns offers us a genuine opportunity to make 
positive, lasting change as we begin a new century.
    For 50 years, Americans have acted as if moving out is moving up. 
In the process, we have taken our natural resources for granted. We 
have paid too little attention to what happens to agricultural 
communities when farms are fragmented by development. Or what happens 
to forests, and the wildlife that lives in them, when they are 
destroyed by roads or malls. Across this nation, we have let too many 
of our great and historic cities and towns collapse. This has been 
done, in part, through an indifference to urban needs that has fueled 
the great flight to the suburbs. We must remember that we cannot be a 
suburb to nothing!
    Those of us who have studied the causes of sprawl understand that 
government policies, even well-meaning policies, too often have caused 
or perpetuated the very patterns of development we are now trying to 
reverse. For example, the Interstate Highway System provided the United 
States with perhaps the best national road network in the world. That 
highway system is so good, in fact, that it has literally paved the way 
for long-distance commuting from virtually any corner of this nation. 
The Interstate program--combined with the G.I. Bill that made low 
interest mortgage loans available to returning World War II veterans--
were great programs, but they inadvertently made sprawl development 
financially viable for developers and home buyers.
    Now, those patterns of land use have increased air pollution that 
has virtually negated the introduction of dramatically cleaner cars, 
and they have cost taxpayers hundreds of billions of dollars for new, 
and often redundant, highway or other infrastructure costs.
    In Maryland--and I know this is so in many other States--we too 
often followed an unwritten rule that directed State funds to new 
suburban developments first, at the expense of our older communities 
and neighborhoods. It was a hidden form of entitlement! No matter where 
a developer wanted to build, the State pitched in to help. Even if it 
hurt our established communities. I can remember when my wife Francie 
and I were courting, we would have dinner on Friday nights with her 
parents, then go into downtown Cumberland. Plenty of open stores, 
coffee shops, movie theaters, people walking around, etc. A perfect 
Norman Rockwell small town setting on a Friday evening. Then some 
developers wanted to build a big shopping mall just outside Cumberland, 
and the State pitched in with $12 million for roads and other 
infrastructure. Within a year from when this mall was built on the side 
of the mountain, stores in downtown Cumberland shut down, some closed 
at 5 or 6 p.m., and it looked like a ghost town. Now we are spending 
millions more in State dollars to revitalize the same downtown 
Cumberland we helped to destroy by providing funding for the mall!!!
    We are reversing these trends in Maryland by addressing the 
fundamental driving force behind development decisions: bottom-line 
cost. We decided that if government policies had inadvertently 
encouraged sprawl by making it cost-effective, then new government 
policies could encourage investment in existing communities and Smart 
Growth centers, and make it more expensive to further sprawl. People 
make bottom-line decisions. Homebuyers do. Builders do. Investors do. 
Therefore, it must be our goal to change the bottom line.
    That is why we turned our $17 billion per year State budget into an 
incentive fund for Smart Growth. First through State law in 1997, and 
then by Executive Order in 1998,
    we refocused the State's financial resources on our established 
communities and neighborhoods. For development projects outside of 
those areas, we are saying, ``Sorry, the State will not help out! If 
you building out there, and tearing up one more farm, then you pay for 
roads, water and sewage, schools, parks, and other development costs. 
But, If you invest in our existing communities, then you will avoid 
those costs, and you will have access to tax credits, grants, low-
interest loans, and other bottom-line impacting incentives.''
    Let me emphasize: It is not our intention to stop growth. We do not 
want ``No Growth,'' or even ``Slow Growth.'' In fact, we want economic 
growth in Maryland, and our economy is booming. We have the third 
highest family income in the nation,
    and stand at a 10-year low in unemployment. We simply will no 
longer approve State funding for capital projects not in accordance 
with our Smart Growth Program. We will not use tax dollars to subsidize 
sprawl.
    Think about this statistic: The American Farmland Trust says the 
United States is losing 45.6 acres of green space an hour. That is a 
loss of more than one acre every 2 minutes! In Maryland, if growth 
patterns do not change, new development will consume as much land in 
the next 25 years as it has during the entire 350-year history of the 
State. This simply cannot be allowed to continue.
    Think about it: We carefully plan for and invest in our capital 
infrastructure roads, schools, water, and sewer lines. We also 
carefully plan for and invest in our human infrastructure education, 
health services, and care for our disabled and elderly. We must equally 
understand the need to care for and invest in our environmental 
infrastructure . . . our green infrastructure our forests, fields, 
farms, rivers, lakes, bays and streams. I am proud that we already laid 
a sound foundation for the protection of our green infrastructure with 
Smart Growth.
    Maryland may be a leader in this effort--but we are not alone. This 
is neither a regional issue, nor a politically partisan one. All over 
the country my counterparts on both sides of the aisle are addressing 
the same or similar problems: Republican Governors like Mike Leavitt of 
Utah and Christie Todd Whitman of New Jersey are dealing with the 
adverse effects of sprawl development and working to protect and 
preserve green space; Democratic Governors like Tom Carper of Delaware 
and Roy Barnes of Georgia are doing great things regarding 
transportation and land-use; And Independent Governor Angus King of 
Maine is working to address the threats from unplanned and unchecked 
sprawl development before the quality of life in his State is 
permanently damaged.
    My fellow Governors and I are on the front lines, but there are 
some critical steps that only the Federal Government can take to help 
us win this battle against sprawl. I see four key areas: 1. Continue 
and expand effective programs; 2. Emphasize the location of government 
facilities; 3. Use a ``sprawl vs reinvestment'' test for decisions; 4. 
Rethink some broader policy issues.
    First, continue and expand effective programs like the Conservation 
Reserve Enhancement Program [CREP], which is providing Maryland with 
$200 million to protect forest buffer along our waterways. I stress 
that we are not just asking for money. We are making a significant 
investment as well. The State is investing approximately $140 million 
over first 5 years of our Rural Legacy program to protect close to 
70,000 acres threatened by development.
    Additionally, new programs like the Livable Communities initiative 
can be a helpful way for the Federal Government to be a partner with 
State and local governments on this issue. Just think what a strong 
Livable Communities partnership could mean to all our States: The 
Better America Bonds could unleash $9.5 billion in investments to 
preserve green space, restore urban areas, and protect water quality. 
In Maryland, this would help us expand our Rural Legacy and Brownfields 
programs. Community Transportation Choices is a $9.9 billion proposal 
to ease congestion and improve air quality. As most members of Congress 
already know, the Washington area suffers from the second worst traffic 
congestion in the nation. In Maryland, this initiative would help us 
meet our goals of doubling mass transit ridership, improve existing 
roads, and exploring new technology-based options to reduce congestion. 
And the Regional Connections Initiative would provide $50 million in 
matching funds to enact Smart Growth strategies. This would help us 
revitalize existing communities. An important aspect in the Livable 
Communities approach is the emphasis on keeping land use decisions with 
local government. A solid Livable Communities partnership will give the 
States and local jurisdictions many of the tools they need to combat 
sprawl.
    The second approach the Federal Government can adopt is emphasizing 
the location of government facilities in Smart Growth areas. The 
Federal Government should make it a practice to locate new offices in 
central business districts especially in communities where other 
revitalization efforts are already underway. Sometimes relatively 
simple actions like keeping a Post Office on Main Street rather than 
building a new one outside of town can make a large difference in 
whether a community's downtown business district remains viable. We are 
following this policy in Maryland: Before I took office only 43 percent 
of our school constriction budget went toward renovating and 
modernizing our older schools . . . today well over 80 percent is 
dedicated to older schools in established communities. And Court Houses 
and County Buildings from Berlin on the Eastern Shore to Hagerstown in 
Western Maryland are being built downtown, supporting our 
neighborhoods.
    The third step the Federal Government can take it to apply a simple 
test to policy decisions: ``Does this reinvest in an establish 
community or does it contribute to sprawl.'' Once you begin viewing 
your policy decisions from this perspective, you will realize how many 
governmental actions have a significant impact on either protecting or 
threatening open space, on either reinvesting or disinvesting in 
established areas, on either fighting sprawl or assisting sprawl. This 
Smart Growth test needs to be applied to virtually every decision we 
make involving the allocation of resources. The hidden costs of sprawl, 
and the benefits of reinvesting in older areas, must be taken into 
account.
    Finally, we must look anew at many broad policies at the Federal 
level. Certainly we must have water and air pollution standards. We 
must also adopt minimal national standards for animal waste run-off to 
prevent competition between States that ultimately results in lowering 
pollution standards in order to attract business. But we must also look 
at policies that are grounded in laudable goals like cleaner air and 
water, but that have unintended consequences that actually make them 
worker counter to their intentions. For example, disallowing growth in 
``nonattainment'' areas often has the effect of forcing growth away 
from areas we want it like Baltimore and to ``greenfields'' where we do 
not want it. We need the flexibility to target the appropriate 
investments to the right areas and away from open space.
    I conclude with an observation: There are still those who do not 
understand that Smart Growth programs are about a different future; 
about a different vision for a better America. The fact is, we are 
going to have growth--so our choice is clear: We can either hide our 
heads in the sand and ignore it, and then face the consequences of 
unplanned growth. Or we can plan for a better future. I choose the 
latter. And I am confident that you will as well.
    Change will not be easy. We had a Public Safety Training Center 
project in the planning stages for over a decade, but as we began to 
look at things thinking Smart Growth first, we realized that the 
location is not consistent with our Smart Growth Program. We are still 
building it, it's going to be better than originally planned, but it 
will be in a location that is consistent with Smart Growth and 
preventing future sprawl. And now there is a great hue and cry in the 
community and the Maryland General Assembly about relocating this 
center. But at some point we have to make the tough decisions about 
Smart Growth today so we can prevent future sprawl and over-development 
tomorrow. I am reminded of the old saying ``Everybody wants to go to 
heaven, but nobody wants to die to get there.''
    Quite frankly, change will take time. There is no overnight 
solution. It will require changes in attitudes as well as in the way we 
do business at every level of government; local, State, and Federal. 
And frankly, it will take years before we begin to see change. But we 
will change. There is too much at stake.
    I will leave you with one final thought. Last month, Bill Hudnut, 
the former Mayor of Indianapolis and now a Senior Fellow with the Urban 
Land Institute, spoke before the Natural Resources Committee of the 
National Governors' Association,
    which I have the honor of chairing. His message to the Governors 
was one of urgency: We must begin to address the multiple challenges 
embodied in the movement known as ``Smart Growth'' before it is too 
late. He told an old North American Indian saying:''We do not inherit 
the land from our ancestors; we bequeath it to our children. In other 
words, we are not owners but stewards of our environment. As 
protectors, we must remain determined to pass the environment to future 
generations in a better state than we found it. Thank you again for 
inviting me to speak with you today.
                               __________
               Smart Growth and Neighborhood Conservation
           pamphlet issued by the maryland office of planning
Priority Funding Areas
    In much the same way that a family decides to save or spend its 
limited resources, the State is prioritizing its spending. In the past 
year, each county and municipality has been working to analyze its 
future growth needs. With the assistance of Models and Guidelines 
prepared by the Maryland Office of Planning, counties have used tools 
such as existing zoning, comprehensive plan maps, and water and server 
plans to define their ``Priority Funding Areas.'' These are locally 
certified areas where growth is planned, infrastructure is already in 
place, and that are consistent with criteria established by the Smart 
Growth and Neighborhood Conservation Act. By investing funds only in 
these areas, the State will save taxpayer dollars, protect open space 
from sprawl development and preserve its heritage. Focusing State 
investments and programs will strengthen neighborhoods, support the 
entrepreneurial spirit and create job opportunities. County certified 
Priority Funding Areas soon will be in place along with those 
designated by the legislation in order to provide a high quality of 
life for our children.
Rural Legacy
    Marylanders are united in their desire to protect the environment 
through Smart Growth policies. They have underscored their sentiments 
with creative proposals to preserve forests, open spaces, wildlife 
habitats and agricultural lands. Their recommendations also will create 
greenbelts around existing communities and protect sensitive areas, 
such as the Chesapeake Bay and its stream corridors from the hazards of 
development. In the first year of the Rural Legacy Program, 
partnerships made up of local governments, land trusts and land owners 
submitted 20 competitive applications requesting funds to purchase and 
protect over 53,000 acres of land. This overwhelming response will put 
the Rural Legacy Program well on its way to achieving its goal of 
preserving 200,000 acres by the year 2011.
    The Rural Legacy Program is providing the funding and focus to 
strategically identify and permanently protect the State's most 
valuable remaining term land and natural resource areas before they are 
forever lost to development. Through this toward thinking land 
conservation program, the State hopes to preserve land at a pace equal 
to that of development. With programs like Rural Legacy, Marylanders 
today are insuring a high quality of life - clean air and water, 
outdoor recreation, and a rich cultural heritage - for Nature 
generations.
Voluntary Cleanup and Brownfield Programs
    The future is bright for industrial sites once buried In a haze of 
pollution and legal uncertainty. Private companies have begun using the 
State's Voluntary Cleanup and Brownfields Programs to assess, cleanup 
and redevelop abandoned or underutilized sites so that they may once 
again be a productive part of our economy. Cleanup will make a marked 
difference in the quality of our air, water, and community life as a 
whole. Redevelopment of these sites takes the effort a step further by 
bringing jobs back to already developed but abandoned industrial areas 
and by increasing tax revenues.
    Companies from across the State continue to express interest in the 
Voluntary Clean-up and Brownfields Programs by requesting applications 
to participate. In the year since the Smart Growth initiatives became 
law, companies have submitted a total of 31 applications to participate 
in the Voluntary Cleanup program. These applications have a potential 
to clean-up approximately 610 acres of prime commercial land in Anne 
Arundel, Washington, Prince George's, Montgomery, Cecil and Carroll 
counties, and the cities of Cumberland and Baltimore. Twelve of these 
applications have been approved; two currently are being remediated; 
and, cleanup has been completed on six sites.
The Job Creation Tax Credit
    Dozens of small and mid-sized businesses are creating full time, 
permanent jobs for residents across the State. Thanks in part to the 
availability of Job Creation Tax Credits in Smart Growth areas, nearly 
91 businesses have or will soon create nearly 19,422 new jobs in 
established communities or those targeted for new growth. These jobs 
must pay at least 150 percent of the current $5.15 minimum wage but are 
averaging a higher rate of $41,500 per year. Jobs created are in fields 
as diverse as computer technology, publishing, warehousing, health care 
and manufacturing. The Job Creation Tax Credit contains two Smart 
Growth components. In Revitalization Areas, the tax credit rate is 
doubled; in Designated Neighborhoods within Priority Funding Areas, the 
minimum new job threshold is reduced from 60 to 25 full-time jobs.
    The success of this program means more family supporting jobs for 
Marylanders and the rejuvenation of our older neighborhoods. As 
additional businesses take advantage of this incentive, State and local 
governments will continue to save more taxpayer dollars by using 
infrastructure that is already in place rather than build costly new 
infrastructure to support sprawl development. Moreover, as businesses 
expand our economy will grow even stronger.
Live Near Your Work
    Employees of an increasing number of businesses and institutions in 
Maryland are eligible to receive a minimum of $3,000 toward the 
purchase of their home using a new initiative called the Live Near Your 
Work Program. These funds are being made available through a unique 
partnership. The State is contributing $1,000, which is being matched 
by the local jurisdiction and the employer, each of which is 
contributing a minimum of $1,000 to employees who purchase homes close 
to their places of work.
    The benefits of the Live Near Your Work Program are clear: 
neighborhoods are strengthened through increased homeownership, 
commuting costs are reduced, and important relationships are forged 
between employers and their surrounding communities. Through this 
incentive, participating employers are offering their work force an 
improved quality of life that will in turn create a renewed sense of 
community within Maryland's existing neighborhoods.
    In less than 1 year of operation, 31 employers in six Maryland 
jurisdictions have partnered with the State to offer this neighborhood 
revitalization incentive. Buoyed by the success of the Live Near Your 
Work Program, the State will make another $300,000 available for fiscal 
year 1999 so that additional employers and employees can take advantage 
of the opportunity to promote homeownership and invest in Maryland's 
older communities.
Smart Growth Initiatives
    Maryland has created a tapestry of policies and programs to 
protect, preserve and economically develop established communities and 
valuable natural and cultural resources. Many were developed over 
several decades but in 1997, Governor Glendening's landmark Smart 
Growth initiative provided an umbrella under which these diverse 
programs are unified. Local and State governments continue to develop 
and refine these programs and policies to best meet their needs. The 
following section provides an overview of programs that complement the 
goals of Smart Growth.
    Priority Funding Areas.--This component of the Smart Growth 
legislation defines where State and local governments encourage 
economic development and growth. Beginning October 1, 1998, the State 
must direct funding for growth related projects to these ``Smart Growth 
Areas.'' Contact: James Noonan, Maryland Office of Planning (410/767-
4570)
    Educational Outreach and Assistance.--Information about Smart 
Growth and educational activities. Smart Growth video available. 
Contact: Thomas Bass, Maryland Office of Planning (410/767-4578)
    Models and Guidelines.--This series of publications provides 
innovative planning and community development techniques. It is offered 
in hard copy or via the Internet (www.op.state.md.us) Contact: Scribner 
Sheafor, Maryland Office of Planning (410/767-4575)
    Technical Assistance.--Technical and financial assistance to local 
governments for planning, environmentally responsible ``green'' 
development practices and related activities. Contact: Scribner 
Sheafor, Maryland Office of Planning (410/767-4575) or Maryland 
Department of Natural Resources: Mark Bundy(410/260-8720)or Theresa 
Pierno (410/260-8710)
    Graduate Program in Smart Growth.--Contact: Tracy Stanton, 
University of Maryland (301/405-6358)
    Economic Growth, Resource Protection, and Planning Act of 1992.--
This Act requires that local Comprehensive Plans be updated 
periodically and be consistent with ``Visions,'' local zoning, 
subdivision ordinances other plans. A citizen commission oversees 
implementation. Contact: Gail Moran, Maryland Office of Planning (410/ 
767-4554)
Neighborhoods
    Live Near Your Work.--A program providing employees of 
participating employers $3,000 toward buying homes near their 
workplace. Contact: John Papagni, Department of Housing and Community 
Development (410/209-5807 or 800/756-0119)
    Quality Community Surveys.--An interactive process of determining 
resident's visual preferences about community. Contact: Beth Robinson, 
MTA (410/767-8352)
    Housing Development Programs.--Financial assistance to construct 
elderly and family rental housing in designated areas. Peter Engel, 
Maryland Department of Housing and Community Development (410/514-7481 
or 800/756-0119)
    Neighborhood Partnership Program.--A corporate tax credit program 
to promote private investment in neighborhood revitalization 
activities. Contact: Glenda I<:eel, Department of Housing and Community 
Development (410/ 514-7241)
    Smart Growth/Smart Ideas Homeownership Initiative.--An innovative 
program providing 4 percent interest rates for home mortgage in select 
neighborhoods. Contact: Fran Makle, Maryland Department of Housing and 
Community Development (410/514-7530; or 800/638-7781)
    Maryland Mortgage Program.--A tool to strengthen neighborhoods 
through IONV interest home mortgages for working families. Contact: 
Fran Makle, Maryland Department of Housing and Community Development 
(410/514-7530 alar 8()0/638-7781)
    Main Street Maryland.--A new comprehensive, downtown revitalization 
program to strengthen economic potential in traditional main streets 
and neighborhoods. Initial participants include Mount Rainier, 
Cumberland, Oakland, Easton, and Baltimore's Charles Village. 
Additional communities to be designated. Contact: Cindy Stone, Maryland 
Department of Housing and Communities Development (410/514-7256)
    Neighborhood Business Development Program.--This program provides 
loan and grant gap financing for small business startups or expansions 
in designated revitalization areas. Contact: Dottie Myers, Maryland 
Department of Housing and Community Development (410/514-7288 or 800/
756-0199)
    Neighborhood Stabilization Preservation Act of 1998.--A three-year 
demonstration program providing participating home buyers in Hillendale 
(Baltimore County) or Waverly (Baltimore City) with an 80 percent 
property tax credit. Contacts: Hillendale--JoAnne Holback, Baltimore 
County Neighborhood Housing Services (410/769-8820); Waverly--Dennis 
Taylor,Baltimore City Department of Housing and Community Development -
(410/396-3474)
    Neighborhood Conservation Program.--A revitalization program to 
assist with road improvement projects--streetscapes, curbs, gutter, 
repaving & lights--that improve mobility and facilitate local plan 
implementation. Contact: Yolanda Takesian, Department of Transportation 
(410/865- 1287)
    Retrofit Sidewalk Program.--Up to 100 percent moneys for sidewalks 
along State highways in revitalization areas at the request of local 
governments. Contact: Dennis German, Maryland Department of 
Transportation (410/545-8900)
    State Facilities Planning and State Purchases.--Growth management 
strategies used in selecting sites for State facilities and assessing 
options between the new construction and renovation of State buildings. 
Department of General Services Contacts: Michele Rozner (410/767-4960); 
Steve Cassard (410/767-4330); Tom Genetti(410/767-4214); or Bob Cheeks, 
(410/767-4440)
Job Creation
    Job Creation Tax Credit.--State tax credits for businesses 
providing new permanent, family supporting jobs in designated areas. 
Contact: Jerry Wade, Maryland Department of Business and Economic 
Development (410/767-6438)
    Enterprise Zones.--Tax breaks offered to businesses locating or 
expanding in State-designated areas. Enterprise Zones automatically are 
designated as Priority Funding Areas, thus eligible for State 
infrastructure funding under the 1997 legislation. Contact: Jerry Wade, 
Department of Business and Economic Development (410/767-6490)
    Maryland Heritage Preservation and Tourism Areas.--Matching grants, 
State tax credits and broad program support for public/private 
partnerships to develop and implement cultural tourism opportunities 
Cumberland's Canal Place is the only certified participant; others are 
designated and await certification. Contact: Bill Pencek, Department of 
Housing and Community Development (410/514-7604)
    Business Assistance and Permit Coordination.--A program to 
facilitate environmental permit and assistance with environmental 
program compliance. Contact: Sue Battle, Maryland Department of the 
Environment (410/631-3772)
    Public Schools.--State funding to help local governments construct 
or renovate public schools. Emphasis is placed on necessary renovation 
of existing schools. Contact: Yale Stenzler or Barbara Strein, Public 
School Construction Program (410/767-0610)
    The Aging School Program.--Complete funding is provided to address 
the capital needs of aging school buildings. Contact: Barbara Strein, 
Maryland Public School Construction Program (410/767-0619)
Public Safety
    Hotspot Communities Initiatives.--A crime fighting strategy 
targeted to locally designated areas for new police officers, probation 
agents, nuisance abatement teams, after school activities, citizen 
patrols and other proven enforcement and prevention strategies. 
Contact: Amanda Outings, Governor's Office of Crime Control and 
Prevention (410/321-3521)
    Community Policing.--Block grants for training/facilitating local 
police and citizen crime prevention and protection. Contact: Adam Gelb, 
Lt. Governor's Office (410/974-2804) or Michael Sarbanes, Governor's 
Office of Crime Control and Prevention (410/321-3521)
    Expanded Police Activities.--Coordinated and expanded State Police 
activities to provide safe communities, reduce violence and provide a 
climate for local economic development and growth. Contact: Doug Ward, 
Maryland State Police (410/653-4257)
    Gun Control.--Comprehensive approach to reduce gun-related violent 
crimes. Contact: Adam Gelb, Lt. Governor's Office (410/974-2804) or 
Michael Sarbanes, Governor's Office of Crime Control and Prevention 
(410/321-3521)
Transportation
    Smart Growth Transit Program.--Multi-agency effort to provide funds 
to stimulate private investment adjacent to major transit facilities. 
Goal is to create high density, mixed-use pedestrian development that 
promotes efficient land use and increases transit ridership. Contact: 
Jim Peiffer, Maryland Department of Transportation (410/767-3906)
    Transit Plus.--Incentive program allowing employers to provide up 
to $65 per employee, per month in discounted tax-free transit benefits. 
Contact: Buddy Alves, Maryland Department of Transportation (410/767-
8750)
Preservation
    Rural Legacy Program.--This Smart Growth grant program protects 
large rural greenbelts from sprawl through the purchase of easements/
development rights from land owners. Contact: Grant Dehart, Maryland 
Department of Natural Resources (410/260-8403, program line or 410/260-
8425, direct line)
    Agricultural Land Preservation Foundation--Agricultural 
Easements.--A program to preserve agricultural lands, provide 
production of food and fiber, curb the extent of urban sprawl and 
protect lands as open space. Contact: Paul Scheidt, Maryland 
Agricultural Land Preservation Foundation (410/841-5860)
    Maryland Environmental Trust--Environmental Easements.--This 
program conserves, improves, stimulates and perpetuates environmentally 
significant lands. Contact: James Highsaw, Maryland Environmental Trust 
(410/514-7900)
    Maryland Historical Trust--Historic Preservation Easements.--An 
easement program to protect historic properties. Easements may be 
required as condition of Trust grants, loans or State bond funds and 
provide financial incentives for property owners. Contact: Michael Day, 
Maryland Department of Housing and Community Development (410/514-7629)
    Maryland Historical Trust Grant Fund and Historic Preservation 
Revolving Loan Fund.--Grants and loans for acquisition, rehabilitation 
and restoration of historic property as well as historic preservation 
education, promotion, research and survey activities. Contact: 
Elizabeth Hughes, Maryland Department of Housing and Community 
Development (410/514-7617)
    Program Open Space.--A State program designed to acquire park land, 
forests, and natural, scenic and cultural resources for public uses. 
The program has already acquired nearly 158,000 acres. Contact: Grant 
Dehart, Maryland Department of Natural Resources (410/260-8403, program 
line; 410/260-8425, direct line)
    Forest Conservation Program.--Establishes forest conservation and 
forestation standards for local authorities to enforce during 
development. Contact: Marian Honeczy, Maryland Department of Natural 
Resources (410/260-85
    Buffer Incentive Program.--Provides landowners with one-time $300 
grants per acre to plant forest stream and waterway buffers to reduce 
non-point source pollutants. The program also provides public education 
programs. Contact: Donald VanHassent, Maryland Department of Natural 
Resources (410/260-8504)
    Forest Legacy Program.--Identifies and protects environmentally 
important and threatened forest lands for traditional uses of private 
lands. Contact: Donald VanHassent, Maryland Department of Natural 
Resources (410/260-8504)
    Stewardship Incentive Program.--Financial assistance through 
reimbursable cost-sharing to help private forest land owners implement 
specific forest management practices such as tree planting, wildlife 
habitat enhancement, riparian and wetland habitat enhancement and 
recreational opportunity development. Contact: Donald VanHassent, 
Maryland Department of Natural Resources (410/260-8504)
    Conservation Resource Enhancement Program.--A federally funded 
voluntary program to encourage farmers to remove crop land, plant 
buffer strips and restore wetlands along Maryland's tributaries. 
Contact: Royden Powell, Maryland Department of Agriculture (410/841-
5865)
    Farm Land Preservation Atlas.--Atlas of farm preservation shows 
relationship and implications of land use, zoning, development 
pressure, easements,-conservation zones and soils. Contact: Daniel 
Rosen, Maryland Of lice of Planning (410/767-4569)
Environmental
    Brownfields.--The following three programs are designed to better 
facilitate redevelopment of former industrial sites:
    <bullet>  Voluntary Cleanup: Process for property clean up. 
Contact: Jim Metz, Maryland Department of the Environment (410/631-
3493)
    <bullet>  Brownfields Program: Economic assistance for contaminated 
properties. Contact: Steve Lynch, Maryland Department of Business and 
Economic Development (410-767-6390)
    <bullet>  Brownfield Site Assessment: Site assessments for vacant 
and underutilized brownfield sites. Contact: Art O'Connell, Maryland 
Department of the Environment (410/631-3493)
    Hazardous Mitigation Assistance.--Hazard mitigation funds for 
eligible individuals, State agencies and non-profit organizations for 
projects eliminating or lessening repetitive disaster or flood damage 
problems. Contact: Evalyn Fisher, Maryland Emergency Management Agency 
(410/486-4422)
    Water and Sewage Infrastructure Financing.--This program redirects 
water quality capital financing to facilitate community revitalization 
and to. support growth within these communities. Program also funds 
needed water and wastewater projects in the more rural and less ambient 
areas of the State. Contact: Virginia Kearney, Maryland Department of 
the Environment (410/631-3574)
    State Air Emission Offset Banking and Trading Program.--A program 
to promote the establishment of a State reserve for environmental 
improvement. It encourages development and redevelopment in Smart 
Growth areas. Contact: Diane Franks, Maryland Department of the 
Environment (410/631-3240)
    Ecosystem Management Assessment Program.--A new program to 
demonstrate cost-effective conservation programs and practices to best 
manage property and structures for a healthy environment. Contact: 
Ronald Gardner Maryland Department of Natural Resources (410/260-8813)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Statement of David Hayes, Counselor to the Secretary, Department of the 
                                Interior
    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify on behalf of the Department of the Interior 
regarding the Administration's Lands Legacy Initiative, and those 
aspects of the Livable Communities Initiative which Interior programs 
support. The Department of the Interior is a lead agency for the Lands 
Legacy initiative, which I will discuss in more detail below. Lead 
agencies for the Livability Initiative are the Department of 
Transportation, HUD and EPA. Interior administers one program that is 
included in the Livability Initiative and has other complementary 
efforts, and I will discuss those in my testimony as well. However, for 
a complete understanding of the Livability Initiative, I refer the 
committee to the written statements of Transportation and EPA that will 
be submitted for the record.
Administration's Lands Legacy Initiative
    At the start of this century, President Theodore Roosevelt called 
on Americans to save the best of our natural endowment for all time. 
His legacy is seen all across America in National Parks, National 
Forests, and our National Wildlife Refuge System. President Clinton's 
Lands Legacy Initiative renews America's commitment to its natural 
environment. The initiative requests $1 billion, within a balanced 
budget, to expand Federal protection of critical lands across America, 
helps States and communities preserve local green spaces, and 
strengthen protections for our oceans and coasts. The President also 
has committed to work with the Congress on legislation that would 
provide a permanent funding stream for these purposes of about $1 
billion per year.
    The initiative provides roughly equal funding for Federal and non-
Federal conservation efforts, representing a 124 percent increase over 
fiscal year 1999 funding. It includes $900 million from the Land and 
Water Conservation Fund (LWCF), which draws revenues from Federal 
offshore oil leases.
    The intention is to allow the Federal Government to work with the 
many others who care about our natural resources and greenspace to 
achieve the next stage in conservation in this country. This vision 
recognizes that different areas and communities need different kinds of 
tools to achieve their conservation goals. It also recognizes that 
Federal land acquisition is a part, but only one part, of the 
nationwide effort at conservation. States, local communities, and 
Tribes must make decisions and receive the funding to achieve the goals 
that they themselves set.
    Thus, the Administration proposes to provide a range of flexible 
tools to States, local communities, and Tribes to address their various 
open space needs. The initiative includes funds for Federal land and 
water acquisition to protect our natural treasures, as well as funds to 
States, local governments, and Tribes for farmland protection, 
preservation of working forests, wildlife habitat protection, urban and 
suburban greenways, and coastal environmental needs. Thus, in addition 
to the Department of the Interior funding discussed in more detail 
below, the Administration's budget requests additional funding for the 
Department of Agriculture's Farmland Protection, Forest Legacy, and 
Urban and Community Forestry programs, and NOAA's National Marine 
Sanctuaries, Coastal Dredge Area restoration, and Fisheries Habitat 
Restoration.
Department of the Interior's fiscal year 2000 Budget
    The Department's fiscal year 2000 request for Interior Federal land 
acquisition will concentrate on five major areas, including the 
California Desert, Civil War Battlefields, the Lewis and Clark Trail, 
refuges in the Northern Forest, and the Everglades. A total of $295 
million is requested for these and other priority Federal land 
acquisition projects. Another major emphasis is on efforts to allow 
States and localities to continue to grow while conserving and 
recovering imperiled wildlife species. $80,000,000 is requested for 
States and local governments for habitat conservation planning, land 
acquisition, candidate conservation agreements, Safe Harbor Agreements, 
and other collaborative strategies.
    In America today there is a resurgent sense of the need to preserve 
open space and the quality of life of our communities. The Initiative 
includes $150 million for a competitive grants program that will assist 
States, local governments, and Tribes to preserve open space, and is an 
opportunity for us to establish new partnerships with these entities to 
enrich our cities, towns, and suburbs. This program could provide 
dramatic results by leveraging Federal funds with non Federal 
resources. The proposal also calls for $50 million for grants to States 
to support open space planning. We expect to work with Congress in 
framing a viable program that will result in increased open spaces, 
green ways, and other areas for outdoor recreation, urban parks, 
wildlife habitat, and coastal wetlands.
    $80 million is provided for the Cooperative Endangered Species Fund 
to support Habitat Conservation Plans (HCPs) development. These HCPs 
set aside undisturbed open space for habitat for endangered or 
threatened species and enable urban planners to take wildlife and open 
space considerations into account when planning for future development. 
The U.S. Fish and Wildlife Service is developing HCPs in several urban 
areas, including San Diego, Tucson, and Sacramento. I would like to 
describe one example that I think illustrates how Federal expertise 
teamed with local partners can yield a powerful planning tool that 
contributes significantly to the goals of the Livability agenda.
    <bullet>  San Diego County has a greater number of threatened and 
endangered species than anywhere in the continental United States. In 
March, Secretary Babbitt announced the San Diego Multiple Species 
Habitat Conservation Program (HCP) which aims to acquire and preserve 
about 172,000 acres of habitat over the next 50 years. This area is 
adjacent to the San Diego National Wildlife Refuge and is comprised of 
large blocks of interconnected habitat that would mitigate the impacts 
of continued urban development located mostly outside of the preserve 
boundaries. The plan emphasizes the protection and management of 
habitats rather than focusing preservation efforts on one species at a 
time. The HCP will allow 85 species (20 listed species and 65 unlisted 
species) to survive as the San Diego area continues to grow. About half 
of the acreage needed for the program is already publicly owned or 
destined for public ownership. Much of the rest is expected to be 
bought over the next years from willing sellers or deeded by landowners 
in exchange for development rights on other habitat lands. As part of 
this HCP, San Diego County can now approve developments in sensitive 
habitats as long as developers follow the HCP rules, which include 
compensation for such damage by preserving other habitat.
Administration's Lands Legacy Principles
    Turning now to our proposal regarding the development of 
legislation to provide a permanent source of funding for the 
conservation of America's land resources, the Administration has 
developed the following Principles that will guide our work with 
Congress in developing legislation that will provide a lasting legacy 
for future generations of Americans. These Principles are as follows:
    <bullet>  Legislation must create a permanent funding stream, 
within the context of a balanced budget, of at least $1 billion 
annually beginning in fiscal year 2001.
    <bullet>  Legislation should specify a generally equal allocation 
of funding between 1) Federal land acquisition; and 2) funding for 
State, local, and tribal governments to acquire, protect, or restore 
open space, greenways, urban and community forests and parks, wildlife 
habitat, coastal wetlands, farmland protection and sustainable forests.
    <bullet>  Legislation should provide funding for various tools for 
State, local, and tribal communities to protect their open space and 
natural resources in the manner most appropriate to their area, 
including the ability to acquire less than fee simple interest in land. 
The range of tools and programs should be similar in scope to those 
proposed in the President's Budget for fiscal year 2000.
    <bullet>  Legislation should protect wildlife by providing funding 
to support the health and diversity of habitat for at-risk and nongame 
species.
    <bullet>  Legislation should provide support for open space 
planning that is integrated with other planning, land protection, and 
smart growth efforts. Funding to States and tribes for planning must 
encourage consideration of open space preservation, habitat protection, 
and the identification of appropriate corridors for growth.
    <bullet>  In recognition of the unique environmental needs of 
coastal States, legislation should include specific programs and 
partnerships designed to assist in coastal environmental protection, 
conservation, and restoration. The range of tools and programs should 
be similar In scope to those proposed in the President's Budget for 
fiscal year 2000. This allocation must be equitable considering the 
national needs of all States, and should not preclude the coastal 
States from competing for the other general grants available to all 
States.
    <bullet>  Legislation must provide incentives for leveraging the 
Federal funding to State, local, and tribal governments to the maximum 
extent possible through matching funds, and partnerships with 
governmental or private, non-governmental entities including land 
trusts.
    <bullet>  The program established by the legislation should contain 
no incentive for additional offshore oil or gas exploration or 
development, which should continue to be governed solely by existing 
law and procedures.
Administration's Livability Agenda for the 21st Century
    The Lands Legacy Initiative is complemented by a second 
Administration initiative, the Livability Agenda, that was launched by 
Vice President Gore in January, 1999. The Livability Agenda grew out of 
many of the same concerns as the Lands Legacy program--the need to 
preserve open space and improve the quality of life in our communities. 
While these two programs complement each other, they differ in their 
focus: the Lands Legacy Program is primarily concerned with natural 
resource protection, while the Livability Agenda encompasses a broader 
array of issues that relate to quality of life, including 
transportation, safe streets and economic competitiveness. Through the 
Livability Agenda, the Administration aims to help communities across 
America grow in ways that ensure a high quality of life and strong, 
sustainable economic growth. This program provides a comprehensive 
array of resources and tools to support local organizations and 
agencies facing the challenges raised by rapid growth.
    As part of the Livability Agenda, the Administration is also 
proposing a new program, the Community/Federal Information Partnership 
(CFIP), that would enhance existing technological capabilities and 
provide communities with greater access to planning information. A 
multi-agency program, CFIP, will be coordinated by the Department of 
the Interior through the Federal Geographic Data Committee. The CFIP 
would make new informational tools, including Geographic Information 
Systems (GIS) technology, more readily available at the local level to 
help communities make more informed, collaborative decisions about 
regional growth. The program would provide matching grants to local 
agencies and organizations to build their capacity to use GIS 
technology. In addition, the program would improve public access to 
existing geographic information in Federal agencies. CFIP will put 
tools and resources in the hands of communities to make decisions that 
affect its citizen's quality of life with the best available 
information.
    In addition to CFIP, the Department of the Interior has other 
existing programs that address many of the goals of the Livability 
Agenda. As the government's largest land management agency, the 
Interior Department has developed expertise through a number of its 
programs that can help communities maximize open space for wildlife and 
habitat protection as well as for recreational uses. The Interior 
Department also has substantial data collection and mapping expertise 
that, along with its other programs, can provide powerful tools to 
communities as they engage in planning decisions at the local level.
    I would like to use this opportunity to highlight a few examples 
that I think illustrate how the Department of the Interior helps 
improve the quality of life for our citizens.
    The National Park Service has a variety of programs that assist 
local efforts to develop and maintain open space. UPS Rivers, Trails 
and Conservation Assistance Program is designed to help local groups 
undertake conservation projects such as protecting rivers, developing 
trails and other recreational opportunities. Since its founding in 
1988, the Rivers and Trails program has collaborated with over 1000 
local groups to work on more than 700 conservation projects in all 50 
States.
    The Department of the Interior is also at the forefront of some of 
the country's most advanced data collection and mapping efforts 
designed to gather information on watersheds and developing urban 
areas. Data on water quality, watersheds, land use, geological 
features, natural hazards, and hazards mitigation are collected by the 
United States Geological Survey. This information is then made 
available to local communities via the Internet. These resources 
provide invaluable tools to local communities engaged in land use 
planning.
    <bullet>  USGS Urban Dynamics Research Program uses geographic, 
topographic and land-use information to document land use change in 
many metropolitan areas. Urban dynamic information services serves as 
an important tool for city and county planners, regulators and 
developers in understanding the influence of roads, highways, and 
industry on urbanization. USGS has provided data and mapping 
information on urban growth patterns to local and regional agencies in 
the San Francisco-Sacramento and Baltimore-Washington areas. Work on 
other metropolitan areas is currently underway.
    These programs and many others within the Department bring 
technical and in some cases direct financial assistance to local 
organizations and agencies that are engaged in local planning and open 
space protection activities.
    In addition, many of the other agencies' Lands Legacy programs 
compliment the Livability Agenda, including USDA's Forest Legacy, Urban 
and Community Forestry, Farmland protection and Smart Growth 
Partnership programs, and NOAA's coastal zone, fisheries, and estuarine 
reserve programs.
    This concludes my statement and I would be happy to answer your 
questions.
                                 ______
                                 
              president clinton's lands legacy initiative:
  forging a conservation vision for the 21st century, february 1, 1999
    President Clinton proposes a $1 billion Lands Legacy. initiative to 
expand Federal protection of critical lands across America, help States 
and communities preserve local green spaces, and strengthen protections 
for our oceans and coasts.
    This landmark initiative represents a 124 percent increase over 
fiscal year 1999 funding. It includes $900 million from the Land and 
Water Conservation Fund (LWCF), marking the first time any 
Administration has requested the full $900 million funding from LWCF, 
which draws revenues from Federal offshore oil sales. To sustain these 
efforts in the new century, the President commits to work with Congress 
to create a permanent funding stream beginning in fiscal year 2001.
    The Lands Legacy initiative continues the Clinton-Gore 
Administrations strong efforts to save Americans natural treasures. 
And, by providing significant new resources to States and local 
communities, it forges a new conservation vision for the 21st century--
one that recognizes the importance of preserving irreplaceable pieces 
of our natural legacy within easy reach of every citizen.
    Lands Legacy will be administered by the Department of the Interior 
(DOI), $579 million; the Department of Agriculture (USDA), $268 
million; and the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOM), $183 million. It will be coordinated 
with the Administrations complementary Livability Agenda'' through 
interagency cooperation and consultation.
Saving America's Natural Treasures
    Federal Acouisitions--The initiative increases Federal land 
acquisition funding through the Land and Water Conservation Fund by 26 
percent to a total of $413 million ($295 million for DOI, and $118 
million for USDA). In recent years, the Administration has dedicated 
LWCF funds to protecting Yellowstone National Park from mining, saving 
ancient redwoods in California's Headwaters Forest, preserving Civil 
War battlefields, completing the Maine-to-Georgia Appalachian Trail, 
and acquiring more than 100 other natural and historic sites across the 
country. Priorities for fiscal year 2000 include acquisition of over 
450,000 acres in California's Mojave Desert, additions to wildlife 
refuges and national forests in New England, lands critical to the 
ongoing restoration of Florida's Everglades, and protection of Civil 
War battlefields.
Helping States and Communities Preserve Green Spaces
    Land Acquisition Grants.--Lands Legacy includes $150 million 
through LWCF for matching grants to State, local and tribal governments 
for acquisition of land and easements for urban parks, greenways, 
outdoor recreations, wildlife habitat, and coastal wetlands. The DOI 
program retools the LWCF State grants program for Smart Growth and open 
space preservation. Grants will be awarded on a competitive basis, with 
priority going to projects consistent with statewide Smart Growth 
plans.
    Open Space Planning Grants.--The initiative proposes a new $50 
million program of matching grants to State and tribal governments to 
develop open space preservation and ``smart growth'' strategies. States 
and tribes would use a variety of data and tools to identify priority 
areas for urban development, farmland, and conservation. The program, 
administered by DOI, would award grants competitively, with priority 
going to proposals that tie State and tribal plans to regional 
strategies for managing the economy, job growth, and infrastructure 
development.
    Cooperative Endangered Species Conservation Fund.--The initiative 
proposes $80 million--a $66 million increase--for State and local 
government land acquisition to protect threatened and endangered 
species. By supporting Habitat Conservation Plans and other flexible 
tools under the Endangered Species Act, the Fund promotes collaborative 
strategies that sustain both wildlife and economic development. The 
program is administered by the U.S. Fish and Wildlife Service (DOI).
    Forest Legacy Program.--To protect private forest land that 
provides critical wildlife habitat and is threatened by development, 
the initiative proposes $50 million--an increase of more than six-
fold--for matching grants to States for the purchase of permanent 
conservation easements. Use of protected lands for forestry and 
compatible activities is permitted. The program is administered by the 
U.S. Forest Service (USDA), and the proposed funding would protect 
about 150,000 acres.
    Urban and Community Forestry.--The initiative proposes $40 
million--a 29 percent increase--for matching grants to States and 
communities to establish, maintain, and expand urban and community 
forests and related green spaces. The program, administered by the 
Forest Service, operates in partnership with 8,000 volunteer 
organizations in more than 10,000 communities. The proposed funding 
would support 75,000 projects in more than 10,000 communities.
    Farmland Protection Program.--To protect farmland and sustain rural 
economies, Lands Legacy would provide $50 million in matching grants to 
States, communities, and tribes for the purchase of permanent 
conservation easements on farmland threatened by development. The 
program, administered by USDA's Natural Resources Conservation Service 
(NRCS) was created by the 1996 Farm Bill. Through mid-1998, $35 million 
in Federal funding had leveraged an estimated $230 million in 
easements, protecting about 127,000 acres.
    Smart Growth Partnership.--Lands Legacy proposes a new revolving 
loan program to support acquisition of land and easements in rural 
areas. The Partnership, administered by USDA, would make loans to 
intermediate borrowers (State, local and tribal governments ), which in 
turn would lend funds to rural businesses, land trusts and other 
nonprofit organizations. Proposed funding of $10 million would support 
$50 million in loans. Priorities are supporting Smart Growth'' 
strategies and helping owners of underproducing forest land at risk of 
sale improve forest productivity.
    Urban Parks and Recreation Recovery.--The initiative proposes $4 
million in matching grants and technical assistance for the restoration 
of parks in economically distressed urban communities. The program, 
administered by the National Park Service (DOI), awarded over 1,200 
grants from 1978 to 1995 but has remained unfunded since 1995.
Protecting Our Oceans and Coasts
    National Marine Sanctuaries--Lands Legacy proposes $29 million--a 
107 percent increase--to strengthen protections at 12 marine 
sanctuaries off California, Florida, Georgia, Hawaii, Louisiana, 
Massachusetts, North Carolina, Texas, Washington, and American Samoa, 
and plan for future marine sanctuaries. The funding will allow NOM to 
accelerate the adoption and implementation of management plans for 
existing sanctuaries and expand outreach activities with coastal 
communities.
    Coastal Zone Management Act Program--To help promote Smart Growth'' 
strategies along Americans coasts, the initiative proposes $90 million, 
a 55 percent increase, to help coastal States implement community-based 
projects for environmentally sound economic development and mitigate 
urban sprawl. Competitive grants can be used by coastal communities to 
acquire lands, protect wildlife habitat, protect life and property from 
coastal hazards, revitalize ports and urban waterfronts, and reduce 
polluted runoff.
    National Estuarine Research Reserves System--The initiative 
proposes $19 million, a 375 percent increase, to expand a network of 
critical estuaries representing all the biological regions along 
Americans coasts. NOM provides guidance and matching funds to States to 
acquire land, protect resources, and conduct research and education. 
Twenty-two reserves in 19 States and territories manage about 500,000 
acres. The proposed funding would help support additional sites 
doubling the protected acreage.
    Coral Reef Restoration--Lands Legacy proposes $10.3 million--a $10 
million increase--to protect fragile coral reefs from pollution and 
other human impacts. NOM, in conjunction with States, territories, DOI, 
and other Federal agencies, would restore injured reefs in Puerto Rico, 
Florida, Hawaii, and U.S. territories; and develop a coral nursery to 
grow donor material and other restoration techniques.
    Coastal Dredge Area Restoration--The initiative proposes $10 
million for NOM to work with States, communities, and the Army Corps of 
Engineers to use material dredged from ports and shipping channels to 
restore coastal habitats. Dredging is critical to keep shipping lanes 
open and deepen channels to accommodate larger ships. Safely reusing 
dredge spoils benefits the environment and reduces disposal costs.
    Fisheries Habitat Restoration--To restore declining fisheries, the 
initiative proposes $25 million for NOM's National Marine Fisheries 
Service to support community-based habitat restoration projects that 
restore, acquire, and protect critical fish habitats. Efforts would 
focus on on-the-ground restoration partnerships in regions that 
participate in the National Estuary Program, the National Estuarine 
Research Reserve Program, or have multiple threatened or endangered 
species.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Responses by David Hayes to Additional Questions from Senator Crapo
    Question 1. What specific criteria will be used to judge the plans 
and applications for funding submitted by State and local governments? 
What policy directions will those criteria drive local governments 
toward?
    Response. The Department of the Interior plans to develop the 
criteria for distribution of the conservation grants through a public 
process that seeks input from all interested parties, including State, 
local, and tribal governments and Congress. While it is premature to 
foretell the outcome of this process, consideration may be given to 
projects that protect open space, green ways, wetlands, wildlife 
habitat, coastal environments, and recreational opportunities these 
lands provide, and that are consistent with State, tribal, regional, 
and local community open space protection and growth plans. However, we 
do not anticipate that grants would be available for facility 
construction or rehabilitation.

    Question 2. What type of compliance monitoring will be used? For 
how long? What repercussions would there be for plans/projects deemed 
out of compliance?
    Response. The Department of the Interior is not seeking any new 
authorities for compliance requirements. The Land and Water 
Conservation Fund (LWCF) is clear about compliance requirements. The 
Department anticipates that compliance will be monitored the same way 
that the traditional LWCF grants are monitored, grantees will need to 
comply with the terms of the grant in perpetuity. Communities can apply 
for conversion, with the approval of the Secretary and identification 
of equal and equivalent lands.

    Question 3. For lands purchased for open space or wetlands, is 
public access to those lands ensured? Allowed? Are such lands purchased 
exclusively in willing buyer, willing seller situations?
    Response. The specific operating plan of the conservation grants 
program would likely allow and ensure public access in a manner that 
does not degrade the purposes for which the grant was approved. Just 
as, under the traditional State-side of the LWCF, public access, 
broadly defined, is ensured and allowed. The criteria for selection of 
grants will be done in a public process. This program, as with the 
existing State-side LWCF grants, will make every effort to ensure, 
through the use of the open space planning requirements and the 
competitive grants process, that the lands purchased are from willing 
sellers, but it is not the intent to preempt local government zoning, 
open space, and conservation authorities.
                               __________
    Statement of Andrew J. Falender Executive Director, Appalachian 
                             Mountain Club
    Mr. Chairman, Senators. thank you for the opportunity to testify 
today. My name is Andrew Falender and I am the Executive Director of 
the Appalachian Mountain Club. the nation's oldest conservation and 
recreation organization.
    My testimony will focus on the park and open space funding 
provisions of four proposals currently before the Senate. These 
initiatives include S. 25, the Conservation and Reinvestment Act 
introduced by Senators Landrieu and Murkowski, S. 446, Permanent 
Protection for America is Resources 2000, sponsored by Senator Boxer, 
S. 532' the Public Land and Recreation Investment Act, introduced by 
Senator Feinstein, and the Lands Legacy Initiative, included in 
President Clinton's fiscal year 2000 budget proposal.
    For over a century, the AMC has promoted the protection, wise use 
and enjoyment of the mountains, rivers, and trails of the Northeast. We 
work hard to involve our 82,000 members in caring for our nation's open 
spaces whether they sit on half an acre in the heart of the Bronx or 
vast wild areas like those found in the 26 million acre Northern Forest 
of Maine, New Hampshire, Vermont, and New York.
Land and Water Conservation Fund: A Legacy of Success
    In our view, the work of conserving and caring for these special 
places must be a partnership that engages government, businesses, and 
nonprofit organizations. Federal funds and expertise are a critical 
element.of this partnership. Nowhere is this more apparent than in the 
thirty-year legacy of the Land and Water Conservation Fund (LWCF). LWCF 
has a proud record of preserving more than seven million acres of open 
spaces and places to recreate. It has been the tool for funding 
conservation of our national parks and forests, wildlife refuges, and 
historic sites. LWCF has also provided critical matching grants to more 
than 37,000 State projects like urban tot lots. ballfields, watersheds 
and bike paths. These successes were generated through bipartisan 
leadership and a true commitment to parks and open space.
    Unfortunately, our national commitment to this important open space 
partnership has been shaky for more than a decade. Between 1987 and 
1997 LWCF spending averaged $230 million or just 25 percent of the $900 
million authorized to flow into the Fund from Outer Continental Shelf 
oil and gas leases. The average appropriation to the critical LWCF 
State grant program was $22 million over the same period. When you 
split this up over 50 States, it's not hard to see why the money 
doesn't begin to meet the need. (Figure I in my written testimony 
highlights this funding history.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Thanks to strong bipartisan leadership from many in the Senate, 
LWCF funding jumped to $969 million in Fiscal Year 1998, only to fall 
again to $343 million in Fiscal Year 1999. Even with this spike in 
funding, the State grant program was essentially zeroed out. It is 
LWCF's legacy of success on the ground, combined with its spotty 
finding history that demonstrates the need to pass legislation that 
would fully and permanently fund the Land and Water Conservation Fund 
along with a few of its sister programs like Forest Legacy, and the 
Urban Parks and Recreation Recovery Program. If the number of open 
space bills making their way through the Senate and House are any 
indication, there are many here in Washington who share our view about 
the importance of restoring our nation's commitment to protecting open 
spaces through the passage of comprehensive bipartisan open space 
legislation.
Citizens Strongly Support Funding for Open Space Protection
    You don't need to look far to see that the American people 
understand this need and are prepared to act. This November in 10 
States, 25 counties, and over 150 towns, voters raised $4 billion for 
conservation of open space. Voters also approved another $3 billion for 
urban revitalization and smart-growth plans.
    Americans voted for open space and enhanced community life all over 
the country: $700 million in Minnesota; $160 million in Jefferson 
County, Colorado; $50 million in Michigan; $62 million in Suffolk 
County, Long Island; and $1.5 Million alone in the little town of 
Bristol, Rhode Island.
    With the vocal support of real estate interests, 15 Land Banks were 
created on Cape Cod. This happened because residents and businesses 
there know why people vacation on the Cape--for its charm and beautiful 
beaches. But there's no charm to unmanaged growth, and no beauty to 
overbuilt and polluted shorelines.
    Closer by in Northern Virginia--where you see loss of open space as 
much as anywhere else--Arlington and Fairfax Counties approved almost a 
$100 million for open space and parks.
    The most dramatic initiative happened in New Jersey, where Governor 
Christine Whitman championed a $1 billion commitment. Here's a State 
under rapid development pressure from industrial and suburban 
expansion. Here's a State unfairly known for its turnpike. But New 
Jersey is also a State full of beautiful pine barrens, rolling 
farmland, and enclaves like Sterling Forest just 30 minutes from New 
York City.
    The lesson of New Jersey and other communities across the country 
is simple. Where our populations are booming, where our economy is 
dynamic--that's where open spaces are the most threatened and the most 
precious. To their credit, many citizens in many States knew this. They 
woke up and spoke up. They voted against traffic jams, foul air, poor 
water quality and for healthier communities, urban parks, farmland, 
scenic vistas, protected forests, and open space buffers around 
watersheds.
    The groups driving this effort across the Nation are as diverse as 
they get with Governors and mayors across the political spectrum, 
businesses, school boards, neighborhood groups and even real estate 
organizations joining the cause. They're working with environmentalists 
and community activists, producing consensus on open space protection 
and healthy, vibrant communities that you wouldn't have seen 10 years 
ago.
Essential Principles for Open Space Legislation
    This diverse partnership should send a clear signal that the time 
is now to pass strong legislation for funding open space protection. We 
urge you to adopt the following principles as the basis for evaluating 
and modifying the open space funding bills circulating here in the 
Senate. These principles address the array of tools and funding levels 
needed to restore our nation's commitment to protecting open space and 
providing recreational opportunities for all Americans.
    <bullet>  Full and permanent funding of the Land and Water 
Conservation Fund (at least $900 million annually).
    <bullet>  An equitable allocation of LWCF funding for the program's 
Federal and State components, including the following elements:
    1) 40 percent provided to the Federal side of the program ($360 
million annually)
    2) 40 percent provided to the state-grants program ($360 million 
annually)
    3) 20 percent allocated to a competitive state-grants process for 
projects and lands of clear national significance to be allocated 
outside of the population-based formula ($180 million annually). This 
provision is essential to land protection in many regions of the 
country especially those in the East, like the Northern Forest (ME, NH, 
VT, NY) and Appalachian Highlands (CT, NY, NJ, PA) where there are 
large areas of clear national significance in States with small 
populations. Given the small number of Federal lands in these regions 
and the cultural interest in local and State involvement in land 
protection, there is a special need to provide competitive grants 
through the state-side program.
    <bullet>  Funding for the U.S. Forest Service, Forest Legacy 
Program at $50 million annually including $25 million per year for the 
Northern Forest region.
    <bullet>  Revived Urban Parks Recovery Program and Historic 
Preservation Fund, each funded at $150 million on a permanent annual 
basis.
    <bullet>  Funding for Wildlife Conservation at $350 million in 
permanent annual grants to States for habitat conservation and species 
protection.
    <bullet>  Fully and permanently fund the Payments in Lieu of Taxes 
Program (PILT). In 1998 full funding of PILT would costs $256 million.
    <bullet>  No new restrictions should be placed on the uses of land 
and water conservation funds especially those that would limit 
acquisition to Federal inholdings or adjacent lands, employ arbitrary 
geographic restrictions on the use of funds, or require new 
authorizations. In addition, any legislation must protect the 
traditional use of LWCF stateside funds for recreation enhancement.
    <bullet>  Legislation focused on restoring our nation's commitment 
to open space conservation and recreation opportunities through LWCF or 
other means should not allow funds to be used for environmentally 
damaging activities. In particular, new legislation should not include 
incentives for additional offshore oil or gas leasing, exploration, or 
development.
    By applying these principles, we believe that Congress can create 
the full set of tools needed to successfully protect our environment 
and open spaces. This framework would continue the long tradition of 
working with willing sellers established through LWCF.
Analysis of Current Open Space Funding Proposals
    We want to recognize and praise the momentum and interest in 
addressing the pressing need for additional open space funding. The 
number and variety of bills before the Senate and House of 
Representatives illustrates that many of our leaders are listening. Let 
me say thank you for providing the leadership needed to address this 
critical need.
    I want to take a moment to examine each of the open space bills in 
relation to the principles I laid out earlier and I have brought along 
a chart that summarizes the key elements of each bill being considered 
by the Senate. (See Figure 2, attached at the end of in my written 
testimony.)
S. 25, the Conservation and Reinvestment Act
    S. 25, the Conservation and Reinvestment Act, makes a significant 
commitment to open space funding. Unfortunately, the bill also has a 
number of critical shortfalls. In our view, Title I, which provides aid 
to States to mitigate the impact of Outer Continental Shelf (OCS) 
drilling, contains significant incentives for States to consider 
increased oil and gas drilling off their coast. The formula established 
in the bill for allocating OCS impact assistance allocates 
significantly more funds to States with active oil and gas leases.
    Under Title I, coastal States would receive 27 percent of annual 
OCS revenue, which totaled $4.5 billion in 1998. There are 35 coastal 
States and territories in the United States, currently six have 
offshore oil drilling. The Minerals Management Service estimates that 
of the 29 States and territories with no offshore oil drilling, this 
bill would allocate $7 million or less to 12 of them annually and 
between $7 million and $50 million to 17 States annually. By contrast, 
estimates are that the six States with offshore oil drilling would 
receive between $70 and $350 million annually in OCS impact assistance.
    For a State like Florida with existing oil reserves off its coast, 
the increase in revenue is estimated to go from $1.8 million under 
current law to $85.5 million under the Impact Aid provisions of S. 25.
    The sheer size of the increase in impact aid creates a strong 
incentive for States to consider beginning or increasing drilling off 
their coast. This incentive is strengthened further through the design 
of the impact aid assistance formula which awards more impact 
assistance to States and localities as drilling activities move closer 
to the coast. If the geographic center of a leased tract for oil 
drilling is within 200 miles of a State's shoreline, 50 percent of the 
State's impact aid will be based on OCS oil or gas production off that 
State's coast. The closer drilling occurs to the shoreline, the more 
money the State will receive.
    Title II of S. 25 contains provisions that change the way LWCF 
funds can be used. The bill limits LWCF Federal-side funding to the 
purchase of existing inholdings with exceptions only approved by an act 
of Congress. The bill also requires that two-thirds of all LWCF Federal 
side dollars be spent east of the State of Texas. This Title also caps 
appropriations for any single Federal or State grant project at $5 
million. These constraints on the uses of LWCF funds restrict critical 
flexibility originally designed into LWCF. The $5 million spending cap 
combined with the provisions limiting Federal-side LWCF spending to 
inholdings and focusing spending east of the State of Texas won't only 
hurt the western States by diminishing a critical source of funding, 
they will also have the effect of blocking important projects in the 
east.
    I also want to note that Title II would fund LWCF at only $680 
million annually based on fiscal year 1998 OCS revenues. While this is 
a significant increase over LWCF funding in years past, it falls short 
of full funding for LWCF, which we believe is a critical element of any 
legislation.
    In addition, Title II of S. 25 does not include language for 
providing LWCF grants to States on a competitive basis. The bill 
allocates all State grant funds based on a formula using land area and 
population. We recommend keeping this approach and complementing it by 
adding a provision similar to the one I outlined earlier that would 
allow States to compete for additional State grant money if they can 
demonstrate that their project lies within an area of national 
interest. This addition will address the difficulties faced by many 
small States, such as Rhode Island and New Hampshire, that do not 
receive appreciable funding through the LWCF State grant formula.
    Finally, we would like to see permanent annual funding for the 
Forest Legacy Program and Historic Preservation Fund added to the 
Conservation and Reinvestment Act.
    S. 446, Permanent Protection for America's Resources 2000
    S. 446, Permanent Protection forAmerica's Resources 2000 avoids 
many of the pitfalls contained in the Conservation and Reinvestment 
Act. It does not contain incentives for increased oil and gas drilling 
and fully and permanently funds the Land and Water Conservation Fund, 
Historic Preservation Fund, Forest Legacy Program, and wildlife 
conservation along with several other programs.
    The bill is clearly focused on environmental protection and open 
space conservation. It meets the majority of the principles I discussed 
earlier with two minor exceptions.
    The bill funds UPARR at $100 million instead of our recommended 
full funding amount of $150 million annually. We urge Senator Boxer to 
consider increasing this funding level to respond to the clear input 
from mayors laid out in their December 16, 1998, U.S. Conference of 
Mayors letter to President Clinton supporting full funding of LWCF and 
its urban sister program, UPARR.
    S. 446 also takes a different approach to establishing a 
competitive State grant program under LWCF. The approach I outlined 
that would take 20 percent of the total LWCF annual allocation and make 
it available for competitive State grants would provide $180 million 
annually for competitive State grants. S. 446 would allocate only $150 
million annually. We applaud the bill's sponsors for including a 
competitive State grant provision and urge them to consider increasing 
the annual allocation to this provision by $30 million. Taking this 
step would increase the percentage of total LWCF funds available for 
State grants from 50 percent ($450 million) to 60 percent ($540 
million).
    This bill faces the challenge of not having bipartisan support at 
this time. As the bill's sponsors know, it will be essential to build 
bipartisan support behind this legislation. We urge you to continue to 
reach across the aisle and engage your fellow Senators in the 
bipartisan dialog and initiative that made LWCF successful for so many 
years.
    S. 532, Public Land and Recreation InvestmentAct This legislation 
has a narrower focus than S. 25 and S. 446. It provides $900 million 
annually to fund LWCF and UPARR, but does not include funding for 
wildlife conservation, the Historic Preservation Fund, or Forest 
Legacy. While we strongly support full funding of LWCF, we would like 
to see the bill address the full array of programmatic tools outlined 
in our principles. These tools each have a different focus and use and 
all are necessary to do an adequate job of restoring our nation's 
commitment to open space protection. In addition, we are concerned that 
funding for UPARR at $90 million annually is allocated out of the $900 
million originally authorized for LWCF. We urge Senator Feinstein to 
consider allocating the full $900 million to LWCF in the manner 
described in our principles including a provision for competitive State 
grants. Funding for UPARR should not be taken out of the LWCF 
allocation, but funded separately through OCS revenues.
    Lands Legacy Initiative President Clinton's budget contains the 
Lands Legacy Initiative. We are happy to see the Clinton Administration 
express support for open space protection through this initiative and 
eager to have Congress and the Administration work together to refine 
legislation that will permanently fund the full array of open space 
needs faced across this nation. As these discussions take place over 
the coming months we encourage the Administration to make several 
modifications to their proposal. The most important change involves a 
shift from the current 1-year budget approach to a permanent 
legislative approach taken by each of the bills I have touched on 
today. We also feel strongly that the President's initiative should 
fully fund LWCF at $900 million with 60 percent reserved for LWCF State 
grants through the combined formula and competitive grant approach I 
have described this morning. The current proposal allocates $680 
million to LWCF with $150 million for competitive State grants and $0 
for State grants distributed through the existing State grant formula. 
The proposal also seriously underfunds UPARR at $4 million and does not 
provide any funds to States for wildlife conservation.
    The Administration has recently endorsed a series of principles to 
guide their involvement in refining open space protection legislation. 
These principles are strong and quite similar in many respects to the 
principles I laid out earlier. We applaud the President's willingness 
to endorse these principles and urge the Administration to work closely 
with both parties on Capitol Hill to enact legislation that will put 
these principles into action.
    Thank you very much for the opportunity to testify today and for 
your leadership in revitalizing our nation's commitment to open space 
funding. We look forward to working with you on this issue in the 
future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses by Andrew Falender to Additional Questions from Senator Boxer
                                                       May 10, 1999

Committee on Environment and Public Works
415 Hart Senate Office Building
U.S. Senate
Washington, DC 20510-6175

    Dear Senators: Thank you for the opportunity to reply to Senator 
Boxer's question regarding the need to acquire new public land given 
the current backlog of maintenance on our existing national lands. I do 
believe that it is critical for our nation to continue and, in fact, 
increase our investment in open space protection. Americans across the 
country are feeling the pressure of increased development and a growing 
population. This pressure is leading to loss of farmland, forests, 
parks and habitat. Investments made in protected open space today 
ensure that our children will-have places to play, that wildlife will 
thrive, and that our ecosystems will continue to provide the critical 
role of clearing our water and air. While the current maintenance 
backlog in our national parks, wildlife refuges and forests must be 
addressed, this should not be accomplished at the expense of 
investments in open space protection. If we ignore the need for funding 
to acquire critical lands today we will be shortchanging future 
generations as many of these special places are lost forever to 
development or other pressures.
    The public demonstrated their support for significant investment in 
open space protection in last November's elections. Of the more than 
200 open space ballot initiatives put before voters, 70 percent passed, 
making more than $7 billion available for open space protection. The 
nation's Governors and mayors have joined with the public in calling 
for increased open space protection dollars and have strongly endorsed 
full funding of LWCF with an equitable allocation to the state grant 
program. Regions like the Northern Forest of Maine, New Hampshire, 
Vermont, and New York and the Highlands of Pennsylvania, New Jersey, 
New York and Connecticut desperately need LWCF funds to prevent loss of 
farm and forest land to development and to guarantee recreational 
access for future generations.
    The state grant program is especially important in the Northeast. 
When Congress created LWCF in 1964, a promise was made to the American 
people to work with the states to meet state, local and community 
conservation needs. This matching grant program proved to be cost-
effective and efficient: tens of thousands of projects ranging from 
town ballfields to state forests have been protected through leveraged 
investments maximizing the impact of scarce Federal dollars. However, 
since the mid-1980's, state-side LWCF funding has withered from a 
trickle to absolutely zero Finding since fiscal year 1995. The result 
is a huge-backlog.of recreational, cultural, and community projects 
just as population pressures are putting our nation's resources most at 
risk.
    As the Northeast's population grows, increasing pressure is 
building on our remaining forestland and open space in the Northern 
Forest and Highlands regions. This trend threatens our ability to count 
on the land for jobs, outdoor recreation, wildlife habitat and scenic 
beauty. The need for LWCF funds in the Northern Forest and the 
Highlands has never been greater.
    Thank you for the opportunity to respond to Senator Boxer's 
question. Please do not hesitance to contact me with additional 
inquiries.
            Sincerely,
                                        Andrew J. Falender.
                               __________
  Statement of Chris Montague, Eastern Manager, Montana Land Reliance
    Mr. Chairman, on behalf of the Montana Land Reliance, we thank you 
and the committee for the opportunity to speak on issues related to 
preserving and protecting our nation's open space. Our special thanks, 
as well, to Senator Baucus for extending us the invitation today. I 
hope my testimony today will not only give the committee additional 
ideas as it debates how to protect open space, but also will give it a 
western perspective on these issues.
    I would first like to give the committee a brief introduction to 
the Montana Land Reliance. Founded in 1978, we are a privately funded, 
nonprofit land trust that utilizes donated conservation easements and 
other tools to permanently protect Montana's private lands. With the 
help of 324 landowners, we have been able to protect just over 322,000 
acres of private land in Montana. This represents roughly 20 percent of 
all protected land by local, State and/or regional land trusts across 
the United States. Within that acreage we have permanently protected 
620 miles of stream and river frontage, over 116,000 acres of elk 
habitat, over 5,200 acres of wetlands and over 131,000 acres in the 
Greater Yellowstone Ecosystem. Again, all of this protection has been 
completed with private conservation easements. And our customer base is 
typically ranchers and farmers.
    The private landowners that make up our customer-base are facing 
incredible economic and estate pressures to develop their land. A vast 
majority are what we call ``land rich, but cash poor.'' They typically 
own a tremendous resource that they cannot afford to keep.
    Although the following statistics are Montana-specific, as you are 
all aware, these issues and problems are not inherent to our State. In 
1970, Montana had fewer than 700,000 residents. By 1995, the State's 
population had risen to just over 870,000 and is projected to top one 
million by the year 2000 or 2001. At first glance I realize this does 
not seem to be an overwhelming amount of growth. However, this growth 
has not been evenly dispersed across the State. Certain areas, 
especially those around designated wilderness areas and along riparian 
zones are undergoing population increases as high as 25 percent. In 
other words, people are moving into the prettiest places they can find. 
And these places are usually the ones that are the most fragile or are 
our most productive agricultural lands.
    For example, the amount of land in agriculture declined by more 
than three million acres between 1974 and 1994 and the number of farms 
and ranches has declines by more than 11 percent in the same time 
period. In Montana, over the 10 year period between 1983 and 1993, 
11,000 subdivision proposals were reviewed by State and county 
government. These numbers do not include 20 acre or larger parcels, 
which until 1993, required no subdivision review. And that type of 
development skyrocketed during that period and is still high today.
    Most counties view rural subdivision development as a positive 
economic influence on their communities. Interestingly, however, a 
study done by Montana State University and the Greater Yellowstone 
Coalition found that for every dollar of revenue raised from new rural 
residential property, the county government and school districts spent 
$1.47 for roads, public education, police and fire protection and other 
services. Conversely, agricultural land and open space required only 25 
cents worth of service for every dollar it contributes.
    Simultaneously, land values in Montana and the West have risen 
dramatically. Recent news accounts in Montana show 10-year property tax 
appraisal increases averaging 43 percent! The economic pressures to 
convert open and agricultural land to residential property has 
intensified significantly in certain areas of Montana, and, I think 
it's safe to say, throughout the West.
    The good news is that Montana leads the way in private land 
protection through conservation easement. As of 1997, Montana had 
permanently protected over 670,000 acres. The bad news is that this 
represents only about 1 percent of the 55 million acres in private 
ownership in the State. And the average age of these owners is 59 lid. 
Over the estimated 20 year period this amount was protected well over 3 
million acres left agricultural production or open space and have 
either been developed or are headed that way. In the next 10 to 15 
years, given the average age of ownership of private lands in Montana, 
we are going to see a huge turnover in land. Depending on the tools 
available to the conservation and trust community much of this land 
will be threatened. Currently, the battle to protect open space in 
Montana is being lost at a rage of roughly 5 to one and in some 
regions, by a margin of 8 to 1.
    So, what does all this mean? Why should anyone be concerned about a 
place or a region that has so much land and open space? For several 
reasons, the most important being that Montana and, generally, the 
West, has a unique opportunity to make a difference before it's really 
too late. Before we lose all of our most precious agricultural land, 
river frontage, fisheries, habitat and open space. We are not here 
today to say that development and growth are evil. They are not. We are 
here today to ask as you debate these issues that you give the private 
land trust community the additional tools to compete and fight against 
inappropriate development. Give us the added strength to give our 
farmers, ranchers and private landowners more options to subdivision as 
an economic way out.
    The initiatives and ideas we present today will, we believe, 
substantially help in protecting the open lands of our heritage. Should 
these additional tools be made available, we are confident, based on 
our work last year, that we could immediately double and, over the next 
few years, triple our conservation output each year.
    All of these additional tools could be easily added to the current 
construct of conservation easement law, or 170(h) of the Tax Code. 
These ideas are simple and private and if made quickly will, we 
believe, have an immediate, positive impact on private land 
conservation in this country.
    First, a majority of our customers cannot use the income tax 
deduction benefit associated with the donation of a conservation 
easement. We are fast becoming a tool only the very wealthy can use. We 
propose a tax credit of between $50,000 and $1000,000 if the landowner 
did not have the means to use the deduction. We would proposes that to 
qualify for this tax credit, 50 percent of the landowner's total income 
be derived from agriculture.
    Second, allow the same deductibility for C-corporations as for all 
other forms of business. Currently, a ranch in a C-corp structure may 
only deduct 10 percent of net income as opposed to 30 percent for all 
other types of ownership. We feel this tool alone would have allowed us 
to protect and additional 20,000-30,000 acres in Montana last year.
    Third, the Congress in 1997 wisely increased the Unified Tax Credit 
and, particularly with conservation easements, gave additional estate 
tax relief if the landowner lived within a 25 mile radius of a 
metropolitan (defined as a county with 50,000 or more residents) or 
wilderness area. This boundary should be larger to not only to give us 
added tools for land farther out but to also reward the landowner who 
is willing to protect his or her land.
    Any public moneys raised for conservation easements should be 
matched funds to allow the government's money to go farther and do more 
conservation. We would recommend a 2 to 1 match.
    Furthering land conservation is the right thing to do. We applaud 
the committee for its role and eventual action. Landowners, generally, 
are also interested in doing the right thing. They don't want to chop 
up their land, but we need to be able to offer them reasons not to when 
they are faced with huge economic and estate tax pressures. We need to 
be able to compete in that atmosphere. We need to be able to compete 
with rural developers. We have a great opportunity, especially in the 
West, to make a major impact on land and open space conservation. I 
hope we will be given the tools to do just that. Thank you Mr. Chairman 
and members of the committee.
                               __________
 Statement of of Max Peterson, Executive Vice President, International 
               Association of Fish and Wildlife Agencies
    Thank you, Mr. Chairman. My name is Max Peterson, Executive Vice-
President of the International Association of Fish and Wildlife 
Agencies. As you know, all 50 State fish and wildlife agencies are 
members of the Association. I appreciate the opportunity to appear 
before you today to discuss open space, community health, and 
environmental quality and to express the strong support of the 
Association for S. 25, the Conservation and Reinvestment Act.
    The Association sincerely appreciates the efforts of Sen. Landrieu, 
Sen. Murkowski, Sen. Lott, Sen. Breaux and the other cosponsors, in 
bringing this far-sighted conservation proposal to the table, which 
will provide consistent and dedicated funds to the States to conserve 
our fish and wildlife resources, provide for the protection and 
restoration of our coastal habitats and living resources, fund land and 
water conservation activities at all levels of government, and provide 
much needed recreational opportunities for our citizens, thus resulting 
in economic growth to our communities.
    The Association is also encouraged that Sen. Boxer and others have 
recognized many of these same needs in introducing S. 446, the 
Resources 2000 Act. We do have concerns about the focus, legislative 
construct, and funding levels in S. 446 which I will share with you 
later in my testimony. Finally, we appreciate President Clinton's 
initiative (Land's Legacy Initiative) and his commitment to work with 
Congress to bring these programs under permanent, indefinite 
appropriation. We are disappointed and concerned, however, that the 
Administration's initiative is deficient in not providing wildlife 
funding to the States, and will address that later. As you know, the 
need in the States for wildlife programs reflected by the various 
proposals are significant, they enjoy widespread public support, and 
our children and their children will thank us for the commitment we 
make to ensure the conservation and vitality of America's natural 
resources. Without a program to address the vast array of species 
through a prevention approach, the result will simply be more and more 
species declining to the point of being threatened or endangered.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Association's governmental members include the fish and wildlife 
agencies of the States, provinces, and Federal Governments of the U.S., 
Canada, and Mexico. All 50 States are members. The Association has been 
a key organization in promoting sound resource management and 
strengthening Federal, State, and private cooperation in protecting and 
managing fish and wildlife and their habitats in the public interest.
    Mr. Chairman, as you know, community health, environmental quality, 
and fish and wildlife health go hand-in-hand, since we all share the 
same habitat and depend on the same land, air, and water for our 
sustenance. We believe the dedication to ensuring the conservation of 
fish and wildlife resources and their habitats at the State and local 
level will help ensure the quality of life for our communities. Open 
space not only provides for fish and wildlife habitat, but for people 
to enjoy, appreciate, and learn about fish and wildlife and their 
needs. Our State fish and wildlife agencies are dedicated to working 
with the appropriate State, county/local and appropriate Federal 
Government agencies to facilitate smart growth, the antidote to urban 
sprawl.
    Let me cite one example. A little more than 2 hours from 
Washington, DC, our State fish and wildlife agency is working 
cooperatively with other public and private organizations to protect 
not only globally significant wetland and wildlife habitat, but also 
contributing to the quality of life for the citizens of the area, 
through facilitating enlightened land use planning decisions, providing 
technical information and assistance to landowners in conserving 
habitat, etc. The area to which I refer is the Delaware Bay and Cape 
May Peninsula, New Jersey.
    The Delaware Bay and Cape May Peninsula are among the most 
important migratory bird stopover areas in the world. The reasons are 
numerous:
    <bullet>  The fall flight of migratory birds through Cape May not 
only includes over 150 species of passerines and 21 species of raptors, 
but also woodcock and over 30 species of migratory butterflies and 
dragonflies.
    <bullet>  The spring stopover of shorebirds through the Delaware 
Bay, one of the top three in the world, includes over 15 species, some 
making round trip flights of over 20,000 miles.
    <bullet>  Both fall and spring migrants gain weight while stopping 
ova in this coastal habitat and this weight can be crucial to the 
success of their migration. Shorebirds double their body weight before 
flying nonstop to arctic breeding grounds. The primary resource is 
horseshoe crab eggs and the bay is the only place in the world where 
crabs occur in sufficient number to produce enough eggs for birds to 
gain more than 3-5 percent of their body weight/day.
    <bullet>  The Cape May peninsula and the Delaware Bay is one of the 
most popular nature-based destinations in the country. An estimated $30 
million in the fall and an estimated $5-$10 million in the spring are 
spent each year by visiting birders alone.
    <bullet>  The wide diversity of bird species requires a wide array 
of habitats, distributed over a large part of the bayshore and 
peninsula. In other words, the birds require a functioning ecosystem 
right in the very heart of the New York-Washington coastal megalopolis.
    A major portion of the U.S. human population, nearly 15 percent, is 
within a 3-hour drive of this area. This adds incredible pressure in 
almost all areas of potential impact: land development, disturbance, 
contamination, and catastrophic oil spills. But if we are to protect 
this stopover habitat, we must also conserve the ecosystem in which 
these habitats occur.
    In consequence, the bay and peninsula have been the subject of 
numerous protection attempts. In the last 15 years we have seen nearly 
every major national program play some role in protection. The bay has 
been designated a RAMSAR site, a WEAN Hemispheric site, an EPA Estuary 
of National Significance, and a TNC Last Great Place, to name a few. It 
has been ranked near the top of several land acquisition programs 
including the Land and Water Conservation Fund program, a North 
American Waterfowl Management Plan Joint Venture, as well as the New 
Jersey State Green Acres Program. The areas include four National 
Wildlife Refuges including the recent Cape May National Wildlife 
Refuge, three different wild and scenic rivers (two sections of the 
river and one tributary), many State Wildlife Management Areas on both 
sides, and a large number of parcels held by private conservation 
organizations.
    Yet despite this extraordinary protection, there are dear signs of 
major needs for these wildlife species that remain unsatisfied. The 
fall migration is threatened because nearly 40 percent of all migratory 
bird habitat has been lost between 1972 and 1992, the period of 
greatest protection activity.
    These habitats can only be conserved with a significant increase in 
efforts and programs directed at the problems which results in habitat 
loss. The New Jersey Division of Fish, Game and Wildlife has piloted a 
number of projects using funds from private foundations and mitigation 
agreements that with stable and significant funding can lead to 
permanent of these globally significant habitats.
    These pilot projects suggest the conservation of both the spring 
and fall flight of migratory birds can be accomplished with new 
programs aimed at an increased involvement of citizens, municipal and 
local governments, and an additional emphasis by State fish and 
wildlife and land management agencies.
    Detailed mapping of significant wildlife habitat areas can be made 
widely available, and characterized not only as key habitat for 
wildlife, but as indicators of our community quality of life. These 
maps can be based on satellite imagery and could be redone regularly to 
provide feedback to community organizations on the real impact of the 
conservation of these habitats.
    This regional scale mapping can be used to facilitate the 
coordination of State and Federal level activities that include 
consideration of migratory birds such as land agreements, easements or 
acquisition, and application of conservation and habitat management 
programs. This is just one of hundreds of examples where open space, 
smart growth and the needs of wildlife can and must be seen as 
complementary activities.
    At the county and municipal level, State fish and wildlife agencies 
can assist land use planners in the development of land use ordinances 
that reduce impact to migratory birds and recommend zoning 
classifications to protect areas of greatest importance. This could 
include, for example, recommending small but significant changes to the 
minimum amounts of land cleared for each new house or the width of 
setbacks for roads and property.
    At the private landowner level, State fish and wildlife agencies 
can affect habitat in several ways. For large private landholdings, the 
agencies can develop non-regulatory, incentive based management plans 
that protect bird habitat while still achieving landowners' goals. To 
encourage protection, the plans would take advantage of existing 
financial incentives from other agencies such as farmland conservation 
programs under the Federal farm bill and other State and Federal 
programs. Landowners of key wildlife habitat can also be referred to 
programs of conservation easements, or purchase of development rights 
or land acquisition if they are interested in long-term conservation. 
These owner-friendly programs have worked quite well to keep open space 
and provide important wildlife habitat.
    Backyard habitat for migratory birds can also be created or 
enhanced by working with individual homeowners. Our agencies can work 
with developments that are adjacent to important habitat areas and 
several have created State programs to certify backyard wildlife 
habitat. State fish and wildlife agencies can also work with developers 
to certify entire new developments as migratory bird sanctuaries. 
Working with homeowners has the additional benefit of creating habitat 
in areas where much habitat has already been lost, namely housing 
developments.
    All of these efforts require a consistent dedicated funding source 
to enhance State-based wildlife conservation, conservation education 
and wildlife associated recreation. The Association believes that S. 
25, and its House companion H.R. 701, will provide the funds and the 
flexibility to the States to accomplish these goals. As you know, the 
need for a State like New Jersey, which I just described, is much 
different than a western State that has millions of acres of public 
land where the challenge may be to better understand the thermal cover 
needs of wildlife during cold winters and encourage planting of shrubs 
and evergreen trees for winter shelter in key areas.
    Mr. Chairman, I know that you are well aware of the longstanding 
commitment and priority of the Association to secure the necessary 
funds so that the State fish and wildlife agencies can address the 
needs of all fish and wildlife species in their States, including 
conservation education and wildlife associated recreation needs. As you 
know, the States have principal and broad authorities for the 
conservation of fish and resident wildlife within their borders, even 
on most public lands. Congress has given the Federal executive branch 
agencies (USFWS and NMFS)certain statutory conservation obligations and 
responsibilities for migratory birds, anadromous fish and listed 
threatened and endangered species, but this responsibility remains 
concurrent with State jurisdiction. As Secretary Babbitt once remarked 
before this committee, States are the front-line managers of fish and 
wildlife within their borders.
    You are also well aware of the long history and strong commitment 
of support for funding State fish and wildlife programs by the 
sportsmen and women of this country through their purchase of hunting 
and fishing licenses, and contributions from excise taxes they pay on 
sporting arms and ammunition, fishing tackle and other equipment, 
import duties on fishing tackle and pleasure boats, and gasoline excise 
taxes on outboard motor and small engine fuels. These funds are 
apportioned to the States under permanent appropriation in the form of 
matching grants under the Pittman-Robertson Act of 1937 and the 
Dingell-Johnson/Wallop-Breaux Act of 1950 and 1984, respectively. These 
license and excise tax funds are the principal source of funds for 
State fish and wildlife programs. Our successes under this legislation 
are well known from restoration of white-tailed deer and pronghorn 
antelope to wild turkey and wood duck and striped bass. There have been 
corollary benefits to species other than those that are hunted and 
fished, from the conservation of habitat, etc. However, there simply 
have not been either sufficient or dedicated funds for the State fish 
and wildlife agencies to adequately address the conservation needs of 
so called ``nongame'' species, which constitute approximately 90 
percent (over 2000 species) of the vertebrate species in the United 
States. S. 25 will position the State fish and wildlife agencies to 
duplicate the tried and true success of the Pittman-Robertson and 
Wallop-Breaux programs with species such as the cerulean warbler, 
bluebirds, loggerhead shrike, American goldfinch, bog turtle, and 
species of frogs and salamanders that are declining. Responding to 
early warning signs of decline in these species by addressing life 
needs and habitat requirements through cooperative nonregulatory 
programs with private landowners will not only conserve the species but 
also help avoid the social and economic disruption associated with 
listing species as threatened or endangered. Most threatened and 
endangered species come from this universe of so called nongame 
species, which makes sense if you think about it, because we have not 
had adequate funds to address these nongame species needs, whereas we 
have had the funds for game and sportfish species conservation. The 
more we know about declining species the quicker we can respond with a 
broad array of incentive-based, non-regulatory programs that gives us 
maximum flexibility in working with the landowners to allow them to 
meet both their land management objectives and fish and wildlife 
conservation objectives. This preventative conservation approach just 
makes good biological sense and good economic sense.
    Seven years ago when the Association made a commitment to secure 
funding for comprehensive wildlife programs in the States, we began to 
enlist a support coalition that has now grown to over 3000 
conservation, business and other organizations. Our ``Teaming With 
Wildlife'' initiative, as we called this endeavor, built up tremendous 
grassroots support around a funding mechanism patterned after Pittman-
Robertson and Wallop-Breaux that would extend existing excise taxes on 
sporting arms, ammunition and fishing equipment to other outdoor 
recreational gear at a very modest level. However, this user-fee 
approach did not gain the bipartisan political support in Congress 
needed for success. There was broad bipartisan recognition of the need 
for these funds and the merits of the proposed State based wildlife 
conservation, conservation education and wildlife-associated recreation 
programs, but not for the funding mechanism. S. 25 has married these 
needs with those of coastal habitat and living resource conservation, 
and a recommitment of Congress to funding the Land and Water 
Conservation Fund and Urban Parks and Recreation Recovery Act, all from 
a portion of revenues from gas and oil leases and royalties from the 
Outer Continental Shelf. We particularly appreciate that S. 25 
addresses funding to all of these needs at the State level.
    Before I comment on S. 25, S. 446 and the Administration's 
initiative specifically, let me summarize again for you the needs in 
the States for wildlife conservation, conservation education and 
wildlife associated recreation.
    <bullet>  More than 90 percent of the funds that States have for 
wildlife comes directly from anglers and hunter which means that less 
than 10 percent of State fish and wildlife agency funding is for the 
conservation of 86 percent of our nation's nongame wildlife species. 
State agencies have barely enough funding from established game species 
funding sources to support vital conservation programs. While wildlife 
budgets for all 50 States add up to approximately $1 billion annually, 
nongame funded programs, lacking a similar dedicated funding source, 
have many unsatisfied needs. Thirty-two States operate nongame 
conservation, recreation, and education programs on less than 5 percent 
of their fish and wildlife budgets. S. 25 will provide the States with 
the funds to achieve preventative conservation through collecting good 
information (from fish and wildlife surveys and inventories), 
implementing appropriate management and habitat conservation endeavors, 
and retaining the State fish and wildlife agencies ability to work with 
greater flexibility with private landowners in a non-regulatory, 
incentive based manna.
    <bullet>  Dwindling fish and wildlife species and habitat directly 
affect some of the fastest growing forms of outdoor recreation. 
Wildlife viewing is the number one outdoor activity in the United 
States and has become a billion-dollar industry. Hiking participation 
has rise 93 percent and camping 73 percent in the past 12 years. 
Nature-based tourism is escalating at a higher rate than any other 
segment of tourism worldwide.
    <bullet>  Impressive participation statistics translate into 
billions of dollars of economic activity each year:
    <bullet>  Wildlife watchers spent $29 billion in State and local 
economies during 1996, a 39 percent increase ova 1991 spading, 
according to the latest U.S. Fish and Wildlife Service survey.
    <bullet>  Watchable wildlife recreation supports $22.7 billion in 
salary and wages and more than one million jobs.
    <bullet>  A documented upswelling of interest in conservation 
education programs is both good news and represents a challenge as 
State fish and wildlife agencies are hard-pressed to keep up with the 
public demand for technical assistance for private landowners, 
developers and local governments, informational materials on wildlife, 
landscaping for wildlife, and requests on where to view wildlife. 
Innovative wildlife education programs enjoy positive responses, but 
often lack sufficient funding. Funds under the Conservation and 
Reinvestmant Act will enable all 50 States to support increased 
recreation and education participation. Local communities will benefit 
from increased tourism. Nature tourists will extend their stay an extra 
day or two if they discover more wildlife watching opportunities during 
their visit. Finally, a caring citizenry is essential to the success of 
all wildlife conservation efforts and maintaining the natural systems 
that support us.
    The Association estimates $1 billion or more in additional funding 
needs annually for all 50 States for these programs. However, even a 
half billion dollars will have a significant positive benefit for 2,000 
nongame species, as well as benefit many other species as well. Game 
and nongame species share the same habitat and both usually benefit 
from conservation efforts such as restoring wetlands, stream 
rehabilitation or habitat restoration.
    Funding State conservation, recreation and education efforts 
together makes economic and social sense. To sustain the growth in 
nature-based tourism and outdoor recreation requires an investment in 
our nation's wildlife and land and water base. Particularly, 
opportunities dose to urban and rural communities for fishing, hiking, 
wildlife viewing and outdoor recreation programs are becoming 
increasingly important for families and communities. Enhanced 
conservation education efforts will facilitate better-informed citizens 
and assure a high quality of life for people and wildlife.
    S. 25 will provide the appropriate funds to the States to satisfy 
these very vital needs.
    Mr. Chairman, here are the reasons the Association strongly 
supports S. 25 and believes it will help meet open space and quality of 
life goals for millions of Americans while contributing to 
conservation, conservation education and wildlife related recreation 
programs.
    <bullet>  S. 25 recommits the United States to a policy of 
dedicating revenues from the use of non-renewable resources into 
securing the status of living renewable resources, conserving land and 
water resources, and providing recreational opportunities for our 
cities and local communities, through a permanent, indefinite 
appropriation to fund state-based programs. We are working closely with 
bill sponsors to fine-tune the language in S. 25 which addresses the 
question of whether any of these revenues could be a potential 
incentive to States to encourage more drilling. The sponsor's goal is 
to ensure that no incentive is in the bill and that with regards to 
drilling in OCS waters, the bill is ``drilling neutral''.
    <bullet>  S. 25 builds on the support the States have relied on for 
decades from our Nation's hunters and anglers to finance State fish and 
wildlife programs by broadening this funding support to a permanent 
indefinite appropriation from a general revenue source, the leases and 
royalties on Outa Continual Shelf gas and oil extraction. We support 
the use of the very successful Pittman-Robatson Act as the means of 
apportioning the funds to the States under a separate subaccount, to be 
used for the purposes of enhanced comprehensive fish and wildlife 
conservation, conservation education, and wildlife associated 
recreation programs. This is a proven, efficient system.
    <bullet>  S. 25 will permit the States to avoid the economic and 
social disruption from listing species as endangered by taking 
preventative conservation measures early on to address life needs and 
habitat requirements of declining fish and wildlife species before they 
reach a level where listing is necessary to protect sham.
    <bullet>  S. 25 focuses decisions on spending priorities at the 
local (not Washington) level, where States and communities are in the 
best position to know what those needs and priorities are. We must 
facilitate local identification of issues and problem solving, not top-
down prescriptive solutions.
    <bullet>  S. 25 allows States to work with private landowners in a 
non-regulatory, incentive-based manner to achieve their land management 
objectives consistent with good conservation for fish and wildlife 
species.
    <bullet>  S. 25 allows and positions local communities to take best 
advantage of robust fish and wildlife populations through nature-based 
tourism opportunities (bird watching tours, hiking tours to natural 
vistas, etc.) thus providing local economic support to those 
communities.
    <bullet>  S. 25 builds on our citizens' strong sense of stewardship 
about their land by making them a part of the problem solving and 
implementation of solutions.
    <bullet>  Through ensuring the conservation of good habitat for 
fish and wildlife, the programs funded by S. 25 will ensure the quality 
of life for our citizens and future generations, since we all rely on 
the same life support systems.
    <bullet>  S. 25, in addition to wildlife programs, will provide 
funds for coastal restoration and enhancement programs, wetlands 
restoration, coastal zone management efforts, and environmental 
remediation from the impacts of on-shore landing of OCS gas and oil, 
through the proper location, placement and mitigation of pipelines, 
roads, and other infrastructures needs.
    <bullet>  S. 25 restores certainty to the stateside aspect of the 
Land and Wata Conservation Fund program so that conservation and 
recreation projects of highest State and local priority are satisfied.
    Let me now comment on S. 446, the Resources 2000 Act. The 
Association is Encouraged that S. 446 has a title that contains 
provisions for funding to the States for state-based enhanced wildlife 
conservation. We are also encouraged that S. 446 seeks to use certain 
OCS revenues under a permanent, indefinite appropriation.
    However, we do have several serious concerns about some specific 
provisions of S. 446. First, the OCS source funds in S. 446 are limited 
to only royalties and revenues from wells in Western and central Gulf 
of Mexico OCS waters that are producing as of January 1, 1999. We 
understand that this is the bill sponsors' way of Assuring that this 
bill is in no way a potential incentive to encourage further OCS 
drilling, and even though further (after January 1, 1999) OCS 
exploration and drilling will continue both within and outside of these 
areas, none of the revenues will go to fund the programs under this 
bill, rather, they will be deposited in the Federal treasury. The 
consequence of the S. 446 language would be very self-limiting and 
guarantee substantial reductions over time in the amount of money 
available to fund conservation efforts. We believe that the price and 
supply of oil and natural gas (and not the portal for grants to the 
States) is the driving deeming of new exploration and drilling, which 
is corroborated in the recent Congressional Research Service report on 
OCS Oil and Gas Leasing and Revenue gB10005, January 1999).
    Our second concern is that the native fish and wildlife 
conservation and restoration title in S. 446 amends the 1980 Fish and 
Wildlife Conservation (Federal nongame) Act, instead of Pittman-
Robertson, and makes $100-350 million available to the States for 
native fish and wildlife conservation starting with $100 million and 
ramping up over 6 years to $350 million. The amendments to the 1980 Act 
replace the existing ``nongame fish and wildlife'' language everywhere 
with ``native fish and wildlife'', and add an additional purpose to 
preserve biological diversity by mainlining an assemblage of native 
fish and wildlife species. The definition of native fish and wildlife 
could be a significant problem because it includes only species that 
currently or historically occur in an ecosystem, and are not there as a 
result of introduction. It also gives the Secretary of the Interior 
final decision authority as to what is a native species. It is 
virtually impossible to substantiate the origin of many of our 
indigenous fish species and this definition could exclude spending 
money which would be beneficial to salmon restoration, for example. 
Further, many fish species firmly established in our Potomac River 
drainage, such as the smallmouth and largemouth bass, channel catfish, 
rock bass, and several species of sunfish, were introduced many years 
ago from other parts of the country. No one really knows the origins of 
other species. Also, the restoration of the Forum peregrine falcon was 
from a captive-bred source of hybrid North American-European-African 
peregrine falcons, which under this definition in S. 446, would not be 
eligible for funding conservation activities therefore. It is not at ad 
clear whether a project which would benefit native species plus other 
species of uncertain origin would be eligible for funding. We doubt 
that ``native'' is a workable legal definition because there are 
hundreds of species whose status as native is uncertain and it is 
virtually impossible in many cases to carry out a project which would 
not benefit some non-native species.
    Our third concern with this title of S. 446 is that, while the 
elaborate and rather prescriptive planning requirements in the 1980 Act 
may have been appropriate in 1980, most States have already recognized 
the need to look comprehensively at the resource base, habitat 
availability, land use activities, and user demand in their State, and 
have prepared a strategic plan for the fish and wildlife resources in 
their State, after due and appropriate public review and participation. 
We believe that the States do not need to be legislatively directed to 
do more planning, but are ready and prepared now to spend money on the 
ground to address conservation needs. Some have responded to these 
concerts of ours by suggesting that if the States already have a plan, 
it should facilitate quick approval. Our concern is that with a fairly 
elaborate planning process requirement, if any entity disagrees with 
the Secretary's approval of the State plan, there are enough legal 
hooks to hang litigation on, which could cause significant delays in 
getting funds to the State for immediate on-the-ground conservation 
activities.
    Our fourth concern with this title of S. 446 is the availability of 
funds, which start at $100 million and are ramped up to $350 million 
over 6 years. We know that our needs are much greater than even $350 
million, and conclude that $100 million is simply not adequate to 
address those needs. Funding commensurate with the States' significant 
needs should be available from the startup, as we have outlined earlier 
in this statement.
    Our final concern with this title in S. 446 is that the 1980 Fish 
and Wildlife Conservation Act does not authorize funding for either 
conservation education or wildlife associated recreation. We have 
earlier stressed the needs in these two arenas also, and are 
disappointed that no funds are made available for those purposes in S. 
446.
    Mr. Chairman, before I close, let me briefly comment on the 
Administration's Land Legacy Initiative. At this point we have little 
information on the specifics of the components of that proposal. We 
have seen only a summary of programs and dollars at this point. There 
are good proposals in this initiative which can contribute to 
conserving open space, and enhancing community health through improving 
environmental quality. Yw have heard about those from others who have 
testified today. The Administration's initiative does not address the 
large and growing fish and wildlife conservation needs of our States 
and communities today. As you know, habitat acquisition is only a part 
of the solution. As you are aware, Mr. Chairman, \2/3\ of our land in 
the United States is in private ownership, and it is neither 
appropriate nor are we simply able to afford to purchase the habitat 
necessary to consave our fish and wildlife resources for future 
generations. Experience has shown we must understand the needs of 
particular species of wildlife in order to work with private landowners 
as well as public agencies to meet those needs. A key part of the 
puzzle missing from the Administration's proposal is Title m of S. 25, 
providing permanent and dedicated funding for state-based enhanced 
wildlife conservation, conservation education and wildlife-associated 
recreation programs. Without that, the Administration's proposal is a 
glass half-full and will not be successful in restoring America's 
wildlife.
    We are also concerned that the Land and Water Conservation Fund Act 
lacks the statutory authority for spending on the programs contemplated 
under the Lands Legacy Initiative. We would suggest that there are more 
appropriate statutes and funding sources for many of the 
Administration's proposals.
    Mr. Chairman, let me conclude my remarks by reiterating our strong 
support for S. 25. This could be the most comprehensive piece of 
conservation legislation in our lifetime. Thank you for the opportunity 
to appear before you today and I would be pleased to respond to any 
questions.
                                 ______
                                 
  Responses by Max Peterson to Additional Questions from Senator Boxer
    More than 1800 species of fish and wildlife receive little or no 
attention from state and Federal conservation programs because they are 
not classified either as game species or on the endangered species 
list. Unfortunately, more and more of these species are finding there 
way onto the endangered list every day.
    Question 1. Mr. Peterson, do you think there is a need to take a 
more comprehensive approach to conserving big-diversity and to 
undertake a comprehensive planning process that allows you to most 
efficiently target this new money toward unmet wildlife conservation 
needs, like non-game and endangered species?
    If not, how do we ensure that states are not going to simply take 
this money to fund existing programs that have not be able to address 
the declines in non-game species? What percentage of Pittman-Robertson 
money currently is spent on non-game and endangered species?
    Response. Senator Boxer, yes, the IAFWA has long record the reed 
for consistent, percent and dedicated funds to enhance state-based fish 
and wildlife conservation programs to enable the States to 
comprehensively address the unmet needs of all fish and wildlife.
    We are very interested in proposals that would provide adequate and 
consistent funds to address the vast number of non-game species that 
without adequate funding could decline and some become threatened or 
endangered. That goal has been the primary focus of the Association's 
``Teaming With Wildlife'' initiative, which has been among the highest 
priorities of the Association for the last 7 years. We have long 
advocated that preventive conservation efforts that address the life 
needs and habitat requirements of declining species in response to 
early warning signs of decline will not only preclude the need to list 
species as endangered, but also help minimize the social and economic 
impacts associated with such listings. The State fish and wildlife 
agencies largely have the technical experience and expertise to do this 
now, but have lacked the necessary funds to satisfy this goal. Building 
on our successes for game and sportfish species under the Pittman-
Robertson and Dingell-Johnson/Wallop-Breaux programs, we can achieve 
the same success for nongame species such as bluebirds, wading birds, 
bog turtles, cerulean warblers, and many species of frogs and 
salamanders that are exhibiting population declines. While these 
nongame species have received some corollary benefit from programs 
funded under Pittman-Robertson and Dingell-Johnson/Wallop-Breaux, there 
simply have not been sufficient funds to adequately address the larger 
suite of fish and Wildlife species in the States. The Conservation and 
Reinvestment Act (S. 25) will provide these funds to the States to 
accomplish state-based enhanced and comprehensive wildlife 
conservation, conservation education, and wildlife associated 
recreation.
    We do not believe it is either necessary or a good strategy to 
require a new comprehensive planning process as a part of the current 
legislation.
    Most State fish and wildlife agencies have, or are in the process 
of developing, a comprehensive strategy to fulfill their obligation to 
their citizens to conserve the fish and wildlife resources of their 
state. Most States have assessed their fish and wildlife resource base, 
detected habitat availability/security, looked at land uses, and 
factored in user demand in order to identify what actions are necessary 
to secure the future of their fish and wildlife resources. The result 
is that States are generally prepared now to speed money on the ground 
for conservation, and do not need to be directed to spend money on 
federally prescribed comprehensive planning. Both S. 25 and H.R. 701 do 
require a 5-year program that addresses conservation, conservation 
education and wildlife related recreation.
    States are acutely aware of funding needs for nongame species and 
have used everything from nongame income tax check-off to Duty license 
plates in an attempt to provide fuming. These funds, however, are 
generally neither consistent nor predictable enough to build a program 
around. Is is also clear that strong state coalitions and public 
expectations are that most of the funds will be spent to benefit 
nongame species. Because many habitat programs, condensation education 
ant wildlife recreation benefit both game and nongame species, it is 
often impractical to draper a nongame/game distinction.
    We have just completed a report on state wildlife diversity 
Findings and expect to publish it in late April or early May In 
response to your last question within question one, we provide here 
some of the preliminary results from that survey. In 1997-98, 24 states 
spent S12 7 million of Pittman-Robertson funds on programs targeted at 
wildlife diversity (nongame, endangered species and watchable 
wildlife). In addition, $92 million of Wallop-Breaux ferris were spent 
in this arenas and $16.6 million of hunting and fishing license sales 
Suffice it to say that these Finds are simply inadequate to address the 
needs of those species. Out State fish and wildlife agencies estimate 
needs for fish and wildlife conservation, consolation education, and 
wildlife associated recreation at between $7501 and $1B per year for 
sill states. Annual Pittman-Robertson Ending is now about $150-175 
million dollars per year.

    Question 2. How are we going to guarantee that enough money will 
address unmet wildlife conservation needs particularly as they relate 
to non-game species?
    Response. We are confident that states will use the money to 
address high priority needs which in all states include a substantial 
number of non-game species. In making the ``Teaming With Wildlife'' 
initiative a high organization priority, the Association recognized, 
and is committed to fulfilling the needs of nongame wildlife as the 
highest Finning priority for these funds. The over 3,000 grassroots 
organizations supporting this initiative, and the citizens in each and 
every state, will ensure through their continued participation with the 
State fish and wildlife agency in establishing program funding 
priorities, that the funds are spent to satisfy comprehensively the 
unmet needs of fish ant wildlife conservation, conservation education, 
and wildlife associated recreation. Further, the Secretary of Interior, 
under the language in S. 25, must find that the State fish and wildlife 
agency has a comprehensive program to address the unmet needs of fish 
and wildlife, in order to approve funds for that State under the 
Conservation arid Reinvestment Act.
    The State fish and wildlife agencies are comfortable with the 
current language in S. 25, but would consider language which would 
emphasize (not earmark or exclusively direct) spending for nongame 
species, as long as the discretion on spending priorities remains with 
the State fish and wildlife agency. As you may know, Pittman-Robertson 
funds that are provided by excise taxes on hunting supplies and 
equipment is not restricted to game species. We do not favor placing 
restrictions on OCS Finds either.
                               __________
      Statement of Roy Kienitz, Executive Director of the Surface 
                     Transportation Policy Project
    Mr. Chairman, thank you for inviting me to testify before the 
committee today.
    My name is Roy Kienitz and I am the Executive Director of the 
Surface Transportation Policy Project. We are a nonprofit coalition of 
200 groups working to ensure that transportation investments improve 
environmental quality, boost economic efficiency, and improve access to 
opportunities for all individuals.
    Over the past 2 days, you have heard people echo what recent 
elections and polls have already told us that a growing number of 
people believe that curbing haphazard sprawl and promoting smarter 
growth are critical to maintaining the fiscal health, environmental 
quality, and overall quality of life of their communities.
    One way to support smarter growth is to be more efficient about 
utilizing public infrastructure and services that have already been 
paid for, such as roads and transit, water and sewer lines, and other 
utilities. This approach is already the cornerstone of several smart 
growth initiatives such as those in Maryland, Oregon and New Jersey.
    As we determine what action to take, we should be reminded that 
calls for smart growth originated first from citizens, then localities 
and States not from Washington. They have also come from all portions 
of the political spectrum. As such, we think it is reasonable for the 
Federal Government to provide the tools necessary to help communities 
meet their own smart growth goals. These tools should enable local and 
State governments to both preserve open space and revitalize existing 
communities.
    Specifically, we have the following recommendations for Federal 
action:
    First, we support the current proposal for Better America Bonds. 
These bonds would carry no interest for 15 years, and offer the fiscal 
leverage to enable local, State and tribal governments to preserve open 
space, create or restore urban parks, clean up contaminated land, and 
stimulate construction and renovation projects in existing communities. 
Representing roughly $10 billion in bond authority, these flexible 
financing tools represent a major opportunity to revitalize our central 
cities, while also helping small towns and suburbs gain control over 
runaway sprawl. Broad support is already forming behind these Bonds, 
and they have even elicited a positive reaction from House 
Transportation and Infrastructure Committee Chairman Bud Shuster.
    Second, to support the continued revitalization of central cities, 
Congress must oppose any efforts to undermine the Community 
Reinvestment Act, which requires banks to invest deposits back into the 
communities from which they come. Since 1977, this law has strongly 
contributed to the renaissance of many older urban neighborhoods, 
alleviating the pressure for ever-outward development and 
infrastructure spending at the fringes of our metropolitan areas. This 
law also helps to ensure that residents of less affluent communities 
can share at least some of the investment benefits that their personal 
savings generate something that most people take for granted.
    Third, to bring more large-scale private investment to low-income 
urban communities, we also support the proposal for a new American 
Private Investment Corporation which would provide preferential 
financing packages to businesses that invest in urban areas. This 
proposal, which is modeled on the existing Overseas Private Investment 
Corporation, would provide a needed boost to attract private investors 
to areas that would benefit greatly from new development or 
redevelopment.
    Fourth, to give communities another tool to help preserve open 
space and improve parks, we propose to strengthen the Land and Water 
Conservation Fund by boosting its funding by several hundred million 
dollars per year. These funds would pay for the acquisition of green 
spaces across the Nation and would come to communities in the form of 
flexible grants, loans and easements. We understand that there are a 
number of proposals before the committee to boost funding for this 
program, and Senator Boxer's is clearly a standout.
    Finally, since smarter growth also means better coordination 
between transportation and land use decisions, we hope the committee 
can support an increase in funding for TEA-21's Transportation and 
Community and System Preservation Pilot Program (TCSP) to $50 million 
for the next year. We applaud Senator Wyden's leadership on creating 
this program, which is currently funded at $25 million per year to 
support local efforts like traffic calming, transit-oriented 
development, and the creation of downtown intermodal centers. Even 
before the first round of grants has been awarded, it is obvious that 
there is enormous demand for this program. The US DOT received over 500 
proposals from local governments requesting more than $400 million in 
assistance. Increased funding would enable US DOT to support a greater 
number of worthwhile projects.
    The TCSP program underscores the fact that transportation spending 
plays an especially important role in supporting smart growth. For this 
reason, we appreciate the Administration's proposal to increase funding 
levels for transit, transportation assistance for workers getting off 
welfare, and other programs, although we recognize that such programs 
fall under the jurisdiction of the Banking Committee. Similarly, we 
applaud efforts to secure increased funding for the Congestion 
Mitigation and Air Quality Improvement Program, but understand that 
this introduces a number of complications relating to the funding 
formulas that were negotiated in TEA-21.
    In conclusion, the Federal Government has a critical role to play 
in providing financing tools to help local, State and tribal 
governments achieve their smart growth goals. While it is difficult to 
claim that any one metropolitan area in America is the embodiment of 
smart growth, there are hundreds of places that are striving to 
preserve open space, reduce the fiscal costs of runaway sprawl and 
create livable places for all residents. We need more examples like the 
City of Chattanooga's downtown revitalization and greenway plan, New 
Jersey's open space initiatives, and Oakland, California's transit-
oriented development at its Fruitvale light rail station. Wherever the 
place and from whatever end of the political spectrum, localities are 
asking for assistance on smart growth, and the Federal Government has a 
great opportunity to help.
    Thank you.
                                 ______
                                 
               [From the Washington Post, March 17, 1999]
                        Mischief From Mr. Gramm
    Cities that were in drastic decline 20 years ago are experiencing 
rebirth, thanks to new homeowners who are transforming neighborhoods of 
transients into places where families: have a stake in what happens. 
The renaissance is due in part to the Federal Community Reinvestment 
Act, which requires banks to reinvest actively in depressed,and 
minority areas that were historically written off. Senator Phil Gramm 
of Texas now wants to weaken the Reinvestment Act, encouraging a return 
to the bad old days, when banks took everyone's deposits but lent them 
only to the affluent. Sensible Members of Congress need to keep the 
measure intact.
    The Act was passed in 1977. Until then, prospective home or 
business owners in many communities had little chance of landing loans 
even from banks where they kept money on deposit. But-according to the 
National Community Reinvestment Coalition, banks have committed more 
than $1 treason to once'' neglected neighborhoods since the Act was 
passed, the vast majority of it in the last 6 years.
    In New York City's South Bronx neighborhood, the money has turned 
burned-out areas into havens for affordable homes and a new middle 
class. The banks earn less on community-based loans than on corporate 
business. But the most civic-minded banks have accepted this reduced 
revenue as a cost of doing business--and as a reasonable sacrifice for 
keeping the surrounding communities strong.
    Federal bank examiners can block mergers or expansions for banks 
that fail to achieve a satisfactory Community Reinvestment-Act rating. 
The Senate proposal that Mr. Gramm supports would exempt banks with 
assets of less than $100 million from their obligations under the act. 
That would include 65 percent of all banks. The Senate bib would also 
dramatically curtail the community's right to expose what it considers 
unfair practices. Without Federal pressure, however, the amount of 
money flowing to poorer neighborhoods would drop substantially, 
undermining the urban recovery.
    Mr. Gramm argues that community groups are ``extorting'' money from 
banks in return for approval, and describes the required paperwork as 
odious. But community organizations that build affordable housing in 
Mr. Gramm's home state heartily disagree. Mayor Ron Kirk of Dallas 
disagrees as well,-and told The Dallas Morning News that he welcomed 
the opportunity to explain to Mr. Gramm that ``there is no downside to 
investing in all parts of our community.''
    In a perfect world, lending practices would be fair and the 
Reinvestment Act would be unnecessary. But without Federal pressure the 
country would return to the era of redlining, when communities cutoff 
from capital withered and died.
                               __________
     Statement of Ralph Grossi, President, American Farmland Trust
    Mr. Chairman, American Farmland Trust (AFT) appreciates this 
opportunity to provide your committee with our views on the loss of 
open space and environmental quality. I am Ralph Grossi, president of 
AFT and the managing partner of a family farm that has been in the 
dairy, cattle and grain business in northern California for over 100 
years. American Farmland Trust is a national, nonprofit organization 
with 34,000 members working to stop the loss of productive farmland and 
to promote farming practices that lead to a healthy environment.
    American Farmland Trust applauds the bipartisan movement now 
underway across the Nation to promote ``smart growth.'' While we are 
strong advocates of local solutions to land use issues, we believe 
there is a vital role for the Federal Government in assisting local 
communities that are struggling to protect farmland while accommodating 
growth. In nearly half of the States there are aggressive efforts 
underway to protect farmland, both for its importance to local 
economies and as a tool in controlling sprawl.
    This nation's productive agricultural land deserves the same 
protection that you, Mr. Chairman, have worked so tirelessly to afford 
to our other important natural resources. It simply makes sense for 
America to protect the land that provides the nation's food and fiber, 
offers scenic open space, provides wildlife habitat, and reflects 
America's heritage. We must not lose sight of the constant threat to 
farmland posed by sprawling, unplanned growth.
    But it isn't just the farmland being paved over that should be of 
concern to agriculture. Another reason why sprawl matters is its 
influence over the pattern of development. Because, for every acre of 
farmland developed, 2 to 3 more acres now have a subdivision next door. 
And agriculture is at risk when it has too many neighbors.
    Most suburbanites simply don't want to put up with manure odors, 
noise, dust and drifting farm chemicals--the inevitable byproducts of 
production agriculture. Some don't think twice about helping themselves 
to some apples from the orchard across the road; or about letting their 
dogs run free to harass or maim dairy cows. An increasing number of ex-
urban refugees are suing farmers for doing what they've always done--
when there was nobody around to complain. Now, the Supreme Court has 
ruled that ``right to farm'' laws, which try to prevent homeowners from 
suing farmers, are an unconstitutional ``taking'' of private property--
the homeowners property, not the farmers'!
    Mr. Chairman, there are three essential steps to creating ``smart 
growth'' strategies that will benefit everyone: farmers and ranchers, 
urban dwellers and suburban residents.
    First, American communities must envision their futures, and plan 
comprehensively to make that vision reality. A good strategic framework 
should include planning for agriculture along with plans for urban 
redevelopment, suburban transportation, and other challenges of growth. 
Too often, while local leaders work to bring new business to a 
community they overlook agriculture as a true ``wealth generator''--an 
industry that brings value to the community from renewable natural 
resources. In many traditional farm communities citizens are awakening 
to the prospect that this important, consistent economic base is at 
risk; and they recognize that one of the solutions is to ensure that 
the land base is protected. This calculus has little to do with the 
global food supply, but everything to do with the value of farming to 
local economies.
    The recent surge in local and State efforts to protect farmland 
suggests rapidly rising national concern over the loss of farmland and 
the environmental benefits it provides. In last November's elections 72 
percent of 240 initiatives to protect farmland and open space were 
approved by voters across the nation. In recent years Governors Engler, 
Voinovich, Ridge, Pataki, Wilson, Whitman, Weld, Glendening and others 
have supported or initiated farmland protection efforts to address this 
problem. Nearly every day this year major newspapers have carried 
articles about sprawl and ``smart growth,'' frequently citing farmland 
protection as one of the key components of the latter. And the 
President highlighted the need to help communities protect ``farmland 
and open space'' in his State of the Union speech.
    Recent studies by American Farmland Trust have documented that more 
than 80 percent of this nation's fruits, vegetables and dairy products 
are grown in metropolitan area counties or fast growing adjacent 
counties--in the path of sprawling development. And a 1997 AFT study 
found that over the past decade 1,000,000 acres of farmland were lost 
to urban uses each year. The loss of soil to asphalt--like the loss of 
soil to wind and water erosion--is an issue of national importance.
    But one should not get caught up in the ``numbers game''. The fact 
is that every year we continue to squander some of this nation's most 
valuable farmland with the expectation that this land can be replaced 
with imports, or with new technologies that promise to help maintain 
the productivity gains of the past half century. The reality is that we 
don't know whether new technologies will keep pace. What we do know is 
that whatever those technologies will be, it is likely that they will 
be more efficiently applied on productive land than on marginal land 
where higher levels of energy, fertilizer, chemicals and labor per unit 
of output are required. Simply put, It is in the nation's best interest 
to keep the best land for farming as an insurance policy against the 
challenge of feeding an expanding population in the 21st century.
    The second essential step to creating smart growth strategies is 
the elimination of subsidies that support sprawling development over 
our best farmland. Public policy should not favor untrammeled 
consumption of land, nor should they drive development out of America's 
cities.
    While most of the policy decisions that lead to sprawl are made at 
the State and local level, these decisions are often based on economic 
incentives created by Federal activity. The sad fact is that our 
current patterns of low-density development are the result of 50 years 
of government policy decisions, direct government funding, and 
government-influenced private finance and credit decisions. In most 
American cities, the mix of these policies and market forces creates a 
strong economic push toward an ever-expanding suburbia at the expense 
of our core urban and inner suburban areas.
    Federal transportation policy is an illustrative example. Highway 
building enhances the tendency to sprawl. Local roads, a principal 
lifeline for many rural residents, receive disproportionately little 
funding for priorities such as maintenance. Instead, funds are 
disproportionately being spent on new or expanding highways at the 
edges of metropolitan areas where fewer people live. Meanwhile, poor 
pavement conditions, transit operations, and other transportation needs 
in suburbs and cities go largely unmet.
    A recent study of tax, transportation and development policies in 
the Atlanta area, conducted by AFT and the Georgia Conservancy, 
pinpoints several factors that favor suburban over urban development. 
[I ask the Chair to please include the report's executive summary in 
the record.] Of the nine different policies and other factors studied, 
land cost--affected by highway construction--was by far the leading 
factor in driving development out of the city and into suburban areas. 
Transportation investments in highways are not the sole cause of 
sprawl, but they are contributors. They are part of a web of factors 
that result in the paving of more than one million acres of farmland 
per year, and disinvestment in urban cores and inner suburbs.
    The good news is that the Federal Government is providing tools to 
combat the unwanted side effects of these policies. In the landmark 
1991 transportation bill affectionately known as ``ISTEA'' and in the 
TEA-21 bill that reauthorized it last year, a small but important sum 
is set aside to support alternatives to the highway system and reduce 
its negative effects on society. The law authorizes billions of dollars 
through the Transportation Enhancements program for bicycle and 
pedestrian trails, acquisition of scenic or historic easements, and 
mitigation of water pollution due to highway runoff.
    How ironic though, that the taxpayer has to pay twice--once by 
subsidizing sprawl, and a second time to offset its negative impacts. 
We strongly urge you to take a critical look at the wide range of 
public subsidies that continue to induce this unwanted land use 
behavior.
    The third and final essential step to creating smart growth 
strategies is to enlist the support of private landowners. Local, State 
and Federal agencies, along with private organizations must work with 
landowners to help them protect the best lands, including farmland. In 
fact, working with private landowners should become the foundation of 
future conservation policy, because the future of the American working 
landscape will depend upon it.
    For the past quarter century conservation goals in our country have 
been largely achieved by either imposing additional regulations or 
through government purchase of private land. However, these actions 
have failed to resolve conflicts over important problems--like species 
or farmland protection, for example--that rely on the participation of 
thousands of private landowners. At AFT we very strongly believe that 
in the 21st century new approaches to land conservation will be needed 
that address the concerns of private landowners and bring them into 
partnerships with the American public to achieve broad community goals 
on private land. And do it in a manner that shares the cost between 
those who steward the land, and those who benefit from a well-managed 
private landscape.
    America cannot--indeed should not--buy all the land that needs 
protecting. So the support of farmers and ranchers for conservation 
policies is absolutely critical because they own the land that plays 
such a vital role in producing conservation benefits for all Americans 
to enjoy.
    As farmers we are proud of the abundant supply of food and fiber we 
have provided Americans and millions of others around the world; and we 
are pleased that well-managed farms also ``produce'' scenic vistas, 
open spaces, wildlife habitat and watershed integrity for our 
communities to enjoy. And in many instances, our farms and ranches 
serve as crucial buffers around our parks, battlefields and other 
important resources. These are tangible environmental goods and 
services that farmers should be encouraged to produce, and for which 
they should be appropriately rewarded. It is only fair that the cost of 
producing and maintaining these goods should be shared by the public 
that benefits from them.
    A number of bipartisan proposals contain provisions that move us in 
that direction. We support the Resources 2000 Act and S. 333 because 
these bills recognize the role that private landowners play in the 
stewardship of our natural resources, protecting their property rights, 
while compensating them for the environmental goods they produce for 
the public. And we thank Chairman Chafee for his cosponsorship of S. 
333.
    The purchase of development rights approach proposed by these bills 
provides an innovative, voluntary opportunity for appropriate local 
agencies to work with landowners by offering them compensation to 
protect the most productive farmland--farmland that is critical to both 
the agricultural economic base of our rural and suburban communities 
and the environmental values provided by well-managed farms.
    These bills would leave protected lands on the local tax rolls, 
contributing to the local economy. The value of this approach to local 
communities cannot be understated. AFT has conducted more than 40 Cost 
of Community Services Studies around the country. In every case, these 
studies have shown farmland provides more property tax revenue than is 
needed in public services, while sprawling residential development 
almost always requires more in services than it pays in taxes.
    As more communities struggle with the problems of suburban sprawl, 
private lands protection is emerging as a key strategy of smart growth. 
The techniques proposed by the Resources 2000 Act and S. 333 add an 
element of fairness to the difficult challenge of achieving public 
goals while balancing private property rights. They are a reasonable 
balance to the regulations that often lack fairness when applied alone. 
In fact, many communities are finding that implementing a purchase of 
development rights program actually strengthens support within the farm 
community for zoning and other necessary regulations.
    Mr. Chairman, during this Congress you will have unprecedented 
opportunities to develop policies to encourage smart growth. This 
process is not about Federal meddling in local affairs--as some critics 
have charged--but rather about who reaps the benefits and who carries 
the burdens of the status quo pattern of sprawl. Any successful policy 
must: (1) be consistent in the implementation of programs that 
influence local planning efforts; (2) be willing to eliminate counter-
productive subsidies that are making the job more difficult; and (3) 
increase the incentives that reward stewardship on this nation's 
private lands.
    Thank you for providing me with this opportunity to testify today, 
and I look forward to working with you to establish a truly farmer-
friendly conservation policy.
                                 ______
                                 
     Responses of Ralph Grossi to Additional Question from Senator 
                               Lautenberg
    Question. Many people have pointed out the connection between 
abandonment of inner cities, particularly areas where possible 
contamination of a former industrial or small business site may make 
redevelopment difficult, and sprawl into areas such as farmlands. Do 
you think that having brownfields legislation which would help provide 
funding for site investigations and loans for cleanup would help 
encourage re-use of these sites? Would this then help alleviate 
pressure to develop in new, outer areas such as farmlands? Would you 
support legislation which helped encourage re-use of these sites?
    Response. American Farmland Trust believes that development is both 
inevitable and desirable. However, it simply makes sense that 
development should not occur on our most productive land. Instead, 
development should be steered to both marginal land and toward 
abandoned urban cores including brownfields sites.
    We view protection of farmland and brownfields site abandonment as 
two sides of the same coin. To the extent that we subsidize development 
on our farmlands, we subsidize the abandonment of our urban centers. By 
promoting cleanup of brownfields sites and the economic redevelopment 
of our downtown areas, we relieve some of the pressure to subdivide our 
farmland. American Farmland Trust would support legislation to 
encourage the reuse of brownfields as one part of a broad effort to 
address the national problem of farmland loss.
                                 ______
                                 
  Responses of Ralph Grossi to Additional Questions from Senator Boxer
    Question. With regard to purchasing development rights, why do you 
think the Federal Government should help fund what many may consider a 
local concern?
    Response. While it is true that most of the decisions resulting in 
sprawl are made at the State and local level, these decisions are often 
based on economic incentives created by Federal activity. The sad fact 
is that our current patterns of low-density development are the result 
of 50 years of government policy decisions, direct government funding, 
and government-influenced private finance and credit decisions. In most 
American cities the mix of these policies and market forces creates a 
strong economic push toward an ever-expanding suburbia.
    Recent studies by American Farmland Trust have documented that 80 
percent of this nation's fruits, vegetables and dairy products are 
grown in metropolitan area counties or fast growing adjacent counties 
in the path of sprawling development. And a 1997 AFT study found that 
over the past decade over 400,000 acres of prime and unique farmland 
were lost to urban uses each year. The loss of soil to asphalt--like 
the loss of soil to wind and water erosion--is an issue of national 
importance. It is thus certainly appropriate for the Federal Government 
to help local communities protect this critical national resource.

    Question 2. Aren't conservation easements just another tax loophole 
for wealthy landowners? Do small farmers really benefit?
    Response. No, conservation easements are not a tax loophole for the 
rich. A conservation easement is simply the legal contract attached to 
the deed to the property ensuring that the agreement not to subdivide 
is binding on current and all future landowners. When a landowner 
donates an easement to an NGO or government agency he/she is entitled 
to certain tax benefits; however, since nominal tax rates are now below 
40 percent a landowner receives only partial compensation for the value 
given up. Hence, the public is getting more then double its investment 
in conservation for tax benefits given.
    More importantly, in the case of purchased conservation easements 
such as with the Farmland Protection Program and as envisioned in 
Miller/Boxer, landowners are paid a fair price for development value 
foregone. American Farmland Trust's studies of State programs that have 
been in place for more than two decades show that such programs have 
been a tremendous help in lowering the price of land so that young, 
entry-level farm families could acquire farmland at near agricultural 
prices. Furthermore, these studies show that landowners have used these 
funds to make investments in their operations including, upgrading to 
more efficient facilities, expanding operations, paying down debt, 
improving waste management systems, etc. The bottom line: these funds 
for conservation easements have largely been re-invested contributing 
to the economic health of local communities in each of the States that 
have such programs.

    Question. 3. Our title in the bill provides permanent funding for 
an already existing program--the Farmland Protection program. How 
successful has this program been to date? Is it popular with the 
States?
    Response. The Farmland Protection Program authorized $35 million 
for matching grants to State, local and tribal entities that purchase 
conservation easements from willing sellers. The program has been 
enormously successful and has helped to permanently protect more than 
120,000 acres of America's best farm and ranch lands from sprawling 
development. By rewarding local initiative, FPP funds have been 
leveraged nine-times over at the State and county level. Because the 
FPP is a voluntary program that compensates landowners and protects 
property rights it has also proven to be enormously popular with 
landowners. In fact, it is oversubscribed by 600 percent--more than any 
other USDA conservation program.
    The FPP has also encouraged a number of States including 
California, New Hampshire and Ohio to initiate their own state-level 
purchase of development rights program. This expanded activity at the 
State level will perhaps be one of the most enduring and important 
legacies of the FPP.
                               __________
 Statement of Eugene A. Conti, Assistant Secretary for Transportation 
                  Policy, Department of Transportation
    Mr. Chairman and members of the committee. Thank you for the 
opportunity to review the role and importance of the Department of 
Transportation's programs in the Clinton-Gore Livability Initiative.
    The Clinton-Gore Livability Initiative is a bold new effort to 
engage the American people on a subject of profound significance to the 
country. It is about the future of our cities, suburbs, and rural 
areas. It is about how these places will become and remain prosperous 
and healthy, and help our people fulfill their expectations for their 
quality of life.
    The Administration's Livability Initiative starts with the premise 
that continued growth is key to our economic competitiveness and that 
strong communities are essential to our quality of life. These 
initiatives rest on the bedrock principle that communities know best 
that land use and infrastructure decisions are best made at the local 
level. Our effort is a comprehensive attempt to provide communities 
with an array of tools and resources, from which they can select to 
preserve green spaces, ease traffic congestion, promote regional 
cooperation, improve schools, and enhance economic competitiveness. 
These tools and resources will help enable communities to grow 
according to their own values.
    Toward this end, the Administration has proposed several 
strategies. The first strategy helps communities preserve open space 
through a new ``Better America Bonds'' program. It will provide $700 
million in new tax credits for state and local bonds to build more 
livable communities. These new ``Better America Bonds'' will leverage 
nearly $10 billion of investments in our communities over the next 5 
years and will help communities reconnect to the land and water around 
them and also enhance economic competitiveness by redeveloping 
brownfields.
    Second, the Administration is taking new steps to ease traffic 
congestion so, for example, parents can spend more time with their kids 
and less time stuck behind a steering wheel. This proposal builds on 
the success of TEA-21 in supporting state and local efforts to reduce 
air pollution and ease traffic congestion.
    Third, the Administration is taking new steps to promote regional 
cooperation, so entire regions work together for smart growth and 
competitiveness. Issues like traffic, air pollution, and jobs don't 
recognize defined borders, and neither should our solutions. The 
Regional Connections initiative seeks to promote cooperation among 
neighboring communities and thereby aid in the development of truly 
regional game plans for smarter growth.
    Finally, the Administration is proposing a number of other targeted 
initiatives that, along with transportation, help communities maintain 
their sense of community as they keep pace with rapid growth. These 
proposals, totaling $100 million, advance the goals of excellence in 
school facilities, sound growth management information, and public 
safety all fundamental elements of a livable community.
    Transportation plays a critical role in this initiative. By 
providing the means for connecting people with goods, services, and one 
another, transportation serves as the nation's arteries through which 
flows all that sustains our people and binds them together as a nation. 
Also importantly, the movement of people and goods must be done in as 
safe a manner as possible at all times.
    In exercising its stewardship over various transportation modes and 
programs, the Department of Transportation places great reliance upon 
the ability of states, localities, the private sector and private 
citizens to work together to make transportation work for this country. 
It is critically important that communities and their citizens 
determine their own visions for the future and the means to achieve 
them. The transportation planning process establishes the community 
forums necessary for elected officials and citizens to find common 
ground in meeting their needs and fulfilling their hopes for the 
livability of their communities.
    As this planning process guides states and localities in developing 
transportation plans and programs to serve their people, it links 
safety concerns, land use development, environmental quality, attention 
to the needs of disadvantaged populations, and economic development 
into an integrated approach to community livability.
    This integrated approach, rooted in decisionmaking at the local and 
state levels, with transportation as a key element, is precisely the 
means to achieving better communities that the Clinton-Gore initiative 
contemplates. Just as transportation planning relies on state and local 
decisionmaking to achieve transportation goals, the Livability 
Initiative recognizes that different communities face different 
circumstances and provides resources so that they can plan and achieve 
their own development goals.
    Last year the Congress, working closely with the Administration, 
enacted the visionary Transportation Equity Act for the 21st Century 
(TEA-21). This committee is to be commended for its leadership role in 
preserving the best of the Intermodal Surface Transportation Efficiency 
Act of 1991 and shaping a new comprehensive measure, TEA-21, for the 
beginning of the new century. TEA-21 supports communities and states as 
they choose transportation facilities and services that best meet local 
transportation priorities, through TEA-21's metropolitan and statewide 
transportation planning processes. Communities can choose how to use 
Federal transportation dollars in conjunction with other community 
efforts to achieve new, more livable patterns of growth. A balanced 
transportation system is only one of a number of ingredients in 
community viability. Transportation planning works side by side with 
the development of decent housing, commercial investment, parks and 
recreation areas, good schools, and effective public safety to make our 
localities good places to live, work, and raise families.
    TEA-21 gives communities and states many opportunities that can be 
used to meet the nation's mobility needs and improve its quality of 
life. Funds authorized for the National Highway System, Surface 
Transportation Program, and transit programs each have broad 
eligibility and flexibility so that states and local areas can tailor 
the use of Federal funds to best meet their needs whether they be for 
transit, bicycle/pedestrian facilities, highways, ride-sharing 
programs, safety projects, intermodal connections or other 
improvements. We are committed to helping state and local 
transportation agencies develop projects and services that reduce 
pollution and are more compatible with the environment. Specific TEA-21 
programs give states and communities even more tools to carry out 
projects for enhanced livability. These include:

    <bullet>  New and enhanced safety grant programs, with a special 
focus on reducing drunk driving and increasing seat belt use, encourage 
states and communities to improve highway safety standards and reduce 
the human cost of motor vehicle crashes.
    <bullet>  Transportation Enhancements and Transit Enhancements 
funds can be used to help communities improve the cultural, aesthetic 
and environmental qualities of their transportation systems.
    <bullet>  The Congestion Mitigation and Air Quality Improvement 
Program (CMAQ) can be used to fund transportation projects to help 
communities meet national ambient air quality standards or to maintain 
compliance with the standards.
    <bullet>  The Transportation and Community and System Preservation 
Pilot Program (TCSP) provides grants to demonstrate ways to make 
communities more livable and research funds to help investigate 
relationships between transportation and land use.
    <bullet>  Intelligent transportation system technology will help 
make communities more livable by reducing traffic congestion, managing 
traffic flows of people and goods, and assisting with local responses 
to transportation emergencies.
    <bullet>  Transit programs strengthen opportunities for alternative 
forms of transportation and accessibility. In particular, the Job 
Access and Reverse Commute program will fund transportation projects 
that help lower-income workers and those making the transition from 
welfare rolls to payrolls get to their jobs.

    Elected state and local officials are pursuing smart growth and 
revitalization initiatives that can use these Federal tools. The 
growing interest in smart growth was demonstrated by the successful 
ballot initiatives in over 200 communities last year. The Congress has 
also acted by establishing bi-partisan task forces on livability and 
smart growth in both the House and the Senate.
    The Department of Transportation's programs and activities work in 
close partnership with those of other Federal agencies to provide 
states and communities with a combination of resources and tools. For 
example, state and metropolitan transportation plans must conform to 
state air quality plans approved by the Environmental Protection Agency 
(EPA) to ensure that our air is getting cleaner. Cities and counties 
that have established enterprise communities and empowerment zones to 
spark new life in long dormant and neglected areas know how 
transportation can contribute to getting workers to jobs and customers 
to goods and services. Communities seeking to preserve the heritage of 
the past and to build a prosperous future can bring together such 
programs as DOT's Transportation Enhancement Program and Treasury's 
historic preservation tax credits with HUD's Community Development 
Block Grant program to turn deteriorated neighborhoods into attractive 
places to live and work. Such local partnerships give added power and 
reach to any single agency's contribution.
    The Livability Initiative, particularly its transportation 
components, combines what we can do now with what we must do in the 
future to make sure that the places in which we live will remain the 
places in which we will want to live. The Administration is proposing 
several important enhancements to existing transportation programs and 
initiatives.
    Proposals in the President's Fiscal Year 2000 Budget would increase 
funding for transit, CMAQ, transportation enhancements, the TCSP pilot 
program, and Job Access/Reverse Commute grants. These additional funds 
will encourage transportation alternatives, and support critically 
important environmental, safety and research and technology programs. 
The proposed increase in funding reflects our commitment to reduce air 
and water pollution and make transportation more compatible with the 
environment. It will help maintain a balance in funding between highway 
and transit, consistent with TEA-21. Increased CMAQ funds will help our 
communities carry out activities that help them meet and maintain air 
quality standards. The increased TCSP pilot program funds will help us 
meet the tremendous popular demand for the program DOT had over 500 
applications, which totaled over $400 million, for Fiscal Year 99 TCSP 
funds.
    Other elements of the Livability Initiative the Better America Bond 
program and the Regional Connections program complement the existing 
programs of DOT. By providing added financial power to states and 
localities to preserve open space, rehabilitate parks, and reclaim 
brownfields, the new bond program will enhance the quality of community 
life, while transportation programs can make sure that people have the 
access they need to these spaces. By improving regional cooperation and 
fostering public-private partnerships, the Regional Connections program 
will boost the effectiveness of regional planning, which can lead to 
better decisions about transportation and land use choices.
    In too many places, Americans have become disconnected from their 
communities--from being able to walk quietly and peacefully in 
neighborhoods without enduring the roar of traffic or unsafe road 
conditions; from getting to their jobs and shopping areas and back to 
their homes easily without sitting for hours in gridlock; from living 
close to the places where they work and play, worship and learn; from 
experiencing the nation's heritage in its historic buildings and 
places; and from enjoying clean air, pure water, and green open spaces. 
The Livability Initiative is about helping Americans reconnect with 
these essential values.
                               __________
   Livability at the Ballot Box: State and Local Referenda on Parks, 
          Conservation, and Smarter Growth, Election Day 1998
             (By Phyllis Myers, State Resource Strategies)
  a discussion paper prepared for the brookings institution center on 
              urban and metropolitan policy, january 1999
I. Overview
    On November 3, 1998, voters from California to New Jersey approved, 
often with large majorities, more than 70 percent of two hundred-plus 
state and local ballot measures to protect, conserve, and improve 
parks, open space, farmlands, historic resources, watersheds, 
greenways, biological habitats, and other environmental enhancements in 
communities and regions across the country. The measures will trigger, 
directly or indirectly, more than $7.5 billion of new state and local 
money.
    News about votes for such close-to-home referenda typically does 
not travel far. Yet these local votes caught the attention of such 
national and business media as The New York Times, USA Today, The 
Washington Post, Wall Street Journal, Bloomberg News, Reuters, CNN, 
PBS, and Dow Jones. Regional and city newspapers, too, featured 
articles on these ballot measures in reports on races for Governor, the 
state legislature, and key local posts. The local votes were quickly 
described as part of a national, dramatic grassroots rebellion against 
sprawl, an urgent call for preserving land, and a clear message of 
support for smart growth policies.
    Two months later, with the benefit of complete data and more time 
for reflection, it is evident that the array of conservation ballot 
proposals and outcomes last Election Day was more varied than the 
initial post-election reports suggested. The 240 referenda identified 
in 31 states asked voters to approve a basket of finance and regulatory 
actions ranging from conventional park and recreation funding to 
purchase of farms and coastal areas to adding green infrastructure in 
growing communities on the edge of expanding metropolitan areas. A 
number of measures are part of comprehensive statewide and regional 
land conservation, habitat restoration, watershed protection, historic 
preservation, and outdoor recreation programs. Other measures are 
important elements in broad programs aimed at containing sprawl and 
reining in metropolitan growth. Contrary to past election years, an 
increasing number of measures this year moved beyond traditional land 
acquisition and involved the purchase of easements to restrict future 
development of privately owned, productive farmland. These measures 
appeared on ballots in older, declining urban neighborhoods as well as 
growing communities, and in rural areas as well as metropolitan 
regions.
    The Election Day 1998 results are more than a sudden happening. 
While last fall may have been a record year for the number of approved 
ballot measures (and level of funding) in support of smarter growth and 
environmental improvements, the sentiment these measures reflect has 
been building up over decades as people and jobs continue to move from 
older cities and suburbs to farther out communities at the metropolitan 
fringe. In the late 1980's and through the 1990's, citizens and 
professionals sounded increasingly louder alarms about the deleterious 
effects of these settlement patterns on farm and forest resources, 
biological diversity, watersheds, scenic assets, access to nature and 
outdoor recreation, and the economic health and sustainability of 
established communities and resource-based economies.
    Advocates, continuing to push for more responsive Federal, state, 
and local policies and programs, have awakened often dormant land-
related authorities and resources. By the century's end, these efforts 
have resulted in increased funding for strengthened park and 
conservation programs in about a dozen states as well as hundreds of 
counties, cities, and towns.
    Since financing for such programs at the state and local levels 
often requires voter approval, grassroots ballot measures provide an 
informative window into debates across the country on the pace, 
quality, and direction of development and voter sentiment on parks, 
conservation, and growth. Yet, because of their decentralized nature, 
ballot measures were unexamined until recently.
    This paper examines and summarizes the results of a new 
comprehensive survey of the November 1998 crop of state and local 
ballot measures for parks, open space, and environmental improvements. 
The paper also compares these findings with that of a similar survey 
conducted in 1996, the first systematic effort to track these measures. 
\1\
---------------------------------------------------------------------------
    \1\ See Phyllis Myers, ``Voters Go for the Green,'' Greensense 
(published by the Trust for Public Land), Spring 1997, p. 3. Myers 
conducted a limited survey in 1997 for a report published by the 
National Conference of State Legislatures.
---------------------------------------------------------------------------
    Major findings include:
    <bullet>  There were 240 state and local conservation ballot 
measures identified in 1998, over 50 percent more than those identified 
in the 1996 survey.
    <bullet>  Voters approved 72 percent of these measures, a success 
rate similar to that in 1996. In recent years, conservation finance 
measures have attracted the highest rates of approval among capital 
measures put before voters. Information on comparative approval rates 
for other capital spending ballot measures in 1998 is not yet 
available.
    <bullet>  These measures triggered more than $7.5 billion in new 
state and local conservation spending. Voters directly approved $4.5 
billion in conservation and growth-related spending to be raised from 
bonds and recurring revenue sources. \2\ In addition, Florida voters 
approved a constitutional amendment that clears the way for renewing 
Preservation 2000. This popular 10-year, $3 billion program is the 
nation's best-funded state land conservation initiative.
---------------------------------------------------------------------------
    \2\ Money estimates are approximate. They include authorized 
bonding authority and pay-as-you-go estimates where available.
---------------------------------------------------------------------------
    <bullet>  A number of these conservation measures approved funds to 
help leverage additional sources of public moneys. For instance, Martin 
County, Florida, approved a one-cent sales tax to help leverage Federal 
funding to restore the Florida Everglades. New Jersey and Massachusetts 
approved state funds and more flexible enabling authority to help 
leverage local initiatives.
    <bullet>  The approved measures supported a wide range of 
conservation and community enhancement activities. New Jersey's high-
profile constitutional amendment to set aside $98 million a year for 
the next 30 years to help protect half of the state's developable land 
was the most ambitious and far reaching of these 240 ballot measures. 
While anti-sprawl sentiments prompted approval of some measures to 
raise funds solely for land acquisition, most of the ballot referenda 
reflected a broader spectrum of activities, such as facility renovation 
in older cities; development of trails and greenways linking cities and 
rural areas; construction of soccer fields in public school complexes; 
upgrading of water systems; restoration of habitat for endangered 
species; and even construction of mental health facilities.
    <bullet>  The number and outcome of these conservation and growth-
related ballot measures varied by region. The Northeast, which has the 
nation's strongest traditions of land conservation and largest numbers 
of organized constituencies, had the most measures on the ballot (111) 
and the highest approval rate (86 percent). The West, now experiencing 
the nation's fastest growth rates, showed significantly increased 
ballot activity (56) and higher approval rates (68 percent) since 1996. 
The South continued to have the fewest conservation ballot measures, 
and the approval rate in the Midwest declined from 1996.
    <bullet>  Last fall's ballot measures included approvals for urban 
growth boundaries. Although most ballot measures provide funding for 
conservation programs and projects, a slew of urban growth boundaries 
were handily approved in California's Bay Area and Ventura County. 
Regulatory restrictions on development outside the limit lines, say 
advocates, provide the only sure way to assure compact, defined urban 
areas and productive, sustainable agricultural zones.
    <bullet>  Voters continue to be tax averse. The only new statewide 
tax on the ballot, in Georgia, failed. Approved statewide finance 
measures involved renewals of popular conservation programs (Minnesota 
and Arizona), environmental programs financed by bonds repaid from 
general revenues (Alabama, Michigan, and Rhode Island), or pledges of 
revenue set-asides from existing tax sources (Arizona, Oregon, and New 
Jersey). New local bonds and taxes fared better, perhaps because 
residents identified more closely with the projects that would be 
funded.
    <bullet>  Conservation ballot measures elicited strong constituency 
and grassroots engagement. Some hard-fought grassroots ballot measure 
campaigns saw a ratcheting up of their budgets and the level of 
involvement by national and statewide interest groups, including 
conservation organizations, planners, farmers, realtors, and 
developers. In several instances, sharp divisions developed within as 
well as between the groups on tactics and goals.
    Some caveats about the ballot study should be noted. The 240 
measures are not presented as a representative sample of the array of 
conservation actions reverberating in state houses, county seats, and 
city and town halls or the tens of thousands of governments in the 
country. For the most part, these ballots reflect activism on parks and 
conservation issues, with citizens either working alone or with 
government officials to put initiatives on the ballots.
    But other place-based constitutional and statutory requirements, 
traditions, and political considerations also account for what measures 
may come to ballot in one place and not in another. Minnesota and 
Connecticut lawmakers approved significant new conservation funding 
programs this year without triggering a requirement for voter consent, 
for example. Throughout the country, state legislatures are revising 
and revisiting laws governing conservation easements, local option 
taxes for conservation and open space, support for agriculture, 
partnerships with nonprofits, developer impact fees, and other tools 
and strategies where direct voter approval is not needed.
II. The Survey Results
    State Resource Strategies, a private conservation policy consultant 
firm, conducted the survey of state and local parks, open space, and 
growth-related ballot measures appearing on Election Day ballots in 
November 1998. Relying on methods similar to those employed in 1996, 
the survey methodology combined electronic research with extensive 
interviews of state and local government officials, stakeholders in 
various campaigns, national advocacy organizations, and the media.
    Overall, the success rate of state and local parks and conservation 
referenda identified in the survey was 72 percent, similar to that in 
1996. Moreover, the 1998 survey identified 240 measures, more than 50 
percent more than in 1996, triggering approximately twice as many new 
state and local dollars (see Charts 1 and 2). Geographically, there are 
important regional differences (see Charts 3 and 4). In both 1996 and 
1998, the Northeast had the largest number of conservation ballot 
measures. The 1998 group included a bundle of local measures approved 
in New Jersey, Cape Cod, Massachusetts, and eastern Long Island. The 
Northeast has had a longer tradition than the rest of the country in 
planning and citizen involvement in conservation advocacy.
    The South still had the fewest measures on local ballots, and the 
Midwest's approval rate declined somewhat, despite some successes in 
growth-related conservation levies.
    An important new regional trend was the increase in dollars 
committed to parks, trails, resource protection, and open space in the 
West, where the nation's highest growth rates create unprecedented 
pressures on limited water, spectacular scenery, and long-held 
conservative traditions about property and government spending. 
Colorado's Douglas County, which floated a $160 million open space 
bond, led the list for approved large-scale funding in the region. 
Voters also overwhelmingly approved more modest first-time open space 
and trails bonds in fast-growing Bernalillo and Santa Fe Counties, New 
Mexico, and Park City, Utah, site of the 2002 Olympics.
Statewide Measures
    Of 13 statewide measures, 10 resulted in favor of conservation 
interests: 9 finance measures were approved while one proposal in 
Oregon was defeated. In 1998, more of the approved statewide measures 
were initiated or supported by the state's Governor than in earlier 
years. Governors, including New Jersey Governor Christine Todd Whitman, 
paid unprecedented attention to land conservation, environment, and 
growth-related initiatives in their state-of-the-state speeches early 
in 1998. Thus, fewer referenda appear to have been placed on last 
year's ballots as a result of citizen signature campaigns, although 
private environmental, conservation, and civic groups played an 
important role in formulating proposals and campaign strategies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The following is a typology of the 1998 state and local 
conservation ballot measures, arrayed by finance strategy.
General Obligation Bonds
    Several state referenda asked voters to approve issuance of long-
term general obligation bonds. Such debt financing is typically favored 
for capital investments in public infrastructure whose life extends 
over a period of years. There is strong competition for a share of the 
state's general obligation bonds, which are backed by the full faith 
and credit of government and carry the lowest interest rate. Most but 
not all states require a referendum for general obligation bonds. 
Revenue bonds, which are repaid with funds earned by the financed 
activity or pledges of an assured source of revenue, typically do not 
require voter consent. Bond funds cannot be spent on operations, 
routine maintenance, and programs.
1. Alabama: Improving State Parks and Historic Sites
    Voters approved by three to one a constitutional amendment to issue 
a $110 million general obligation bond to develop, acquire, and 
renovate the state's parks and historic sites. This is the first 
statewide capital investment bond floated for Alabama's park system 
since the 1960's. The system, which has relied on user fees, has a 
large backlog of infrastructure and facility repair needs. Six million 
dollars is targeted for historic sites across the state.
2. Michigan: Protecting the Environment and Natural Resources
    Voters overwhelmingly approved a $675 million Clean Michigan 
Initiative general obligation bond, supported by Governor John Engler, 
to finance environmental and natural resources protection programs to 
clean up and redevelop contaminated sites, protect and improve water 
quality, improve parks, prevent pollution, abate lead contamination, 
reclaim and revitalize community waterfronts, enhance recreational 
opportunities, and restore lakes, rivers, and streams. Debt costs will 
be covered through annual appropriations. The largest amount, $335 
million, is targeted to brownfields.
3. New Mexico: Defeating Environmental Protection
    Citizens voted against two small, narrowly focused statewide bond 
measures one for $620,000 to purchase endangered species habitat, and 
the other for $1,030,000 to finance a heritage center and trail system 
for the proposed El Camino Heritage Area along the Rio Grande River. 
Authority to issue bonds for land purchases to protect endangered 
species was approved by state lawmakers several years ago, mainly at 
the urging of The Nature Conservancy.
4. Rhode Island: Protecting Farmland, Parks, and Open Space
    Rhode Island voters easily approved, by a two to one majority, a 
$15 million bond for protecting farmland and acquiring and developing 
bikeways, greenways, and state parks. The measure provides $5 million 
for state farmland easement purchases and park improvements and $10 
million for regional and local bike paths and greenways, with an 
emphasis on local matching grants for projects consistent with the 
state's Greenspace and Greenway Plan. A few months before the vote, 
Governor Lincoln Almond announced support for a $50 million parks, 
watershed, and open space initiative that will finance the purchase of 
35,000 acres by 2010.
``Pay-As-You Go'' Measures
    Pay-as-you-go measures provide ongoing funding from dedicated 
revenues such as taxes on property and sales, lotteries, or other 
sources. Because such financing facilitates multi-year planning and 
does not incur borrowing costs, these ``stable funding sources'' enjoy 
considerable appeal. A drawback (depending on the source) is the 
prospect of lower revenues when the economy slows down. Also, most 
revenues, even when earmarked, must be appropriated annually and are 
vulnerable to diversion to other activities. Greater protection for 
revenues may be secured (if state law permits) through constitutional 
provisions for a tightly controlled trust account into which revenues 
are deposited without requiring annual appropriation. Or, following 
approval of an assured dedicated source of annual funding, the 
anticipated revenue flow may be bonded to provide access to more funds 
upfront.
1. Arizona: Conserving Land
    This constitutional amendment, approved by 53 percent of voters, 
provides for the appropriation of $220 million for 11 years primarily 
to finance purchases of easements and full title to environmentally 
sensitive state-trust lands. This funding, to be matched by local and 
private sources, is an important element in Governor Jane Hull's 
Growing Smarter legislative package of planning and zoning reforms. 
This growing interest in conservation has placed new tensions on the 
state's management of millions of acres of state trust lands, 
particularly those in the path of urban development. The state must now 
balance its responsibilities for managing its land legacy with 
maximizing trust earnings to support public education. The 
environmental community was divided in its support for the business-
supported Growing Smarter program. A competing initiative backed by the 
Sierra Club would have authorized urban growth boundaries and developer 
impact fees, which are prohibited in the approved measure.
    Arizona voters also handily approved continuation of the state's 
lottery, which has, since 1990, contributed $20 million annually to a 
Heritage Fund that is equally divided between state parks and wildlife 
programs.
2. Georgia: Rejecting New Taxes for an Environmental Protection Fund
    Voters said ``no,'' by a margin of 54 to 45 percent, to a proposed 
1 percent increase in the real estate transfer tax to finance a new 
land, water, wildlife, and recreation heritage fund approved by state 
lawmakers and supported by popular outgoing Governor Zell Miller. The 
measure, which would have raised an estimated $40 million a year for 4 
years for the fund, was backed by a coalition of leading national and 
statewide conservation, recreation, and historic preservation 
organizations.
3. Minnesota: Protecting the Environment and Natural Resources
    More than three-quarters of Minnesota citizens said ``yes'' to a 
25-year extension of Minnesota's Environment and Natural Resources 
Trust Fund to 2025. Established in 1988, the ``perpetual and 
inviolate'' trust fund is structured to create a sustainable endowment 
to support such activities as: habitat protection, watershed planning, 
river cleanup, wetlands restoration, trails and parks, and 
environmental education. Thus far, the fund has awarded 177 grants and 
disbursed some $82.8 million from its annual set-aside of 40 percent of 
net lottery proceeds, while contributing steadily to a growing 
endowment. The fund is expected to generate revenues reaching $50 
million a year by 2010. A 20-member legislative commission oversees the 
fund's budget and strategic plan; a citizens committee appointed by the 
Governor advises the commission.
4. New Jersey: Preserving Open Space
    New Jerseyans approved, by two to one, a set-aside from existing 
sales tax revenues to help protect half of New Jersey's developable 
land, a million acres, in the next decade. The measure also authorized 
bonding of the annual set-aside, which is expected to help secure a $1 
billion bond to help accomplish the land protection goal. Billed as 
``pennies for preservation,'' this measure was advanced by Governor 
Whitman as part of a comprehensive statewide initiative to revitalize 
older cities, invest in existing infrastructure, and foster balanced 
economic development. The statewide ballot measure was complemented by 
votes in 55 counties and towns to increase or levy modest property 
taxes or issue bonds for farmland protection, historic preservation, 
open space acquisition, and stewardship.
5. Oregon: Protecting Parks and Natural Habitats
    Two-thirds of Oregon voters approved a citizens initiative to 
earmark an estimated $45 million annually from an existing lottery set-
aside for 15 years for ``Parks and Salmon.'' Specifically, the moneys 
will be equally divided between creation and renovation of state parks, 
historic sites, and beaches, and a new fund to restore and enhance 
native salmon habitat, river corridors, watersheds, and wetlands. The 
fund will be managed under a single state agency, to be designated in 
the next legislative session. The agency's mission will also include 
the implementation of the Oregon Plan for Salmon and Watersheds, which 
is being developed in concert with Federal agencies and other 
stakeholders. The state's plan to protect habitat and rescue endangered 
species around Portland and Eugene enhances the Willamette Valley's 
much discussed growth management efforts.
                        new authority/regulation
1. Florida: Financing Conservation Land Purchases and Recreation
    More than 70 percent of Florida's voters approved a constitutional 
amendment that permanently extends the state's authority to issue 
revenue bonds to finance land acquisition and outdoor recreation 
improvements. Revenue bonds, repaid by a set-aside from the state's 
lucrative documentary tax on real estate sales, have financed the 
state's expiring $3 billion, 10-year Preservation 2000 program. The 
popular program has facilitated the acquisition of a million acres of 
environmentally sensitive land and, according to local studies, spurred 
new businesses, increased land values, attracted eco-tourists, and 
saved public funds by reducing the need for costly infrastructure to 
serve outlying residential development. During the state's 
gubernatorial campaign, both major candidates gave strong support to a 
successor program, which is likely to allocate a larger share of funds 
for urban and metropolitan open spaces, recreation, and trails.
2. Oregon: Blocking Potential Efforts to Stymie Growth Management 
        Decisions
    Voters defeated a constitutional amendment that was vigorously 
opposed by advocates of Oregon's innovative land use law. The measure 
would have enabled 2 percent of voters, or 25,000 persons, to petition 
for legislative approval of an administrative rule. Inaction by 
lawmakers would have killed the rule unless it were approved again by a 
state agency and adopted by state lawmakers the following year. The 
measure was seen as especially directed against urban growth 
boundaries. This is a ``confusing and unnecessary'' measure, said the 
Salem Statesman, arguing that laws in place provide numerous 
opportunities for public involvement in administrative decisions.
Local Measures
    Of the 240 measures identified in the survey, 226 ballot measures 
were considered in counties, towns, cities, and special districts. Of 
these, 163 measures were approved, amounting to about one-fourth of the 
total estimated dollars approved by voters on November 3rd. While the 
local measures represent a small proportion of funding approved last 
year, they are a telling indicator of growing grassroots interest in 
conservation, outdoor recreation, and open space funding and programs. 
While most of the approved measures provide dollars directly through 
bonds or pay-as-you-go authority, the approved measures also include 19 
regulatory and 4 advisory measures.
    The majority of local ballot measures involved conservation 
finance. They included 49 bonds and 91 pay-as-you-go measures 76 
property tax assessments (many in New Jersey) and 15 miscellaneous 
taxes, including set-asides from general sales taxes, real estate 
transfer fees, and a lodging tax. \3\
---------------------------------------------------------------------------
    \3\ Statistics on the number and amount of bonds versus pay-as-you-
go measures are approximate, since communities may bond an ensured 
annual revenue flow to provide more money upfront. This is not always 
evident in the ballot measure. Jefferson County's $160 million bond, 
for example, which will finance land purchases to curtail sprawling 
growth around Denver, is secured by a local sales tax approved by 
voters at an earlier election.
---------------------------------------------------------------------------
Bonds
    The bonds include a nearly $76 million park and greenway general 
obligation issue in Austin, Texas, an important element in the city's 
smart growth initiative. \4\ Austin's smart growth strategies include 
incentives for development in selected priority zones, neighborhood 
involvement in community investments, and purchase of parklands, 
greenways, and open space. Bond financing of green improvements was 
proposed to increase recreational services for under-served residents 
in lower-income neighborhoods and attract new residents to these 
communities. Austin voters also approved a $19.8 million revenue bond, 
financed by utility rate increases, that will buy more land in the 
west, where settlement impinges on water quality and threatened 
species.
---------------------------------------------------------------------------
    \4\ Austin's program seeks to modify the path of growth away from 
environmentally sensitive areas in the city's western sections and 
encourage revitalization of the downtown and principally poorer, ethnic 
neighborhoods in the east.
---------------------------------------------------------------------------
    Smaller bonds for parks and open space were approved in: fast-
growing Johnson County, Kansas, to buy land for the first regional park 
in two decades; in Arlington and Fairfax Counties, Virginia, for 
facility development as well as parkland acquisition; in Wake Forest, 
North Carolina, a growing bedroom community outside of Raleigh, for 
land acquisition and park improvements, and in Bernalillo and Santa Fe 
Counties in New Mexico for open space, trails, and historic spaces.
    Two city park bonds on the November ballot were rejected in 
Portland, Oregon, and Los Angeles, California. Since a sizable regional 
park and open space bond had been approved in Portland a few years ago, 
voters may have been confused about the need for this measure. In Los 
Angeles, the measure failed because the 59 percent vote in favor of the 
bonds was not enough to meet the two-thirds majority required by the 
state to approve this spending increase.
    Bonds to finance park improvements were approved in Denver, 
Colorado, and Eugene, Oregon. The Eugene measure will retrofit older 
neighborhoods with playgrounds and sports facilities and acquire land 
for new parks in growing neighborhoods. A Eugene planning official says 
green amenities help ease pressure to relax Eugene's urban growth 
boundaries as population in the city's urban neighborhoods increases.
Pay-As-You-Go Measures
    Fifteen towns in Cape Cod approved new 3 percent property tax 
assessments to finance open space acquisition. Most towns had earlier 
rejected a real estate transfer tax proposal to fund land banks. 
Realtors who opposed that initiative delivered on a promise to support 
a tax that shared the burden. An editorial in The Cape Codder advised 
readers that the assessment about $50 a year on average was a sound 
investment to protect property values.
    In Ohio, where most parks are managed by independent districts that 
seek funding directly from voters, expanding suburbs near Cincinnati, 
Akron, and Columbus approved property tax measures to finance 
conservation and nature-based recreation. Although the ballots are 
technically ``replacement levies'' and do not involve an increase in 
the tax rate, these measures will raise significantly more money 
because property values have risen since the rate was last approved.
    Several measures around the country, including the property tax 
assessments in Cape Cod, real estate transfer taxes in Long Island, 
local sales tax set-asides for parks in Missouri, and county open space 
bonds in New Mexico, illustrate the pivotal role that state enabling 
authority is playing in expanding community funding options for 
conservation. Recently approved state enabling authority, all of which 
required voter consent, triggered some 30 new revenue streams for parks 
and open space in the November 3rd election.
Regulations
    In recent years, increasing attention has been given to non-
regulatory, incentive-based, voluntary measures for conservation. 
However, voters' support in November 1998 for new regulations may have 
revealed public frustration with underfunded voluntary measures and a 
growing desire to better control zoning changes, public infrastructure 
investments, and other government decisions perceived to encourage 
development of land on the edge of metropolitan areas.
    Voters in seven communities in California's rapidly growing Bay 
Area and Ventura County stood almost solidly behind the adoption of 
urban growth boundaries to draw a firm line between development and 
outlying agricultural land. The Ventura County measure prohibits 
rezoning of agricultural land in unincorporated areas for the next 20 
years, unless approved by another public vote. For the first time, says 
Jim Sayer of Greenbelt Alliance, a leading advocate for the Bay Area's 
15 growth boundaries, more limit lines have been initiated by voters 
than by officials. In Sayer's view, this gives people more clout in 
difficult decisions ahead that will impact on the effectiveness of the 
boundaries. California, unlike Oregon, has no statewide law requiring 
consistency among levels of government with growth boundaries.
    Voters turned down a citizens' initiative in San Diego City and 
County, California, that would have rezoned almost 600,000 acres of 
rural agricultural lands to 40 and 80 acre parcels. San Diego is the 
site of the nation's most ambitious effort to guide development on the 
basis of science-based conservation plans designed to protect habitat 
for multiple species while providing developers with assurances about 
future development. The Sierra Club and others view the massive 
rezoning as a stronger way to restrict development on sensitive lands. 
Critics claimed that it was unfair to small farmers, a theme that 
appeared elsewhere in the country in opposition to measures that would 
have financed purchase of farmland development rights.
    San Diego voters did approve two amendments to the general plan 
which allow more urbanization of several thousand acres of ranchland as 
well as provide mitigation for lost sensitive habitat, including $160 
million for a new preserve and recreational open space. The amendments 
were presented to voters as arising from a consensus of environmental 
organizations and the local planning board.
    Voter distrust of official decisions is evident in several other 
measures. Residents of Scottsdale, Arizona, approved a charter 
amendment calling for a public vote before lands placed in the Sonoran 
preserve are sold or leased. Voters in Southhampton, New York, said 
``yes'' to a measure calling for a public vote on any proposed changes 
to protected lands. Residents in Clark County, Nevada, the fastest 
growing region of the U.S., affirmed a conservation plan for managing a 
large desert preserve, which also calls for voter consent to proposed 
changes.
Advisory Ballots
    Advisory ballots are, as the name implies, placed on the ballot to 
provide elected officials with a sense of voters' views on proposed 
measures, especially when they involve new taxes. While officials are 
not bound to follow voters' decisions, they may either commit in 
advance to do so or feel it is politically wise to do so.
    There were a few advisory measures in 1998. In Scottsdale, Arizona, 
the advisory measures concerned doubling the size of McDowell Sonoran 
Preserve, a protected area of scenic mountains and desert, where 
purchases are financed by a sales tax set-aside. In California's Bay 
Area, the measure sought public opinion on expanding the East Bay 
Regional Park District to include spectacular coastal lands in San 
Mateo County. Both measures were decisively approved. Another measure 
sought voter advice in Clark County, Nevada, on whether to finance 
water system improvements with utility rate increases alone or in 
combination with a sales tax increase. Voters opted for the latter.
Failed Measures
    Of the 240 measures in this survey, 67 failed at the ballot box. 
Three of these were statewide measures and 64 were local measures. In 
general, failed measures are perceived to result from an overly narrow 
focus, too little preparation, or overconfidence in voter support for a 
vague green measure. For these reasons, it is not unusual to see a 
measure defeated by voters in previous elections resurface and be 
approved after its provisions and campaign strategy have been 
redesigned.
    The reasons for the defeat of two of these conservation measures in 
1998 one statewide and one local are more complex. In these two 
measures, supporters knowingly ventured into risky territory, backing 
new taxes in regions where political support for conservation and land 
acquisition had been weak. The high-stake outcomes generated 
substantial resources to campaigns by both advocates and opponents. 
These defeats, described below, serve as a reminder of the difficult 
challenges that remain despite growing popularity for conservation and 
smarter growth.
1. Georgia: Real Estate Transfer Tax
    The Georgia measure, fashioned by an alliance of national and state 
conservation, environmental, historic preservation, and recreation 
groups, proposed a 1-percent increase in the real estate transfer tax 
to finance a Land, Water, Wildlife, and Recreation Heritage Fund 
approved by state lawmakers earlier in the year. The modest fee 
increase, a doubling of the existing rate, would have raised about $40 
million a year for 4 years. Promoted as a land acquisition legacy for 
outgoing Governor Zell Miller, the measure earmarked 75 percent of the 
funds for land acquisition and 25 percent for recreation grants.
    Campaign officials attributed the defeat to the difficulty of 
getting public approval for a tax increase and to opposition by realty 
and building interests to using the real estate transfer tax for 
conservation. Supporters argued that the real estate transfer tax had a 
logical nexus with real estate activity and financed a number of well-
regarded programs elsewhere in the country, often with the support of 
business interests who saw its value in encouraging quality 
development. Opponents said that the tax unfairly selected certain 
people to pay for conservation, especially elderly homeowners and young 
buyers, raised the cost of housing, and dampened the economy.
    The modest size of the proposed tax increase was an issue. It 
failed to lure support and also may have diminished fervor among 
advocates, given the breadth of activities covered in the initiative. 
In addition, garnering support for a growth-related tax proved 
difficult in a state with varied growth challenges. Sprawl was a major 
campaign theme in the Atlanta region, which was recently ranked by the 
Sierra Club as the nation's most egregious example of formless, 
unplanned expansion. In the state's poorer rural communities with 
stagnant economies, however, the major themes and messages were clean 
air, clean water, and family values, not sprawl.
    In retrospect, close observers also questioned the campaign 
strategy which relied on well-financed TV spots and heavy mailings, 
editorial endorsements, and support from such luminaries as Jimmy 
Carter, but failed to cultivate the grassroots sufficiently. In the 
last weeks of the campaign, opponents, including real estate interests 
and developers, mounted an effective neighborhood campaign with 
billboards, yard signs, stickers, and peer-to-peer phone calls largely 
directed against the tax, not the issues.
2. Washtenaw County, Michigan: Property Tax Assessment
    The measure in Washtenaw County, Michigan, advanced by a coalition 
of farmers and urban, planning, and conservation interests after 
several years of study, proposed a small property tax increase for 10 
years. Projected to raise some $3.5 million annually, the multi-pronged 
measure proposed to spend 75 percent of the revenues for land 
conservation, including buying open space and development rights to 
farmland, and 25 percent for urban revitalization and planning.
    In the post-election reprise, supporters saw the unexpected defeat 
mostly as a sign of resistance to a new tax but also to the complexity 
of the proposal. ``We failed to communicate the vision that connects 
the pieces,'' observes Keith Schneider of the Michigan Land Use 
Institute. A media photo opportunity showing urban mayors from Detroit 
and Ann Arbor in a farmers' market intended to demonstrate the common 
interests of farmers and cities may have backfired. Opponents argued 
that the measure unfairly placed the economic burden of land protection 
on small farmers and relayed this message through quiet networking 
among farmers and others in the last weeks of the campaign.
    Explaining its failure to endorse the measures, the influential Ann 
Arbor News agreed that poorly planned growth created ``aesthetic, 
economic, transportation, and other public-service problems,'' but 
questioned the efficiency of using public funds for voluntary purchases 
of farmland development rights, although it also recognized that some 
``randomness'' was inevitable in a program crafted to work with willing 
sellers.
    Schneider also believed that state support would have been helpful 
in leveraging local support. In Massachusetts, the Governor held out 
$15 million in state matching grants as incentives for Cape Cod towns 
that voted for land banks.
    As in Georgia, opponents of the Washtenaw measure said that they 
supported the goals of the measure but disagreed with the approach.
III. Implications of the 1998 Survey
    Both the 240 state and local conservation measures on the ballot in 
November 1998 and the $7.5 billion revenues they will trigger may be a 
record. Although the only comparative data are from a 1996 survey, 
there are solid reasons to support this conclusion.
    Decentralizing trends over the past decade have seen states and 
local governments take on a more active programmatic and finance role 
in many policy areas. Federal programs to assist environmental and 
community development programs have either been cut back or re-crafted 
to better respond to and leverage state and local successful models. At 
the state level, consumer confidence and low interest rates have helped 
increase the pace of residential and commercial development at the 
suburban edge and have provided the wherewithal to finance the 
conservation side of a balanced growth agenda. Also, tax limit measures 
have increased the number of finance measures that go to ballot to 
override the limit or allay officials' nervousness about raising taxes.
    While the trends have been building up for some time, there is 
clearly a difference in the tempo today. The November 3 ballot measures 
provide a window into that difference.
    1. Communities throughout the country are showing a willingness to 
finance green infrastructure with locally raised revenues.
    While the details vary between Cleveland and Akron, Ohio; Dade 
County, Florida; Barnstable County, Massachusetts; Bernalillo County, 
New Mexico; the Front Range, Colorado; Portland, Maine; and Portland, 
Oregon, citizens are showing a willingness to pay for close-to-home 
conservation measures. Mainstream political leadership for these 
measures is growing. Rapid transfer of information through the media 
and the internet provides real-life examples to stimulate other 
communities with similar concerns about conservation and growth.
    2. Although it is useful to look at these ballot measures as a 
whole, it is also important to understand their variety in finance 
methods, governance, and political alliances and strategies.
    While a number of measures in the survey are garden-variety funding 
for parks and recreation funding, others are influenced by broader 
visions and alliances that, at their most ambitious, would integrate a 
multi-dimensioned conservation program into other state programs for 
revitalizing cities, economic development, and increased equity.
    The measures do not all fit easily in a land acquisition or anti-
sprawl template, although a number do. Rather, they reflect a spectrum 
of programs supported by the alliance working to craft and campaign for 
these measures. The package may include tourism, farmland preservation, 
watershed protection and water quality, brownfield conversion, easement 
purchases, endangered species protection, historic preservation, and 
new trails.
    The measures may include dollars for urban as well as suburban 
parks, and facility renovation as well as land acquisition, and funds 
for operations as well as capital investments. However, sometimes a 
narrowly focused measure has the greatest chance of approval.
    3. This election saw an increase in regulatory measures, although 
most of the measures provide funding for incentive-based voluntary 
programs and projects.
    The increase in regulatory ballot measures such as urban growth 
boundaries and a proposed massive rezoning of agricultural land in 
California, expansion and management of an Arizona preserve, and a 
substantial increase in developer impact fees in Bozeman, Montana may 
represent public frustration at the failure to enact broader incentive-
based programs, or the shortcomings of existing planning and land 
purchase programs. These regulatory measures may also show the 
continued validity of the planners' mantra, ``you can't buy it all,'' 
and the importance of both regulatory and incentive-based programs in 
balanced growth.
    4. Despite the high approval rate for these conservation measures, 
they are not easy wins.
    Conservation ballot measures are political as well as financial 
actions, and a high success rate reflects astute crafting of measures 
and campaigns. Voters are not simply saying ``yes'' to green measures. 
Successful measures typically are quite specific about purpose, 
projects, funding, and process how the measures will be implemented, 
where, how much they will cost, and what the decision process will be. 
Some conservation ballot measures benefit from the advice of 
professionals working for such conservation groups as the Trust for 
Public Land, Nature Conservancy, Conservation Fund, and American 
Farmland Trust. This election also was accompanied by national and 
state farming, realtor, and development associations increasing their 
monitoring of local measures; campaign spending rising on all sides; 
and important differences about land issues and tactics emerging within 
and among constituencies. ``Our members are divided on these issues,'' 
a spokesman for the National Association of Home Builders remarked, 
``so we have not adopted any national position.''
    5. While the ballot measures and the campaigns show increased 
mainstream support for conservation and financing tools and dollars, 
they do not by themselves constitute a call for the complex measures 
needed to achieve change in urban and metropolitan form.
    By their very nature, these ballot measures at best set the stage 
for the broader convergence of land conservation with growth 
management, as demonstrated by the expanded programs advanced by 
Governor Parris Glendening in Maryland and Governor Whitman in New 
Jersey. In New Jersey, voters approved long term state and local 
financing for conservation measures, not the whole program to promote 
jobs, create affordable housing, restore brownfields, assure good 
schools, and foster inner city and suburban equity.
    The outcome of decisions on all these programs, and their 
integration in an effective, financed state plan will have considerable 
bearing on whether the New Jersey measure simply moves growth around 
(which still could be an important accomplishment) or seriously reins 
in metropolitan settlement.
    California editor William Fulton writes, ``Land use is a funny 
business. You can pass a ballot initiative, but you can't stop the 
conversation.'' While urban growth boundaries are designed to be the 
last word, they are ``not an end but a beginning,'' says Fulton, urging 
people on both sides of this hard-fought election to ``get on with 
it,'' accepting the boundaries as the basis of Ventura County land 
policies yet recognizing that growth and change will not stop. He 
points to positive decisions on housing and retail siting forced by a 
divisive earlier boundary election and growing consensus among former 
opponents. \5\
---------------------------------------------------------------------------
    \5\ Los Angeles Times, November 15, 1998.
---------------------------------------------------------------------------
    As exemplified by California's urban growth boundaries and New 
Jersey's dramatic billion-dollar land initiative as well as hundreds of 
large and small programs around the country, the challenge ahead for 
states, localities, and the Nation as a whole lies in translating the 
ballot box statements into actions and alliances for on-the-ground 
change in the older settled areas and edges of America's expanding 
metropolitan regions.
                               __________
                    Letter from Thomas B. Stoel, Jr.
                                                    March 26, 1999.

Sen. John Chafee, Chairman,
Committee on Environment and Public Works,
United States Senate
Washington, DC 20510.

    Dear Mr. Chairman: I am an environmental attorney and consultant 
here in Washington. I have studied the issue of urban sprawl and 
broader issues of land management in connection with a book I am 
writing on U.S. environmental policy. I have written an article on 
urban sprawl that is scheduled to appear in the May 1999 issues of 
Environment magazine.
    My work has led me to the conclusion that the Federal Government 
should do more to help states and localities address the problem of 
urban sprawl. I request that the enclosed statement suggesting the need 
for specific actions, including the enactment of a law establishing a 
Federal program of grants to support appropriate state land-use 
planning efforts, be included in the record of the Committee's March 
17-18 hearing on open space and environmental quality. You are to be 
congratulated for holding this important hearing.
    Thanks very much for your attention. I was sorry to hear of your 
decision to leave the Senate. You have been an outstanding leader in 
the field of environmental protection.
            Sincerely,
                                       Thomas B. Stoel, Jr.
                                 ______
                                 
                   Statement of Thomas B. Stoel, Jr.
    Mr. Chairman and distinguished committee members: Thank you for 
allowing me to submit a statement at this very important hearing. Urban 
sprawl has serious adverse impacts on our environment and quality of 
life. It has assumed a prominent place on the political agenda. It is 
important that the Federal Government play an appropriate role in 
dealing with it.
    I am Thomas B. Stoel, Jr., an environmental attorney and consultant 
in Washington, D.C. I have studied the issue of urban sprawl and 
broader issues of land management in connection with a book I am 
writing on U.S. environmental policy. I have written an article on 
urban sprawl that is scheduled to appear in the May 1999 issue of 
Environment magazine.
    The most important point I wish to make is that we cannot reach 
good decisions about the role of the Federal Government unless we 
recognize that urban sprawl is a regional phenomenon. Urban sprawl 
occurs when low-density commercial and residential development extends 
farther and farther from central cities. In the absence of governmental 
action, the location and shape of sprawl in a metropolitan region 
depends on economic imperatives and does not correspond to political 
boundaries.
    Since sprawl is a regional phenomenon, it follows that some form of 
regional control is necessary if we are to alter the pattern of low-
density sprawl. That proposition is endorsed by many of the leading 
experts in the field. Jonathan Barnett, a professor of urban design, 
asserted in his book The Fractured Metropolis that regional regulation, 
in the form of an urban growth boundary, is essential because ``Without 
the boundary there is a continual tendency for urbanization to leapfrog 
outwards, seeking cheaper land prices, fewer rigorous regulations, and 
less community opposition.'' Anthony Downs an urban affairs expert at 
the Brookings Institution, has said: ``Relying solely on individual 
communities to adopt growth management plans without any overall 
planning or coordination is like relying on a group of subcontractors 
to build a house with no overall blueprint.'' Richard Moe, the 
President of the National Trust for Historic Preservation, who 
testified at this hearing, declared in his book Changing Places that 
actions by states are essential because `` [s]tates alone have the 
ability to see the regional picture and have the legal reach to sort 
out complicated political and economic issues.''
    Much of the testimony before this Committee concerned the need to 
preserve open spaces and green spaces. That is an important objective. 
Saving green spaces makes life more livable for those who live nearby, 
helps to conserve wildlife and ecosystems, and reduces water pollution. 
But preserving green spaces won't change the pattern of sprawling 
development in a metro area unless those green spaces form an effective 
regional barrier in the form of a greenbelt. Otherwise, we may do no 
more than create green islands in a sea of sprawl, a pattern that is 
apparent in the region around Washington, D.C.,and in other 
metropolitan areas.
    There also was testimony about the desirability of steering 
development toward central cities and brownfield areas. That too is a 
desirable goal. But in view of the complex economic and social forces 
that are responsible for urban sprawl, making brownfields development 
easier and more attractive may have a relatively small impact on the 
overall course of sprawl in a metropolitan region.
    When our society is faced with difficult problems, we sometimes 
pour resources into actions that are appealing and popular but are 
incapable of effecting real solutions. We cannot afford to let this 
happen with regard to urban sprawl because of failure to recognize its 
true character.
    Many people find it difficult to acknowledge that sprawl is 
regional in nature and requires regional answers. After all, urban 
sprawl is a problem of land use, and many Americans believe that land 
use should be dealt with at the local level. Yet it is evident that 
city and county of finials, acting within the boundaries of their 
individual jurisdictions, cannot solve important problems associated 
with urban sprawl. They can alleviate some of the effects of sprawl, 
through such actions as acquiring green spaces. But they cannot act 
effectively to prevent other consequences, such as traffic congestion 
stemming from metropolitan traffic patterns and increased water 
pollution due to runoff from low-density subdivisions in many parts of 
a metropolitan region.
    In theory, sprawl might be addressed through voluntary cooperation 
among the political jurisdictions within a metro area. However, that 
approach does not appear to have succeeded in any large metropolitan 
region in this country, and it is easy to understand why. Every large 
metro area consists of numerous cities, counties, and towns, with 
different interests that are bound to conflict. The political of 
finials charged with representing the interests of those jurisdictions 
will be reluctant to give up their power to make key decisions. 
Powerful economic forces are sure to object to a binding regional pact. 
Together, these factors seem certain to prevent the long-term, areawide 
cooperation that would be required to deal effectively with sprawl.
    The Federal Government has recognized the need for areawide 
cooperation when there is a strong Federal interest. The governmental 
authorities in major metro areas are required to cooperate, via a 
Council of Governments, in combating air pollution and designing 
transportation systems that depend on Federal funding. But it is 
generally conceded that the Federal Government should not play such a 
prominent role concerning other aspects of sprawl. Americans do not 
want so many decisions to be made in Washington. Most of those who 
recognize the regional nature of urban sprawl have concluded that the 
best approach is for states to provide a framework that permits 
effective regional actions. A number of U.S. states have acted in this 
way. Their methods have varied. Hawaii, with it unique geographical 
setting, places most of the power over land use in the hands of the 
state. Oregon requires each city in the state to designate an urban 
growth boundary. Maryland and other states use state powers, including 
the power to distribute state funds, to create incentives for 
localities to direct growth in ways that reduce sprawl, an approach 
known as ``Smart Growth.''
    Against this background, what role should the Federal Government 
play? Most of the actions recommended by witnesses and Senators at this 
hearing make sense; indeed, many of them would confer benefits that 
extend beyond the alleviation of sprawl. Those actions include full 
funding of the Land and Water Conservation Fund; Better America Bonds 
and other elements of the Clinton Administration's ``Livability 
Agenda''; and careful examination of relevant Federal policies and 
actions, including decisions regarding the siting of Federal 
facilities, to ensure that they do not contribute to sprawl.
    Desirable as they may be, none of these actions would do much to 
encourage states to address the regional dimension of sprawl. To 
achieve that objective, I recommend that the Congress enact a law 
establishing a Federal program of grants to support appropriate state 
land-use planning efforts. The grant program I am recommending would be 
similar to the one established by the Federal Coastal Zone Management 
Act (CZMA), enacted in 1972. The CZMA has been highly successful, and 
is a major reason why every coastal state now engages in planning for 
its coastal zone.
    Almost three decades ago, in 1970, President Nixon proposed to the 
Congress a statute like the one I am suggesting. Designed by Nixon's 
environmental adviser Russell Train and Train's staff at the 
President's Council on Environmental Quality, that law would have used 
the prospect of Federal grants to induce states to undertake land-use 
planning efforts aimed at controlling development on lands that 
fulfilled important natural or aesthetic needs. An important goal of 
the statute I am recommending would be to encourage states to recognize 
the regional nature of urban sprawl and create frameworks that 
facilitate regional planning in areas that are threatened by sprawl.
    No state would be required to apply for the planning grants I am 
recommending. Nor would the law I am suggesting prescribe the kind of 
land management program that participating states should ultimately 
adopt. The Coastal Zone Management Act, for example, simply requires 
that a qualifying management program must include certain planning 
processes and coordination mechanisms; that it must define ``what shall 
constitute permissible land uses and water uses within the coastal 
zone''; and that it must identify ``the means by which the State 
proposes to exert control over [those] land uses and water uses.'' See 
16 U.S.C. sec. 1455.
    The statute proposed by President Nixon was passed by the Senate 
but eventually was defeated in the House, after opponents mounted a 
deceptive scare campaign. Had that law been enacted by the Congress a 
generation ago, it is unlikely that our country would have experienced 
so much of the low-density sprawl that is troubling our citizens today. 
We cannot afford to allow sprawl to continue unchecked for another 
generation. The success of the Coastal Zone Management Act suggests 
that a program of Federal planning grants would be an effective, 
nonintrusive way of encouraging states to address this very important 
problem.
                               __________
  Statement of Mary Anne Piacentini, Executive Director, Katy Prairie 
                        Conservancy, Houston, TX
    Mr. Chair and Members of the Committee: I appreciate the 
opportunity to provide comments on the problems and solutions to the 
environmental impacts of growth in the Houston, Texas area. The Katy 
Prairie Conservancy is a nonprofit organization located in Harris and 
Waller Counties, Texas. The Conservancy is committed to preserving a 
sustainable portion of the Katy Prairie for its wildlife and for all 
Texans, forever.
    The Katy Prairie, designated a Biosphere of International 
Significance by the United Nations, is home to the densest 
concentration of migratory waterfowl in North America--serving as the 
wintering ground for birds in the Central Flyway. The Prairie also 
provides habitat to migrating shorebirds and raptors such as Peregrine 
Falcons and Bald Eagles along with more than 200 species of birds, 
including songbirds, herons, and ibises. In addition, the Prairie 
provides cover and food for 55 species of mammals, such as the White-
tailed Deer, and 55 species of reptiles and amphibians, such as the 
Red-eared Slider Turtle. In addition to its habitat value, the 
Prairie's rice fields, wetlands, and creeks offer critical flood 
protection downstream.
    The Katy Prairie once covered more than 500,000 acres. Since 1978 
more than 160,000 acres of Prairie have been lost to development. 
Today, there are only 200,000 acres of remaining prairie. A seemingly 
insatiable demand for residential homes in the area and the proposed 
extension of the Grand Parkway from Interstate 10 north of Highway 290, 
have fueled a tremendous amount of land speculation on the prairie. 
Developers have the funds to develop the Katy Prairie now. We do not 
have the funds to protect the prairie.
    If we are to save the Katy Prairie we must raise millions of 
dollars from private and public funding sources. We have recently 
embarked on a major fundraising campaign to enable the Conservancy to 
purchase or protect at least 30,000 acres and ideally 60,000 acres. To 
date, we have only 2,000 acres under ownership or protection.
    The only thing we lack to accomplish our goals is money. The Better 
America Bonds program would allow the Katy Prairie Conservancy and its 
partners funding to secure the land today.
    We support the Better America Bonds program and encourage you to 
support this program to help local communities protect special places 
like the Katy Prairie.
                               __________
  Statement of John Griffiths, Chairman, Metro Parks and Greenspaces 
                   Advisory Committee, Beaverton, OR
    Mr. Chair and Members of the Committee: I appreciate the 
opportunity to comment on the problems and solutions to the 
environmental impacts of growth in the greater Portland, Oregon area, 
an area that encompasses 1.3 million residents across three counties 
and 24 different cities. In addition to our current population, 
projections show our area adding 720,000 new residents by the year 
2040. My home county (Washington County) has, at times, been listed as 
the fastest growing county in the United States because of its high 
tech boom.
    Portland's metropolitan area is unique within our country in that 
the citizenry has seen fit to create a single agency to provide for 
region-wide growth planning, transportation planning, and open-space 
preservation. Known as Metro, this agency occupies a niche above the 
county level but below that of the state. While Metro has done a good 
job on the planning side, its small tax base has limited its ability to 
provide open space preservation to the extent of its charter. An 
exception is a $ 135,000,000 bond measure passed in 1995 to fund 
Metro's open space acquisition in 14 ``regionally significant'' target 
areas. At present 4,000 acres have passed into public ownership. By the 
time the funds are exhausted it is expected to that a total of 6,000 
acres will have been purchased.
    While admirable, the above acquisitions just scratch the surface. 
The exhaustion of the bond funds will leave large gaps within the 
regional target areas that can easily be developed by private parties 
without reference to the surrounding public ownership. Also, the recent 
Endangered Species listing of salmon runs in our region will require 
the acquisition and restoration of thousands of additional acres of 
streamside and spawning grounds. Finally, there is a plethora of 
smaller requirements within the region for which funds are not 
available at all. At present I am party to a grassroots movement 
dedicated to stopping a high-density residential development that is 
surrounded on three sides by the only nature park in our county. This 
development will lead to the severe degradation of the park, an asset 
treasured by the community. The park would not now be under this threat 
if funding had been available to acquire the parcels in question.
    The only item we lack to meet our obligations is funding. Otherwise 
the will, the drive, and the intent are there. Local bonds cannot do 
the job alone. New requirements that successful Oregon bond measures be 
accompanied by at least a 50 percent voter turnout have added to the 
risk of acquiring funds in this manner. The Better America Bonds 
program would allow Metro and Portland's municipalities significantly 
increased resources for and a relatively risk-free method of meeting 
their greenspace preservation obligations.
    I support the Better America Bonds program and encourage you to 
support this program to help local communities protect their special 
places. . . before they're gone forever.
                               __________
   Statement of Eric Draper, Senior Vice President for Conservation 
                  Campaigns, National Audubon Society
Lessons from Florida: Growth Management Relies on $4 Billion Investment 
                             in Public Land
    Mr. Chairman, thank you for the opportunity to offer comments on 
Community Growth and the Environment. Audubon is a family of nearly one 
million members and supporters, 515 chapters and more than 100 
sanctuaries and nature centers dedicated to education and advocacy on 
behalf of birds, wildlife and habitat.
    My testimony follows the March 3 voter approval by 66 percent of a 
$150 million environmental bond issue in Palm Beach County, Florida and 
the November, 1998 statewide vote by 73 percent for permanent extension 
of Florida's $300 million a year land preservation program. Having led 
the campaigns on those two issues and other legislation and referenda 
creating bond programs as a solution to local growth challenges, I feel 
uniquely qualified to address the subject of your hearing. 
Environmental bonds are so popular in Florida, the Governor and the 
leaders of each house and each party have competing proposals--all of 
them extending our state's investment in public land by billions of 
dollars.
    My comments will lead to five points. First, growth as represented 
by residential and commercial development outside town centers is 
taking a heavy toll on habitat. Second, lessons from places such as 
Florida show that citizens support both growth and habitat protection 
at the same time. Third, in-fill strategies such as brownfields 
redevelopment take pressure off habitat. Fourth, water resource 
restoration is a vital, but largely unaddressed issue in community 
growth strategies. Finally, the smartest of smart growth ideas is to 
finance open space programs with a new Federal environmental bonding 
program.
                habitat loss is a major impact of growth
    As a community-based organization Audubon is on the front line of 
the environmental impacts of urban and suburban growth. Our members 
attend zoning meetings, challenge development permits, buy land and 
restore habitat. The problems of sprawl are a very real challenge for 
almost every Audubon chapter. The experience of seeing a favorite 
birding spot cleared is common to most active Audubon members. From our 
ranks come many of the local leaders whose common plea is to save some 
for the birds and wildlife. Loss of habitat is occurring in virtually 
every part of the nation. Birds migrate and need places to nest, stage 
and winter. Forests, prairies, swamps and fields all provide home to 
birds. Yet, more than 90 watchlist species are in critical decline 
because of habitat loss. Our members are very concerned.
    Growth of human communities usually comes at the expense of natural 
communities. Residential and commercial development alters habitat. 
While creating new space for people is necessary, we see benefit of 
growth strategies that set aside some special places and open space. 
Our recommendation is Congress enact a program to help communities 
finance local land and water resource protection.
          the public supports investments in growth management
    I would like to share some observation and conclusions reached over 
the past decade in Florida. Our state ranks near the top in population 
growth and the conversion of farmland and habitat into residential and 
commercial development. We've gone from about 3 million people in the 
early fifties to over 15 million today and may hit 20 million in 
another two decades. Every year we build 800 miles of roads, add 730 
classrooms and build more jails. Yet, we find only more traffic 
congestion, school crowding and packed prisons. Every day we lose 450 
acres of forest and 410 acres of farmland. This in a state with a 
landmark growth management law.
    In 1985, the Florida Legislature attempted to bring growth, 
environmental protection, education planning and infrastructure into a 
single strategic statewide policy. Each of the 430 cities and counties 
was required to have a land use map designating areas of 
infrastructure, housing plans, conservation areas and groundwater 
protection and other elements. Maps show urban service areas where 
infrastructure is provided and growth is planned. Florida's rules 
specifically discourage ``the proliferation of urban sprawl.''
    Many local governments used their plans to designate conservation 
and recreation lands or open space. To pay for land protection local 
governments turned to voters to seek approval of property tax increases 
to back land acquisition bonds. With a 90 percent approval rate, 20 
counties and several cities have generated a nearly $ 1 billion in 
local funds for land protection.
    During same period the Legislature created a program called 
Preservation 2000 which calls for $3 billion in environmental land 
bonds. Since 1990, Florida has issued bonds worth $300 million a year, 
spending in several years more than the Federal Government spent 
nationwide on land acquisition. Approximately one million acres of land 
have been purchased under auspices of Preservation 2000, much it 
designated by local government plans.
    The relationship between land protection bonds and growth 
management has been profound. In the fragile Florida Keys, growth has 
been limited to 200 units a year in spite of 25,000 vested lots. The 
local government uses state funds to buy development rights. The Green 
Swamp's 200,000 acres, source of Tampa's drinking water and four 
rivers, are off limits to developers but landowners can sell 
conservation easements to the state.
    The lessons from Florida show that land protection plans in many 
cases follow but don't precede development pressure. Governments tend 
to wait to buy the last of available open space instead of investing 
wisely before the market is overheated. Where bonds have allowed 
government to get in front of the development curve, we now have 
forests and parks worth many times their purchase price. Where 
protection efforts fell behind, we are paying inflated prices for 
remaining fragments of habitat and open space.
    The most important lesson from Florida's $4 billion investment in 
local and state land protection bonds is that it has allowed 
preservation to move along the same path as economic growth which 
creates the flow of government revenue to pay off the bonds. Florida's 
ever-expanding budget has easily absorbed all of the bond payments.
    urban infill requires investments in remediation and restoration
    Two other Florida examples support the concept of environmental 
bonds. The Governor's Commission on a Sustainable South Florida has 
recommended in-fill strategies for Southeast counties. Residential 
development now borders the levies that hold water inside the 
Everglades. Holding the development line at the levies requires 
redevelopment of land near the coast, including former industrial and 
hazardous waste sites. Throughout Florida, redirecting growth into 
revitalized urban cores and previously developed coastal areas will 
take pressure off habitat.
    Florida also faces a large challenge with restoring our aquatic 
systems, many of which were damaged through ill-conceived drainage 
schemes. Water resource protection and restoration can yield economic 
and environmental benefits for decades but require costly public works 
projects. Revitalization projects offer excellent opportunities to 
correct previous mistakes in handling storm water and drainage. 
Wetlands and urban watersheds can be recreated to make water resources 
a value-added component of urban neighborhoods. Requiring developers to 
shoulder the costs of watershed improvement and brownfield remediation 
creates a barrier to redevelopment. Bonds supported by tax credits 
provide an excellent tool for urban infill, brownfields and extensive 
water resource protection.
        environmental bonds--smart tools for livable communities
    Florida, and other state and local governments could benefit from 
environmental bonds leveraged by tax Federal tax credits. federally 
supported bonds would help state and local governments finance the 
costs of open space and water resource protection and brownfields 
remediation. Comparable to other programs such as the successful Low 
Income Housing Trust Credit and Qualified Zone Academy Bonds, 
communities could issue environmental bonds by pledging Federal tax 
credits in lieu of interest payments.
    State and local governments facing rapid expansion of population 
and urban boundaries need to freeze the costs of land protection while 
increased revenue from growth creates the means to pay. Environmental 
bonds backed by Federal tax credits will allow land values to be locked 
in at present prices while minimizing carrying costs. Tax credits are 
an excellent method of leveraging outcomes. The availability of tax 
credits will create a market for both institutional and private 
investors looking for secure, income-producing opportunities.
    There is a pent-up demand for new tools and techniques to help 
communities deal with the pressures and problems of growth and with the 
challenges of land and water restoration. The most immediate and 
obvious solution is to authorize a program of bonds backed by tax 
credits limited to financing open space and land and water remediation. 
As with the Florida experience, growth and protection can proceed on 
parallel paths. Thank you.
                               __________
      [From The Heritage Foundation Backgrounder, March 18, 1999]
  The President's Sprawl Initiative: A Program in Search of a Problem
                            (By Wendell Cox)
    For decades, American urban areas have grown in land area much more 
than they have grown in population. This geographic expansion is often 
attributed to increasing dependence on the automobile and construction 
of the interstate highway (freeway) system. A relatively new school of 
urban planners, the ``new urbanists,'' blame the expanding urban area 
for a number of problems, including increased traffic congestion, 
higher air pollution, the decline of central cities, and a reduction in 
valuable agricultural land. (New urbanist policies also go by the label 
``smart growth''). Moreover, new urbanists believe that more spacious 
urban areas typical of the United States are inherently inefficient 
relative to more compact cities, exhibiting higher costs for 
infrastructure and public services.
    Recently, the issue of ``urban sprawl'' received top billing at a 
White House event at which President Bill Clinton and Vice President Al 
Gore announced their Livable Communities Initiative, which, it was 
promised, would reduce traffic congestion, promote cleaner air, 
preserve open spaces, and retard urban sprawl. To achieve these 
objectives, Clinton and Gore propose to provide the suburbs with 
additional funds for mass transit and loans to buy land for parks and 
greenbelts. Their initiative also would assign to the Department of 
Housing and Urban Development the responsibility for encouraging and 
financing ``smart growth'' strategies to encourage ``compact 
development'' and regional cooperation.
The New Urbanism
    New urbanist literature often touts Europe's more compact and more 
densely populated urban areas as being superior to those in the United 
States. The new urbanist vision includes:

    <bullet>  Establishment of urban growth boundaries (UGB).
    <bullet>  Channeling urban development toward ``in fill'' 
(undeveloped areas within the urban growth boundary).
    <bullet>  ``Transit oriented development'' along urban rail 
corridors, higher population density, and higher employment density.
    <bullet>  Little if any expansion of street or highway capacity.
    <bullet>  Retail developments less oriented toward the automobile 
(smaller stores with less parking located generally in town centers 
rather than suburbs).

    The new urbanists believe that these strategies will produce a more 
compact city in which automobile dependency, traffic congestion, and 
air pollution are reduced. New urbanist concepts have been incorporated 
into a number of state laws and regional planning policies. In the 
United States, the most advanced model of new urbanist policies can be 
found in Portland, Oregon, where a long-range plan has been adopted by 
an elected regional government. \1\ This plan involves an urban growth 
boundary; \2\ concentrated employment and high-density housing 
patterns, such as town houses and apartments; significant expansion of 
the light rail system; and little street or highway expansion.
---------------------------------------------------------------------------
    \1\ The regional government has ultimate control over land use and 
zoning issues and requires that local municipal plans and ordinances 
conform to the regional plan.
    \2\ The urban growth boundary requirement was imposed by state law 
in the 1970's. At that point, the urban growth boundary was established 
well outside the limits of development. In recent years, development 
has approached the urban growth boundary.
---------------------------------------------------------------------------
    New urbanist policies, especially as adopted in Portland, have 
evoked considerable interest among legislators, local officials, and 
civic leaders around the world. There are, however, difficulties with 
new urbanism, both in terms of analysis and in terms of policies.
Analytical Difficulties
    The facts demonstrate that major tenets of the new urbanism rest on 
false premises. Contrary to new urbanist doctrine, for example:
            Traffic congestion is greater, not less, in the compact 
                    city
    Higher concentrations of urban residential and employment density 
will produce higher concentrations of automobile traffic (and air 
pollution). This is already evident. Contrary to new urbanist claims, 
traffic congestion is already worse in urban areas with higher 
densities.
    <bullet>  Urban areas with higher levels of traffic congestion, as 
measured by the Federal Governments Roadway Congestion Index, have 
higher population densities (see Chart 1). \3\ This is to be expected, 
since higher density means less road space on which to accommodate the 
high volume of private vehicle traffic.
---------------------------------------------------------------------------
    \3\ Calculated from 1996 Roadway Congestion Index as developed by 
the Texas Transportation Institute of Texas A&M University for the 
United States Department of Transportation.
---------------------------------------------------------------------------
    <bullet>  Transit-oriented development increases traffic 
congestion. Except in a very few centers, such as Midtown Manhattan and 
Chicago's Loop, \4\ a majority of trips are by automobile. The 
overwhelming majority of travel to proposed transit-oriented 
developments--which include high-density housing, retail, and 
employment located around transit stations, especially rail--will be by 
automobile (new employment centers attract from six to 100 times as 
many automobile commuters as transit commuters). The higher 
concentrations of employment and residences therefore must bring an 
increase in automobile trips in the area. This will strain road space, 
slowing traffic and increasing pollution as a consequence.
---------------------------------------------------------------------------
    \4\ Private vehicles (automobiles and trucks) carry more than twice 
as many work trips as transit to all but nine central business 
districts in the United States.
---------------------------------------------------------------------------
            Air pollution is greater, not less, in the compact city
    Higher levels of air pollution are associated with higher 
densities, not lower densities. Generally, the greater the intensity of 
air pollution, the higher the population density (see Chart 2). \5\ As 
transit-oriented development increases traffic, it will reduce speeds 
and increase pollution, because higher pollution is associated with 
slower, more congested traffic. To the extent that new urbanist 
policies are implemented, air pollution is likely to be increased 
relative to levels that would be experienced in less dense 
environments. \6\
---------------------------------------------------------------------------
    \5\ Randall O'Toole, ``Dense Thinking,'' Reason, January 1999, 
based on U.S. Environmental Protection Agency data.
    \6\ Because of the continuing improvement in air pollution that is 
attributable to improved vehicle emission technology, aggregate levels 
of air pollution could be reduced from present levels even with the 
higher concentrations of automobile traffic that would result from new 
urbanist policies.
---------------------------------------------------------------------------
            Cities are not crowding out agricultural production
    Expanding urban areas do not threaten agricultural production Since 
1950, U.S. agricultural acreage has fallen by 15 percent, while 
production has risen by more than 105 percent (see Chart 3). The area 
required for agricultural production has declined, quite independently 
of urban expansion.
    Between 1960 and 1990, the area taken out of agricultural 
production was greater than that of Texas and more than eight times the 
area consumed by expanding urban areas (see Chart 4). At current rates 
of urban expansion, it would take more than 250 years to urbanize the 
amount of agricultural land taken out of production between 1960 and 
1990. \7\
---------------------------------------------------------------------------
    \7\ Typical of the invalid data on which new urbanist proposals are 
based, President Clinton indicated that ``farmland and open spaces are 
disappearing at a truly alarming rate. In fact, across the country, we 
lose about 7,000 acres every single day.'' This might be alarming if it 
were true. Such a rate would consume an area the size of Ohio every 
decade. In fact, however, the President's figure is off by a factor of 
nearly three. See ``Remarks by the President and Vice-President on 
Announcement of Lands Legacy Initiative,''January 12, 1999; available 
on the Internet at www.whitehouse.gov/WH/New/html/19990112-1036.html.
---------------------------------------------------------------------------
            There is more to urban land expansion than interstate 
                    highways
    Urban expansion is far too complex to be blamed simply on the 
automobile and interstate highways. First of all, urban interstates 
largely were not open until the early 1960's (the Interstate Highway 
Act was enacted in 1956). Yet the suburbs already were gaining 
population at the expense of the central cities.
    During the 1950's, the major central cities that did not expand by 
annexation lost approximately 5.0 percent of their population. Similar 
rates of pre-interstate urban population loss occurred in the 1960's 
(7.2 percent) and 1980's (5.7 percent). \8\ Only during the 1970's was 
the rate significantly higher, at 14.6 percent. Other factors, such as 
escalating crime rates, the urban riots of the 1960's, and declining 
educational performance in central city school districts, probably were 
much more responsible for flight from the central cities.
---------------------------------------------------------------------------
    \8\ With lower population growth projected for the United States, 
it is expected that the rate of urban land expansion will continue to 
decline.
---------------------------------------------------------------------------
    Indeed, the 1970's, during which urban flight was the greatest, 
followed closely on the urban unrest of the 1960's and was also a 
period of particular deterioration with respect to the crime rate and 
educational performance. Additional contributing factors included 
higher central city taxes, lower quality central city services, and 
increasing affluence, which allowed people the option of living in 
larger houses on larger lots.
            Lower public service costs are associated with lower, not 
                    higher, densities
    Despite the popular misconception, public service costs tend to be 
lower where population densities are lower. \9\ There are a number of 
reasons why the reality differs from the theory on urban costs. For 
example, the larger, more dense local government units tend to have 
larger bureaucracies, and their political processes are more 
susceptible to special-interest control. Both of these factors tend to 
increase costs. \10\
---------------------------------------------------------------------------
    \9\ For example, see Helen F Ladd, ``Population Growth, Density and 
the Costs of Providing Public Services,'' Urban Studies, Vol. 2 (1992), 
pp. 273-295, and Wendell Cox, Local and Regional Governance in the 
Greater Toronto Area: A Review of the Alternatives, City of Toronto, 
1997.
    \10\ Cox, Local and Regional Governance in the Greater Toronto 
Area: A Review of the Alternatives.
---------------------------------------------------------------------------
            ``Smart growth'' could be no growth
    Increasing density and growth restrictions are likely to have a 
negative impact on economic growth in metropolitan areas adopting new 
urbanist policies. For example, even Portland's new urbanist regional 
government (Metro) found that higher densities and lower automobile 
usage rates appear to be associated with ``higher housing prices and 
reduced housing output.'' \11\
---------------------------------------------------------------------------
    \11\ Metro Measured (Portland, Ore.: Metro, 1994), p. 45.
---------------------------------------------------------------------------
    As a result of higher housing prices, new urbanist policies are 
likely to make the American dream of home ownership more elusive. By 
limiting housing output, they are likely to limit job creation in 
construction trades and allied fields. Further, discouraging 
construction of additional suburban shopping centers can be expected to 
raise the cost of living while retarding job growth even more. Broad 
implementation of new urbanist policies could well bring to the United 
States the economic stagnation that afflicts Europe, where minimal job 
creation and high unemployment are associated with a high cost and less 
competitive economy.
            Portland's policies will produce more traffic congestion 
                    and air pollution, not less
    Portland's new urbanist policies will not deliver lower levels of 
traffic congestion and air pollution. Portland's regional government, 
Metro, has stated that ``[W]ith respect to density and road per capita 
mileage it (Los Angeles) displays an investment pattern we desire to 
replicate.'' \12\ In fact, Portland is well on the way to replicating 
the traffic congestion problems of Los Angeles.
---------------------------------------------------------------------------
    \12\ Ibid., p. 8.
---------------------------------------------------------------------------
    Traffic congestion in Portland already is approaching that of the 
New York metropolitan area--which is 15 times larger--and Portland 
projections indicate that, even after building five additional light 
rail lines, \13\ traffic volumes will use by more than 50 percent by 
2015. It is estimated that Portland's Roadway Congestion Index will 
rise to 1.62 from its current 1.16 (see Chart 5). This would represent 
a worse level of traffic congestion than is currently experienced by 
Los Angeles (which has the highest Roadway Congestion Index in the 
nation).
---------------------------------------------------------------------------
    \13\ It is less than certain that these lines will be built. In 
November 1998, voters in Portland turned down a bond issue to build the 
next line.
---------------------------------------------------------------------------
    Portland seems to have chosen a future with two million cars in 500 
square miles instead of 600 square miles. It can be expected that air 
pollution will be greater as a result. \14\
---------------------------------------------------------------------------
    \14\ Vice President Gore has provided another example of the 
invalid data used to promote the new urbanist agenda. In a September 2, 
1998, speech to the Brookings Institution, he indicated that ``a new 
light rail system has attracted 40 percent of all commuters'' in 
Portland. In fact, Census Bureau data indicate that only 5.4 percent of 
commuters used transit and that the vast majority of these commuters 
were on buses, not light rail. During the 1980's, when light rail was 
opened, transit's work trip market share dropped by one-third in 
Portland.
---------------------------------------------------------------------------
            Europe is suburbanizing, too
    European cities are suburbanizing, despite their higher population 
densities, more comprehensive transit systems, higher gasoline prices, 
lower income \15\ and more focused cities. \16\ Like their American 
counterparts, many European central cities have lost population.
---------------------------------------------------------------------------
    \15\ Organization for Economic Cooperation and Development (OECD) 
purchasing power panty basis.
    \16\ Christian Gerondeau, Transport in Europe (Boston, Mass.: 
Artech House, Inc., 19975.
---------------------------------------------------------------------------
    <bullet>  No freeways enter the central city of Pans, which has one 
of the world's most intensive rail transit systems. Yet Pans's central 
city population loss and suburban population explosion mirror those of 
Philadelphia, a metropolitan area that has experienced similar overall 
growth (see Chart 6). At the same time, both traffic congestion and air 
pollution are severe. Average automobile travel speed in the city of 
Paris is 12.5 miles per hour. \17\
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
    <bullet>  Inner London and Manhattan (inner New York) lost similar 
percentages of population over a period of 40 years until 1990-1991 (25 
percent and 24 percent, respectively).
    <bullet>  The cities of Copenhagen, Liverpool, Manchester, and 
Glasgow lost approximately 40 percent of their population in the past 
40 years. By comparison, Detroit and Cleveland lost 45 percent, Newark 
lost 39 percent, and Washington lost 32 percent. In each of these 
European and American cities, all growth was suburban growth.
    <bullet>  The central city of Stockholm has lost 16 percent of its 
population since 1950, with all growth occurring in the suburbs.
    The same pattern is occurring in other developed nations as well.
    <bullet>  While San Francisco's population was rising by 1 percent 
from 1970 to 1990, Toronto's fell by 8 percent and Montreal's fell by 
20 percent.
    <bullet>  Tokyo's population has fallen by more than two million 
since 1960, with all population growth occurring in the suburbs.
    Central area populations have fallen in virtually all cities in the 
developed world. \18\ In most cases, the declines are masked by 
population added through annexation or consolidation. In fact, central 
area depopulation and suburban expansion have been occurring for some 
time. Inner London began losing population between 1901 and 1911, while 
Manhattan began losing population between 1910 and 1920. Central area 
depopulation was first noted in Philadelphia between 1820 and 1830, as 
people moved to the suburbs. \19\
---------------------------------------------------------------------------
    \18\ In North America, only one city that has not annexed new 
territory and was fully developed by 1950 has increased in population: 
Vancouver??
    \19\ Kenneth T. Jackson, Crabgrass Frontier: The Suburbanization of 
the United States (New York: Oxford University Press, 1985), p. 318.
---------------------------------------------------------------------------
    The depopulation of central cities in Europe and other developed 
nations is particularly notable because these cities generally did not 
face important factors that contributed to the depopulation of U.S. 
central cities, such as high crime rates, urban riots, forced busing, 
falling education standards, freeways, and home mortgage tax 
deductions. In addition, Europe's much stronger land use policies, 
higher suburban land costs, and overall higher cost structure might 
have been expected to forestall suburbanization.
    Europe's comparatively high public transit market share has led to 
the mistaken impression that transit is gaining at the expense of the 
automobile. This is not the case. European automobile use has grown at 
three times the U.S. rate since 1970, largely as a result of increasing 
affluence.
    In recent decades, transit market shares have dropped from even 
higher levels in Europe as increased affluence has made the automobile 
affordable for more people. In Europe (as in the United States), urban 
rail's record in attracting people away from automobiles has been 
insignificant: No such transfer has taken place. \20\ Europe's trend 
toward higher automobile dependency and lower transit market shares is 
following U.S. trends by a decade or two, just as its rising affluence 
has followed U.S. trends.
---------------------------------------------------------------------------
    \20\ Gerondeau, Transport in Europe, p. 87.
---------------------------------------------------------------------------
            Urban growth boundaries will not reduce traffic congestion 
                    or contain growth
    By imposing urban growth boundaries, new urbanists hope to force 
higher densities and infill development. No material increase in 
density is likely to occur, except where the urban growth boundaries 
encompass wide expanses of undeveloped land (as was the case in 
Portland when its urban growth boundary was established).
    Even Portland's draconian policies are projected to increase 
densities to a level less than that of Los Angeles. Portland will 
continue to have densities barely one-quarter those of Paris, which is 
highly automobile dependent except in the inner city. While new 
urbanist policies may produce small reductions in average automobile 
miles traveled per capita, the increasing traffic congestion is likely 
to generate a more than compensating increase in the average hours per 
capita traveled by automobile. This will increase air pollution and 
retard the quality of life by reducing leisure time.
    Urban growth boundaries have a long history of failure with respect 
to containing growth.
    <bullet>  Queen Elizabeth I established an urban growth boundary in 
London in 1580. \21\ Development continued outside the urban growth 
boundaries.
---------------------------------------------------------------------------
    \21\ Stephen Inwood, A History of London (London: MacMillan, 1998), 
p. 192.
---------------------------------------------------------------------------
    <bullet>  King Louis XIII established an urban growth boundary in 
Paris in 1638. It failed to contain development, as did subsequent 
urban growth boundaries established by Louis XIV and Louis XV. \22\
---------------------------------------------------------------------------
    \22\ Johannes Willms, Paris: Capital of Europe (New York: Holmes & 
Meyers, 1997), p. 3.
---------------------------------------------------------------------------
    <bullet>  London imposed an urban growth boundary by purchasing a 
``Green Belt', surrounding the city in the 1930's. Since that time, 
London's population density inside the Green Belt has fallen as 1.5 
million people have left the city, Inner London's population dropped 43 
percent, while that of outer London (the pre-1940 suburbs inside the 
Green Belt) rose 12 percent. Population in the surrounding counties 
increased 273 percent \23\ as development ``leapfrogged'' across the 
urban growth boundary to exurban areas beyond the Green Belt (see Chart 
7), The 1931 census indicated that 19 percent of the population was 
outside what was to become the Green Belt, The 1991 census showed that 
more than one-half of the population was in the outer counties.
---------------------------------------------------------------------------
    \23\ This compares to national population growth of 22 percent over 
the period.
---------------------------------------------------------------------------
The Fundamental Problem
    Despite all the criticism, America's spacious urban areas provide 
significant advantages. Their very geographical expansion has provided 
a safes; valve that has kept travel times relatively stable. \24\
---------------------------------------------------------------------------
    \24\ Peter Gordon and Harry W. Richardson, ``The Costs and Benefits 
of Sprawl,'' The Brookings Review, Fall, 1998.
---------------------------------------------------------------------------
    <bullet>  Average peak hour commuting time fell approximately 6 
percent from 1969 to 1995 (from 22.0 minutes to 20.7 minutes). \25\
---------------------------------------------------------------------------
    \25\ Calculated from Nationwide Personal Transportation Survey.
---------------------------------------------------------------------------
    <bullet>  The automobile has improved travel times. According to 
the United States Department of Transportation, one of the most 
important reasons that average commuting time has not increased 
materially over the past 25 years is that people have abandoned transit 
services for automobiles, which are considerably faster. \26\ The 
average transit commute trip takes approximately 80 percent longer than 
the average automobile commuter trip (see Chart 8). \27\
---------------------------------------------------------------------------
    \26\ Our Nation's Travel: 1995 NPTS Results Early Report, U.S. 
Department of Transportation, Federal Highway Administration, September 
1997.
    \27\ Calculated from Nationwide Personal Transportation Survey, 
1995.
---------------------------------------------------------------------------
    <bullet>  The flexibility of the automobile has improved the 
efficiency of labor markets, making a much larger market of employers 
and employees conveniently accessible to one another.
    <bullet>  The competition provided by large suburban shopping malls 
and retailers has lowered consumer prices.
    The spacious urban area, with its increased retail competition and 
more efficient labor markets, has helped to create a comparatively low-
cost economy in the United States. It is likely that these advantages 
have contributed to America's unparalleled standard of living. \28\
---------------------------------------------------------------------------
    \28\ According to the latest OECD data, the United States had the 
highest gross domestic product per capita of any major nation (on a 
purchasing panty power basis, which measures cost of living). One small 
nation was higher: Luxembourg, with 418,000 people (1996), would rank 
94th if it were a U.S. metropolitan area, just ahead of Modesto, 
California.
---------------------------------------------------------------------------
    This is not to suggest that traffic congestion is not a problem. 
But today's urban motorist experiences much greater mobility and speed 
than can be provided by any practical alternatives. The question is not 
how governments are going to force people out of their cars, but 
whether capacity will be provided for the traffic growth that will 
occur regardless of which measures are adopted. Unless the automobile 
is accommodated, traffic can and will get much worse. Few places in the 
United States experience the intractable traffic congestion that is a 
day-to-day occurrence in the largest centers of Europe, despite higher 
densities, rail transit, and strong land use controls.
    The fundamental problem with the new urbanism is that, despite 
aggressive planning policies, it is incapable of either increasing 
densities or materially improving the match between origins and 
destinations sufficiently to make alternatives to the automobile 
viable. Much stronger land use policies and much higher densities in 
suburban Stockholm failed to produce the anticipated reliance on rail 
transit, as automobile use continued to increase substantially. \29\ It 
is ``neither certain nor self evident'' that new urbanist policies, if 
they were to occur, would reduce traffic congestion. \30\
---------------------------------------------------------------------------
    \29\ Sir Peter Hall, in Cities in Civilization (New York: Pantheon, 
1998), pp. 842-887, describes the resistance of Stockholm area 
residents to planning dictates which required that suburban development 
be on rail lines and at higher housing densities. In recent years, most 
new housing has been single-family detached, and automobile dependency 
has increased.
    \30\ Randall Crane, ``Travel by Design,'' Access: Research at the 
University of California Transportation Center, Spring, 1998.
---------------------------------------------------------------------------
The New Suburbanism
    The new urbanist city would be only marginally more dense than 
today's spacious city, and travel patterns would be little different. 
The overwhelming majority of travel would continue to be by automobile. 
Even more than today, American urban areas would remain far below the 
``critical mass'' that would generate significant ridership and too 
dense to avoid intractable traffic congestion. As a result, consistent 
with the plans of Portland, the higher density would worsen traffic 
congestion. The simple fact is that more cars in a more compact area 
mean more traffic and more air pollution, not less.
    A more appropriate term than ``new urbanism'' might be ``new 
suburbanism.'' At most, new urbanist policies will produce small 
enclaves of somewhat higher density surrounded by a sea of low-density 
suburbs. New urbanist policies could hasten the coming of a new 
suburbanization, with a much less dense urban sprawl than already has 
been experienced. More people are likely to choose to live outside the 
urban growth boundary, in smaller communities which gradually will 
become larger and more urban. More businesses are likely to locate 
outside major urban areas. Residents inside urban growth boundaries 
will make longer journeys to shop at the new, larger retail 
establishments in exurban areas.
    New urbanist policies are being proposed at the very time that 
information technology (such as the Internet) threatens to make urban 
centers less important. Already, major urban centers have few 
advantages over medium and smaller sized urban areas. Generally, these 
smaller areas have virtually everything that major centers have except 
for international airports.
Conclusion
    Previous generations of urban planners imposed their visions of a 
better city through policies such as urban renewal and construction of 
high-rise public housing. These planners believed in their theories 
just as devoutly as do today's new urbanists. It is not impossible that 
to analysts a quarter century from now, the new urbanism will seem 
every bit as anti-city as any of the failed policies of the past.



                  OPEN SPACE AND ENVIRONMENTAL QUALITY

                              ----------                              


                        WEDNESDAY, JULY 7, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                 Las Vegas, Nevada.

             GROWTH AND LIVABILITY IN THE LAS VEGAS VALLEY

    The committee met, pursuant to notice, at 9 a.m. in the Las 
Vegas City Council Chambers, Las Vegas, Nevada, Hon. Harry Reid 
[acting chairman of the committee] presiding.
    Present: Senator Reid.
    Also present: Senator Bryan and Representative Berkley.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. The Committee on Environment and Public Works 
of the U.S. Senate is called to order. Ladies and gentlemen, we 
welcome you to this hearing.
    I spent the Fourth of July in Searchlight, and Monday 
night, late, about 10 o'clock at night, I came over the hill, 
Railroad Pass; usually I make those trips to Searchlight and 
come back in the daytime. This was the first time in a long 
time that I had come over that hill at night, and it was 
stunning, what I saw. To think what it used to be, and what it 
now is: as far as you could see to the left, as far as you 
could see to the right, were lights, lights of the metropolitan 
area of Las Vegas. It was impressive to look down on the little 
town that I used to call ``small,'' Henderson, where I came to 
go to high school out of Searchlight. It used to be a little 
industrial community. It is now the second largest city in 
Nevada. It recently passed Reno as the second largest city in 
Nevada. That's part of the panoramic view that Landra and I saw 
as we came over the hill. Gone was the Las Vegas that, as 
recently as 1970, was the 200th largest city in the United 
States population list. Now, of course, it is the most popular 
resort destination in the United States, and perhaps in the 
world--Las Vegas, a place that becomes home for a day or two, 
or three or four, for hundreds of thousands of people from 
around the world.
    The growth in Clark County has been all over Clark County. 
Little Mesquite has grown 400 percent in the last 7 years. We 
have had to provide land for the city of Mesquite on two 
separate occasions so that they would not wipe out their 
greenbelt, to provide a place for them to grow, and now we are 
legislatively looking to give them more land, because the 
growth in Mesquite is insatiable, it seems.
    People are coming to southern Nevada for lots of reasons. 
One is their jobs. There is affordable housing. We have no 
State income tax. There is very nice and warm weather, as we 
have recognized the last few days. And, of course, there is 
entertainment galore, and a healthy climate with more than 300 
days per year of sunshine. It's a great place to live.
    However, all this breathtaking growth has come at a price. 
In recent years we have begun to see daily traffic jams, once 
unheard of. I traveled from my office about 7 o'clock last 
night to go up and visit my daughter in the Summerlin area. 
There was a traffic jam; at 7 o'clock t night there was a 
traffic jam.
    Of course, we have developed air quality problems. We have 
been working for more than a decade now on water quantity 
problems, water quality programs. We have a vanishing green 
space. In short, we are a metropolitan area.
    So I think it is incumbent on all of us to do what we can 
to maintain the high quality of life that we have come to 
expect in southern Nevada. It is a part of our life that we 
want to maintain. Of course, we have traffic problems; of 
course, we have water quantity problems; of course, we have air 
quality problems. But still, it is a great, great place to 
live, and we have to make sure that we maintain that. We have 
to make sure that we learn from the experiences of others in 
other communities, how they developed problems that really got 
so far out of hand that they couldn't handle them. We need to 
be able to handle our problems.
    The Federal Government owns 87 percent of the land in the 
State of Nevada. Whether we like it or not, the Federal 
Government is a player in what goes on in Nevada. But we have 
to make sure that the Bureau of Land Management, the 
Environmental Protection Agency, the Department of 
Transportation, the Bureau of Reclamation, the Army Corps of 
Engineers--and on and on, with the different Federal agencies--
that they are partners with State and local government. 
Frankly, I think that those of us who work in Washington would 
recognize that that has not always been the case.
    One of the reasons for this hearing is to do what we can to 
make sure that that partnership is something that is now part 
of the portfolio of all Federal agencies that work in Nevada, 
that they are partners with State and local governments. The 
future of southern Nevada rightfully belongs to southern 
Nevadans, and we have to make sure that the Federal Government 
understands that. Gone are the days, we hope, when the 
different levels of government in southern Nevada could get 
away with working independently. We have to make sure they work 
with one another.
    This committee, under whose auspices we are holding this 
hearing, is the Committee on Environment and Public Works. I am 
going to be very fortunate in the next Congress, when I will be 
the lead Democrat on the committee. I will replace the ranking 
member now, Max Baucus, who will become the chairman of the 
all-important Finance Committee. That's why I am very happy 
that Senator Baucus has seen fit to have one of his staff here 
today. I am happy that he is here representing the Environment 
and Public Works Committee, but all of you who are involved in 
gaming recognize the importance of the Finance Committee, and 
he will be the lead Democrat on the Finance Committee in the 
next Congress.
    [The prepared statement of Senator Reid follows:]
    Senator Reid. I have a couple of housekeeping items that I 
want to go over before we start this hearing this morning.
    First of all, Dina Titus, who has been a local leader on 
growth issues, is unable to be here this morning. She is out of 
the city, but she sent a letter; this will be made a part of 
the permanent record. I am very grateful for the work that 
Senator Titus has done. She is certainly one of the pioneers in 
recognizing the problems of growth in this area.
    [The referenced letter from Senator Titus follows:]
    Senator Reid. This is an official hearing of the Senate 
Environment and Public Works Committee. Everything that is said 
here today will be taken down and will be part of an official 
record of the U.S. Senate. All written statements in support of 
this hearing--or in opposition to what we talk about here--will 
be made a part of the permanent record, and we are going to 
make sure that this will be part of my web site. People will be 
able to dial in and pick up on everything that takes place 
here.
    As I indicated, Chris Miller, working for Senator Baucus, 
is here today. We appreciate that very much.
    Senator Chafee, the full committee chairman, was unable to 
be here, but Senator Chafee has participated in hearings like 
this previously in Nevada. We had a hearing where he chaired 
that hearing. As some of you may recall, we really amazed him 
and caused wonder in his mind about the growth problems in 
southern Nevada. I believe that hearing was one of the main 
reasons we were able to do so well in the last surface 
transportation bill, because of his holding the hearing in 
southern Nevada a year and a half or so ago.
    You will see up here some lights. We're going to try to 
make sure that everyone testifies no more than 5 minutes. You 
will be able to tell because a red light will come on when 
you've used up your time.
    We're going to begin the hearing today with my colleagues 
from Washington, Senator Bryan and Congresswoman Berkley. 
Congressman Gibbons was unable to be here today.
    As you know, Senator Bryan and I have had a longstanding 
relationship and friendship. I personally am going to miss him 
very much 18 months from now. He has been a great leader in 
these issues relating to growth. The fact is that he lived in 
Las Vegas and saw firsthand what Las Vegas used to be like. I 
used to come over once in a while for groceries from 
Searchlight with my parents, but he has seen this phenomenal 
growth take place.
    Congresswoman Berkley, of course, also as a young girl 
recognized what took place and what is now taking place as she 
has hit the ground running in Washington as a Member of 
Congress in my old Congressional District.
    Senator Bryan is a member of the U.S. Senate.
    Welcome. I hope you can spend some time up here, 
participating in the questions and whatever else is necessary. 
You are invited to come up if you like.
    Senator Bryan?

  STATEMENT OF HON. RICHARD H. BRYAN, A UNITED STATES SENATOR 
                    FROM THE STATE OF NEVADA

    Senator Bryan. Mr. Chairman, thank you very much.
    Let me just preface my comments by commending you not only 
for convening this hearing, but for the leadership you have 
provided on the committee on which, as you point out, you will 
soon be the ranking member. I don't think people understand how 
important that is to us in southern Nevada, but that gives you, 
as you know, Mr. Chairman, the premiere role in every piece of 
legislation that is processed by the committee, and that is 
extremely important for us in southern Nevada. We are fortunate 
to have you in that position.
    Let me just ask unanimous consent that my full statement be 
made a part of the record so that we can compress the time and 
allow some of our other witnesses, perhaps, to engage in 
greater dialog with us.
    As you were parting the veil of nostalgia and we were 
looking back on our own youth, you are so right, southern 
Nevada today is profoundly different. The mantra of our school 
years was that Nevada was the least populated State, that there 
was one person for every square mile, that everybody could be 
seated in the Los Angeles Coliseum for a sporting event, every 
person in Nevada.
    Well, that is not the reality of today. I remember the 
first time that I heard the word ``smog'' sometime in the early 
1950's, and I thought, well, what is this? I didn't understand 
it. I think people in Nevada did not comprehend what we were 
talking about.
    Well, that was then, and today is now. And managing this 
unprecedented growth in a manner that sustains development and 
provides and promotes a healthy environment is perhaps the 
greatest challenge that we face in southern Nevada. The growth 
has been extraordinary, as we all know, unprecedented. No other 
part of the country has experienced this level of growth, and 
it becomes a real challenge--traffic congestion, school 
overcrowding, infrastructure delivery, air quality, land use 
planning are a handful of issues that currently confront 
community leaders.
    I think, Mr. Chairman, you are extremely wise to convene 
this hearing in a city hall because primarily those issues 
affecting our growth are decisions which local community 
leaders, our local elected officials, will make. But I think 
you are also quite correct in indicating that because of the 
extraordinary presence of Federal agencies--the 87 percent that 
you made reference to--there is a role for the Federal 
Government to play in a partnership relationship. You and I 
have begun that role with the passage of legislation which we 
sponsored last year, the Southern Nevada Public Lands Act, 
which provides a unique framework, the primary purpose of which 
was to strengthen the role of local government planning with 
respect to any disposal of BLM lands the metropolitan area. 
That has not historically been a dialog that has matured as we 
had hoped, and with this legislation, none of those parcels can 
be disposed of without the concurrence of the affected local 
political subdivision, and all of the proceeds from the sale of 
those parcels remain here in Nevada; 5 percent, as you know, 
toward our State School Fund; 10 percent to the Southern Nevada 
Water Authority, and the remaining eighty-five percent either 
for the acquisition of additional environmentally sensitive 
lands for recreational purposes, or to enhance and improve 
those existing Federal recreational facilities which clearly 
have an impact on a quality of life issue which I think is so 
important for southern Nevada.
    So I am delighted to be here with you, and I would like to 
share a part of the program, but I'm not going to be able to 
stay for the full time, Mr. Chairman.
    Again I commend you on your leadership. I think this is 
terribly important for all of us in southern Nevada, and I look 
forward to working with you and our colleagues who speak next 
on this important growth-related issue that affects our State 
and our community.
    Senator Reid. Congresswoman Berkley?

STATEMENT OF HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Berkley. Thank you, Senator Reid, for giving me the 
opportunity to speak this morning. I want to commend you for 
helping our southern Nevada communities focus on the issue of 
livability. It is great to see our new Mayor, the Chairman of 
the Clark County Commission, a number of concerned citizens and 
representatives from local government here today, as well.
    I believe we must build a partnership that will help us 
solve the problems associated with growth, and maintain our 
reputation as one of the best metropolitan areas in which to 
live and raise families.
    We are uniquely challenged by growth in this community. It 
is no secret that we have the fastest-growing population and 
one of the fastest-growing economies in the Nation. Whether you 
live in the city of Las Vegas, Henderson, Clark County, or 
North Las Vegas, you know that the landscape is changing day-
to-day with construction and roadbuilding.
    The question all of us here today are confronted with is, 
how do we keep from being consumed by our own growth? Growth is 
a great indicator of prosperity and opportunity, and we have a 
lot of both here in the valley. Otherwise, we wouldn't have a 7 
percent annual growth rate. When I tell my colleagues in 
Congress about our growth rate and dynamic economy, they just 
shake their heads. They feel challenged by population increases 
of 1 or 2 percent. It really catches their attention when I 
tell officials in Washington how we have over 70,000 new 
residents a year coming into the valley, and that there is no 
end in sight.
    I have no greater mission than to be sure that the key 
policymakers in the Federal Government understand the critical 
growth-related needs of southern Nevada. Both of our Senators, 
both of you, both Senator Reid and Senator Bryan, have done an 
outstanding job in this regard, and I am proud to be working 
with the two of you on the House side.
    We have seen dozens of communities around the Nation fail 
under the pressures of growth. We need look no further than to 
southern California, and I don't want to pick on our neighbors 
to the west, but they lost their battle to growth. Think of Los 
Angeles and you think of sprawl, pollution, congestion, and 
crime, and we don't want to become another L.A., not another 
statistic.
    I believe our local government officials in southern Nevada 
have done a good job in keeping ahead of the growth curve. Our 
quality of life remains high and opportunity abounds; yet, we 
will have to redouble our efforts if we are going to keep ahead 
of the curve.
    Clearly, important steps are being taken in the right 
direction. Just yesterday, Clark County leaders announced a 
long-range plan to provide parks and recreational facilities to 
meet the demands of a growing population over the next two 
decades. Southern Nevada's population is going to expand 
inevitably from the current 1.25 million or so, to 2 million-
plus. Fortunately, there is a growing movement in this country 
and in this community to avoid the mistakes other cities have 
made in the past. Citizens, corporations, and all levels of 
government are pulling together to improve the livability of 
our communities.
    Livability covers a number of topics. It means preserving 
green space and recreational facilities. It means building 
modern schools. It means providing better transportation and 
protecting our air and our water. It means making our streets 
safer and promoting economic opportunity across our 
communities.
    I strongly support proposals currently being discussed in 
Congress to provide resources for local community planning, 
transportation, school construction, green space, and helping 
our police. Citizens and their local elected officials have the 
responsibility to make the decisions about what each community 
needs and how to spend their resources, while those of us in 
Congress have the responsibility to make it a priority to 
provide the needed assistance.
    I want to thank you again, Senator Reid, for inviting me 
here today. I feel this forum is extremely helpful in setting a 
course for a livable Las Vegas well into the next century so 
that my children and my children's children will be able to 
grow up in a truly livable community.
    Thank you very much.
    Senator Reid. Thank you very much, Shelley.
    Richard, you are welcome to come up here.
    Shelley, thank you very much for your participation.
    Most of this morning's witnesses are well known to southern 
Nevadans because they live here, they have jobs that require 
them to spend much of their time in the valley. So I am not 
going to spend a lot of time in introductions, but I would ask 
that Administrator Fernandez, Mayor Goodman, Commissioner 
Woodbury, and Mr. Bunker approach the podium here, to my right.
    We have a guest from Washington today, and that's Nuria 
Fernandez. She is the Deputy Transit Administrator for the 
United States Department of Transportation. She is second in 
command in the Federal transit funding and advocacy agency, 
overseeing an annual budget of almost $5 billion. Much of this 
money provides desperately needed funding for transit systems 
such as the CAT system we have here in Clark County. She came 
to the Department of Transportation from the Washington 
Metropolitan Area Transit Authority. There are a lot of bad 
things said about Washington--Mayor Barry and all that kind of 
stuff--but the fact of the matter is that the transit authority 
in Washington is one of the premiere transit authorities, if 
not the premiere transit authority, in the entire country, if 
not the world. People who come to Washington and ride on our 
``subway system,'' as we call it, find it the best.
    So we are very happy to have you here today. The Federal 
Transit Administration captures the essence of the interrelated 
problems of congestion, air quality, and ensuring that American 
workers have physical access to the job market. A booming 
economy is meaningless if workers have no way to get to work.
    So we are happy that Ms. Fernandez is here.
    Mayor Goodman, we are very happy to see you. Let me say, 
Mayor, that I have been very impressed with your statements 
since you were elected. Your enthusiasm for the city has caught 
the attention of the country, as captured by People Magazine in 
a full-page spread. In you very short tenure as Mayor you have 
already brought great recognition to the State of Nevada and 
the city of Las Vegas.
    Let me just say that your predecessor really did some 
things that I think set the framework for other good things to 
be done. Travelling to work today, I looked up at the big 
Federal Building that is being constructed. You know, without 
her help, that would never have come to be. We fought for that 
land down there, and she didn't have the support of the council 
all that time, but as Mayor she took the leadership and fought 
for that land, and now we have that courthouse going up there. 
Of course, the great county complex is a direct result of her 
getting the railroad to give up that land. So we look forward 
to the work that you're going to do.
    Let me just say to people here, Oscar Goodman is a great 
trial lawyer, as we all know. I think a lot of people don't 
know about his greatest asset, which I think is his sense of 
humor.
    Oscar, I can remember a lot of things that you have said 
that made me laugh, but one thing that I will never forget is 
this. We were at the back of the very crowded Justice Court 
when it was held in the old Las Vegas County Courthouse. It was 
really crowded, a summer day, the air conditioning was lousy, 
and we were both standing up, waiting for our cases to be 
called. He looked at me and he said, ``Harry, are you still 
working out?'' I said, ``Yes.'' He said, ``It sure doesn't look 
like it.''
    [Laughter.]
    Senator Reid. Anyway, I remember that, Oscar.
    The third member of our panel is Chairman Bruce Woodbury of 
the Clark County Commission. Chairman Woodbury has been a great 
advocate, in my eyes, if for nothing else--and there have been 
many other things--for transportation. I held a transportation 
summit here a number of years ago where we brought in people 
from all over the world, literally, to testify, to talk about 
problems of transportation. What we were trying to do is 
forecast what the future would be if we did something about 
transportation, and if we didn't do something about 
transportation. Bruce Woodbury, representing the county, looked 
at what needed to be done. Really, the county has done 
miraculous things.
    There have been massive construction projects without 
Federal involvement that the county has done on their own. They 
went to the State Legislature, got permission to change the 
law; the law was changed. The great entrance into the airport, 
that was done with the county's money. The Beltway is basically 
being done by the county.
    So you have really done tremendous things. Even though 
there are traffic problems, as I mentioned in my opening 
statement, think what they would be without the vision of Bruce 
Woodbury, who has really been the leading advocate of doing 
something about traffic in Clark County. So I very much 
appreciate your work there.
    Richard Bunker really needs no introduction. He has been a 
fixture in southern Nevada for many years, not only with the 
Resort Association, but now with the Colorado River Commission 
and countless other important functions.
    I guess I would say about Richard Bunker, the main reason 
that I personally requested that he testify today is that there 
have been many, many things happen in Nevada, and especially in 
southern Nevada, over the last 20 years. There isn't a major 
thing that has taken place--and I've talked about some of them 
here, with the loop around the city, the entrance to the 
airport, the great progress that we've made with water--it 
doesn't matter what we talk about, Richard Bunker has been 
involved in it, very quietly, behind the scenes. You never see 
Richard Bunker out giving speeches. He's been the County 
Manager, the City Manager of Las Vegas. Richard Bunker is truly 
somebody who gets things done without a lot of accolades going 
his way. He deserves a lot more credit than he's been given.
    So, Richard, I appreciate your being here to share the 
perspective and role of the resort industry on the issues that 
we've talked about.
    We are going to ask you first, Ms. Fernandez, to give your 
statement, and then we're going to have Mayor Goodman and right 
down the table there, please.
    Ms. Fernandez?

STATEMENT OF NURIA I. FERNANDEZ, DEPUTY ADMINISTRATOR, FEDERAL 
      TRANSIT ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Ms. Fernandez. Good morning, Mr. Chairman and Members of 
Congress. Thank you for inviting me to be here today to testify 
on the Administration's Livability Initiative and the important 
role that the Department of Transportation plays in this 
agenda. With your consent, I would like to submit my statement 
for the record.
    Senator Reid. That will be the order.
    Ms. Fernandez. Thank you.
    We at the Department of Transportation recognize that 
transportation can be an important factor in restoring a sense 
of community, in bringing people together, and in enhancing the 
human and natural environment. We have just begun to realize 
what can be accomplished in our communities through thoughtful 
consideration of a mix of transportation solutions and creative 
approaches.
    We cannot achieve any of these key national priorities--
linking Americans to jobs, health care, and education--without 
efficient transportation systems. The challenges that we face 
do not stop at our borders. We are looking at intermodal, 
flexible, intergovernmental partnerships and a strong 
commitment to safety, environmental protection, enhanced 
planning, and strategic investment. In partnership with our 
colleagues in the States and the communities and with the 
private sector, we believe that we can respond to the challenge 
of creating livable communities.
    The Clinton-Gore Livability agenda will help communities 
across America grow in ways that ensure high quality of life 
and strong, sustainable economic growth. This initiative will 
strengthen the Federal Government's role as a partner with the 
growing number of State and local efforts to build livable 
communities by ensuring coordination on new Livability 
Initiatives, improving coordination of existing programs, 
generating new ideas, and conducting appropriate outreach to 
constituent groups. This is a cause that we at the U.S. 
Department of Transportation have been addressing in one form 
or another even before the inception of ISTEA--sprawl, and its 
effect on our communities.
    The reason why transportation has a role in curbing sprawl 
and why the Federal Government is involved is very simple. As 
we look at the problems created by sprawl and the need to 
stabilize and revitalize our first-ring suburban city centers 
while maintaining a vital urban core, we must realize that 
sprawl creates a quality of life problem. The Department of 
Transportation's Livability Initiative will help communities 
use DOT-funded programs more effectively to include an active 
and participatory planning process that results in 
transportation facilities and services that are well-designed, 
customer-friendly, and community-oriented, linking safety, 
growth strategies, environmental quality, and economic 
development.
    Our role is to make it easier for communities to get the 
tools they need to build the way they want to. Airports, mass 
transportation, and highway construction provide millions of 
jobs and billions of dollars in economic impact across the 
Nation. All of these infrastructure improvements have been 
accomplished within the context of environmental regulations 
and land use policies that have changed how we do business.
    We look at the Nation's transportation system as a multiple 
of modes, complimenting each other and working together as a 
whole for the benefit of all users. The Transportation Equity 
Act for the 21st Century has made it possible for us to fund 
programs that are compatible with the development goals and 
objectives of metro areas, small communities, and rural 
America.
    But none of this would have been possible if it were not 
for the leadership of the Chairman, Senator Reid, and his role 
in the Environment and Public Works Committee, winning the 
enactment of TEA-21.
    TEA-21 gives State and local governments even greater 
responsibility for planning all aspects of their transportation 
systems, and more funding flexibility to pursue their goals. 
The Federal Transit Administration, under its Livable 
Communities Initiative, has demonstrated that locating family 
friendly facilities at intermodal and transit terminals, such 
as child and elderly care, police substations, health care 
facilities, one-stop job centers, and commercial retail 
development, can lead to transit-oriented development. Across 
the Nation we can point to successful projects that resulted 
from public participation, in cooperation with the private 
sector and the Federal agencies. These partnerships not only 
leveraged the Federal resources, but resulted in job creation 
and access to jobs and services, providing continued growth and 
vitality to communities.
    In the Las Vegas area, the Department has been working with 
the Regional Transportation Commission of Clark County to 
complete all of the Federal requirements necessary to receive a 
favorable ranking and rating for their transportation projects. 
The streetscape improvement programs and the city and county 
support of high-density transit-oriented development is a good 
start toward making this project a reality.
    The Las Vegas area has also taken advantage of the Federal 
Highway Administration's Transportation Enhancement and Scenic 
Byways Program to fund improvements in the region, ensuring 
that the regional and State highways become more scenic byways.
    Aviation-related matters in this region involve cooperative 
efforts between the Federal Aviation Administration and 
McCarran International Airport to put into effect noise 
abatement measures around residential and school zones, while 
continuing to meet the vital air transportation needs of this 
thriving region.
    The Department of Transportation is committed to creating 
partnerships with communities by instituting a wide variety of 
programs, starting with identifying and disseminating the most 
useful information, evidence, tolls, and techniques available 
for integrating transportation and land use planning; convening 
a regional transportation task force to initiate a dialog on 
the effects of urban sprawl and congestion on the region's 
economy and its residents' quality of life; selecting ten 
localities across the country to partner with as they expand 
their existing livability efforts; develop stringent aircraft 
noise standards to reduce noise in areas proximate to airports; 
and establish a Center for Global Climate Change, because we 
recognize that one-third of the greenhouse gasses are 
introduced by transportation. This would help us develop 
strategies to achieve gas emission reductions through 
multimodal policies that are inclusive of technology, and 
market-based land use strategies.
    The transportation component of the Livability Initiative 
combines what we can do now, under present programs, with what 
we must do in the future to make sure that the places in which 
we live will remain the places in which we want to live. By 
working together, we can design transportation systems that 
create safe communities, a stronger economy, and a better 
quality of life and prosperity for all Americans.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to answer any questions.
    Senator Reid. Thank you. Remain seated and we will have 
some questions for you.
    Mayor Goodman?

  STATEMENT OF HON. OSCAR GOODMAN, MAYOR, CITY OF LAS VEGAS, 
                             NEVADA

    Mayor Goodman. Chairman Reid, Senator Bryan, welcome back 
to the city of Las Vegas. We are truly honored to have you here 
at City Hall today. With your consent, Senator Reid, I would 
like to submit my statement for the record.
    Las Vegas, as you know, is a world-class tourist 
destination and one of the fastest-growing cities in the 
Nation. We have had an average annual growth rate exceeding 6 
percent for the past 10 years. The population of the city 
itself has nearly doubled during the past decade. We have 
reached a population of approximately 465,000 citizens within 
the city limits alone.
    As a rapidly growing city, Las Vegas has been characterized 
as a ``sprawling'' city. However, using some measures of 
sprawl, that may not be the case. For example, land consumption 
is seen by many as an indicator of sprawl; however, in Las 
Vegas, growth in land consumption mirrors growth in population. 
In fact, between 1990 and 1998, the city has increased the 
number of built acres by 50 percent, while at the same time 
increasing the population by 75 percent.
    In many cities, development of single family homes on half-
acre lots or larger contributes to sprawl. In Las Vegas, 
average lot size has been steadily declining. Since 1990, the 
average lot size for new single-family homes in Las Vegas is 
approximately one-eighth of an acre.
    Depending on how one defines sprawl, Las Vegas may or may 
not be a sprawl city. But is it a smart growth city? That 
depends, in part, on how the city's residents perceive their 
quality of life. Based on a 1998 survey, 50 percent of our 
citizens are concerned with the effects that growth is having 
on their quality of life. More than two-thirds feel the pace of 
development is a contributing factor. Sixty-two percent of our 
citizens support implementing smart growth measures, while only 
9 percent want to stop growth. People appear to appreciate the 
benefits of growth, while looking for strategies to minimize 
the negative impacts on their quality of life. Eighty percent 
believe a regional planning agency would be most effective in 
addressing growth issues.
    According to our 1999 Quality of Life survey, the 
attributes having a positive effect on quality of life are fire 
protection, libraries, shopping opportunities, parks and 
recreational areas, climate, and police force. In general 
quality of life overall ratings, based on a survey of citizens, 
65 percent rate our quality of life as good to excellent; 29 
percent, fair; 5 percent, bad; and 1 percent, very bad.
    Those attributes that give our citizens the greatest 
concern are traffic congestion, water quality, crime rates, air 
quality, and cost of health care.
    Las Vegas may exhibit growth patterns that some experts 
would consider to be inconsistent with smart growth. For 
example, there is some evidence that our development pattern 
creates pressure on at-risk neighborhoods. As a result of rapid 
growth at the edge of town--some 71 percent over the last 4 
years--the majority of public and private resources are being 
drawn away from our older neighborhoods. Others would argue, 
however, that these low-income transitional neighborhoods offer 
housing opportunities for folks to get a leg up on the economic 
ladder.
    This is why the City's new comprehensive plan will focus on 
downtown and urban core areas. At the direction of the City 
Council, the plan will enhance the quality of our daily lives 
while continuing to accommodate growth and change in new and 
creative ways. This public planning process will refocus city 
policy toward encouraging infill development and downtown 
redevelopment. This is the logical thing to do.
    Our new plan will focus not just on what goes where, but 
how it all goes together and what it looks like. Urban planning 
and urban design will become increasingly important as we 
mature into a 21st century city.
    Nothing is more important to me and my new administration 
than revitalizing downtown. We must make our citizens proud of 
downtown again. We will strive to build a new downtown that 
includes entertainment, shops, cafes, and new residential 
neighborhoods.
    Now, the great opportunity exists to build an exciting new 
sports arena and related facilities right downtown. Steve Wynn 
has told us that he will bring a major league sports team to 
town if we can deliver a new stadium on the Union Pacific site. 
We will be very careful to make sure that the new development 
enhances existing downtown development and is linked to mass 
transit.
    In the next decade or so, we will run out of buildable 
greenfield lands within our city. This is a fact; we are 
landlocked. We must now begin to incorporate new residential 
opportunities within the older, urban core of our city. This 
will encourage vitality and diversity. If the city of Las Vegas 
wants to continue to grow, it must begin to look inward for new 
development opportunities.
    A truly successful downtown must include thousands of units 
of new housing, and also integrate daily shopping needs, like a 
supermarket, within easy walking distance. We must build new 
downtown neighborhoods oriented toward making a truly urban 
lifestyle.
    You know, we have folks moving from all over the Nation and 
the world to join us here in Las Vegas. We must strive to build 
a world-class city that serves our diverse population and 
provides for all their daily needs and big expectations. 
Families move here for the climate, for good-paying jobs, for 
affordable housing, and for the low cost of living. But what 
else is missing that we need to strive for? Better schools, 
more parks, a performing arts center, maybe even an art museum, 
to name a few. At the same time, we must revitalize our older 
in-town neighborhoods by finding ways to empower our citizens 
to take control of their streets and neighborhoods. Some of our 
strongest communities reside within our oldest neighborhoods 
surrounding downtown Las Vegas. We must encourage young 
families and professionals to return to our urban 
neighborhoods. This will strengthen our inner city and lessen 
our dependence upon building new infrastructure. This will help 
free up our capital budgets for building parks, playgrounds, 
community centers, and walkable streetscapes lined with trees.
    Wouldn't it be great to be able to walk to a bookstore or 
ice cream shop after dinner? Shouldn't our kids be able to walk 
to school, or to the movies on Saturdays, without having to 
cross six or eight lanes of traffic?
    The city must encourage the public and private sectors to 
work hand-in-hand to devise one seamless mass transit system 
for the whole Las Vegas Valley. This is good for downtown Las 
Vegas, and good for the Strip resorts and Clark County. And 
thanks to you, Commissioner Woodbury, for your efforts. The 
city will also begin to look at redevelopment opportunities 
surrounding our future fixed guideway transit stations. We can 
imagine new monorail stops surrounded by shops and cafes, 
townhouses, lofts, and courtyard apartments.
    Why can't we continue to upgrade our system of roads and 
highways, and also begin to mingle our land uses so that some 
folks can live and work in the same neighborhoods? Why can't we 
become less dependent on our cars and offer other 
transportation alternatives that are good for our environment? 
Do we need to pave our way out of our transportation problems?
    The city supports the design and construction of a high- 
speed train linking downtown Las Vegas to Los Angeles. This is 
good for our downtown businesses and good for our citizens. It 
is important that Las Vegas optimize its role as a tourist 
destination, advance its position as the hub of southwest 
development, and serve as a model city for sustainable 
development patterns.
    In conclusion, Mr. Chairman, I would say that the city of 
Las Vegas is not the poster child for sprawl. We are clearly a 
young, vibrant, 20th century frontier town built around the car 
and technology. And--I must emphasize this point--we are 
determined to take the actions necessary to mature into a 
world-class city for the 21st century. Las Vegas is 
unquestionably the most exciting city on the planet, and I am 
very proud to be serving as its new Mayor.
    Thank you very much.
    Senator Reid. Commissioner Woodbury?

STATEMENT OF BRUCE WOODBURY, CHAIRMAN, SOUTHERN NEVADA PLANNING 
                           COALITION

    Mr. Woodbury. Thank you and good morning, Senator Reid, 
Senator Bryan. Thank you for this opportunity to participate 
and thank you for all that you do for our community.
    My name, for the record, is Bruce Woodbury. I am currently 
the chairman of the Clark County Board of Commissioners. 
Additionally, I also currently serve as the chairman of the 
Regional Transportation Commission and the new Regional 
Planning Coalition. All of our cities and the county are 
represented on these regional boards, and I am happy to know 
that my friend, Mayor Goodman, is a member of each of these 
boards, and I look forward to serving with him. I know that he 
will be an outstanding public servant.
    The focus of my remarks today will be on how we in the Las 
Vegas Valley have come to understand that maintaining a 
vibrant, livable community, a growing, sustainable economy, an 
efficient transportation system and a healthy environment are 
issues that are all closely tied to one another. Given this and 
the fact that these issues affect all aspects of our community, 
we understand that a regional problem-solving approach is 
necessary to each of these issues.
    We will hear today from a number of our colleagues in local 
government about all that we are attempting to do, working with 
our citizens, to meet the challenges of providing a high 
quality of life in the fastest-growing community in America. 
Others will talk about land use, community planning, water, 
transportation, and so on. I've been asked to focus chiefly on 
that which is fundamental to us all, the quality of the air 
that we breathe.
    It is well known that we have struggled in recent years 
with two pollutants, carbon monoxide and inhalable 
particulates, like PM10. We are confident, however, that our 
local efforts will result in air quality that meets all of the 
nationally established standards.
    While recognizing that we need to do a good deal more in 
this area, and that efforts are ongoing, we also need to 
recognize that through a combination of our local efforts and 
partnerships with our Federal and State counterparts we have 
made substantial progress in important respects. Despite the 
effects of explosive growth, I want to touch on just a couple 
of representative examples in this regard.
    In the recent past some of us have been involved with two 
locally created consensus-based efforts to define for ourselves 
the sources of our air quality problems and to find the best 
methods of addressing them. We have established the Clean Air 
Task Force, and then our Clean Air Task Force II, which came up 
with a Clean Air Action Plan in two stages, with over 140 
recommendations, most of which have been implemented or are in 
the process of being implemented.
    We have some charts that we are furnishing, and you can see 
from chart 1 that the recommendations have included, as 
examples, more stringent controls on automobiles and diesel 
trucks; use of cleaner fuels; aggressive regulation of 
construction sites; very strong regulations pertaining to 
industrial sources; fireplace controls, as well as mass transit 
improvements and locally funded regional transportation 
facilities. Currently, we are looking at additional major 
improvements in mass transit and a strong public-private 
partnership to build a fixed guideway system.
    Everyone knows that traffic jams and pollution go together. 
The Regional Transportation Commission and NDOT have been 
working together, with the help of you Senators and the 
Congressional delegation and the Federal agencies, to fund 
significant expansions of important roadways and highway 
systems, including improvements to the Spaghetti Bowl and the 
widening of I-95. And as indicated by you, Senator, Clark 
County is funding a 53-mile beltway solely with local tax 
dollars. These improvements in transportation infrastructure 
will reduce carbon monoxide and improve our air quality.
    I mention these programs because they show that in Clark 
County, all of the local entities are willing to take strong 
local action without the necessity of mandates, and therefore 
need to be able to chart our own course in meeting the 
environmental and transportation needs of this community.
    As you can also see from chart 2, despite our significant 
growth, we have made substantial progress in meeting the carbon 
monoxide standard. We believe that with additional diligent 
local efforts, and through our continued partnerships with our 
Federal and State counterparts, we can meet both the carbon 
monoxide standard as well as the PM10 standard. We think this 
can be done through a combination of cleaner fuel requirements, 
more motor vehicle emissions testing, regional dust control 
programs, and improvements in our transportation and mass 
transit infrastructure.
    We do, however, need your help. We would hope that Congress 
would understand the need to keep Federal funds flowing to 
areas struggling to meet air quality standards. Additionally, 
we believe that the Tier II tailpipe standards proposed by the 
EPA are important in meeting our goals.
    Certainly, we believe that local government is best suited 
to make important decisions about air quality improvement 
measures and priority transportation issues. Federal 
intervention, as compared with cooperation, is almost always 
unwarranted, time-consuming, and counterproductive. Many here 
will recall that the Board of County Commissioners decided in 
1998 to accelerate construction of the Beltway around Las 
Vegas. W learned that the fastest way to move ahead with this 
project was to ``de-Federalize'' it. While there were many who 
were skeptical, we worked successfully with the Federal Highway 
Administration to regain local autonomy over the project. 
Working with our own Public Works Department, in partnership 
with the cities, we have opened eight miles of southern 
Beltway, and early next year we hope to complete the entire 
southern segment and be well under way with the western and 
northern segments of the Beltway, and we plan to complete the 
initial facility by 2003, which is 10 years ahead of the FHWA 
timetable. This should be of tremendous benefit, not only in 
terms of our transportation, but our air quality issues.
    Finally, we want to proactively work to prevent ozone and 
fine particulates from becoming serious problems in the Las 
Vegas Valley. We would like very much to see changes in the 
Federal EPA regulations that would allow us to use cleaner 
fuels before the area exceeds the standards in question.
    Senators I appreciate this opportunity to provide local 
perspective on this important issue. I also would be happy to 
entertain any questions that you might have.
    Senator Reid. Mr. Richard Bunker, President of the Nevada 
Resort Association?

     STATEMENT OF RICHARD BUNKER, PRESIDENT, NEVADA RESORT 
                          ASSOCIATION

    Mr. Bunker. Mr. Chairman, Senator Bryan, I would like to 
request that my comments be submitted for your record. I would 
like to digress from those comments for just a moment to 
express to you, Senator Reid, my appreciation and the 
appreciation of this community for your efforts on the Colorado 
River. Were it not for those efforts, I am afraid that today 
our discussion would be entirely on the lack of water in the 
Las Vegas Valley; but because of your efforts, we are happy to 
be on the road to a water supply that will take us well into 
the next century.
    And Senator Bryan, I would like the members of our 
community to know of the great effort that you have provided to 
the gaming industry, starting with the employee meal issue, 
dealing with the Internal Revenue Service and the Department of 
the Treasury. Without those efforts, our industry would have 
been significantly damaged. To you we express our great 
appreciation. Thank you very much.
    Senators if my thoughts today are heard because of who I 
represent, I hope you understand that they are driven by my 
love and affection for this community. I have lived in southern 
Nevada for my entire life, growing up here as a boy. My 
children and grandchildren call southern Nevada home. I know, 
Senators Reid and Bryan, you share my experiences in growing up 
in a small desert town, going to school, on to college, all the 
time watching the town grow into a city and then a thriving 
metropolis with now more than 1.1 million people.
    For most of all that time Las Vegas was the most livable of 
communities. We were an enviable blend of the best aspects of a 
small town and the amenities more closely associated with big 
city life. We had a sense of being a small town wherein 
everyone knew each other and cared for each other. But we had 
the luxury of living amid the excitement that can only be found 
in the ``Entertainment Capital of the World.'' And the success 
of our unique brand of resort community has led to incredible 
economic prosperity. In the last 10 years the number of 
tourists visiting Las Vegas has gone from a little more than 17 
million people per year in 1988 to 30.6 million in 1998. Hotel 
space has nearly doubled in a similar time period, going from 
61,000 rooms in 1988 to more than 106,000 by the end of 1999.
    Those millions of visitors, tourists, and conventioneers 
have increased taxable resort revenues by nearly 100 percent, 
going from $6 billion in 1990 to $11 billion last year. 
Furthermore, investments of billions of dollars have gone into 
new megaresorts such as the Mirage, which started it all, to 
our most recent examples of Bellagio, Mandalay Bay, and the 
soon-to-be-opened Paris.
    As you can well imagine, very much like other communities 
which have experienced exponential growth, the issues quickly 
turn to those of livability, as infrastructures become 
strained, social schisms begin to emerge, and environmental 
consequences begin to be felt. The shadows cast by growth and 
prosperity are always economic, social, and environmental. In 
Las Vegas, at least, these consequences have been held to a 
minimum, in large measure due to the resort industry.
    The resorts are more than just the sum of concrete, steel, 
casino tables and slot machines; they are the product of 
creativity and, more importantly, commitment to this community. 
The resorts are where hundreds of thousands of Nevadans work 
each day. According to a recent report by the University of 
Nevada, Las Vegas, the hospitality industry employs more than 
300,000 Nevadans directly, an increase of nearly 50 percent in 
the last decade. Not only do these jobs provide livable incomes 
to hundreds of thousands of new Nevadans, they provide some of 
the basic social needs in the form of health insurance and 
pension benefits. The impact is staggering, with nearly one of 
every three adults you meet employed directly by the tourism 
industry and many more employed as a result of the economic 
expansion and diversification made possible by this flourishing 
industry. That prosperity has been an economic success story 
which is the envy of the country. And the industry I represent 
is justly proud of the role we play.
    We do far more, however. Due to Nevada's tax structure the 
gaming industry provides the backbone for all State and local 
finances. As all of you know Nevada does not have a State 
income tax, or other broad-based revenue generators. The taxes 
levied on the gaming industry provide more than $22 billion in 
Federal, State, and local taxes, and account for nearly 50 
percent of Nevada's general fund budget. Moreover, our 
customers contribute to the sales, gasoline and other user-
based taxes.
    As strong as our industry is and as large as our 
contribution is to State and local finances, there are public 
needs still not being met. In education--kindergarten through 
12th grade and higher education--and in the public health 
arena, programs are still underfunded. Many infrastructure 
needs still exist. As public officials all of you know that 
there is never enough revenue to fund the many legitimate, 
worthy public programs. But you also realize that equity must 
exist in how the tax burden is distributed. Herein lies a 
quintessential shortcoming in Nevada's system.
    Whereas the economic base has diversified, that 
diversification has not been visible in the distribution of the 
tax burden. Governor Guinn has taken the lead and is in the 
process of a top to bottom review of State spending to ensure 
that public funds are being spent wisely, efficiently and 
within the priorities he and the State Legislature have 
determined. The Governor has indicated that he will also review 
State finances--who pays the taxes and who doesn't. As I stated 
earlier, an examination of our State revenue picture will 
reveal that the gaming industry is more than meeting its 
obligations to our community. I also believe that this 
examination will reveal that other sectors of the economy are 
virtually escaping responsibility.
    We in the resort industry have met our obligations. Over 
and above our tax contribution, we have directly invested in 
meeting environmental challenges and social and cultural 
demands that have confronted our hometown. We have always been 
the first to step up to the plate--not the last to bat. We will 
continue to provide good jobs with the necessary healthcare and 
retirement benefits to our employees. As we watch the funding 
debate, we in the resort industry will be particularly 
interested in how any new burdens, if they must come, will be 
apportioned. If fairness and concern for the health of our 
economy drive this debate we would expect that new burdens 
would not be added to those businesses which already pay the 
lion's share of today's taxes before those enterprises escaping 
the tax collector are asked to match our contribution.
    As this committee examines the question of what makes a 
livable community, I would suggest that the bedrock of any 
community that calls itself livable is a sustainable, growing 
economy which provides good, solid jobs. Without that 
stability, we cannot ever hope to address our social and 
environmental challenges. The time has come for those sectors 
of our economy who so richly share in the prosperity and who 
desire the same ``livable community'' to accept the 
responsibilities that are rightfully theirs to share as well. 
Thank you very much.
    Senator Reid. Thank you, Mr. Bunker.
    Mayor Goodman, I was impressed with your view as to the 
need to revitalize downtown Las Vegas. For those of us who have 
worked down there and seen the problems develop, you are 
absolutely right in your description of how the town has kind 
of changed.
    Give us some of your preliminary thoughts as to what can be 
done to revitalize. You have talked about the gray idea; I have 
been an advocate of this for years, but I don't think we've had 
the population base to do it before. But that's the sports 
arena; you've talked about that.
    What are some of the other ideas you've had at this early 
stage of your administration to revitalize downtown?
    Mayor Goodman. Mr. Chairman, I believe that the most 
important thing that the downtown can provide is a center for 
social discourse, something that has been missing in Las Vegas. 
I have lived here for 35 years myself, and I have found that it 
hasn't been a community where people have been able to get 
together. I envision that downtown will become that type of 
community where we will have coffee shops, art stores, 
galleries, music stores, tree-lined streets, places where 
people can get together and have discussions about things that 
are important in life--philosophical, governmental, and 
otherwise.
    In order to do that, redevelopment is necessary. We are 
going to have to have affordable housing downtown, and we are 
going to have to entice businesses to come downtown and take a 
risk with us that, in fact, that dream can become a reality. I 
intend, with the help of the council and the help of staff, to 
entice ``clean'' businesses, nonpolluting industry, Silicon 
Valley type of businesses into downtown Las Vegas. We will be 
able to have brainpower infused in our community, bright 
people, folks who are interested in seeing the community grow 
and who will help us with the tax burden that Mr. Bunker has 
alluded to.
    It is going to take a concerted effort on the part of the 
citizenry who are responsible for enticing those businesses to 
get those folks down here. And it is going to be a community 
effort, Chairman Reid; it cannot be done by the city alone. 
Smart people look for certain things when they are going to 
move into a new community. Smart people want good schools. So 
the school district is going to have to step up and get 
involved in providing an educational system that will be 
satisfactory to smart people coming here to Las Vegas. The 
university is going to have to work together with these 
businesses in order to give them the backup. I have been told 
that cities like Atlanta have actually gone to MIT and to 
Harvard and solicited professors to come down there in order to 
get a chair established so that businesses such as Silicon 
Valley businesses will move to Atlanta.
    Las Vegas is the greatest town in the world. It is the best 
city in the world. There is no reason why we shouldn't have 
those businesses here. There is no reason they should be going 
to Tucson and to Scottsdale, to Atlanta, and to Salt Lake City. 
They should be coming here to Las Vegas. And it is part of my 
vision, and my mission, and my goal to have them here.
    Senator Reid. Two thoughts I would have. First of all, 
taking from your prepared statement, you used the word ``urban 
lifestyle.'' And that is something that is really unheard of in 
southern Nevada. But there are places that have really done 
well with an urban lifestyle. Across the river from the 
District of Columbia is something that is called Crystal City. 
It is an urban lifestyle; it is a congested area where people 
live together in high-rises and other types of apartment 
complexes and condominiums. That's urban lifestyle.
    I was in Florida doing some work and visited one of my 
friends who lives in a condominium. I was really impressed with 
it. That is truly urban living. But that is a lifestyle that 
some people in southern Nevada, if they had the opportunity, 
would take advantage of.
    The other thing I would like to say, Mayor, is I have been 
very impressed with Dr. Moore of the community college. I was 
out at the Charleston campus yesterday. But, I wish I had 
thought of it yesterday, I would have asked him, and I think it 
is something that you and the council should get involved in, I 
think we need a community college campus in downtown Las Vegas. 
I would hope that you and the council would really press Dr. 
Moore that there are people who would love to be able to take 
some courses in downtown Las Vegas. People live down there, 
people work down there, they could go very conveniently after 
work rather than drive up to the Cheyenne campus or up to the 
Charleston campus. So I that think that would also be something 
that would really add a great deal to downtown Las Vegas.
    Senator Bryan, I used my 5 minutes. Your turn.
    Senator Bryan. Thank you very much, Mr. Chairman. I am 
delighted to welcome Oscar as the new Mayor. He and I had a 
relationship some years ago when we were partners, and we are 
going to be partners again, Oscar, at a little higher level, 
and I look forward to that relationship.
    Mayor Goodman. Thank you.
    Senator Bryan. Bruce Woodbury and I grew up here, and it is 
always nice to see Bruce.
    And Richard Bunker probably is the only person here that 
may be a bit longer in the tooth than I; by that I mean, he has 
lived here longer than I have and is just a couple of years 
older.
    I have just a single question to ask, Mr. Chairman, because 
I know you have got a full agenda. In the relationship between 
the Federal Government and State and local Governments, there 
has always been a dialog in terms of what is the appropriate 
role for the Federal Government, State and local Governments. 
That dialog has changed in recent years and Senator Reid I 
think sounded an appropriate theme when he used the word 
``partnership.'' In legal terms, we are not talking about a 
master-servant relationship, we are talking about entities who 
have responsibilities that are specifically within their 
province or jurisdiction or authority.
    My question to each of the local witnesses, Mayor, Richard 
Bunker, and Chairman Woodbury, is that if you had a wish list 
of those things that you would like us to do, those things that 
you would like us not to do, tell us what you think we ought to 
do or not do at the Federal level in terms of working on this 
concept of providing a community that is livable and a 
lifestyle that all of us want.
    As you, Mayor Goodman, described your concept of this urban 
center, I am sure the thought occurred to Chairman Woodbury and 
Richard Bunker that that is the community we knew and grew up 
with. That is the way it was. That was the urban center. And it 
is a real challenge, and I admire you and your administration 
in terms of your commitment. But just tell us, each of you, 
what would you like us to do? What would you like us to refrain 
from doing? If you have got a list, if you want to submit that 
to us later, I am sure Senator Reid will open the record so 
that we will give you an opportunity to do so.
    Mayor Goodman. I guess I will start off since I am the baby 
of the group here. Having been in office for about 10 days, I 
think the magic word is money. I have to familiarize myself, 
and our city manager, of course, is well aware of the moneys 
that are available. I hope that we can squeeze every Federal 
cent out of you and get it here into downtown Las Vegas, every 
cent that is available. I am going to look at that very 
carefully because it would be a shame if there were money there 
that could help us with solving all the problems that we have 
here. Where we could use that money for the redevelopment 
process, I would hope that it will be made available to us.
    Senator Bryan. Oscar, anything else on the wish list? 
Money, that's legitimate. Anything else?
    Mayor Goodman. At this point in time, I'm going to defer to 
my colleagues.
    Senator Bryan. OK. Bruce, I know you echo the Mayor's view 
that money is helpful. I know it is fungible; it can be used by 
both the city and the county, as I understand the way that 
concept works. So I am sure you will want to add a note there.
    Mr. Woodbury. Thank you, Senator. I think we could probably 
sum up our wish list in terms of unlimited resources that you 
would provide and unlimited autonomy and flexibility that you 
would also give us. We know that is not necessarily in the 
cards. But we do think, and I think we share with you the 
feeling, that local communities need to have autonomy, they 
need to have flexibility. No two communities are alike. There 
is no other community in the world like the Las Vegas area, 
like Clark County, Nevada. We need to be able to have local 
solutions, working with our local citizens on issues that 
confront us.
    With regard to issues like air quality, I mentioned that we 
now feel some constraint in that we would like to be able to at 
least consider using certain types of cleaner fuels in our 
community, yet we are being told by EPA that our air is not 
dirty enough yet in some respects to be able to use that 
cleaner fuel. Well, we would like, of course, to be able to 
keep it from deteriorating to that effect and have the 
flexibility that other communities have that have been 
considered more serious in nonattainment to use some of those 
solutions now rather of waiting until the problem gets worse.
    With regard to issues like transportation, you have both 
been great champions for our community in providing Federal 
funds, both for our highway and our freeway system, but also 
for mass transit. We have an authorization for a very 
substantial amount of money for our fixed guideway system. We 
would like to be able to have the flexibility of forming a 
public-private partnership. As you know, the private sector 
here in the community, members of the resort community that 
Richard represents have stepped forward and are working with us 
to provide a monorail system, and they are talking about 
expanding it. We would like to be able to use the Federal funds 
enablement and work with the private sector to consider some of 
the private sector contributions as part of the local match and 
make this not only a public-private partnership, but a Federal-
local partnership in a railway recognizing our local needs that 
are somewhat unique.
    Senator Bryan. That's very helpful. Thank you.
    Richard, you have a private as well as a public sector.
    Mr. Bunker. Senators, the biggest thing that comes to my 
mind is that local government of ten, 20 years ago was very 
reliant on the Federal Government for financing and for funding 
of projects, and, because of that, there was a lot of Federal 
control. Well, as you well know, in the last 5 to 10 years, 
that is not the case anymore. The best example I can think of 
is the $2 billion project that these communities in southern 
Nevada have entertained to develop the water infrastructure. 
Unfortunately, the bureaucracies have not recognized that they 
are not still funding a lot of the things that are going on in 
local government. And because of that, they become sometimes a 
problem to deal with.
    Now, I would suggest this to you. Nevada, historically, as 
you have recognized, has always been small; we haven't had a 
lot of people. We have had to depend on our congressional 
delegation. And it is only here in the last few years that we 
have had sufficient seniority that we have been able to do 
those things. And as I reiterated at the beginning, your 
opportunity to bring the bureaucracy to the bargaining table on 
things such as employee meals and things of that nature have 
been critical to us. Those things have been very important 
because by ourselves many times we have not been able to do 
that. Senator Reid, the same way on the Colorado River.
    And with the proliferation of gaming around the country, we 
know that we are now on everyone's radar screen. You know what 
the exercise is; you come up with a pet project, the first 
thing you have to do is isolate and determine where the money 
is going to come from to take care of the project. And so, in 
those areas, we think there is tremendous opportunity for this 
type of comity to exist between local government, the 
businesses, and the congressional delegation, because we feel, 
at least I feel, that you are our access to the Federal 
bureaucracy which many times we have difficulty in dealing 
with.
    Senator Bryan. Thank you very much. And Mr. Chairman, thank 
you very much.
    Senator Reid. We are going to miss tremendously Senator 
Bryan's position on that Finance Committee. As you know, we 
have no one in the House on the Ways and Means Committee. And 
with, as you have said, every pet project that comes up in 
Congress, they look for an offset and they are looking very 
closely now at gaming. That is a real problem for us in the 
future. For other than the personal reasons for Senator Bryan 
leaving the Senate, that is certainly a governmental reason 
that we should all be concerned.
    A couple of things. First of all, I hope everyone saw the 
newspapers today. Newspapers around the country are talking 
about the fact the Federal Government is going to join with 
local Governments in attempting to do something about diesel, 
the busses and the trucks spewing out all the garbage that they 
do. You will see in the newspapers today a graph that shows the 
limited number of vehicles but the huge amount of pollution 
that they inject into our environment. I would hope that 
county, city, and State Government would join with EPA in 
working to do away with that. It would make pressure on 
automobiles much less because, certainly, diesel fuel vehicles 
have not done their fair share.
    Finally, Administrator Fernandez, I would like you to talk 
to us a little bit about the Access to Jobs Program. And also, 
if you would, be specific about what the administration's 
Livability Program agenda is, in relatively short fashion if 
you could, because I know the Livability Program is something 
you have worked hard on.
    Ms. Fernandez. Thank you very much, Mr. Chairman. I will be 
glad to do so. The Access to Jobs Program was created following 
the welfare-to-work Welfare Reform Act. The intent was to 
identify funding that would be made available to different 
communities, to what we call urban areas, non-urban areas, 
which are under 200,000 population, and rural areas, to 
institute programs that would provide transportation services 
to individuals who were making a transition from the welfare 
rolls to payrolls. The Access to Jobs Program, this past few 
months we made our announcement of several grants that were 
made available throughout the country for localities had 
submitted applications, a total of $75 million available 
throughout the country.
    In the President's budget that was submitted to Congress 
for fiscal year 2000, we had asked for an increase in that 
program to $150 million. We are still hopeful that we will get 
that amount because the demand for services, for access to 
training opportunities, for access to child care facilities so 
that the mothers can drop their kids off and get the training 
that they need so they can be productive members of the 
society. It is a very important program. We have developed a 
number of training materials on the program that we have been 
sharing with communities across the Nation to help them 
structure through ``tool boxes'' programs that would help their 
community specifically and also on a national basis help the 
Government work with States on this transition from welfare- 
to-work.
    The Transportation for Livability Initiative is comprised 
of a series of ``tool kits.'' What it is, in fact, is to help 
us demonstrate that transportation contributes to improving the 
quality of life in communities. With that as its intent, we 
have developed a tool kit where we will be organizing a number 
of Best Practices. These are success stories that we have seen 
across the country. We have been able to determine that just a 
small investment in mass transportation funds, just a small 
investment in transportation enhancement funds can make a great 
difference in the quality of life, in the way that the 
community looks, in the way that the community has access to 
town centers, has access to recreation, has access to jobs.
    The tool kit will be a series, as I mentioned before, of 
Best Practices. It would also include a web site and some 
training programs that we are going to be packaging and making 
available to all communities across the Nation so that they can 
take advantage of the Federal funding, and not just limited to 
the Department of Transportation, but identifying the resources 
that are available in other Federal agencies; in Health and 
Human Services Department, the Department of Housing and Urban 
Development, the Environmental Protection Agency, and the 
Department of Labor. All of these departments together with the 
Department of Transportation have a series of initiatives and 
certainly have funding available through grants to make our 
communities livable.
    So it is our intent to compile all this information in a 
series of catalogues, put it into a tool box and make it 
available over the next few months. But immediately, what we do 
have in TEA-21, what was afforded to us in TEA-21 is the 
ability for areas that are over 200,000 in population to use 10 
percent of their formula dollars for transportation 
enhancement; that is, to put in bus shelters, to build 
sidewalks, to restore historic sites, former rail steeples, and 
other things that would add quality of life, not only 
pedestrian pathways but bicycle pathways, overpasses, and 
landscaping improvements. So there are funds today that can be 
made available to improving the quality of life and creating 
the town center concept that all of us are calling for.
    Senator Reid. Is Virginia, is the city manager still here? 
She is probably hiring or firing somebody right now.
    [Laughter.]
    Senator Reid. But I would hope that you would have an 
opportunity to meet with the city manager and the Mayor, if he 
has time, and, of course, anyone at the county level. I think 
while you are here you should certainly be a resource if you 
have time to spend with these individuals, because this is 
really a community where these programs should be of tremendous 
help.
    I would like to thank everyone on this panel for their 
excellent testimony.
    We are going to take about a 5-minute break now. I would 
ask that the next panel would work their way toward the podium. 
Ms. Mary Kincaid, who is the Chair of the Southern Nevada Water 
Authority, will be accompanied by Pat Mulroy, the General 
Manager of the Southern Nevada Water Authority; Mr. Robert 
Lewis, President, Nevada region, Kaufman and Broad/Lewis Homes; 
and Mr. Jacob Snow, the Executive Director of the Clark County 
Regional Transportation Commission. If you will all come 
forward, we will begin this panel in about 5 minutes.
    This committee stands in recess.
    [Recess.]
    Senator Reid. The committee will come to order.
    As most of you know, Mary Kincaid is a member of the Clark 
County Commission, she is chair of the Southern Nevada Water 
Authority. She has had a long history of public service in 
southern Nevada, having served for many years on the City 
Council of North Las Vegas, which is also a rapidly growing 
community. As indicated, she is accompanied by Pat Mulroy, who 
is Executive Director of the Southern Nevada Water Authority. 
And as Richard Bunker said earlier, this hearing today is not 
focused on water. That is tremendous that it is not focused on 
water. And one of the reasons it isn't is because of Pat 
Mulroy, who is one of the leading proponents of water in the 
entire United States. She is a friend of George Miller, who is 
the leading Democrat on the Interior Committee, the Natural 
Resources Committee, as it is now called, in the House. She is 
looked to to testify on various issues around the country 
because of her expertise on water. Southern Nevada has been 
very fortunate to have Pat Mulroy guiding the destiny of water 
in southern Nevada.
    Robert Lewis is president of the Nevada region of Kaufman 
and Broad Home Corporation. He is a local developer and now has 
gone national. Lewis Homes was a family owned business. They 
have done so well and built so many homes throughout Nevada, 
and we expect their good name to be continued even though they 
now have gone national in joining the Kaufman and Broad 
Company.
    The final member of the panel is Jake Snow, the new 
Executive Director of the Regional Transportation Commission, 
the organization that not only runs the local bus system, but 
is also the metro planning organization for all of Clark 
County. Which means that his new job gives him control over 
both highways and transit in southern Nevada. So we are very 
fortunate that he is here today. He comes to the RTC after 
having worked as assistant director of aviation for Clark 
County where he and Randy Walker worked together to build 
Terminal-D and help continue the great airport that we have and 
working under the direction of the County Commission.
    Commissioner Kincaid?

  STATEMENT OF MARY KINCAID, CHAIRMAN, SOUTHERN NEVADA WATER 
                           AUTHORITY

    Ms. Kincaid. Thank you, Mr. Chairman. As you know, I am 
Mary Kincaid and I am a member of the Board of County 
Commissioners. I am here today representing the Southern Nevada 
Water Authority, which I am chairman of. I have lived in the 
Las Vegas Valley for over 50 years and have a great interest in 
what is going on in this community.
    I wanted to thank you for asking me to testify about how we 
have managed our most precious public resource, water. And 
excuse me if I brag just a little bit about the Southern Nevada 
Water Authority because it is truly just a remarkable example 
of how regional cooperation among local governments can produce 
significant results. The member agencies of the Southern Nevada 
Water Authority are the Big Bend Water District in Laughlin, 
the cities of Boulder City, Henderson, North Las Vegas, and the 
Clark County Sanitation District, and, of course, the Las Vegas 
Valley Water District which serves Clark County and the City of 
Las Vegas, and we have representatives from both of those 
entities.
    It was not all that long ago that the municipalities and 
the County acted like they do everywhere else in the west, we 
fought over water. Under the old paradigm, the State Colorado 
River Commission divvied up Nevada's share of the Colorado 
River to each city and water purveyor based upon projections of 
need. As you can appreciate, each entity wanted the most water 
it could get so our ``need'' estimates became somewhat 
inflated.
    Furthermore, because of the time tested water doctrines of 
``first in time is first in right'' and ``use it or lose it,'' 
each water purveyor sought to beat the other to the well, so to 
speak, with the biggest and best plan to quickly use up all of 
our water. Because the town of Laughlin had the lowest water 
right priority, they faced the absurd prospect that in the 
event of a drought on the Colorado, the town's entire supply 
could be lost while the residents of the Las Vegas Valley 
continued to enjoy watering their lawns and washing their cars 
twice a week.
    Needless to say, under such a system the ethic of water 
conservation was almost nonexistent. As we in southern Nevada 
raced toward the precipice of exhausting our then available 
supply, we finally woke up and came to our senses. The 
fundamental principle which we came to realize is that for the 
good of the community as a whole, each of us must surrender our 
water weapons and end the water wars.
    Beginning in May 1989, with the help of a water management 
consulting firm called Water Resources Management Inc., the 
leaders of each city and County water and waste water agency 
began a process which led to the establishment of the SNWA on 
July 25, 1991. During this 2 year process, there were some 
difficult days of negotiation, mediation, and realization. What 
emerged from the process over several months was a new 
paradigm--share and share alike. And this was almost unheard of 
in the water world.
    The SNWA is a regional governmental body which has been 
vested by all of its member agencies with the responsibility to 
manage southern Nevada's water without regard to arbitrary 
jurisdictional boundaries or the old rules which encouraged us 
to squander and waste our most precious resources. We have 
agreed to abandon water right priorities among purveyors. We 
agreed upon a division among the purveyors of the State's 
remaining allocation of Colorado River water. We have developed 
a shared shortage agreement to protect Laughlin and other 
entities. We have agreed to common water conservation standards 
to be applied everywhere. We are pursing jointly additional 
supplies of water which will be shared by all.
    A second significant and important accomplishment was 
enactment by the 1993 Nevada legislature of a new law which 
reconstituted the Colorado River Commission with three members 
from the SNWA. This important reform recognizes that with 
respect to our involvement outside with other Colorado River 
States we are all Nevadans; our objectives should be unified 
into a single strategy for the benefit of southern Nevada.
    Two years later, the 1995 legislature provided yet another 
layer of cooperation by transferring responsibility for the 
southern Nevada water system from the Colorado River Commission 
to the SNWA whose member agencies deliver water directly to the 
customers.
    While these institutional reforms may not appear to be all 
that significant, all it takes is a quick look at the water 
wars which are occurring in California to understand the value 
of uniting in cause and purpose. Our successes have been 
significant. Every entity has enacted far-reaching water 
conservation ordinances which have already achieved a 16 
percent reduction in water use, with a goal of 25 percent by 
the year 2005. We have consolidated our water resources, both 
ground water and Colorado River water, to add in effect an 
additional 300,000 acre feet of supply which will take us to 
the year 2025.
    We have embarked upon the largest water system expansion in 
the country and have amazingly garnered the support of 74 
percent of the electorate of Clark County for a quarter cent 
increase in the sales tax to pay for it. Our new water system 
will provide new delivery capacity sufficient for decades. It 
will improve our water quality and offer greater reliability.
    Again, I want to thank the committee for this chance to 
explain how the SNWA has become a leader in the west in 
managing our water resources. We have proved that with water 
that the whole can be greater than the sum of its parts. Thank 
you very much.
    Senator Reid. We will next hear the testimony of Patricia 
Mulroy, general manager of the Southern Nevada Water Authority.

STATEMENT OF PATRICIA MULROY, GENERAL MANAGER, SOUTHERN NEVADA 
                        WATER AUTHORITY

    Ms. Mulroy. Mr. Chairman, Senator Reid, I am truly grateful 
to be here this morning and to be able to discuss with you a 
subject that comes up quite often--growth and water. And on a 
personal note and for the record, I think it is important for 
southern Nevadans to realize that in many ways our water 
situation is due to your intervention at the Federal level and 
the tremendous help that you have given this community in 
solving its water problems, both in the past and you continue 
to do so in the future.
    There exists a commonly held myth in some of the rapidly 
growing areas of the southwest that growth can and should be 
controlled through the measured allocation of water. Indeed, we 
have all seen the national news magazine stories and the major 
newspaper articles which tell a story of how Las Vegas is 
experiencing blockbuster growth without any regard for its most 
finite resource, water. Well, I am here to tell you a little 
different story. As explained to you by Commissioner Kincaid, 
this community has accomplished water management reforms which 
other States only talk about.
    First, I would like to debunk the notion that you can 
control growth with water. In 1973, the Department of Interior 
had it right when it published the following statement: 
``According to a study prepared for the National Water 
Commission, water development and regional economic growth are 
not necessarily connected. Ample water supplies for agriculture 
and/or municipal-industrial use, the existence of water based 
recreational resources, the availability of low cost 
hydroelectric power, do not provide in and of themselves a 
sufficient condition for economic growth. Furthermore, in some 
situations they may not even be necessarily conditions for such 
growth to occur. Accessibility to major markets, availability 
of quality labor supply, transportation costs and alternatives, 
and climate all play a role in establishing conditions 
favorable to growth. The fact that an ample water supply may 
not, under certain conditions, be necessary for growth is 
indicated by the rapid rate of economic growth in certain so-
called `water short' areas of the west and southwest.''
    In other words, people do not follow water; rather, water 
tends to follow people. Our own experience at the Las Vegas 
Valley Water District is an excellent example of this fact. 
Many will recall that in 1991, after several years of explosive 
growth in population and water deliveries to our customers, we 
reached a point where our current contract for Colorado River 
water was fully committed. On February 14, 1991, the Board of 
the Water District reached the difficult decision that it could 
no longer issue ``will serve'' water commitment letters to 
developers and it imposed a temporary suspension of new 
commitments for water until such time as additional water 
resources could be obtained to meet new commitments.
    As you can appreciate, this suspension was very 
controversial and many in the community called upon us to 
continue making new commitments based upon an expectation that 
we would get additional resources. In this town, that is called 
``betting on the come.'' This course is exactly what California 
has done in recent years and, unfortunately, much to its 
detriment. While we were determined that we could negotiate a 
new contract for more Colorado River return flow water from the 
Secretary of the Interior, both the timing and the amount was 
very much at issue. Ultimately, after many months, a contract 
for Nevada's final allocation of Colorado River water was 
signed and the suspension was thankfully lifted.
    That suspension of water commitments lasted from February 
1991 until March 1992, just over 1 year. One might expect that 
with such a significant time period where no new water was 
available that growth would slow down. Well, that was not the 
case. For the 9 years from 1989 to 1998, the total population 
increased by 67 percent and, fortunately, our water use only 
increased by 52 percent. During the 1 year period of suspension 
and the year that followed, there was no appreciable drop in 
population growth or water deliveries. It is important to 
remember that without our excellent conservation results those 
water use numbers would have been even higher.
    So what happened? In a market economy, the law of supply 
and demand will always rule. When the supply drops and the 
demand remains constant or increases, the value of the 
commodity increases and the need to find creative, cooperative 
solutions with your neighbors becomes an imperative. Yes, 
scarcity challenges the status quo. Shared supplies like the 
Colorado River that in an era of abundance can be managed as 
distinct and separate pieces must now be viewed from their 
totality. Success, just as had been proven in the creation of a 
global economy, rests in creating a larger interlocked 
hydrocommons. As utopian as this may sound to some, the 
creation of the Arizona Water Bank and the opportunity that 
Nevada has to share in that storage capacity bear witness to 
the fact that the impossible is achievable when the need to do 
so is great enough.
    Water cannot and should not be viewed by local, regional, 
or Federal elected officials as a mechanism as control or 
manage growth. It is a vital resource that is required to 
sustain life, and therefore people will always find a way to 
obtain it, even if it means the dissolution of tried and true 
paradigms. Using water as a tool to accomplish a livable 
community would be like trying to sculpt the David with a chain 
saw or paint the Mona Lisa with spray paint.
    I want to commend the local elected officials in this 
community for their recognition of this reality. Growth 
management is an important issue which must be addressed 
through more precise, direct local tools, such as regional 
planning, parks and trails, ordinances to preserve open space, 
common-sense zoning and housing density limits, and agreements 
with the private sector for master plan communities with set 
aside land in advance for the important needs of the public. 
That is smart growth. Thank you.
    Senator Reid. We will now hear from Robert Lewis, 
president, Nevada region, Kaufman and Broad.

STATEMENT OF ROBERT E. LEWIS, PRESIDENT, NEVADA REGION, KAUFMAN 
                      AND BROAD HOME CORP.

    Mr. Lewis. Thank you. Like many of the others speaking 
before you today, I am here not only as one of those involved 
in the growth of our community, but also as a resident enjoying 
a quality living environment for myself and for my family.
    Over the years we have experienced tremendous growth in our 
valley, and with this growth has come strains on our 
infrastructure and changes to our lifestyles. What is 
remarkable to me is how well our community has been able to 
accommodate this tremendous rate of growth. Through the effort 
and cooperation of the public and private sectors, we have 
maintained a thriving economy, improved the quality of life for 
our residents, and turned what otherwise might have remained a 
hostile desert into one of the most desirable living 
communities in the country. We have had to tolerate some 
growing pains along the way, because progress rarely comes 
without some inconvenience. But overall, we have an awful lot 
to be proud of.
    Senator Bryan asked what the prior panel felt the role of 
the Federal Government should be. I would like to offer some 
comments in that regard. The activities of the Federal 
Government in land-use decisions should be those that are 
necessary to enforce the provisions of the Constitution, such 
as those relating to property right, the rights of citizens to 
freely locate, and to protect against unlawful discrimination. 
Further, the Federal Government should continue striving to 
achieve its national priority of providing decent, safe, and 
affordable housing for our citizens. Beyond this, it would seem 
that land-use decisions are best made at the local level. The 
suggestion that the Federal Government should become involved 
in ``smart growth,'' whatever that term means, is somewhat 
frightening to me. Local governments are far better equipped to 
deal with land-use decisions.
    Over the years, the Federal Government has played a 
dominant role in protecting our environment, and for the most 
part the results have been satisfactory. However, it seems the 
time has come to put some balance into the process. Some 
agencies and some regulations have grown to the point of being 
overly burdensome and out of balance with other needs. In some 
cases, opponents of growth have abused the regulatory process 
to further their own agendas. As current regulations are 
enforced and new regulations proposed, I would like to see some 
cost-benefit analysis performed to assure that the burden of 
the regulation does not exceed the benefit hoped to be derived.
    In particular, I am concerned that some of the regulations 
relating to air quality, water quality, waste water treatment, 
wetlands, accommodating the disabled, and protecting our 
endangered species impose costs and time delays way beyond the 
benefits provided. Compliance with overly burdensome 
regulations strains our ability to provide infrastructure 
necessary to accommodate those choosing to move to our 
community, and it diverts our limited resources from more 
beneficial uses. As relates to the housing industry, such 
regulations drive up the cost of housing, thereby denying 
housing opportunities to many families.
    I am further concerned if unreasonable regulations 
adversely affect our ability to attract new industry to 
southern Nevada. Our economy is fragile because of its level of 
dependence on one industry. We need to attract new industry to 
diversify our economy and maintain its vitality. We should not 
allow concerns about attainment of perhaps unreasonable Federal 
standards to discourage industry from locating here.
    Discussions of Federal regulations also brings up the issue 
of unfunded mandates. If the Federal Government chooses to 
impose costly requirements on us, then the Federal Government 
should also be sure that adequate revenue sources are available 
to comply with these requirements. To do otherwise would limit 
the ability of our local governments to provide the other 
infrastructure and services expected from them.
    Since the Federal Government is such a major land owner in 
Nevada, what it does with its land impacts all of us. I am 
happy to see that the BLM will again be selling parcels of land 
in developing areas. A significant impact on the cost of 
providing infrastructure has resulted from the necessity to 
leap frog over BLM parcels. Allowing some of the proceeds from 
BLM sales to be returned to the local governments is a fair way 
to reimburse for the costs of providing the infrastructure that 
enhanced the values of the BLM parcels. I am also pleased that 
BLM will be working with local governments on decisions 
relating to the disposition of such parcels.
    The auction of BLM parcels is a much better choice than 
disposition of land through the exchange process. The history 
of the exchanges seems to be that the government overpays for 
the property being acquired and undervalues the property being 
disposed of. This is not only a bad deal for the taxpayers, but 
also unfair to those who must acquire land in the marketplace.
    An area our industry would welcome help from the Federal 
Government is in regard to tort reform. The housing industry 
throughout the country has been attacked by trial lawyers 
promoting litigation as a means of generating unconscionable 
legal fees. The consequence has been that in many places 
liability insurance is prohibitively costly or unavailable. 
Many builders are unwilling to build attached for-sale housing 
because of a fear of class action suits. The result is that a 
sufficient quantity of affordable housing is not being built.
    A final area of concern I have is the speed with which we 
are able to respond to our growth needs. We are growing fast in 
southern Nevada which means that we need to act fast to provide 
the infrastructure we need to support this growth. We need new 
roads, highways, water systems, sewer systems, and so forth 
built now. To whatever extent the Federal Government can assist 
in providing funding and in expediting the process will be 
beneficial to all of us. Delays are costly both in terms of 
money and in terms of the quality of life for our residents.
    I appreciate the opportunity to testify before you, and I 
will be happy to answer any questions. Thank you.
    Senator Reid. Thank you very much, Mr. Lewis.
    We will now hear from Mr. Jacob Snow, Executive Director of 
the Clark County Regional Transportation Commission.

   STATEMENT OF JACOB SNOW, EXECUTIVE DIRECTOR, CLARK COUNTY 
               REGIONAL TRANSPORTATION COMMISSION

    Mr. Snow. Thank you, Mr. Chairman. Senator Bryan was here 
earlier and he mentioned that he enjoys the dubious distinction 
of being the longest in the tooth of this panel today that is 
testifying. I think despite the fact that Commissioner Kincaid 
and Ms. Mulroy look younger than I am, I bear the dubious 
distinction of probably being the shortest in the tooth today. 
And hopefully I won't find out that I have bitten off more than 
I can chew.
    This is the second day on the job for me in this new 
position, so it is a great privilege and honor for me to be 
here and provide some testimony before you today on livable 
communities. I have lived in a number of places around the 
country and around the globe and this is the place where I call 
home.
    What we are doing at the Regional Transportation 
Commission. Since 1990 we have added more than half a million 
people to our population in southern Nevada. And as a result of 
that, back in 1990 when we wanted to go to work it averaged 
about 16 minutes to get there, and in 1998 that average figure 
has more than doubled; it has grown to thirty-four minutes to 
get to work. Now what are we as the metropolitan planning 
organization, the primary transit service provider doing about 
that issue?
    Well, rather than just tell you, we have a tape that we 
would like to show you to show you what we have done in the 
past. If we could start that tape now, please. I am going to 
show you what we have done in the past and what we are doing 
now.
    This is the CAT bus system that started off in December 
1992. During the first year of operation in 1993, we had 
approximately 13 million people ride the CAT bus system. Since 
then we've grown exponentially, about 35 percent per year. In 
1998, we had more than 46 million people ride the CAT bus 
system. Significant growth. Most of our growth is fueled by 
local demand. Eighty percent of our ridership comes from the 
residential areas and the neighborhoods. That is where much of 
our demand is based.
    Now the Las Vegas strip is a little bit different. It is 
unique in transit in this country that we have a route that 
runs along the strip. It runs 24-hours a day, 7 days a week. We 
have about a million people per month on those strip routes. It 
is a very important source of transportation for us.
    Our CAT fleet, that you see on the screen right here, has 
296 coaches that are fully ADA-compliant. All of our buses are 
equipped with bicycle racks. We average more than 35,000 bikes 
on our busses each month, and that exceeds the averages for the 
ecotopia capitals of the Pacific Northwest, Seattle, 
Washington, and Portland, Oregon. We are very proud of that 
fact, promoting a new modality.
    Now what you see on the screen, this isn't part of our 
fixed fleet, these are the CAT paratransit service busses. 
There is 120 of them, all in compliance with the Americans with 
Disabilities Act. We provide curb-to-curb service for the 
growing mentally and physically disabled population in southern 
Nevada. This CAT bus paratransit fleet runs exclusively on 
compressed natural gas, a very clean burning fuel. It is the 
largest alternatively fueled fleet in the State and that helps 
Clark County meet some of the air quality goals that 
Commissioner Bruce Woodbury was talking about, who is also the 
chairman of the Regional Transportation Commission.
    What you see on the screen now on the right is the bus we 
want you to focus on. That is the CAT Car. It is not really 
part of our fixed route system, CAT CAR stands for Citizens 
Aided Transit Community Access Route, nor is it part of our 
paratransit system; it is kind of a hybrid between the two. It 
runs on a fixed route on a set schedule but it gets off those 
major roadways to provide front door drop-off and pick- up 
service to major medical facilities, like you see UMC here, as 
well as major commercial facilities like the malls, and major 
recreational facilities. We have one route that operates in the 
Las Vegas area, we added one in Henderson last year, we are 
adding one in Summerlin right now. We meet extensively with the 
community to get impact from them and input from them on how 
this service ought to be operated, where it ought to go, and 
how it ought to function.
    We also have some specialty bus services that we provide--
downtown circulator routes, express routes to get across town 
along the strip, and some enterprise zone routes that are 
focused on where the jobs are. And that meets a special niche 
in our community.
    What you are seeing on the screen now are the plans for the 
expansion of the downtown transportation center. That is our 
only transfer hub in our transit system. It is right to the 
west of us. We would like to thank you particularly, Senator 
Reid, for your efforts in TEA-21 in getting a special project 
so that we could look at adding a new transfer terminal station 
on the southern end of the resort corridor. That southern 
transfer hub is in the environmental review phase right now. 
When it is complete we will be able to add a lot of additional 
amenities that we don't now enjoy in this downtown 
transportation facility. It will offer new transfer options for 
the community as well. We are greatly looking forward to that.
    We cannot continue to rely on building roads and putting 
busses on the road to meet our growing congestion and air 
quality concerns. We need to do more. And so for the future, we 
are launching a project called CAT Match Commuter Services. It 
is a transportation demand management program that is designed 
for area businesses and their employees. Through the use of 
computer matching, participants can receive free transportation 
information on convenient carpool, vanpool, transit, biking, or 
walking alternatives. We don't care if they rollerblade to work 
or if they ride their skateboard, just as long as they are not 
one individual in their car trying to get to work.
    We need to provide incentives for people to be able to do 
this successful. Through the use of a club ride card we will be 
able to have employers provide their employees with 
preferential parking onsite discounts from local merchants and 
monthly cash prizes. We think that is a significant incentive.
    We also need to provide incentives for the employers. And 
through TEA-21 there is now the capability for participating 
employers to reduce their payroll expenses by up to 15 percent 
per participating employee. We think that is a significant 
incentive.
    That is what we have done, what we are doing now, and what 
our plans for the future are to reduce congestion and improve 
air quality in southern Nevada.
    In conclusion, Mr. Chairman, you know that in the past I 
have spent much of my career in the air transportation 
industry. There is a gentleman that you know, his name is Herb 
Kelleher, the chairman and chief executive officer of Southwest 
Airlines, and Mr. Kelleher is very proud of the fact and he 
brags that Southwest Airlines, because of their low fares, has 
brought the freedom to fly to the American public. I am here to 
tell you today, Mr. Chairman, that the Citizens Area Transit 
System has provided the freedom to ride for southern Nevadans.
    So many times we see where both parents in the family need 
to work and they do not have access to two vehicles or even one 
vehicle. CAT gives them the freedom to get to work and to get 
to day care. For the tens of thousands of disabled people in 
our community, the CAT paratransit system not only gives them 
freedom, but a new found independence and a feeling of self-
reliance because they do not have to rely on family or friends 
to get them where they need to go. And even with these 
increased commute times that we see today, even for the well-
healed commuter, the CAT system gives an alternative to a long, 
torturous, and difficult commute.
    We do not think that we need to look to the Federal 
Government to solve all of our transportation and growth 
problems. But we do think the Federal Government plays an 
appropriate role in funding transit and transit-related 
infrastructure. And we look forward to continue working with 
you in that regard. We also think there is some merit to 
providing incentives to local governments who promote transit- 
friendly land-use policies.
    That is my testimony, Mr. Chairman. Thank you very much.
    Senator Reid. Thank you very much.
    Ms. Mulroy, former Senator Simon, he retired a year or so 
ago, has written a book on water. He has become kind of the 
world conscious trying to develop the recognition that water is 
so important that wars are not going to be fought in the future 
over land, but over water. To make a long story short, I am 
going to send him a copy of your statement. I think it really 
indicates some of the things that can be done and the fact that 
growth cannot be controlled, generally speaking, by simply 
cutting back the water.
    What you did not talk about, we cut your time down, is what 
has happened in northern Nevada. The Little Truckee River 
supplies the water for the northern part of the State and it 
has not stopped growth up there even though when someone wants 
to build a home they have to come up with water. An acre foot 
of water up there costs as much as $6,000. So I appreciate very 
much your testimony.
    Would you mind sharing with us some of the things that have 
been done to have water consumption decline by as much as 16 
percent in southern Nevada. What are some of the things that 
you have initiated?
    Ms. Mulroy. Yes, Mr. Chairman, I would be delighted to 
share with you some of the successes here in southern Nevada. 
Conservation is a very difficult subject for any community to 
embrace because it means changing lifestyles, it means changing 
attitudes, and, quite candidly, it means changing the ethic of 
an entire community.
    In southern Nevada, we have very much achieved that. The 
local elected officials deserve a huge amount of credit for 
some of the courageous ordinances and courageous measures that 
they have put in place to achieve that conservation. We have a 
four-tiered rate structure, we have ordinances that limit the 
time of day when you can water during the summer months when 
our landscaping eats so much of our precious water supply. We 
have communities that have adopted turf limitations in new 
construction. We are offering cash to our customers for 
removing their grass. We are now going to embark in partnership 
with the Federal Government on a new innovative program to give 
people new washing machines that are front-loaders in order to 
reduce the amount of water that they use in laundering. The 
list is limitless.
    We spend millions of dollars every year promoting water 
conservation in everything we do and in our way of thinking 
here in southern Nevada. The community has stepped up to the 
plate in a miraculous way, both on a voluntary basis and, quite 
candidly, in being supportive of the regulatory measures that 
had to be put in place in order to create a level of fairness 
for everyone.
    Senator Reid. The last thing I would like you to touch 
upon, we hear so much about green space, you were in Washington 
recently doing a television show and on that show you talked 
about the Las Vegas Springs Preserve or Big Springs, whatever 
we want to call it. Talk to us a little bit about that.
    Ms. Mulroy. The Las Vegas Springs Preserve is a once in a 
lifetime opportunity for a generation of southern Nevadans or 
many generations of southern Nevadans to restore and bring back 
the birthplace of southern Nevada. There aren't a lot of 
communities that can actually point to one specific location 
where the community was born and from whence it sprang. Here in 
Las Vegas we have that opportunity.
    There are 180 acres nestled in the middle of urban Las 
Vegas and on that acreage we are going to create a central park 
very much Nevada style with an area designated for a large 
desert botanical garden, with restoring the original ecosystem 
that existed up in that area when it all began many, many years 
ago. In fact, this site goes back to the early Anasazi. If you 
wander the site, you can find arrowheads still lying there on 
the ground untouched, you will find original chimneys from 
ranch houses, you will find original chicken coops. Much of 
what was Las Vegas still remains there very much untouched.
    We will replicate the historical experience of what it was 
like to be in Las Vegas at the turn of the century and to be 
one of the early settlers. It is an experience that the 
community has embraced. There is a foundation that has been 
created that--Janey Greenspun Gail is the chairman of that--
which will by the year 2005, which is Las Vegas' centennial, 
allow the water district board, in partnership with the 
foundation, to give back to Las Vegas its birthplace and allow 
future generations of Nevadans to see where it all began.
    Senator Reid. Thank you very much.
    Mr. Snow, tell us about some of the plans that RTC has for 
the future. You did an excellent job through the presentation 
that we saw on film about what the RTC is now doing. But what 
are some of the plans that you have to deal with growth and 
development?
    Mr. Snow. Thank you, Mr. Chairman. I think I would like to 
answer that question in terms of talking about the letters RTC. 
They stand for Regional Transportation Commission. But really 
the 'R,' in my book, stands for roads. We are looking at a 
policy now where we will be advancing $200 million worth of 
funding to accelerate the construction of the Las Vegas beltway 
and other projects in the principal arterials here in southern 
Nevada. That will be a little bit of a departure from previous 
policy. We are looking at working with Clark County who is 
constructing the beltway and doing that. Now that's the R 
portion.
    The ``T'' I think we could call it transit. We have about 
300 busses on our fixed route system right now. We are going to 
need to expand that considerably. The resort corridor area, if 
you could just imagine three new Maryland Parkways and four new 
Tropicana Avenues going through the resort corridor from 
downtown to the end of the strip, that is what is going to be 
needed in the next 20 years to meet surface transportation 
needs. There just isn't the right-of-way to do that there, so 
expansion of our bus transit system is going to be a major 
mission for us. We are going to need to go from 300 busses now 
to at least double that and then some to meet that transit 
demand. We are also looking, as my chairman of the Regional 
Transportation Commission Bruce Woodbury talked about, and as 
the Mayor of Las Vegas talked about, we are looking at a fixed 
guideway system in this community as part of the equation. We 
are looking at a park and ride lots as part of the equation.
    And then the final component is the ``C'' which really is 
our MPO function, it is community transportation planning. This 
transportation demand management program that we are kicking 
off where we are providing incentives for the private sector. A 
lot of people along the resort corridor don't have I think the 
employee parking that they would like to have. If we can work 
with carpools, vanpools, and transit system to get employees 
into and out of that area, that would be very beneficial. About 
93 percent of the area's population lives outside the resort 
corridor but 50 percent of the jobs are in the resort corridor.
    So that is really our big transportation challenge. So if 
we can work with building roads, with transit, and with 
transportation demand management, getting people out of their 
cars into these ride-sharing programs, then I think we will be 
able to meet the demand, and that is what our plan for the 
future is.
    Senator Reid. I am not going to ask the question Senator 
Bryan did of Pat Mulroy or Jake Snow about what can I do to 
help. You always ask plenty and----
    [Laughter.]
    Senator Reid. So there is no need to invite those 
questions.
    Thank you all very much.
    Our final panel this morning consists of Mr. Tom Stephens, 
Director of the Nevada State Department of Transportation, who 
is here by direction of Governor Guinn; Mr. Allen Biaggi, 
Administrator, Nevada Division of Environmental Protection; Mr. 
Jim Gibson, Mayor of the City of Henderson, Nevada, and also 
chair of the Southern Nevada Strategic Planning Authority; and 
Mr. Jay Bartos, president, Friends of Red Rock Canyon. If you 
would all be seated and make yourself comfortable. We will 
first hear from Mr. Tom Stephens, we will then hear from Mr. 
Biaggi, Mayor Gibson, and then Jay Bartos.
    Would you please proceed, Mr. Stephens.

   STATEMENT OF TOM STEPHENS, DIRECTOR, NEVADA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Stephens. For the record, my name is Tom Stephens. I am 
the Director of the Nevada Department of Transportation. I 
really appreciate the invitation to be here today.
    Growth is the driving issue in Las Vegas Valley, as we have 
heard, and it has been for over 50 years. In the 30 years since 
1970, when the current ``Spaghetti Bowl'' interchange of I-15 
and US 95 was built, the population of Las Vegas Valley has 
grown by over 400 percent. In 1970, Las Vegas, and I'm talking 
about the whole area, was the 115th largest metropolitan area 
in the country, and by next year it will be the 32nd largest 
after passing New Orleans. San Antonio and Indianapolis are not 
far ahead of us.
    As we all know, the main force behind the growth has been 
the expansion of the gaming industry. But it has also been 
encouraged by the extremely favorable business climate in 
Nevada, not only for gaming but for all industries. Las Vegas 
is the most attractive and most modern major city in the world. 
Hundreds of thousands of people walk down its streets everyday 
just to marvel at its architecture. Las Vegas has some of the 
most desirable residential areas in the Nation, and every year 
tens of thousands of Americans move here to retire.
    Many good things have been done to accommodate all of this 
growth. Las Vegas has developed one of the Nation's finest 
water systems, and we just heard about that water system. Most 
of the large residential areas are part of planned communities, 
and urban sprawl has been kept amazingly under control 
considering the unbelievable rate of growth. The foresight of 
requiring dedication of right-of-way for wide boulevards along 
section and quarter section lines until this decade has helped 
Las Vegas avoid the degree of traffic gridlock associated with 
other cities its size. The publicly owned bus system, which we 
just heard about, was not even in existence at the beginning of 
the decade, is now recognized as the finest of its size in the 
Nation. New freeways have been built to the north and east, and 
a beltway is being constructed around the city with local 
funds.
    Yet all is not rosy. Traffic congestion is a daily 
occurrence and commute times have increased dramatically. Air 
quality is a major issue. People living along the freeways are 
demanding relief from the constant noise.
    I represent a highway perspective. First and foremost, I 
would like to thank Nevada's congressional delegation, and 
especially you, Senator Reid, for the support you gave to 
Nevada last year in the Transportation Equity Act for the 21st 
Century. Nevada is now the recipient of $70 million more per 
year in Federal highway funds. This is a 62 percent increase 
over the previous Federal highway funding contained in the 
Intermodal Transportation Equity Act of 1991.
    This hearing is on livable communities. And the question 
today is what the Federal Government can do to help us make Las 
Vegas a more livable community.
    I have five items that I would like to just tick off, 
things I have thought of that maybe we could use more help 
with. That may sound a little ungrateful because you have given 
us so much help in the past, but I won't hesitate to ask for 
more. I will be like the RTC.
    First and foremost, if you can help us speed up our efforts 
to eliminate traffic gridlock by streamlining the environmental 
review process. This streamlining is called for in TEA-21, but 
the process appears to have been bogged down now. Often the 
environmental processes seemed to be used as a way to slow down 
and try to kill a highway project by opponents who have little 
real concern for the environmental issues involved. I think if 
we can identify the true environmental issues and streamline 
this process, we will be far ahead in meeting our growth 
demands.
    Second, make the air quality--and I would like to qualify 
my testimony here--make the air quality testing requirements 
more reasonable so that we can concentrate our resources on 
more important air quality problems. For example, even though 
there have been great improvements in carbon monoxide levels in 
Las Vegas in the last 10 years, and the chart that Chairman 
Woodbury showed demonstrated that, the basin is still 
considered to be in nonattainment because we continue to have 
two or three incidents a year when levels exceed the standard 
instead of at just one single site, not throughout the whole 
valley, but at just one site. The carbon monoxide levels for 
the whole valley are judged on just one location on a couple of 
days a year.
    We should be concentrating more efforts on control of dust 
or PM10, which is a worse pollutant in terms of livability than 
carbon monoxide at just one site. This does not mean that 
carbon monoxide isn't important, but we are getting it down to 
minuscule levels and not paying enough attention to other 
problems which may be more serious.
    Third, streamline the Federal delivery requirements for the 
popular ``enhancement program,'' which includes such things as 
sidewalks, bicycle paths, landscaping, and restoration of 
selected historic buildings, which all improve the livability 
of the community.
    Fourth, remove the prohibition on the use of Federal funds 
to retrofit noise walls along the freeways. This will greatly 
improve the livability of those impacted by freeway noise.
    And fifth, and I am adding this to my testimony, protect 
the preference given to Federal lands States in the 
distribution of the public lands highway discretionary fund. 
This is under attack now in the rulemaking that is going on at 
the Federal Highway Administration with the thought that we are 
going to distribute all the money throughout the country 
somehow equitably. Well, I would suggest to you the west is 
where that money is supposed to be spent and that is where the 
bulk of it should be spent.
    Thank you for the opportunity to testify here today. This 
is an important issue to the Nevada Department of 
Transportation and to everyone who lives in Nevada.
    Senator Reid. Thank you.
    We will now hear from Mr. Allen Biaggi, Administrator, 
Nevada Division of Environmental Protection.

 STATEMENT OF ALLEN BIAGGI, ADMINISTRATOR, NEVADA DIVISION OF 
                    ENVIRONMENTAL PROTECTION

    Mr. Biaggi. Thank you, Senator Reid, and thank you for 
holding this hearing today on growth and livable communities. 
In my testimony this morning, I would like to outline some of 
the tools the State of Nevada has available to assist local 
governments and citizens to make our communities better places 
to live and improve environmental quality for the residents and 
visitors of the State.
    As you are no doubt aware, in Nevada land use planning and 
zoning are primarily county and city issues. Our State 
legislators have wisely recognized that such activities are 
best done at the local level. Consequently, limited authority 
over these issues is granted to State Government. We do, 
however, have certain resources and programs available to 
assist local governments in making these difficult decisions. 
Some of these resources have been in place for some time, some 
are very new; an outcome in fact of the 1999 legislative 
session.
    One long-standing tool is Section 208 of the Federal Clean 
Water Act which has been in place for over two decades and 
contains provisions to address long-term community planning as 
it relates to water quality. In Nevada, a number of 
jurisdictions have taken responsibility for the development of 
these plans, including Clark County Comprehensive Planning, the 
Truckee Meadows Regional Planning Agency for Washoe County, the 
Tahoe Regional Planning Agency for the Lake Tahoe Basin, and 
the Nevada Division of Environmental Protection for the 
remaining portions of the State.
    Section 208 Plans must address municipal and industrial 
waste water treatment needs and priorities of the area for a 
twenty-year period and include alternatives for waste water 
treatment, for land acquisition for treatment systems for waste 
water collection, for urban storm water runoff control, and 
provide for the financial mechanisms for the development of 
such treatment works.
    The planning process is designed as a cooperative effort 
involving local, State, and Federal agencies as well as the 
public. The process is initiated with the preparation of a 
draft waste water management plan which is solicited for public 
comment. Once public comments have been received and integrated 
into the plan, the agency submits it to the State and 
ultimately to the Federal Environmental Protection Agency for 
certification. This plan then controls the issuance of 
discharge permits and other water quality activities including 
the funding of waste water improvement projects from the State 
Revolving Loan Program.
    Most importantly, however, the 208 plan must identify open 
space and recreational opportunities that can be expected from 
improved water quality, including considerations of potential 
land use associated with treatment works. An excellent example 
here in the Las Vegas area is the national award winning 
wetlands area established by the City of Henderson. This unique 
area combines waste water treatment while providing habitat and 
sanctuary for a variety of birds and animals. It is also 
becoming more and more recognized by the public as an area for 
experiencing the unique desert wetlands ecosystems which were 
historically in place in the Las Vegas Wash.
    Clark and Washoe Counties have aggressively pursued the 
planning process to meet growth needs in their respective 
communities. Amendments to these plans have to date been well-
conceived and have limited the water quality impacts of 
continued growth. For another example, the Las Vegas Bay at 
Lake Mead was not meeting water quality standards in the 1980's 
and recreation was limited in that portion of the lake. Through 
the planning process, local agencies designed, at great 
expense, and built upgrades to existing waste water treatment 
plants to improve water quality while at the same time 
expanding capacity to meet the needs of growth. Today plant 
discharges have increased, yet the receiving waters and overall 
water quality have been improved. Because of these 
improvements, the State is now considering modifying the 
beneficial uses in the Las Vegas Bay to include swimming.
    The 1999 session of the Nevada Legislature brought about a 
number of changes related to livable communities planning and 
urban redevelopment. Senator Dina Titus introduced, the 
legislature passed, and Governor Guinn signed into law Senate 
Bill 363, which is commonly called Nevada's ``brownfield'' 
bill, which will be administered by the division to remove 
barriers and encourage the reuse of lands that contain 
environmental contamination. Through this process we can help 
revitalize our urban cores, encourage environmental clean-ups, 
and reduce the need for development of virgin, undisturbed 
lands.
    The 1999 session also passed a series of bills that will 
change the way we approach regional planning in Nevada, 
especially as it relates to air quality. Through the concept of 
regional planning coalitions, a process has been created to 
broadly organize and empower an umbrella planning entity that 
allows cities and counties to jointly work together on 
resource-based issues. Planning efforts of State agencies will 
be coordinated and circulated through these regional planning 
coalitions which are geared to seeking innovative planning and 
development solutions outside the framework of conventional 
planning strategies. This is a dramatic step forward especially 
for air pollution with obviously is transient and does not 
recognize political boundaries.
    These are but a few examples of what we have available to 
assist in making our communities in Nevada better places to 
live from a resource perspective. The Nevada Division of 
Environmental protection and the State of Nevada stands ready 
to assist and help in any way possible.
    Again, I want to thank you and the committee for your 
interest in this very critical and important issue. Thank you.
    Senator Reid. Thank you very much.
    Our next witness will be Mayor Jim Gibson, the chairman of 
the Southern Nevada Strategic Planning Authority.

STATEMENT OF HON. JIM GIBSON, MAYOR, CITY OF HENDERSON, NEVADA, 
   AND CHAIRMAN, SOUTHERN NEVADA STRATEGIC PLANNING AUTHORITY

    Mayor Gibson. Senator Reid, thank you very much for the 
invitation to participate in these proceedings. We recognize 
the important contributions you have made to the southern 
Nevada community during your years of service in the State and 
in the Nation's Capitol.
    As you may know, just last week the U.S. Census Bureau 
announced that the City of Henderson led the Nation for the 
eighth straight year in population growth, with a 135 percent 
increase in population during the decade of the 1990's. It is 
an understatement to say that the City of Henderson is impacted 
by growth.
    I am glad to hear today's speakers discuss issues such as 
air quality, water quality, and transportation. In a recent 
survey of Henderson residents, these regional issues topped 
their list of the top growth-related concerns. As the Mayor of 
Henderson, I can tell you that these regional issues are also 
my top concerns.
    This past decade, we rolled up our sleeves and we tackled 
the issues of growth. Cities in our position know that the 
growth management battle includes radical views and proposals. 
For southern Nevada the battle cry began 3 years ago when State 
proposals to control, or even stop, growth were pushed to the 
forefront of public discussion. We heard calls to place a 
growth restrictive ring around the valley, to dramatically 
increase development fees to slow growth, and even to place a 
moratorium on building permits. Some of these proposals made 
their way to the State Legislature where State representatives 
considered replacing local government authority to manage 
growth issues with State mandates.
    In 1997, the Nevada State Legislature recognized that 
growth is a local issue, best managed by those governments most 
closely connected to its challenges and responsibilities. Led 
by the efforts of State Senator John Porter, a clear majority 
adopted Senate Bill 383, creating the Southern Nevada Strategic 
Planning Authority. The 21-member authority consisted of 
elected representatives from southern Nevada city councils and 
the Clark County board of commissioners along with southern 
Nevada business leaders and residents. They included a broad 
based representation, representatives from Clark County, the 
cities of Henderson, Las Vegas, North Las Vegas, Boulder City, 
and Mesquite, and citizen representatives from each community, 
the home builders, the Nevada taxpayers association, the Nevada 
resort association, the environmental community, minorities, 
labor, chamber of commerce, and the Nevada Development 
Authority.
    The authority members were charged with developing a 20- 
year strategic plan for the Las Vegas Valley. The plan brought 
together a variety of public and private members with strong 
individual interests to reach consensus on both a vision for 
the future of the valley and an action plan to get us there.
    The final product, the Strategic Plan, was presented to the 
1999 Nevada State Legislature. The plan identified 12 areas 
impacted by existing and future growth, and included goals, 
objectives, and strategies to address each of these issues. No 
southern Nevada entity had ever undertaken a comprehensive 
study of this scope from a regional perspective, and the 
recommendations contained in the final plan represent an 
historical and significant local initiative in dealing with 
growth and quality of life issues.
    Throughout this process, the authority members agreed that 
local government handling local problems, with regional 
collaboration on regional issues, is by far the most effective 
solution to sustaining livable communities and enhancing the 
quality of life for our residents. Regional collaboration on 
issues of regional importance became an effective tool for 
addressing issues such as transportation, environment, economy, 
and education.
    Most importantly, we recognized that a cookie-cutter 
approach to individual community standards, such as parks and 
recreation and land-use planning, is not always appropriate, or 
beneficial, as our citizens desire that we continue to resolve 
problems in our communities. For example, I mentioned earlier 
that the City of Henderson residents were satisfied with local 
community standards, but their priority concerns were regional 
in nature. It is clear that the City of Henderson alone could 
not adequately address our residents' top priorities without 
regional collaboration.
    Lead by local governments, business leaders, and citizens, 
the authority's regional effort has received national praise. 
In the 1998 Urban Land Institute's publication ``Smart 
Growth,'' the Southern Nevada Strategic Planning Authority is 
highlighted as a regional approach to smart growth initiatives. 
Locally, many of the recommendations included in the strategic 
plan have already been adopted. One such initiative is the 
creation of the Southern Nevada Planning Coalition, composed of 
elected representatives from local governments whose charge is 
to oversee the implementation of the recommendations included 
in the strategic plan.
    The City of Henderson continues to work proactively in 
addressing our growth-related issues. In a recent agreement 
between the City of Henderson and Clark County, both 
jurisdictions agreed to jointly plan along jurisdictional 
boundaries for consistency in transportation, land-use, and 
future utility siting. This is another first for southern 
Nevada and represents the kind of intergovernmental 
collaboration necessary to meet the challenges of growth while 
maintaining and enhancing the quality of life for our 
residents.
    In reflecting on our accomplishments over the last 2 years, 
we have seen an incredible paradigm shift in how local 
governments interact to address issues of growth. It became 
incredibly clear that disjointed or unplanned growth without 
regard to whether people enjoyed living here in the Las Vegas 
Valley does not serve the public interest. The authority 
members are proud of our hands-on consensus-based approach as 
this diverse group had to learn how to delve into tough issues 
and arrive at decisions together. The challenge we successfully 
faced was to define what quality of life means to the people 
who live here so that the right strategies could be pursued to 
protect and improve our lives.
    In the final analysis, we found that our strategic planning 
process got to the heart of what concerns most cities across 
the Nation, while the debate regarding quality of life issues 
is elevated to a national level. The recent dialog surrounding 
the Administration's Livability agenda hits at the very core of 
issues covered during our 2-year strategic planning process. We 
mirror the Livability agenda's concerns in addressing the 
preservation of open and green spaces, clean air and water, 
safe places for families to work, play, and relax, easing 
traffic congestion, enhancing citizen and private sector 
involvement in planning, collaboration between neighboring 
communities in promotion of economic competitiveness. Our 
desired outcomes are the same--how do we protect and enhance 
our quality of life.
    Our completed strategic plan and its legacy of regional 
collaboration is evidence that these tough issues can be 
resolved locally. Perhaps the authority's strategic plan will 
be useful as a blueprint for local cooperation and solutions to 
effectively address growth. Thank you, Senator.
    Senator Reid. Thank you very much, Mayor.
    We will now hear from Mr. Jay Bartos, president, Friends of 
Red Rock Canyon.

 STATEMENT OF JAY BARTOS, PRESIDENT, FRIENDS OF RED ROCK CANYON

    Mr. Bartos. Thank you, Senator. The Friends of Red Rock 
Canyon, as I am sure you know, is an organization of volunteers 
devoted to the protection of the Red Rock Canyon National 
Conservation Area. Our 200 or so volunteers are there to assist 
the Bureau of Land Management by leading hikes, presenting 
nature programs for adults and children, teaching teachers 
about Red Rock, building and maintaining trails, and a host of 
other jobs. We all come from a wide variety of backgrounds but 
we do all have one thing in common--our love for one of 
Nevada's natural treasures.
    The growth of Clark County is mirrored by the changes at 
Red Rock over the years. For 1,000 years or so the area was 
used by Native Americans for food and shelter. In the early 
days of Las Vegas, some of the area was homesteaded. In 1960, 
as recreational use increased, the State became interested in 
preserving the land, and by the early 1970's a combination of 
State and Federal actions had led to protection for some 62,000 
acres.
    The focus of the area was changed from recreation to 
conservation in 1990, reflecting the need to better protect the 
increasingly popular area. Continued population growth led to 
the expansion of the conservation in 1994 to 195,610 acres 
while there was still something there to conserve.
    There are now well over a million visitors a year and Red 
Rock Canyon is being affected. Just as the increase in 
residents and visitors strains our own local infrastructure and 
our nerves, the ever-increasing use of the roads and trails at 
Red Rock creates strains there. Perhaps more so, because the 
fragile desert is easily destroyed by people who wander off the 
trails in search of ever-elusive solitude. Those resulting 
unofficial trails multiply rapidly, scarring the land and 
contributing to a number of environmental problems.
    Outdoor recreation should provide rejuvenation, a physical 
and mental re-creation, if you will. That becomes less likely 
to happen as more visitors create more conflict. Hikers, 
bikers, climbers, riders all compete for space and a piece of 
nature. As the city creeps ever closer, the numbers of people 
with easy access to the canyon will increase, and, inevitably, 
each person there views his or her desired use of the areas as 
the right and proper one.
    The effects of increasing numbers of people on desert 
plants and animals are often not evident until almost too late 
to reverse. There hasn't really been a lot of research in this 
area, so often things that happen do catch us by surprise. For 
instance, the population of ravens has increased in the Mojave 
Desert as reliable sources of food--people--increase. The 
tidbits they provide will allow the birds to stay around and 
breed more often than they would otherwise. And the young 
desert tortoises, the tortoises being a threatened species 
themselves because of habitat destruction, now find themselves 
under a more direct threat. It takes several years for the 
tortoise shell to harden enough to resist a raven's beak, and 
with more and more of the clever, sharp-eyed ravens about, all 
too many of the young tortoises simply wind up as a quick 
snack.
    Coyotes thrive where people live and are especially happy 
to see well-watered suburbs in the desert. Rather than 
decimating their natural prey, however, they prefer to go after 
something a little slower and a little less clever--our cats 
and dogs. This creates a people versus animal scenario the 
coyotes can only lose.
    In fact, as we know, plants and animals are impacted by 
growth throughout the county, not just in the Red Rock area. A 
proposed conservation plan devised by the county and the U.S. 
Fish and Wildlife Service is designed to allow continued 
development in areas containing threatened plant and animal 
species, beginning with some 79 already on the list. This could 
be a good first step to ensuring that those species do not go 
out of existence, but only as long as funding is adequate for 
proper monitoring. And I might also add that increased funding 
for the Harry Reid Center for Environmental Studies at UNLV, 
whether that money comes from the State, from the university 
itself, or from the Federal Government, would go a long way in 
pointing out prospective problems that could be cutoff before 
they become too impossible to solve.
    Air pollution, of course, is a county-wide problem edging 
ever closer to Red Rock. If you climb Turtlehead Peak on a 
winter's day, chances are you will see Las Vegas enveloped in a 
yellow and brown cloud. With houses and casinos being built 
right to the edge of the conservation area now, how long will 
it be before Turtlehead Peak itself is covered by this same 
air? We have heard a lot today about various programs and 
projects underway to make sure this air is clean and kept 
clean. Well, let's hope that the county, prodded by the 
Environmental Protection Agency, can keep this from happening. 
A greater push toward alternative fuels and better mass 
transit, as we have also heard about today, would be a start 
along that road.
    Any change of direction can only happen if certain things 
come together. Education perhaps is No. 1. People recognize the 
problems caused by growth but too often will just throw up 
their hands in helplessness when faced with solving those 
problems. They just seem too big. Showing that solutions can 
come a step at a time encourages action. In dealing with 
environmental issues, sometimes simply showing how everything 
is connected can open eyes.
    And finally, I think good political leadership is a must. 
The changing emphasis on regional cooperation, which we have 
heard today, again is something that has become more and more 
prevalent over the last couple of years to tackle the many 
regional issues. Too many local politicians remain local; they 
talk a lot about managing growth while doing too little about 
it.
    A 1996 University of Nevada poll indicated that 81 percent 
of southern Nevadans are looking for growth to slow or, at 
worst, stay the same. We have heard today about any number of 
initiatives designed to make our growth smarter. Mayor 
Goodman's inner-city proposal would be one that would greatly 
benefit both the human inhabitants of Las Vegas and the plant 
and animal inhabitants of the county. Hopefully, these and 
others will be successful.
    And Senator, one thing, as long as everyone is here asking 
for money, that you could perhaps initiate is ensuring the 
funding for the BLM, as they manage Red Rock Canyon, is 
constant as more and more personnel are needed that are not 
covered by the fee demonstration program. And also a suggestion 
that the Rainbow Gardens recreation area over on the other side 
of town is kept as a project going full force. And not to 
forget Lake Mead as a national recreation area which is in dire 
need of personnel and all kinds of things that only Federal 
funding can bring. So that would be my only plea for money.
    I thank you for inviting me here today.
    Senator Reid. Thank you very much, Mr. Biaggi. In Reno I 
hear a lot of problems about the ravens. I hear now you talking 
about southern Nevada raven problems. What should we do about 
it?
    Mr. Bartos. I know in the past there has been proposals to 
have a hunting season on ravens, as there has been for crows 
which also present a number of problems. I am not sure what the 
solution is other than that if you are looking toward balancing 
the turtle population, the raven population. As long as there 
are people here, the ravens are going to thrive simply by 
finding those alternative sources of food.
    Senator Reid. I think it would be a real benefit to me and 
I think the Congress if the recreation community would get 
together, that includes the hunters and the people who are 
interested in backpacking and other such things, and try to 
come up with some solutions. For us to do anything with the 
ravens, it is an international treaty that we are talking 
about, that is the reason they are protected.
    Mr. Bartos. I am not sure there is anything we can directly 
do to affect the ravens in that way. But I am happy to say that 
here in Las Vegas, for instance, as the Bureau of Land 
Management was setting forth their new proposal to set how Red 
Rock Canyon would be run in the future, there was a lot of 
cooperation among the various groups.
    Senator Reid. I am talking specifically about ravens, I am 
still on ravens. I cannot remember as a boy in Searchlight ever 
seeing a raven or a crow, I can't tell the difference. But now 
there are lots of them.
    Mr. Bartos. There are lots of them.
    Senator Reid. That is one of the prime desert tortoise 
habitats we have and little turtles get devoured, as you have 
indicated, by these big voracious appetites these big black 
birds have. So you could be a help to us if you could come up 
with some ideas as to what could be done to control the raven 
population.
    Mr. Biaggi, I think one of the things we didn't talk about 
that we should have talked about is the work that you have done 
on the Sunrise landfill. I think that is tremendous. The State 
has worked very hard in trying to come up with some kind of a 
solution to that problem. We are hopeful that can come about. 
Talking about a quality of life issue, I think that is 
certainly one.
    We have this huge landfill up here that should, if it were 
handled properly, be a recreational site. Right now, having 
been there and smelled it, you could not be very close to that 
and keep your lunch down. So I am glad that the State has 
worked with us in trying to come up with a solution to that. We 
thought we had something worked out, as you know, but it didn't 
work out. Maybe the county's most recent solution might work. 
That is up to the county. Otherwise, as you know, the penalties 
are ongoing with the national Environmental Protection Agency.
    Mr. Biaggi. I appreciate that, Senator. I think what you 
are seeing at the Sunrise landfill is where environmental 
protection will be going in the future, and that is a 
collaboration of local, State, and Federal activities to 
recognize and resolve environmental problems. We could not do 
it all at the local and State level and the Federal 
Environmental Protection Agency has become involved. We 
certainly will continue to work with them and their efforts to 
address the problems posed by that facility.
    Senator Reid. You certainly should have a good 
understanding of Nevada Division of Environmental Protection. 
You have been there for almost 20 years, isn't that right, and 
now you are its administrator. So we appreciate your good work.
    Administrator Stephens, a number of our witnesses have 
talked about air quality problems in the valley as one of their 
biggest concerns. In your testimony, you refer to both the 
carbon monoxide and particulate matter, basically dust. 
Referring now just to carbon monoxide, what can the Federal 
Government be doing to help local communities combat this type 
of air pollution?
    Mr. Stephens. I think you mentioned one new step that is 
coming out now is with the diesel. The biggest strides in 
controlling carbon monoxide and air pollution in general has 
been at the source, which is the automobile. The cafe standards 
for automobiles have gone a long way. Now you are doing 
something with diesel. I think you need to look at the sport 
utility vehicles which are classified as trucks and have a much 
lesser standard than the automobile. I think that is where the 
key to this is.
    I think stopping highway construction so that we have giant 
traffic jams is not going to be the method of controlling air 
pollution, at least as far as carbon monoxide is concerned. So 
I think the standards that you set at the source are the best 
way to go after it. But then you also have to look at other 
issues too.
    Senator Reid. We tend to focus on fixed air polluting 
structures. You can look and see the smoke coming out of a 
stack. But we all recognize, or we should recognize that the 
vast, vast, vast majority of the air pollution comes from 
automobiles and trucks and busses. That is why I was so happy 
to read today that there is going to be an effort made to do 
something about busses and trucks. You know, you are behind 
them and they take off and that black stuff belches out. We 
need to do something about that. You would agree with that, 
wouldn't you?
    Mr. Stephens. Absolutely. The legislature passed a bill 
recently to set up a special air quality commission in southern 
Nevada to study the issue, and they talked about the three 
pollutants that you already know the Federal Government 
regulates, carbon monoxide, particulates, and ozone, but they 
also added a fourth, and that is the urban haze issue that they 
are going to take a look at. Of course, that is what most 
people see when they look at the air and that they are 
concerned about. And the diesel I think is especially 
contributing to the visible pollutants.
    Senator Reid. One thing we have not talked about today is 
noise pollution. Tell us a little bit about the sound wall 
project. I worked very hard to get some money for some sound 
walls. But tell me why it is difficult to put up sound walls.
    Mr. Stephens. Well, to start with, they are retrofitted. As 
you know, many of our highways have steep slopes next to them. 
Where would you put the wall? How would you secure the 
foundation? Especially if you are already on a bridge, you 
cannot put a big sound wall on either side of a bridge without 
overloading the bridge. So there are certain restrictions there 
that make it very costly to go in and retrofit sound walls in 
many areas.
    We have a program where we believe that the noise issue is 
not just a highway issue, it is also a land-use issue. If you 
allow subdivisions to go in right next to highways or apartment 
houses without requiring any kind of noise mitigation, I think 
that the people who control the land-use have contributed to it 
too.
    And so we have a program where we have a matching program 
between local communities and NDOT. But at the same time, in 
the National Highway System Act of 1995 there was a prohibition 
against use of Federal money for retrofit of sound walls. We 
are going ahead and doing a retrofit program for Henderson, and 
we were going ahead with State and local funds before we got 
the additional Federal funds that, because it was a specific 
appropriation, got around that NHS prohibition. But the 
prohibition is still there in the law. I think communities 
should have a right to take a look at using some Federal funds 
to do this as well as State and local funds.
    Senator Reid. The last question I would like to ask you is 
tell us what is going on with Interstate 15. I was out here 
today and one of the news channels indicated that I think it 
was next Monday was the 25th anniversary of I-15 being opened 
through the Las Vegas area. As we know, this is the lifeline of 
southern Nevada economy, but also the southern California 
economy. They used to think it was just our problem but when 
their trucks cannot move on the roadways it interferes with 
their commerce also. So tell us what is happening with the 
Nevada Department of Transportation work with California and 
the Federal Government to get the widening projects moving 
along more rapidly, and what else is going on to help travel on 
I-15.
    Mr. Stephens. And that is essential to our economy. The 40 
miles in Nevada from here to Primm, we are working on the first 
seven miles now and should have it widened, this is from the 
airport connector to Lake Mead Drive, should have that widened 
to six lanes total instead of four lanes by the end of the 
year. As you know, the Barstow interchange in California, they 
have been working on that for the past several years and we 
hope this fall----
    Senator Reid. That is the one I missed the plane ride to 
go----
    Mr. Stephens. Right. Yes.
    Senator Reid. That is a little private joke, if Jane Ann is 
still in the audience.
    Mr. Stephens. But we expect that to be open this fall and 
hopefully we will have a dedication ceremony out there.
    Senator Reid. That will be completed this fall?
    Mr. Stephens. Yes.
    Senator Reid. Tell us why that will help the traffic 
between L.A. and Las Vegas.
    Mr. Stephens. That is a big bottleneck right there where I-
40 and I-15 come together in Barstow. Basically, you have got 
two 4-lane interstates that come from the east and all come 
together in Barstow and they are going through a totally 
inadequate interchange, and then they continue on on the other 
side of Barstow as a 4-lane highway. Well, it doesn't take any 
type of a highway engineer or someone of greater intelligence 
even to figure out that when you take eight lanes of traffic 
and run it down to four you have the classic bottleneck. The 
start of the bottleneck is right there where they join together 
and that is what the first project is all about. Nevada 
contributed money to that, and you were instrumental in getting 
a great deal of Federal money to make that project possible in 
the 1991 ISTEA.
    The next project that we have to do is between the other 
side of Barstow and Victorville, where it is four lanes all the 
way. We need to expand that to a six lane highway at least. 
Nevada has offered to contribute $10 million of its Federal 
appropriation toward that project. I think Congressman Jerry 
Lewis got $24 million for that project earmarked in TEA-21. I 
am sure you were absolutely helpful in what was going on with 
that because we contributed some of Nevada's money to that and 
I think you had control over some money going----
    Senator Reid. Is that project going to go forward?
    Mr. Stephens. Yes, that is. But it is going forward at a 
slower pace than we would like, just like the first project 
went through. Because even though this is absolutely critical 
to Nevada, in the whole California scheme of affairs, the 
projects around Barstow and the high desert are not as high a 
priority for them as other urban projects.
    Senator Reid. San Francisco and, yes.
    Mr. Stephens. The other thing is we are working on the 
truck climbing lanes, the design of that, between Jean and 
where we leave off with the six lane portion here, and then we 
are going to go ahead with the entire widening out to Primm. 
For example, just the other day we had a really bad accident 
out there. Now, I don't know whether that would have been 
helped if that had been a six lane road, but there were seven 
people killed. It is a very high accident road both between 
here and Primm and between Primm and Barstow.
    Senator Reid. When might there be hope of that being done?
    Mr. Stephens. Well, as far as our side of the thing, I 
believe that we will have that done within 5 years, if you 
don't hold me to it. We are working on it right now. We are 
doing environmental studies. It might be even shorter than 
that.
    Senator Reid. Tell us about the road from here to Pahrump, 
how are we doing there?
    Mr. Stephens. The road from here to Pahrump is going along 
very well. We hope to have an opening ceremony I believe in 
September for the four lane divided highway, which will really 
reduce the accidents out there. That 17 miles of four lane 
divided highway will be open and I think that we are going to 
be scheduling a dedication of that. The improvements in the 
road to Pahrump have been tremendous over the last 6 or 7 
years. And, again, you have been instrumental in getting the 
public lands highway discretionary grants which have made that 
possible. Otherwise, I don't think that would have been 
competitive with the urban needs.
    That is why it is so important to make sure that they don't 
start distributing these public lands highway moneys based on 
some sort of geographical rather than a Federal lands issue. In 
Nevada, 87 percent of the State is owned by the Federal 
Government. The next highest State in the continental United 
States I believe is 67 percent.
    Senator Reid. Alaska I think is----
    Mr. Stephens. Well, Alaska, yes, and Arizona is in there. 
But turn that around and that makes the figure more dramatic. 
Thirteen percent of the land in Nevada is private land. The 
next lowest State has more than double the private land in 
Nevada.
    This program is absolutely critical to us. Nevada is kind 
of like we are an island nation because of all the vast areas 
of Federal land in between. And unlike Hawaii which doesn't 
have to build highways between their islands, they just use the 
ocean, here we have to build highways across the Federal land 
to get across. We think that there is a legitimate equity for 
having the Federal Government give us special funding to help 
us fund these roads that have to go across these Federal lands 
which we cannot tax and cannot use.
    Senator Reid. Mayor Gibson, we appreciate very much your 
taking the chair of the Southern Nevada Strategic Planning 
Authority. That is certainly something that not only involved 
in that organization are all the local entities, but certainly 
the Federal Government will take note of what decisions are 
made by your organization. It is very important to the future 
of this area. And one of the reasons for this hearing is to 
make sure that the Federal Government and its entities work as 
partners with State and local government. So congratulations on 
your new job. I know you did not have much else to do.
    That concludes the hearing. We appreciate everyone's 
attendance. We look forward to input from each of you in the 
future. This information, as I have indicated earlier, will be 
taken by the court reporter, as has been done, and the 
information will be shared with the various members of the 
Environment and Public Works Committee.
    This is the first stage of an ongoing dialog that I want to 
have on these issues. As I have indicated, I grew up here. I 
want to make sure that this community stays a community that is 
one that I look to with pride, as I do. Even though when I came 
over the hill from Searchlight railroad pass and looked down on 
this tremendous growth, not only did I look with amazement and 
awe, but also with great pride at the work that has been done 
here. This is a wonderful community and I never tire of 
bragging about it. This is a community though that we have to 
be very careful to preserve and that we work together to make 
sure that we do have a livable community in the years to come.
    This concludes this hearing. The committee stands in 
adjournment.
    [Whereupon, at 11:55 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Richard Bryan, U.S. Senator from the State of Nevada
    Let me just preface my comments by commending you not only for 
convening this hearing, but for the leadership you have provided on the 
committee on which, as you point out, you will soon be the ranking 
member. I don't think people understand how important that is to us in 
southern Nevada, but that gives you, as you know, Mr. Chairman, the 
premiere role in every piece of legislation that is processed by the 
committee, and that is extremely important for us in southern Nevada. 
We are fortunate to have you in that position.
    As you were parting the veil of nostalgia and we were looking back 
on our own youth, you are so right, southern Nevada today is profoundly 
different. The mantra of our school years was that Nevada was the least 
populated State, that there was one person for every square mile, that 
everybody could be seated in the Los Angeles Coliseum for a sporting 
event, every person in Nevada.
    Well, that is not the reality of today. I remember the first time 
that I heard the word ``smog'' sometime in the early 1950's, and I 
thought, well, what is this? I didn't understand it. I think people in 
Nevada did not comprehend what we were talking about.
    Well, that was then, and today is now. And managing this 
unprecedented growth in a manner that sustains development and provides 
and promotes a healthy environment is perhaps the greatest challenge 
that we face in southern Nevada. The growth has been extraordinary, as 
we all know, unprecedented. No other part of the country has 
experienced this level of growth, and it becomes a real challenge--
traffic congestion, school overcrowding, infrastructure delivery, air 
quality, land use planning are a handful of issues that currently 
confront community leaders.
    I think, Mr. Chairman, you are extremely wise to convene this 
hearing in a city hall because primarily those issues affecting our 
growth are decisions which local community leaders, our local elected 
officials, will make. But I think you are also quite correct in 
indicating that because of the extraordinary presence of Federal 
agencies--the 87 percent that you made reference to--there is a role 
for the Federal Government to play in a partnership relationship. You 
and I have begun that role with the passage of legislation which we 
sponsored last year, the Southern Nevada Public Lands Act, which 
provides a unique framework, the primary purpose of which was to 
strengthen the role of local government planning with respect to any 
disposal of BLM lands the metropolitan area. That has not historically 
been a dialog that has matured as we had hoped, and with this 
legislation, none of those parcels can be disposed of without the 
concurrence of the affected local political subdivision, and all of the 
proceeds from the sale of those parcels remain here in Nevada; 5 
percent, as you know, toward our State School Fund; 10 percent to the 
Southern Nevada Water Authority, and the remaining eighty-five percent 
either for the acquisition of additional environmentally sensitive 
lands for recreational purposes, or to enhance and improve those 
existing Federal recreational facilities which clearly have an impact 
on a quality of life issue which I think is so important for southern 
Nevada.
    So I am delighted to be here with you, and I would like to share a 
part of the program, but I'm not going to be able to stay for the full 
time, Mr. Chairman.
    Again I commend you on your leadership. I think this is terribly 
important for all of us in southern Nevada, and I look forward to 
working with you and our colleagues who speak next on this important 
growth-related issue that affects our State and our community.
                               __________
 Statement of Hon. Shelley Berkley, U.S. Representative from the State 
                               of Nevada
    Thank you, Senator Reid, for giving me the opportunity to speak 
this morning. I want to commend you for helping our southern Nevada 
communities focus on the issue of ``livability.'' It is great to see 
our new Mayor, the Chairman of the Clark County Commission, a number of 
concerned citizens and representatives from local government here 
today, as well.
    I believe we must build a partnership that will help us solve the 
problems associated with growth, and maintain our reputation as one of 
the best metropolitan areas in which to live and raise families.
    We are uniquely challenged by growth in this community. It is no 
secret that we have the fastest-growing population and one of the 
fastest-growing economies in the Nation. Whether you live in the city 
of Las Vegas, Henderson, Clark County, or North Las Vegas, you know 
that the landscape is changing day-to-day with construction and 
roadbuilding.
    The question all of us here today are confronted with is, how do we 
keep from being consumed by our own growth? Growth is a great indicator 
of prosperity and opportunity, and we have a lot of both here in the 
valley. Otherwise, we wouldn't have a 7 percent annual growth rate. 
When I tell my colleagues in Congress about our growth rate and dynamic 
economy, they just shake their heads. They feel challenged by 
population increases of 1 or 2 percent. It really catches their 
attention when I tell officials in Washington how we have over 70,000 
new residents a year coming into the valley, and that there is no end 
in sight.
    I have no greater mission than to be sure that the key policymakers 
in the Federal Government understand the critical growth-related needs 
of southern Nevada. Both of our Senators, both of you, both Senator 
Reid and Senator Bryan, have done an outstanding job in this regard, 
and I am proud to be working with the two of you on the House side.
    We have seen dozens of communities around the Nation fail under the 
pressures of growth. We need look no further than to southern 
California, and I don't want to pick on our neighbors to the west, but 
they lost their battle to growth. Think of Los Angeles and you think of 
sprawl, pollution, congestion, and crime, and we don't want to become 
another L.A., not another statistic.
    I believe our local government officials in southern Nevada have 
done a good job in keeping ahead of the growth curve. Our quality of 
life remains high and opportunity abounds; yet, we will have to 
redouble our efforts if we are going to keep ahead of the curve.
    Clearly, important steps are being taken in the right direction. 
Just yesterday, Clark County leaders announced a long-range plan to 
provide parks and recreational facilities to meet the demands of a 
growing population over the next two decades. Southern Nevada's 
population is going to expand inevitably from the current 1.25 million 
or so, to 2 million-plus. Fortunately, there is a growing movement in 
this country and in this community to avoid the mistakes other cities 
have made in the past. Citizens, corporations, and all levels of 
government are pulling together to improve the livability of our 
communities.
    Livability covers a number of topics. It means preserving green 
space and recreational facilities. It means building modern schools. It 
means providing better transportation and protecting our air and our 
water. It means making our streets safer and promoting economic 
opportunity across our communities.
    I strongly support proposals currently being discussed in Congress 
to provide resources for local community planning, transportation, 
school construction, green space, and helping our police. Citizens and 
their local elected officials have the responsibility to make the 
decisions about what each community needs and how to spend their 
resources, while those of us in Congress have the responsibility to 
make it a priority to provide the needed assistance.
    I want to thank you again, Senator Reid, for inviting me here 
today. I feel this forum is extremely helpful in setting a course for a 
livable Las Vegas well into the next century so that my children and my 
children's children will be able to grow up in a truly livable 
community.
    Thank you very much.
                               __________
Statement of Nuria I. Fernandez, Deputy Administrator, Federal Transit 
              Administration, Department of Transportation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
     Statement of Hon. Oscar Goodman, Mayor, City of Las Vegas, NV
    are truly honored to have you here at City Hall today. With your 
consent, Senator Reid, I would like to submit my statement for the 
record.
    Las Vegas, as you know, is a world-class tourist destination and 
one of the fastest-growing cities in the Nation. We have had an average 
annual growth rate exceeding 6 percent for the past 10 years. The 
population of the city itself has nearly doubled during the past 
decade. We have reached a population of approximately 465,000 citizens 
within the city limits alone.
    As a rapidly growing city, Las Vegas has been characterized as a 
``sprawling'' city. However, using some measures of sprawl, that may 
not be the case. For example, land consumption is seen by many as an 
indicator of sprawl; however, in Las Vegas, growth in land consumption 
mirrors growth in population. In fact, between 1990 and 1998, the city 
has increased the number of built acres by 50 percent, while at the 
same time increasing the population by 75 percent.
    In many cities, development of single family homes on half-acre 
lots or larger contributes to sprawl. In Las Vegas, average lot size 
has been steadily declining. Since 1990, the average lot size for new 
single-family homes in Las Vegas is approximately one-eighth of an 
acre.
    Depending on how one defines sprawl, Las Vegas may or may not be a 
sprawl city. But is it a smart growth city? That depends, in part, on 
how the city's residents perceive their quality of life. Based on a 
1998 survey, 50 percent of our citizens are concerned with the effects 
that growth is having on their quality of life. More than two-thirds 
feel the pace of development is a contributing factor. Sixty-two 
percent of our citizens support implementing smart growth measures, 
while only 9 percent want to stop growth. People appear to appreciate 
the benefits of growth, while looking for strategies to minimize the 
negative impacts on their quality of life. Eighty percent believe a 
regional planning agency would be most effective in addressing growth 
issues.
    According to our 1999 Quality of Life survey, the attributes having 
a positive effect on quality of life are fire protection, libraries, 
shopping opportunities, parks and recreational areas, climate, and 
police force. In general quality of life overall ratings, based on a 
survey of citizens, 65 percent rate our quality of life as good to 
excellent; 29 percent, fair; 5 percent, bad; and 1 percent, very bad.
    Those attributes that give our citizens the greatest concern are 
traffic congestion, water quality, crime rates, air quality, and cost 
of health care.
    Las Vegas may exhibit growth patterns that some experts would 
consider to be inconsistent with smart growth. For example, there is 
some evidence that our development pattern creates pressure on at-risk 
neighborhoods. As a result of rapid growth at the edge of town--some 71 
percent over the last 4 years--the majority of public and private 
resources are being drawn away from our older neighborhoods. Others 
would argue, however, that these low-income transitional neighborhoods 
offer housing opportunities for folks to get a leg up on the economic 
ladder.
    This is why the City's new comprehensive plan will focus on 
downtown and urban core areas. At the direction of the City Council, 
the plan will enhance the quality of our daily lives while continuing 
to accommodate growth and change in new and creative ways. This public 
planning process will refocus city policy toward encouraging infill 
development and downtown redevelopment. This is the logical thing to 
do.
    Our new plan will focus not just on what goes where, but how it all 
goes together and what it looks like. Urban planning and urban design 
will become increasingly important as we mature into a 21st century 
city.
    Nothing is more important to me and my new administration than 
revitalizing downtown. We must make our citizens proud of downtown 
again. We will strive to build a new downtown that includes 
entertainment, shops, cafes, and new residential neighborhoods.
    Now, the great opportunity exists to build an exciting new sports 
arena and related facilities right downtown. Steve Wynn has told us 
that he will bring a major league sports team to town if we can deliver 
a new stadium on the Union Pacific site. We will be very careful to 
make sure that the new development enhances existing downtown 
development and is linked to mass transit.
    In the next decade or so, we will run out of buildable greenfield 
lands within our city. This is a fact; we are landlocked. We must now 
begin to incorporate new residential opportunities within the older, 
urban core of our city. This will encourage vitality and diversity. If 
the city of Las Vegas wants to continue to grow, it must begin to look 
inward for new development opportunities.
    A truly successful downtown must include thousands of units of new 
housing, and also integrate daily shopping needs, like a supermarket, 
within easy walking distance. We must build new downtown neighborhoods 
oriented toward making a truly urban lifestyle.
    You know, we have folks moving from all over the Nation and the 
world to join us here in Las Vegas. We must strive to build a world-
class city that serves our diverse population and provides for all 
their daily needs and big expectations. Families move here for the 
climate, for good-paying jobs, for affordable housing, and for the low 
cost of living. But what else is missing that we need to strive for? 
Better schools, more parks, a performing arts center, maybe even an art 
museum, to name a few. At the same time, we must revitalize our older 
in-town neighborhoods by finding ways to empower our citizens to take 
control of their streets and neighborhoods. Some of our strongest 
communities reside within our oldest neighborhoods surrounding downtown 
Las Vegas. We must encourage young families and professionals to return 
to our urban neighborhoods. This will strengthen our inner city and 
lessen our dependence upon building new infrastructure. This will help 
free up our capital budgets for building parks, playgrounds, community 
centers, and walkable streetscapes lined with trees.
    Wouldn't it be great to be able to walk to a bookstore or ice cream 
shop after dinner? Shouldn't our kids be able to walk to school, or to 
the movies on Saturdays, without having to cross six or eight lanes of 
traffic?
    The city must encourage the public and private sectors to work 
hand-in-hand to devise one seamless mass transit system for the whole 
Las Vegas Valley. This is good for downtown Las Vegas, and good for the 
Strip resorts and Clark County. And thanks to you, Commissioner 
Woodbury, for your efforts. The city will also begin to look at 
redevelopment opportunities surrounding our future fixed guideway 
transit stations. We can imagine new monorail stops surrounded by shops 
and cafes, townhouses, lofts, and courtyard apartments.
    Why can't we continue to upgrade our system of roads and highways, 
and also begin to mingle our land uses so that some folks can live and 
work in the same neighborhoods? Why can't we become less dependent on 
our cars and offer other transportation alternatives that are good for 
our environment? Do we need to pave our way out of our transportation 
problems?
    The city supports the design and construction of a high-speed train 
linking downtown Las Vegas to Los Angeles. This is good for our 
downtown businesses and good for our citizens. It is important that Las 
Vegas optimize its role as a tourist destination, advance its position 
as the hub of southwest development, and serve as a model city for 
sustainable development patterns.
    In conclusion, Mr. Chairman, I would say that the city of Las Vegas 
is not the poster child for sprawl. We are clearly a young, vibrant, 
20th century frontier town built around the car and technology. And--I 
must emphasize this point--we are determined to take the actions 
necessary to mature into a world-class city for the 21st century. Las 
Vegas is unquestionably the most exciting city on the planet, and I am 
very proud to be serving as its new Mayor.
    Thank you very much.
                               __________
Statement Bruce Woodbury, Chairman, Clark County Board of Commissioners
    Good Morning Mr. Chairman and members of the committee. My name is 
Bruce Woodbury and I am currently the Chairman of the Clark County 
Board of Commissioners. Additionally, I also serve as the Chairman of 
the Regional Transportation Commission and the New Regional Planning 
Coalition. All of our cities and the county are represented on these 
regional boards. I appreciate the invitation to testify this morning. 
The subject of today's hearing is one which is important to everyone; 
rich, poor, Republican, Democrat, married, single, young and old. The 
focus of my remarks today will be on how we in the Las Vegas Valley 
have come to understand that maintaining a vibrant, livable community, 
a growing, sustainable economy, an efficient transportation system and 
a healthy environment are issues that are closely tied to one another. 
Given this and the fact that these issues affect all aspects of our 
community, we understand that a regional problem solving approach is 
necessary.
    You will hear today from my colleagues in local government about 
all we are doing to meet the challenges of providing a high quality of 
life in the fastest growing community in America. Others will talk 
about land use, community planning, water, transportation, etc. I want 
to focus chiefly on that which is fundamental to us all, the quality of 
the air we breathe. We have struggled with two pollutants for many 
years--carbon monoxide and inhalable particulates (or PM10). We are 
confident, however, that our local efforts will ultimately result in 
air quality that meets all of the nationally established standards.
    In recognizing that we need to do more in this area, I would also 
like to state that through a combination of our local efforts and 
partnerships with our Federal and State counterparts, we have made 
substantial progress in improving our air quality despite the effects 
of explosive growth. I would like to touch on just a couple of 
representative examples.
    In the recent past, I have been involved with two locally created, 
consensus based efforts to define for ourselves the sources of our air 
quality problems and the best methods of addressing them. Our Clean Air 
Task Forces I and II came up with a Clean Air Action Plan with over 140 
recommendations, most of which have been implemented. As you can see 
from Chart 1, the recommendations included, as examples, more stringent 
controls on automobiles and diesel trucks, use of cleaner fuels, 
aggressive regulation of construction sites, better enforcement of 
regulations pertaining to industrial sources, fireplace controls, and 
car pooling, mass transit improvements and locally funded regional 
transportation facilities. Currently we are looking at additional major 
improvements in mass transit and a public/private partnership to build 
a fixed guide way system. We all know that traffic jams and pollution 
go together. RTC and the NDOT have been working together to fund 
significant expansions of important roadways and highways including the 
improvements to the Spaghetti Bowl and the widening of I-95, and Clark 
County is funding a 53-mile beltway solely with local tax dollars. 
These improvements in transportation infrastructure will reduce carbon 
monoxide and improve our air quality. I mention these programs because 
they are representative of the fact that in Clark County we are willing 
to take strong local action without mandates and therefore, deserve the 
right to chart our own course in meeting the environmental and 
transportation needs of this community.
    As you can see from chart 2, despite our significant growth, we 
have made substantial progress in meeting the carbon monoxide standard. 
It is important to point out however that new and improved roadways are 
not enough. We believe that with additional diligent local efforts, and 
through our continued partnerships with our Federal and State 
counterparts, we can meet the carbon monoxide standard as well as the 
PM10 standard. We believe this can be done through a combination of 
clean fuel requirements, more motor vehicle emissions testing, a 
regional dust control program and improvements in transportation and 
mass transit infrastructure.
    We need your help however. We would hope that Congress would 
understand the need to keep Federal funds flowing to areas struggling 
to meet air quality standards. Additionally, we believe that the Tier 
II tailpipe standards proposed by the EPA are important in meeting our 
goals.
    Certainly, we believe that local government is best suited to make 
important decisions about air quality improvement measures and priority 
transportation issues. Heavy handed Federal intervention, as compared 
with cooperation, is almost always unwarranted, time consuming, and 
counterproductive. You will recall that the Board of County 
Commissioners decided in 1998 to accelerate construction of the beltway 
around Las Vegas. We learned that the fastest way to move ahead with 
this project was to ``de-Federalize'' it. While there were many who 
were skeptical, we worked successfully with the Federal Highway 
Administration to regain local autonomy over the project. Working 
through our own Public Works Department we have opened eight miles of 
the southern beltway and early next year we hope to complete the entire 
southern segment and be well under way in the western and northern 
segments. We expect to complete the initial facility by 2003, which is 
10 years ahead of the FHWA timetable. this will be a tremendous benefit 
to our community.
    Finally, we want to pro-actively work to prevent ozone and fine 
particulate levels from becoming serious problems in the Las Vegas 
Valley, and would like to see the changes in Federal EPA regulations 
that would allow us to use cleaner fuels before the area exceeds the 
standards in question.
    I appreciate this opportunity to provide local perspective on this 
important issue.
    We would be happy to entertain any questions that you might have.
                               __________
  Statement of Richard W. Bunker, President, Nevada Resort Association
    Good morning. Senator Reid, members of the committee, my name is 
Richard Bunker and I am President of the Nevada Resort Association. The 
Nevada Resort Association is the largest association of resort casinos 
in Nevada, representing over 50 properties throughout our State.
    If my thoughts today are heard because of who I represent you 
understand that they are driven by my love and affection for this 
community. I have lived in Southern Nevada for my entire life, growing 
up here as a boy. My children and grandchildren call southern Nevada 
home. I know, Senator Reid, you share my experiences, growing up in a 
small desert town, going to school, on to college, all the time 
watching the town grow into a city and then a thriving metropolis of 
now more than 1.1 million people.
    For most of all that time Las Vegas was the most livable of 
communities. were an enviable blend of the best aspects of a small town 
and the amenities re closely associated with big city life. We had a 
sense of being a small town wherein everyone knew each other and cared 
for each other. But we had the luxury of living amid the excitement 
that can only be found in the ``Entertainment Capital of the World''.
    And the success of our unique brand of resort community has led to 
incredible economic prosperity. In the last 10 years the number of 
tourists visiting Las Vegas has gone from a little more than 17 million 
people per year in 1988 to 30.6 million in 1998. Hotel space has nearly 
doubled in a similar time period, going from 61,000 rooms in 1988 to 
more than 106,000 by the end of 1999.
    Those millions of visitors, tourists, and conventioneers have 
increased taxable resort revenues by nearly 100 percent, going from $6 
billion in 1990 to $11 billion last year. Furthermore, investments of 
billions of dollars have gone into new megaresorts such as the Mirage, 
which started it all, to our most recent examples of Bellagio, Mandalay 
Bay, and the soon-to-be-opened Paris.
    As you can well imagine, very much like other communities which 
have experienced exponential growth, the issues quickly turn to those 
of livability, as infrastructures become strained, social schisms begin 
to emerge, and environmental consequences begin to be felt. The shadows 
cast by growth and prosperity are always economic, social, and 
environmental. In Las Vegas, at least, these consequences have been 
held to a minimum, in large measure due to the resort industry.
    The resorts are more than just the sum of concrete, steel, casino 
tables and slot machines; they are the product of creativity and, more 
importantly, commitment to this community. The resorts are where 
hundreds of thousands of Nevadans work each day. According to a recent 
report by the University of Nevada, Las Vegas, the hospitality industry 
employs more than 300,000 Nevadans directly, an increase of nearly 50 
percent in the last decade. Not only do these jobs provide livable 
incomes to hundreds of thousands of new Nevadans, they provide some of 
the basic social needs in the form of health insurance and pension 
benefits. The impact is staggering, with nearly one of every three 
adults you meet employed directly by the tourism industry and many more 
employed as a result of the economic expansion and diversification made 
possible by this flourishing industry.
    That prosperity has been an economic success story which is the 
envy of the country. And the industry I represent is justly proud of 
the role we play. We do far more, however. Due to Nevada's tax 
structure the gaming industry provides the backbone for all State and 
local finances. As all of you know Nevada does not have a State income 
tax, or other broad-based revenue generators. The taxes levied on the 
gaming industry provide more than $22 billion in Federal, State, and 
local taxes, and account for nearly 50 percent of Nevada's general fund 
budget. Moreover, our customers contribute to the sales, gasoline and 
other user-based taxes.
    As strong as our industry is and as large as our contribution is to 
State and local finances, there are public needs still not being met. 
In education--kindergarten through 12th grade and higher education--and 
in the public health arena programs are still underfunded. Many 
infrastructure needs still exist. As public officials all of you know 
that there is never enough revenue to fund the many legitimate, worthy 
public programs. But you also realize that equity must exist in how the 
tax burden is distributed. Herein lies a quintessential shortcoming in 
Nevada's system. Whereas the economic base has diversified, that 
diversification has not been visible in the distribution of the tax 
burden.
    Governor Guinn has taken the lead and is in the process of a top to 
bottom review of State spending to insure that public funds are being 
spent wisely, efficiently and within the priorities he and the 
legislature have determined. The Governor has indicated that he will 
also review State finances--who pays the taxes and who doesn't.
    As I stated earlier, an examination of our State revenue picture 
will reveal that the gaming industry is more than meeting its 
obligations to our community. I also believe that this examination will 
reveal that other sectors of the economy are virtually escaping 
responsibility.
    We in the resort industry have met our obligations. Over and above 
our tax contribution, we have directly invested in meeting 
environmental challenges and social and cultural demands that have 
confronted our hometown. We have always been the first to step up to 
the plate--not the last to bat. We will continue to provide good jobs 
with the necessary healthcare and retirement benefits to our employees. 
As we watch the funding debate, we in the resort industry will be 
particularly interested in how any new burdens, if they must come, will 
be apportioned. If fairness and concern for the health of our economy 
drive this debate we would expect that new burdens would not be added 
to those businesses which already pay the lion's share of today's taxes 
before those enterprises escaping the tax collector are asked to match 
our contribution.
    As this committee examines the question of what makes a livable 
community, I would suggest that the bedrock of any community that calls 
itself livable is a sustainable, growing economy which provides good, 
solid jobs. Without that stability, we cannot ever hope to address our 
social and environmental challenges. The time has come for those 
sectors of our economy who so richly share in the prosperity and who 
desire the same ``livable community'' accept the responsibilities that 
are rightfully theirs to share as well. Thank you.
                               __________
Statement of Commissioner Mary Kincaid, Chairman, Southern Nevada Water 
                               Authority
Introduction
    Mr. Chairman, I am Mary Kincaid and I am a member of the Board of 
County Commissioners for Clark County and I serve as Chairman of the 
Southern Nevada Water Authority. The SNWA member agencies are;
    Big Bend Water District in Laughlin;
    Boulder City;
    City of Henderson;
    City of North Las Vegas;
    Clark County Sanitation District; and
    The Las Vegas Valley Water District which serves Clark County and 
    the City of Las Vegas.
    I thank you for asking me to testify today about how we in southern 
Nevada have managed our most precious public resource, water. Please 
excuse me if I brag just a little bit about the Southern Nevada Water 
Authority because it is truly a remarkable example of how regional 
cooperation among local governments can produce significant results.
Water Wars
    It was not all that long ago that the municipalities and the County 
acted like they do everywhere else in the west, we fought over water. 
Under the old paradigm, the State Colorado River Commission divvied up 
Nevada's share of the Colorado River to each city and water purveyor 
based upon projections of need. As you can appreciate, each entity 
wanted the most water it could get so our ``needs'': estimates became 
somewhat inflated. Furthermore, because of the time tested water 
doctrines of ``first in time is first in right'' and ``use it or lose 
it'', each water purveyor sought to beat the other to the well, so to 
speak, with the biggest and best plan to quickly use up all our water. 
Because the town of Laughlin had the lowest water right priority, they 
faced the absurd prospect that in the event of a drought on the 
Colorado, the town's entire supply could be lost while the residents of 
the Las Vegas Valley continued to enjoy watering their lawns and 
washing their cars twice a week.
    Needless to say, under such a system the ethic of water 
conservation was almost nonexistent. As we in southern Nevada raced 
toward the precipice of exhausting our then available supply, we 
finally woke up and came to our senses.
Birth of the Southern Nevada Water Authority
    The fundamental principle which we came to realize is that for the 
good of the community as a whole, each of us must surrender our water 
weapons and end the water wars. Beginning in May 1989, with the help of 
a water management consulting firm called Water Resources Management 
Inc. (WRMI), the leaders of each city and county water and wastewater 
agency began a process which led to the establishment of the SNWA on 
July 25, 1991. During this 2 year ``WRMI'' process there were some 
difficult days of negotiation, mediation and realization. What emerged 
from the WRMI process over several months was a new paradigm, ``share 
and share alike''.
    The SNWA is a regional governmental body which has been vested by 
all of its member agencies with the responsibility to manage southern 
Nevada's water supplies without regard to arbitrary jurisdictional 
boundaries or the old rules which encouraged us to squander and waste 
our most precious resource. We have agreed to abandon water right 
priorities among purveyors. We agreed upon a division among the 
purveyors of the State's remaining allocation of Colorado River water. 
We have developed a shared shortage agreement to protect Laughlin. We 
have agreed to common water conservation standards to be applied 
everywhere. We are pursuing jointly additional supplies of water which 
will be shared by all.
Partnership with the State of Nevada
    A second significant and important accomplishment was the enactment 
by the 1993 Nevada Legislature of a new law which reconstituted the 
Colorado River Commission with three members from the SNWA. This 
important reform recognizes that with respect to our involvement 
outside with other Colorado River states, we are all Nevadans, our 
objectives should be unified into a single strategy for the benefit of 
southern Nevada.
    Two years later the 1995 Legislature provided yet another layer of 
cooperation by transferring responsibility for the Southern Nevada 
Water System from the Colorado River Commission to the SNWA whose 
member agencies deliver water directly to the customers.
    While these institutional reforms may not appear to be all that 
significant, all it takes is a quick look at the water wars which are 
occurring in California to understand the value of uniting in cause and 
purpose. Our successes have been significant. Every entity has enacted 
far reaching water conservation ordinances which have already achieved 
a 16 percent reduction in water use with the goal of 25 percent by 
2005. We have consolidated our water resources, both groundwater and 
Colorado River water, to add in effect an additional 300,000 acre feet 
of supply which will take us to 2025. We have embarked upon the largest 
water system expansion in the country and have garnered the support of 
74 percent of the electorate of Clark County for a .25 cent increase in 
the sales tax to pay for it. Our new water system will provide new 
delivery capacity sufficient for decades, improve water quality, and 
offer greater reliability.
Conclusion
    Again I want to thank the Committee for this chance to explain how 
the SNWA has become a leader in the west in managing our water 
resources. We have proved with water that the whole can be greater than 
the sum of its parts. Thank you.
                               __________
 Statement of Patricia Mulroy, General Manager, Southern Nevada Water 
                               Authority
Introduction
    Mr. Chairman, I am grateful to be here today to discuss a subject 
which comes up quite often: growth and water. There exists a commonly 
held myth in some of the rapidly growing areas of the southwest that 
growth can and should be controlled through the measured allocation of 
water. Indeed, we have all seen the national news magazine programs and 
the major newspaper articles which tell a story of how Las Vegas is 
experiencing blockbuster growth without any regard for its most finite 
resource, water. Well, I am here to tell a little different story. As 
explained to you by Commissioner Kincaid, this community has 
accomplished water management reforms which other States only talk 
about.
Water and Growth
    First, I would like to debunk the notion that you can control 
growth with water. In 1973, the Department of the Interior had it right 
when it published the following statement:
    ``According to a study prepared for the National Water Commission, 
water development and regional economic growth are not necessarily 
connected. Ample water supplies for agriculture and/or municipal-
industrial use, the existence of water based recreational resources, 
the availability of low cost hydroelectric power etc., etc., do not 
provide in and of themselves a sufficient condition for economic 
growth. Furthermore, in some situations they may not even be 
necessarily conditions for such growth to occur.
    . . . Accessibility to major markets, availability of quality labor 
supply, transportation costs and alternatives, and climate all play a 
role in establishing conditions favorable to growth. . . . The fact 
that an ample water supply may not, under certain conditions, be 
necessary for growth is indicated by the rapid rate of economic growth 
in certain so called ``water short'' areas of the west and southwest.''
    In other words, people do not follow water; rather, water tends to 
follow people. Our own experience at the Las Vegas Valley Water 
District is an excellent example of this fact. Many will recall that in 
1991, after several years of explosive growth in population and water 
deliveries to our customers, we reached a point where our current 
contract for Colorado River water was fully committed. On February 14, 
1991, the Board of the Water District reached the difficult decision 
that it could no longer issue ``will serve'' water commitment letters 
to developers and it imposed a ``temporary suspension of new 
commitments for water'' until such time as additional water resources 
could be obtained to meet new commitments.
    As you can appreciate, this suspension was very controversial and 
many in the community called upon us to continue making new commitments 
based upon an expectation that we could get additional resources. In 
this town that is called ``betting on the come''. This course is 
exactly what California has done in recent years to its detriment. 
While we were determined that we could negotiate a new contract for 
more Colorado River return flow water from the Secretary of the 
Interior, both the timing and the amount was at issue. Ultimately, 
after many months a contract for Nevada's final allocation of Colorado 
River water was signed and the suspension was lifted.
    The suspension of water commitments lasted from February 1991 until 
March 1992, just over 1 year. One might expect that with such a 
significant time period where no new water was available, that growth 
would slow down. Well guess what? For the 9 years from 1989 to 1998, 
the total population increased by 67 percent and our water use 
increased by 52 percent. During the 1 year period of the suspension and 
the year that followed, there was no appreciable drop in population 
growth or water deliveries. And it's important to remember that without 
our excellent conservation results, those water use numbers would have 
been even higher. What happened?
Supply and Demand
    In a market economy, the law of supply and demand rules. When the 
supply drops and the demand remains constant or increases, the value of 
the commodity increases and the need to find creative, cooperative 
solutions with your neighbors becomes an imperative. Yes, scarcity 
challenges the status quo. Shared supplies, like the Colorado River, 
that in an era of abundance can be managed as distinct and separate 
pieces must be viewed from their totality. Success, just as it has been 
proven in the creation of a global economy, rests in creating larger 
interlocked hydro commons. As utopian as this may sound to some, the 
creation of the Arizona Water Bank and the opportunity that Nevada has 
to share in that storage capacity bear witness to the fact that the 
impossible is achievable when the need to do so is great enough.
Conclusion
    Water cannot and should not be viewed by local, regional or Federal 
elected officials as a mechanism to control or manage growth. It is a 
vital resource that is required to sustain life and therefore people 
will always find a way to obtain it, even if it means the dissolution 
of tried and true paradigms. Using water as a tool to accomplish a 
livable community would be like trying to sculpt the David with a chain 
saw or paint the Mona Lisa with spray paint. I want to commend the 
locally elected officials in this community for their recognition of 
this reality. Growth management is an important issue which must be 
addressed through more precise, direct, local tools such as regional 
planning, parks and trails, ordinances to preserve open space, common 
sense zoning and housing density limits, and agreements with the 
private sector for master planned communities which set aside land, in 
advance, for the important needs of the public. This is Smart Growth.
                               __________
   Statement of Robert E. Lewis, Kaufman and Broad Home Corp., Nevada
    My name is Robert Lewis. I am President of the Nevada Region of 
Kaufman and Broad Home Corp. and Lewis Homes. We develop land and build 
homes in Nevada as well as in numerous other States. I have lived in 
Las Vegas for over 26 years, and my companies have built over 30,000 
homes in southern Nevada. Like many of the others speaking before you 
today, I am here not only as one of those involved in the growth of our 
community, but also as a resident enjoying a quality living environment 
for myself and for my family.
    Over the years we have experienced tremendous growth in our valley, 
and with this growth has come strains on our infrastructure and changes 
to our lifestyles. What is remarkable to me is how well our community 
has been able to accommodate this tremendous rate of growth. Through 
the effort and cooperation of the public and private sectors, we have 
maintained a thriving economy, improved the quality of life for our 
residents, and turned what otherwise might have remained a hostile 
desert into one of the most desirable living communities in the 
country. We have had to tolerate some growing pains along the way, 
because progress rarely comes without some inconvenience. But, overall 
we have an awful lot to be proud of.
    The Federal Government has been a major player in southern Nevada 
throughout the years not only in its regulatory role, but also as a 
major employer and as a major landowner. To the extent that it is the 
purpose of this hearing to reevaluate the role of the Federal 
Government in Nevada, I would like to offer my observations and 
suggestions.
    The activities of the Federal Government in land use decisions 
should be only those that are necessary to enforce provisions of the 
Constitution such as those relating to property rights, to the rights 
of citizens to freely locate, and to protect against unlawful 
discrimination. Further, the Federal Government should continue 
striving to achieve its national priority of providing decent, safe, 
and affordable housing for our citizens. Beyond this, it would seem 
that land use decisions are best made at a local level. The suggestion 
that the Federal Government become involved in ``Smart Growth,'' 
whatever that term means, is frightening. Local governments are far 
better equipped to deal with land use decisions.
    Over the years, the Federal Government has played a dominant role 
in protecting our environment, and for the most part the results have 
been satisfactory. However, it seems that the time has come to put some 
balance into the process. Some agencies and regulations have grown to 
the point of being overly burdensome and out of balance with other 
needs. In some cases, opponents of growth have abused the regulatory 
process to further their own agendas. As current regulations are 
enforced and new regulations proposed, I would like to see some cost/
benefit analysis performed to assure that the burden of the regulation 
does not exceed the benefit hoped to be derived.
    In particular, I am concerned that some of the regulations relating 
to air quality, water quality, wastewater treatment, wetlands, the 
disabled, and endangered species impose costs and time delays way 
beyond benefits provided. Compliance with overly burdensome regulations 
strains our ability to provide infrastructure necessary to accommodate 
those choosing to move to our community, and diverts our limited 
resources from more beneficial uses. As relates to the housing 
industry, such regulations drive up the cost of housing thereby denying 
housing opportunities to many families.
    I am further concerned if unreasonable regulations adversely affect 
our ability to attract new industry to southern Nevada. Our economy is 
fragile because of its level of dependence on one industry. We need to 
attract new industry to diversify our economy and maintain its 
vitality. We should not allow concerns about attainment of perhaps 
unreasonable Federal standards to discourage industry from locating 
here.
    Discussion of Federal regulations also brings up the issue of 
unfunded mandates. If the Federal Government chooses to impose costly 
requirements on us, then the Federal Government should also be sure 
that adequate revenue sources are available to comply with these 
requirements. To do otherwise will limit the ability of our local 
governments to provide the other infrastructure and services expected 
from them.
    Since the Federal Government is such a major land owner in Nevada, 
what it does with its land impacts all of us. I am happy to see that 
BLM will again be selling parcels of land in developing areas. A 
significant impact on the cost of providing infrastructure has resulted 
from the necessity to leap frog over BLM parcels. Allowing some of the 
proceeds from BLM sales to be returned to the local governments is a 
fair way to reimburse for the costs of providing the infrastructure 
that enhanced the values of the BLM parcels. I am also pleased that BLM 
will be working with local governments on decisions relating to the 
disposition of such parcels.
    The auction of BLM parcels is a much better choice than disposition 
of land through the exchange process. The history of the exchanges 
seems to be that the government overpays for the property being 
acquired and undervalues the property being disposed of. This is not 
only a bad deal for the taxpayers, but also unfair to those who must 
acquire land in the marketplace.
    I would be pleased to see more public/private cooperation as it 
relates to Federal facilities in southern Nevada. For example, our 
industry specializes in providing housing. To whatever extent we can 
participate in providing needed military base housing, we cannot only 
save the government a considerable amount of money, but also can 
provide better quality housing than is likely to be produced through 
other government procurement practices.
    An area our industry would welcome help from the Federal Government 
is in regard to tort reform. The housing industry throughout the 
country has been attacked by trial lawyers promoting litigation as a 
means of generating unconscionable legal fees. The consequence has been 
that in many places liability insurance is prohibitively costly or 
unavailable. Many builders are unwilling to build attached for-sale 
housing because of a fear of class-action suits. The result is that a 
sufficient quantity of affordable housing is not being built.
    A final area of concern I have is the speed with which we are able 
to respond to our growth needs. We are growing fast in southern Nevada 
which means we need to act fast to provide the infrastructure we need 
to support this growth. We need new roads, highways, water systems, 
sewer systems and so forth built now.
    To whatever extent the Federal Government can assist in providing 
funding and expedite the process will be beneficial to all of us. 
Delays are costly both in terms of money and in terms of the quality of 
life for our residents.
    I appreciate the opportunity to testify before you, and would be 
happy to answer any questions. Thank you.
                               __________
       Statement of Tom Stephens, Director, Nevada Department of 
                             Transportation
    Growth is the driving issue in the Las Vegas Valley and has been 
for over 50 years. In the 30 years since 1970, when the current 
``Spaghetti Bowl'' interchange of I-15 and US 95 was built, the 
population of Las Vegas Valley has grown by over 400 percent. In 1970, 
Las Vegas was the 115th largest metropolitan area in the country and by 
next year it will be the 32nd largest after passing New Orleans. San 
Antonio and Indianapolis are not far ahead.
    As we all know, the main force behind the growth has been the 
expansion of the gaming industry. But it has also been encouraged by 
the extremely favorable business climate in Nevada, not only for gaming 
but for all industries. Las Vegas is the capital of capitalism. And the 
capitalists have been very responsible. Las Vegas is the most 
attractive and most modern major city in the world. Hundreds of 
thousands of people walk down its streets everyday just to marvel at 
its architecture. Las Vegas has some of the most desirable residential 
areas in the nation, and every year tens of thousands of Americans move 
here to retire.
    Many good things have been done to accommodate all of this growth. 
Las Vegas developed one of the nation's finest water systems. Most of 
the large residential areas are part of planned communities, and urban 
sprawl has been kept amazingly under control considering the 
unbelievable rate of growth. The foresight of requiring dedication of 
right-of-way for wide boulevards along section and quarter section 
lines until this decade has helped Las Vegas avoid the traffic gridlock 
associated with other cities its size. The publicly owned bus system, 
which did not even exist at the beginning of the decade, is now the 
finest of its size in the country. New freeways have been built to the 
north and east, and a beltway is being constructed around the city with 
local funds.
    Yet all is not rosy. Gridlock is a daily occurrence and commute 
times have increased dramatically. Air quality is a major issue. People 
living along the freeways are demanding relief from the constant noise.
    I represent a highway perspective. First and foremost, I would like 
to thank the Congress and especially Nevada's Congressional Delegation 
for the support they gave to Nevada last year in the Transportation 
Equity Act for the 21st Century or TEA-21 as we have come to know it 
by. Nevada is now the recipient of $70 million more per year in Federal 
highway funds This is a 62 percent increase over the previous Federal 
highway funding contained in the Intermodal Transportation Equity Act 
of 1991.
    This is a hearing on livable communities. The question today is 
what can the Federal Government do to help us make Las Vegas a move 
livable community.
    First, help us speed up our efforts to eliminate traffic gridlock 
by streamlining the environmental review process. This streamlining is 
called for in TEA-21, but appears to be bogged down. Often times the 
environmental process seems to be used as a way to slow down and try to 
kill a highway project by opponents who have little real concern for 
the environmental issue involved.
    Second, make the air quality requirements more reasonable so that 
we can concentrate our resources on more important air quality 
problems. For example, even though there have been great improvements 
in the carbon monoxide level in Las Vegas in the last 10 years, the 
basin is still considered to be in nonattainment because we continue to 
have two or three instances a year when levels exceed the standard 
instead of just one at only a single site. The carbon monoxide levels 
for the whole valley are judged on just one location on a couple of 
days a year. We should be concentrating more efforts on control of dust 
or PM10, which is a worse pollutant in terms of livability than carbon 
monoxide at one site.
    Third, streamline the Federal project delivery requirements for the 
popular ``enhancement program,'' which includes such things as 
sidewalks, bicycle paths, landscaping, and restoration of selected 
historic buildings, which all improve the livability of the community.
    Fourth, remove the prohibition on the use of Federal funds to 
retrofit noise walls along the freeways. This will greatly improve the 
livability of those impacted by freeway noise.
    Thank you for the opportunity to testify here today. This is an 
important issue to the Nevada Department of Transportation and to 
everyone who lives in Nevada.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
     Statement of Allen Biaggi, Administrator, Nevada Division of 
                        Environmental Protection
    Senator Reid, Senator Chafee, my name is Allen Biaggi and I am the 
Administrator of the Nevada Division of Environmental Protection. I 
appreciate the interest the Senate Committee on Environment and Public 
Works has shown on livable communities and growth and the quality of 
America's urban and rural areas and I would like to thank you for 
holding this hearing in Las Vegas.
    In my testimony this morning, I would like to outline some of the 
tools the State of Nevada has available to assist local governments and 
citizens to make our communities better places to live and improve 
environmental quality for the residents and visitors of the State.
    As you are no doubt aware, in Nevada, land use planning and zoning 
are primarily county and city issues. Our State legislators have wisely 
recognized that such activities are best done at the local level. 
Consequently, limited authority over these issues is granted to State 
government. We do have however, certain resources and programs 
available to assist local governments in making these difficult 
decisions. Some of these resources have been in place for some time, 
some are very new; an outcome in fact of the 1999 session of the Nevada 
Legislature.
    One long standing tool is Section 208 of the Federal Clean Water 
Act which has been in place for over two decades and contains 
provisions to address long term community planning as it relates to 
water quality. In Nevada, a number of jurisdictions have taken 
responsibility for the development of these plans including Clark 
County Comprehensive Planning, the Truckee Meadows Regional Planning 
Agency for Washoe County, the Tahoe Regional Planning Agency for the 
Lake Tahoe Basin and the Nevada Division of Environmental Protection 
for the remaining areas of the State.
    208 Plans must address anticipated municipal and industrial waste 
water treatment needs and priorities of the area for a twenty-year 
period and include alternatives for waste water treatment, land 
acquisitions for treatment systems, waste water collection, urban storm 
water runoff control and a program to provide the financial mechanisms 
for the development of such treatment works.
    The 208 planning process is designed as a cooperative effort 
involving local, State and Federal agencies as well as the public. The 
process is initiated with the preparation of a draft waste water 
management plan which is solicited for public comment. Once public 
comments have been received and integrated into the plan, the agency 
submits it to the State for certification. We then review the plan and 
if the required elements are in place and ensure it adequately 
addresses water quality, the State certifies the plan and submits it to 
EPA for final approval. This plan then controls the issuance of 
discharge permits and other water quality activities including the 
funding of wastewater improvement projects from the State Revolving 
Loan Fund.
    Most importantly however, the 208 plan must identify open space and 
recreation opportunities that can be expected from improved water 
quality, including considerations of potential land use associated with 
treatment works. An excellent example here in the Las Vegas area is the 
national award winning wetlands area established by the City of 
Henderson. This unique area combines wastewater treatment while 
providing habitat and sanctuary for a variety of birds and animals. It 
is also becoming more and more recognized by the public as an area for 
experiencing the unique desert wetlands ecosystems which were 
historically in place in the Las Vegas Wash.
    Clark and Washoe County have aggressively pursued the 208 planning 
process to meet the growth needs of their respective communities. 
Amendments to these plans have, to date, been well conceived and have 
limited the water quality impacts of continued growth. Another example; 
the Las Vegas Bay at Lake Mead were not meeting water quality standards 
in the 1980's and recreation was limited in that portion of the lake. 
Through the 208 planning process, local agencies designed and built 
upgrades to existing waste water treatment plants to improve water 
quality while at the same time expanding capacity to meet the needs of 
growth. Today, plant discharges have increased yet the receiving waters 
and overall water quality has been greatly improved. Because of these 
improvements, the State is now considering modifying the beneficial 
uses in the Las Vegas Bay to include swimming.
    The 1999 session of the Nevada Legislature brought about a number 
of changes related to livable communities, planning and urban 
redevelopment.
    Senator Dina Titus introduced, the Legislature passed and Governor 
Guinn signed into law Senate Bill 363 (commonly called Nevada's 
Brownfields Bill) which will be administered by the Division of 
Environmental Protection to remove barriers and encourage the reuse of 
lands that contain environmental contamination. Through this process, 
we can help revitalize our urban cores, encourage environmental clean 
ups and reduce the need for development of virgin, undisturbed lands.
    The 1999 Legislative session also passed a series of bills that 
will change the way we approach regional planning in Nevada especially 
as it relates to air quality. Through the concept of regional planning 
coalitions a process has been created to broadly organize and empower 
an umbrella planning entity that allows cities and counties to jointly 
work together on resource based issues. Planning efforts of State 
agencies will be coordinated and circulated through these regional 
planning coalitions which are geared to seeking innovative planning and 
development solutions outside the framework of conventional planning 
strategies. This is a dramatic step forward especially for air 
pollution which is obviously transient and doesn't recognize political 
boundaries.
    These are but a few of the examples that we have available to 
assist in making our communities in Nevada better places to live from a 
resource perspective. The Nevada Division of Environmental Protection 
stands ready to assist and help in this effort in any way possible. 
Again, I want to thank you and the Committee for your interest on this 
very critical topic.
    I would be happy to answer questions you may have.
                               __________
 Statement of Jim Gibson, Southern Nevada Strategic Planning Authority
    Just last week, the U.S. Census Bureau announced that the City of 
Henderson led the Nation for the eighth straight year in population 
growth, with a 135 percent increase in population. It is an 
understatement to say that the City of Henderson is impacted by growth. 
I'm glad to hear today's speakers discuss issues such as air quality, 
water quality and transportation. In a recent survey of Henderson 
residents, these regional issues topped their list of top growth-
related concerns. As the Mayor of Henderson, I can tell you that these 
regional issues are also my top concerns.
    This past decade, we rolled up our sleeves and tackled the issues 
of growth. Cities in our position know that the growth-management 
battle includes radical views and proposals. For Southern Nevada the 
battle cry began 3 years ago when State proposals to control, or even 
stop growth, were pushed to the forefront of public discussion. We 
heard calls to place a growth restrictive ``ring around the valley'', 
to dramatically increase development fees to slow growth, and even to 
place a moratorium on building permits. Some of these proposals made 
their way to the State Legislature, where State representatives 
considered replacing local government authority to manage growth issues 
with State mandates.
    In 1997, the Nevada State Legislature recognized that growth is a 
local issue, best managed by those governments most closely connected 
to its challenges and responsibilities. The Legislature, with a clear 
majority vote, passed SB 383, creating the Southern Nevada Strategic 
Planning Authority. The 21 member Authority consisted of elected 
representatives from Southern Nevada City Councils and the Clark County 
Board of Commissioners along with Southern Nevada business leaders and 
residents. The Authority members were charged with developing a 20-year 
Strategic Plan for the Las Vegas Valley. The plan brought together a 
variety of public and private members with strong individual interests 
to reach consensus on both a vision for the future of the valley and an 
action plan to get us there.
    The final product, the Strategic Plan, was presented to the 1999 
Nevada State Legislature. The Plan identified 12 areas impacted by 
existing and future growth, and included goals, objectives and 
strategies to address each of these issues. No Southern Nevada entity 
had ever undertaken a comprehensive study of this scope from a regional 
perspective, and the recommendations contained in the final plan 
represents a historical and significant local initiative in dealing 
with growth and quality of life issues.
    Throughout this process, the authority members agreed that local 
government handling local problems, with regional collaboration on 
regional issues, is by far the most effective solution to sustaining 
livable communities and enhancing the quality of life for our 
residents. Regional Collaboration on issues of regional importance 
became an effective tool for addressing issues such as: transportation, 
environment, economy, and education. Most importantly, we recognized 
that a cookie-cutter approach to individual community standards, such 
as parks and recreation and land use planning, is not always 
appropriate, or beneficial, to our citizens if we lose the authority 
and responsibility inherent in a municipality to resolve community 
problems. For example, I mentioned earlier that the City of Henderson 
residents were satisfied with local community standards, but their 
priority concerns were for regional in nature. It is clear that the 
City of Henderson alone could not adequately address our residents' top 
priorities without regional collaboration.
    Lead by local governments, business leaders and citizens, the 
Authority's regional effort has received national praise. In the 1998 
Urban Land Institute's publication, ``Smart Growth'', the Southern 
Nevada Strategic Planning Authority is highlighted as a regional 
approach to smart growth initiatives. Locally, many of the 
recommendations included in the Strategic Plan have already been 
adopted. One such initiative is the creation of the Southern Nevada 
Planning Coalition, composed of elected representatives from local 
governments, whose charge is to oversee the implementation of the 
recommendations included in the Strategic Plan.
    The City of Henderson continues to work proactively in addressing 
our growth-related issues. In a recent agreement between the City of 
Henderson and Clark County, both jurisdictions agreed to jointly plan 
along jurisdictional boundaries for consistency in transportation, 
land-use, and future utility siting. This is another first for Southern 
Nevada, and represents the kind of intergovernmental collaboration 
necessary to meet the challenges of growth while maintaining and 
enhancing the quality of life for our residents.
    In reflecting on our accomplishments over the last 2 years, we have 
seen an incredible paradigm shift in how local governments interact to 
address issues of growth. It became incredibly clear that disjointed or 
unplanned growth, without regard to whether people enjoy living here in 
the Las Vegas Valley, does not serve the public interest. The Authority 
members are proud of our hands-on, consensus-based approach, as this 
diverse group had to learn how to delve into the tough issues and 
arrive at decisions together. The challenge we successfully faced was 
to define what ``quality of life'' means to the people who live here so 
that the right strategies could be pursued to protect and improve our 
lives.
    In the final analysis, we've found that our Strategic Planning 
process got to the heart of what concerns most cities across the Nation 
while the debate regarding quality of life issues has elevated to the 
national level. The recent dialog surrounding the Administration's 
Livability Agenda hits at the very core of issues covered during our 2 
year Strategic Planning process. We mirror the Livability Agenda's 
concerns in addressing the preservation of open and green spaces, clean 
air and water, safe places for families to work, play and relax; easing 
traffic congestion; enhancing citizen and private sector involvement in 
planning; collaboration between neighboring communities; and promotion 
of economic competitiveness.
    Our desired outcomes are the same: how do we protect and enhance 
our quality of life? Our completed Strategic Plan and its legacy of 
regional collaboration is evidence that these tough issues can be 
resolved locally. Perhaps the Authority's Strategic Plan will be useful 
as a blueprint for local cooperation and solutions to effectively 
address growth.
                               __________
     Statement of Jay Bartos, President, Friends of Red Rock Canyon
    The Friends of Red Rock Canyon is an organization of volunteers 
devoted to the protection of the Red Rock Canyon National Conservation 
Area. Our 200 or so volunteers are there to assist the Bureau of Land 
Management by leading hikes, presenting nature programs for adults and 
children, teaching teachers about Red Rock, building and maintaining 
trails, and a host of other jobs. We all come from a wide variety of 
backgrounds but we do all have one thing in common--our love for one of 
Nevada's natural treasures.
    The growth of Clark County is mirrored by the changes at Red Rock 
over the years. For 1,000 or so years the area was used by Native 
Americans for food and shelter. In the early days of Las Vegas, some of 
the area was homesteaded. In 1960, as recreational use increased, the 
State became interested in preserving the land, and by the early 1970's 
a combination of State and Federal actions had led to protection for 
some 62,000 acres.
    The focus of the area was changed from recreation to conservation 
in 1990, reflecting the need to better protect the increasingly popular 
area. Continued population growth led to the expansion of the 
conservation in 1994 to 195,610 acres while there was still something 
there to conserve.
    There are now well over a million visitors a year and Red Rock 
Canyon is being affected. Just as the increase in residents and 
visitors strains our own local infrastructure and our nerves, the ever-
increasing use of the roads and trails at Red Rock creates strains 
there. Perhaps more so, because the fragile desert is easily destroyed 
by people who wander off the trails in search of ever-elusive solitude. 
Those resulting unofficial trails multiply rapidly, scarring the land 
and contributing to a number of environmental problems.
    Outdoor recreation should provide rejuvenation, a physical and 
mental re-creation, if you will. That becomes less likely to happen as 
more visitors create more conflict. Hikers, bikers, climbers, riders 
all compete for space and a piece of nature. As the city creeps ever 
closer, the numbers of people with easy access to the canyon will 
increase, and, inevitably, each person there views his or her desired 
use of the areas as the right and proper one.
    The effects of increasing numbers of people on desert plants and 
animals are often not evident until almost too late to reverse. There 
hasn't really been a lot of research in this area, so often things that 
happen do catch us by surprise. For instance, the population of ravens 
has increased in the Mojave Desert as reliable sources of food--
people--increase. The tidbits they provide will allow the birds to stay 
around and breed more often than they would otherwise. And the young 
desert tortoises, the tortoises being a threatened species themselves 
because of habitat destruction, now find themselves under a more direct 
threat. It takes several years for the tortoise shell to harden enough 
to resist a raven's beak, and with more and more of the clever, sharp-
eyed ravens about, all too many of the young tortoises simply wind up 
as a quick snack.
    Coyotes thrive where people live and are especially happy to see 
well-watered suburbs in the desert. Rather than decimating their 
natural prey, however, they prefer to go after something a little 
slower and a little less clever--our cats and dogs. This creates a 
people versus animal scenario the coyotes can only lose.
    In fact, as we know, plants and animals are impacted by growth 
throughout the county, not just in the Red Rock area. A proposed 
conservation plan devised by the county and the U.S. Fish and Wildlife 
Service is designed to allow continued development in areas containing 
threatened plant and animal species, beginning with some 79 already on 
the list. This could be a good first step to ensuring that those 
species do not go out of existence, but only as long as funding is 
adequate for proper monitoring. And I might also add that increased 
funding for the Harry Reid Center for Environmental Studies at UNLV, 
whether that money comes from the State, from the university itself, or 
from the Federal Government, would go a long way in pointing out 
prospective problems that could be cutoff before they become too 
impossible to solve.
    Air pollution, of course, is a county-wide problem edging ever 
closer to Red Rock. If you climb Turtlehead Peak on a winter's day, 
chances are you will see Las Vegas enveloped in a yellow and brown 
cloud. With houses and casinos being built right to the edge of the 
conservation area now, how long will it be before Turtlehead Peak 
itself is covered by this same air? We have heard a lot today about 
various programs and projects underway to make sure this air is clean 
and kept clean. Well, let's hope that the county, prodded by the 
Environmental Protection Agency, can keep this from happening. A 
greater push toward alternative fuels and better mass transit, as we 
have also heard about today, would be a start along that road.
    Any change of direction can only happen if certain things come 
together. Education perhaps is No. 1. People recognize the problems 
caused by growth but too often will just throw up their hands in 
helplessness when faced with solving those problems. They just seem too 
big. Showing that solutions can come a step at a time encourages 
action. In dealing with environmental issues, sometimes simply showing 
how everything is connected can open eyes.
    And finally, I think good political leadership is a must. The 
changing emphasis on regional cooperation, which we have heard today, 
again is something that has become more and more prevalent over the 
last couple of years to tackle the many regional issues. Too many local 
politicians remain local; they talk a lot about managing growth while 
doing too little about it.
    A 1996 University of Nevada poll indicated that 81 percent of 
southern Nevadans are looking for growth to slow or, at worst, stay the 
same. We have heard today about any number of initiatives designed to 
make our growth smarter. Mayor Goodman's inner-city proposal would be 
one that would greatly benefit both the human inhabitants of Las Vegas 
and the plant and animal inhabitants of the county. Hopefully, these 
and others will be successful.
    And Senator, one thing, as long as everyone is here asking for 
money, that you could perhaps initiate is ensuring the funding for the 
BLM, as they manage Red Rock Canyon, is constant as more and more 
personnel are needed that are not covered by the fee demonstration 
program. And also a suggestion that the Rainbow Gardens recreation area 
over on the other side of town is kept as a project going full force. 
And not to forget Lake Mead as a national recreation area which is in 
dire need of personnel and all kinds of things that only Federal 
funding can bring. So that would be my only plea for money.
    I thank you for inviting me here today.
                               __________
              Letter from Dina Titus, Nevada State Senator

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                      Statement of the Sierra Club
    Las Vegas is like no place else on earth. This is true for many 
reasons, positive and negative. In recent weeks, reports have shown 
that Las Vegas stands out as experiencing some of the most phenomenal 
growth in the country. Some of the consequences of this growth have 
impacted the quality of life we enjoy--we've seen more traffic 
gridlock, more air pollution and more threats to our desert 
environment.
    The air we breathe, the water we drink, the open spaces we enjoy 
and the wildlife we want to protect all contribute to the quality of 
life in Las Vegas. Let's work together to enhance these things rather 
than talk about how to undermine them.
    Some have suggested that the environment take another hit through 
relaxation of environmental protections. Although we understand and 
appreciate the need for flexibility and increased local controls in 
many areas, we do not believe that enforcement of environmental 
protections is the place to be flexible. Our goal as a nation should be 
to help communities pursue development that doesn't come at the expense 
of our need for clean air, clean water, open spaces, wildlife habitat 
and public health and safety.
    Our message to you is quite simple. Increased local control and 
innovation is a wonderful thing, but not if it interferes with the full 
enforcement of environmental protections.
Urban Sprawl
    Las Vegas is the fastest growing city in the U.S. We gain a new 
resident every 9 minutes and our land use size grew 238 percent between 
1990 and 1996. The citizens of Las Vegas are concerned about the 
explosive growth that we have experienced and its consequences to the 
quality of our environment and our daily lives.
    In Las Vegas, the Sierra Club is working to educate the public 
about steps they can take to combat sprawl. We are working to bring 
together the various stakeholders to develop a picture of what we can 
specifically do to respond to the clear public demand to curb sprawl, 
protect wild places and promote smart growth, instead of growth at all 
costs. The Sierra Club supports ``Smart Growth'' solutions that can 
save taxpayer dollars, prevent pollution, and protect wild places. Now 
more than ever we need creative, long-term solutions to the 
consequences of urban sprawl.
Clean Air and Transportation
    The larger a community gets, the farther people are likely to have 
to travel to work. The most common way to travel in Las Vegas is by 
car. The sheer number of cars on the road in Las Vegas causes traffic 
congestion and in turn, increased air pollution. Currently the answer 
has been ``build more roads''. This is a trend that we do not support.
    Las Vegas is a city that boasts about being a city of the future, 
but our attitude toward transportation is rooted firmly in the 
automobile dependent past. It is time for Las Vegas to truly become a 
city of the future. It is absolutely critical for government to promote 
environmentally friendly transportation alternatives instead of relying 
on new highway construction to relieve traffic congestion. For 
instance, we are supporting the ``no-build'' alternative in the Draft 
Environmental Impact Statement on the widening of U.S. Highway 95. In 
addition, we do not support any of the three proposed bridges near 
Hoover Dam as a valid alternative Colorado River crossing. We need to 
solve the transportation problems--not proliferate them with more roads 
and more cars.
    Las Vegas is currently out of compliance with national air quality 
standards for particulate matter (PM10) and carbon monoxide. On ``bad 
air'' days, warning are issued over television and radio telling is it 
is not safe for our children to go outside for gym class! It is our 
belief that without the threat of the Environmental Protection Agency 
watching over their shoulder, little would be done to improve the air 
quality in Las Vegas. The protection of clean air is not just a 
visibility or appearance issue, it is a serious health concern and 
there is a lot of work to do before we can call the air in Las Vegas 
clean and healthy.
Clean Water
    The Clean Water Act should be aggressively enforced by all agencies 
with water management responsibilities and should not be weakened. 
Point-source pollution should be eliminated, best management practices 
for air and water-borne pollutants should be developed, and adequate 
funding should be provided to implement control of non-point sources.
    The news has been full of stories about how the Sunrise Landfill 
near the Las Vegas Wash has been leaking pollutants into the air and 
water. Less than a year ago, severe storms and flooding left a 4.5 mile 
trail of garbage from the landfill through the Las Vegas Wash. The Wash 
flows directly into Lake Mead, upstream from the intake valve for the 
Las Vegas water system.
    The Las Vegas Wash itself is a major concern for Las Vegans. In 
1972, the Wash supported about 2,000 acres of wetlands. Development has 
encroached on the Wash to the point that there are only a few hundred 
acres left. Those acres are still in danger from developers who take 
advantage of the ``growth at all costs'' mentality. The Wash is also in 
danger from polluted run-off. There is more run-off than ever and fewer 
acres of Wash to dilute and clean the ground water before it enters 
Lake Mead and the Colorado River. We have lost vast stretches of 
marshlands and the plants and animals who lived there.
Land Use
    Nevada has one of the highest percentages of public lands in the 
country, yet Las Vegas is far below the national average when it comes 
to parks, open spaces, trails, and green and brown spaces. It is more 
important than ever that we make the creation and protection of open 
spaces a priority. Some parts of the valley are doing a better job than 
others because it has been given priority in their planning efforts. We 
must remember that public lands need to be managed to benefit the 
public, not a handful of developers.
    What Can Government Do?
    In some things, government should do less:

    <bullet>  stop building highways that encourage urban sprawl;
    <bullet>  stop subsidizing wetlands destruction;
    <bullet>  stop giving grants and tax incentives that encourage 
developers to fragment wild areas and habitat;
    <bullet>  stop the practice of rubber stamping wetlands destruction 
when developers want to build in these precious areas.

    But there are some things the government should do more of:

    <bullet>  recognize that the public says that the environment is a 
major concern to them and their families;
    <bullet>  States should require real comprehensive, regional 
planning;
    <bullet>  the Federal Government should put real funding into 
transportation choices and support taxpayer incentives for public 
transit use;
    <bullet>  support conservation easements that allow landowners to 
donate the development rights for their land to conservation 
organizations, and receive income, property, and estate tax relief;
    <bullet>  fully fund the Land and Water Conservation Fund;
    <bullet>  make it easier to get a wetlands classified as a 
protected wetlands;
    <bullet>  provide sufficient funding for wildlife conservation and 
protection as well as programs for urban parks and recreation, historic 
preservation, and farm and rangeland conservation;

    Some communities are way ahead of the Federal Government in dealing 
with urban sprawl. Las Vegas is not one of them. Elected and appointed 
officials should encourage communities to come up with local, 
innovative solutions to the problems of urban sprawl, but not at the 
expense of full enforcement of environmental protections that guard our 
families health, the air we breathe, the water we drink and the quality 
of life so important to all of us.

                                  <all>

</pre></body></html>
